No. 19-251
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

JOINT APPENDIX
AIMEE FEINBERG
Deputy Solicitor General
STATE OF CALIFORNIA
DEPARTMENT OF JUSTICE
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov
Counsel of Record for
Respondent

DEREK L. SHAFFER
QUINN EMANUEL URQUHART
& SULLIVAN, LLP
1300 I Street N.W.
Washington, DC 20005
(202) 538-8000
derekshaffer@
quinnemanuel.com
Counsel of Record for
Petitioner

February 22, 2021
PETITION FOR WRIT OF CERTIORARI FILED: AUGUST 26, 2019
CERTIORARI GRANTED: JANUARY 8, 2021

TABLE OF CONTENTS
Page
Court of Appeals Docket Entries ................................ 1
District Court Docket Entries ................................... 23
Email from Belinda Johns Regarding Planned
Parenthood ...................................................... 39
Sacramento Bee Blogpost Entitled “FPPC Says
Arizona Nonprofit Laundered Money to
CA Campaign” ................................................ 42
New Yorker Article Entitled “The Koch Brothers
in California?” ................................................. 46
Washington Free Beacon Article Entitled
“Official: Kochs Not Involved in
California Campaign Finance Violation”....... 51
Letter From Attorney General To Americans
For Prosperity Foundation Dated October
29, 2014 ........................................................... 54
Blank IRS 2015 Form 990, Schedule B .................... 58
Excerpts from the Deposition of Steven Bauman .... 65
Excerpted List of Publicly Linked Schedule Bs
(Set 1 of 5) ....................................................... 78
Field Audit Form Letter Dated November 25,
2015 ............................................................... 172
Excerpted List of Publicly Linked Schedule Bs
(Set 2 of 5) ..................................................... 176
Excerpted List of Publicly Linked Schedule Bs
(Set 3 of 5) ..................................................... 181
Excerpted List of Publicly Linked Schedule Bs
(Set 4 of 5) ..................................................... 196

ii
Excerpts from the Deposition of Tania Ibanez ....... 200
Excerpts from the Deposition of Jami Cantore ...... 203
Excerpts from the Trial Testimony of
Lucas Hilgemann .......................................... 207
Excerpts from the Trial Testimony of
Mark Holden ................................................. 226
Excerpts from the Trial Testimony of
Christopher Fink .......................................... 247
Excerpts from the Trial Testimony of
Teresa Oelke ................................................. 265
Excerpted List of Publicly Linked Schedule Bs
(Set 5 of 5) ..................................................... 273
Excerpts from the Trial Testimony of
James McClave ............................................. 276
Excerpts from the Trial Testimony of
James Pope ................................................... 280
Excerpts from the Trial Testimony of
Paul Schervish .............................................. 298
Excerpts from the Trial Testimony of
Belinda Johns ............................................... 304
Excerpts from the Trial Testimony of
Kevis Foley.................................................... 339
Excerpts from the Trial Testimony of
Christopher Harryman................................. 356
Excerpts from the Trial Testimony of
David Eller .................................................... 359
Excerpts from the Trial Testimony of
Steven Bauman ............................................ 389

iii
Excerpts from the Trial Testimony of
Tania Ibanez ................................................. 409
Registration Renewal Form Instructions ............... 436
Plaintiff’s Chart Regarding Aggregate Data .......... 439

1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 16-55727 & 16-55786
D.C. No. 2:14-cv-09448-R-FFM
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff-Appellee/Cross-Appellant,
v.
XAVIER BECERRA, in his official capacity as the
Attorney General of California,
Defendant-Appellant/Cross-Appellee.
Court of Appeals Docket Entries

DATE
05/18/2016

DOCKET
NUMBER
DESCRIPTION
1
DOCKETED
CAUSE
AND
ENTERED
APPEARANCES
OF
COUNSEL. SEND MQ:
Yes. The schedule is set
as follows: Mediation
Questionnaire due on
05/25/2016.
Transcript
ordered by 06/17/2016.
Transcript
due
09/15/2016.
Appellant
Kamala
D.
Harris,

2
DATE

DOCKET
NUMBER

06/01/2016

5

DESCRIPTION
Attorney
General
opening
brief
due
10/25/2016.
Appellee
Americans for Prosperity
Foundation
answering
brief due 11/25/2016.
Appellant’s optional reply
brief is due 14 days after
service of the answering
brief. [9981725] (BG)
[Entered:
05/18/2016
02:05 PM]
DOCKETED
CAUSE
AND
ENTERED
APPEARANCES
OF
COUNSEL ON CROSS
APPEAL. SEND MQ:
Yes. Setting cross-appeal
briefing
schedule
as
follows:
Mediation
Questionnaire due on
06/08/2016. First cross
appeal
brief
due
10/25/2016 for Kamala D.
Harris,
Attorney
General. Second brief on
cross
appeal
due
11/25/2016 for Americans
for
Prosperity
Foundation. Third brief
on cross appeal due
12/27/2016 for Kamala D.
Harris,
Attorney

3
DATE

DOCKET
NUMBER

11/23/2016

12

Submitted (ECF) First
Brief on Cross-Appeal for
review. Submitted by
Appellee
Kamala
D.
Harris
in
16-55786,
Appellant Kamala D.
Harris in 16-55727. Date
of service: 11/23/2016.
[10210035] [16-55786, 1655727]
--[COURT
UPDATE:
Updated
docket text to reflect
correct
brief
type.
11/25/2016
by
TYL]
(Gordon,
Alexandra)
[Entered:
11/23/2016
05:31 PM]

11/23/2016

13

Submitted
(ECF)
excerpts
of
record.
Submitted by Appellee
Kamala D. Harris in 1655786, Appellant Kamala
D. Harris in 16-55727.
Date
of
service:

DESCRIPTION
General. The optional
reply cross appeal brief is
due 14 days from service
of third brief on cross
appeal. [9997690] [1655786, 16-55727] (BG)
[Entered:
06/01/2016
09:18 AM]

4
DATE

DOCKET
NUMBER

12/02/2016

15

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Campaign
Legal Center. Date of
service:
12/02/2016.
[10219038] [16-55727, 1655786] (Malloy, Tara)
[Entered:
12/02/2016
02:19 PM]

01/20/2017

22

Submitted (ECF) Second
Brief on Cross-Appeal for
review. Submitted by
Appellee Americans for
Prosperity Foundation in
16-55727,
Appellant
Americans for Prosperity
Foundation in 16-55786.
Date
of
service:
01/20/2017.
[10274461]
[16-55727,
16-55786]
(Shaffer,
Derek)
[Entered:
01/20/2017
08:55 PM]

01/20/2017

23

Submitted
(ECF)
supplemental excerpts of

DESCRIPTION
11/23/2016.
[10210052]
[16-55786,
16-55727]
(Gordon,
Alexandra)
[Entered:
11/23/2016
05:41 PM]

5
DATE

DOCKET
NUMBER

01/26/2017

26

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Pacific
Legal Foundation. Date
of service: 01/26/2017.
[10281988] [16-55727, 1655786] (Talcott, Jeremy)
[Entered:
01/26/2017
04:13 PM]

01/27/2017

30

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Electronic
Privacy
Information
Center. Date of service:
01/27/2017.
[10283591]
[16-55727,
16-55786]

DESCRIPTION
record. Submitted by
Appellee Americans for
Prosperity Foundation in
16-55727,
Appellant
Americans for Prosperity
Foundation in 16-55786.
Date
of
service:
01/20/2017.
[10274463]
[16-55727,
16-55786]
(Shaffer,
Derek)
[Entered:
01/20/2017
09:04 PM]

6
DATE

DOCKET
NUMBER

01/27/2017

31

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted
by
Philanthropy
Roundtable.
Date
of
service:
01/27/2017.
[10284020] [16-55727, 1655786] (Harris, Sarah)
[Entered:
01/27/2017
12:03 PM]

01/27/2017

36

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by BRIEF OF
AMICI
STATES
ARIZONA, ALABAMA,
LOUISIANA,
MICHIGAN, NEVADA,
TEXAS,
AND
WISCONSIN
SUPPORTING
PLAINTIFFAPPELLEE/CROSSAPPELANT. Date of
service:
01/27/2017.
[10288585] [16-55786, 1655727] (Miller, Keith)

DESCRIPTION
(Butler, Alan) [Entered:
01/27/2017 11:52 AM]

7
DATE

DOCKET
NUMBER

01/27/2017

37

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by American
Target Advertising Inc..
Date
of
service:
01/27/2017.
[10288628]
[16-55727,
16-55786]-[COURT
ENTERED
FILING to correct entry
[35].] (SLM) [Entered:
01/27/2017 03:48 PM]

01/27/2017

42

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted
by
Free
Speech
Defense
and
Education Fund, Free
Speech
Coalition,
Citizens United, Citizens
United
Foundation,
National Right to Work
Committee,
U.S.
Constitutional
Rights
Legal Defense Fund, U.S.
Justice
Foundation,
Family Research Council,
et al.. Date of service:

DESCRIPTION
[Entered:
01/27/2017
03:38 PM]

8
DATE

DOCKET
NUMBER

01/27/2017

43

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Pacific
Research Institute, Cato
Institute,
and
Competitive Enterprise
Institute. Date of service:
01/27/2017.
[10289014]
[16-55727, 16-55786] (Ho,
Allyson)
[Entered:
01/27/2017 07:08 PM]

01/27/2017

44

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Alliance
Defending Freedom. Date
of service: 01/27/2017.
[10289017] [16-55727, 1655786] (Sadeghi, Samuel)
[Entered:
01/27/2017
07:27 PM]

01/27/2017

45

Submitted (ECF) Amicus
brief for review (by
government
or
with

DESCRIPTION
01/27/2017.
[10288975]
[16-55727,
16-55786]
(Titus,
Herbert)
[Entered:
01/27/2017
05:25 PM]

9
DATE

DOCKET
NUMBER

01/27/2017

46

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Proposition
8 Legal Defense Fund.
Date
of
service:
01/27/2017.
[10289049]
[16-55727,
16-55786]
(Pugno,
Andrew)
[Entered:
01/27/2017
11:29 PM]

02/02/2017

65

Filed (ECF) Errata to
Amicus Brief ([37] Brief
Submitted for Review
(ECF Filing)). Filed by
Amicus Curiae American
Target Advertising, Inc.
in 16-55727, 16-55786.
Date
of
service:
02/02/2017.
[10300631]
[16-55727,
16-55786]--

DESCRIPTION
consent per FRAP 29(a)).
Submitted
by
The
NAACP Legal Defense
and Educational Fund,
Inc.. Date of service:
01/27/2017.
[10289029]
[16-55727,
16-55786]
(Burgess,
Brian)
[Entered:
01/27/2017
08:09 PM]

10
DATE

DOCKET
NUMBER

02/15/2017

71

Filed clerk order (Deputy
Clerk: KS): Free Speech
Defense and Education
Fund, et al.’s motion to
file an oversized amicus
brief (Docket Entry No.
[58]) is granted. The
Clerk shall file the
amicus brief submitted at
Docket Entry No. [42].
[10320910] [16-55727, 1655786] (WL) [Entered:
02/15/2017 01:49 PM]

04/21/2017

74

Submitted (ECF) Third
Brief on Cross-Appeal for
review. Submitted by
Appellant Kamala D.
Harris
in
16-55727,
Appellee
Kamala
D.
Harris in 16-55786. Date
of service: 04/21/2017.
[10407173] [16-55727, 1655786]
(Gordon,
Alexandra)
[Entered:
04/21/2017 06:01 PM]

05/24/2017

79

Submitted (ECF) Cross-

DESCRIPTION
[COURT
UPDATE:
Attached certificate of
service. 02/03/2017 by
SLM]
(Fitzgibbons,
Mark)
[Entered:
02/02/2017 05:18 PM]

11
DATE

DOCKET
NUMBER

09/06/2017

86

Filed order (STEPHEN
REINHARDT,
RAYMOND C. FISHER
and JACQUELINE H.
NGUYEN):
Oral
argument in the abovecaptioned cases will be
heard on the same day.
The court will issue an
order respecting the date,
time and location of oral
argument once briefing
in Nos. 16-56855 and 1656902
is
completed.
[10571474] [16-55727, 1655786, 16-56855, 1656902] (AF) [Entered:
09/06/2017 03:31 PM]

02/26/2018

87

Filed

DESCRIPTION
Appeal Reply Brief for
review. Submitted by
Appellee Americans for
Prosperity Foundation in
16-55727,
Appellant
Americans for Prosperity
Foundation in 16-55786.
Date
of
service:
05/24/2017.
[10447168]
[16-55727,
16-55786]
(Shaffer,
Derek)
[Entered:
05/24/2017
01:55 PM]

(ECF)

Appellant

12
DATE

DOCKET
NUMBER

02/28/2018

88

Filed (ECF) Appellee
Americans for Prosperity
Foundation in 16-55727,
Appellant Americans for
Prosperity Foundation in
16-55786
citation
of
supplemental authorities.
Date
of
service:
02/28/2018.
[10780944]
[16-55727,
16-55786]
(Shaffer,
Derek)
[Entered:
02/28/2018
11:59 AM]

04/09/2018

90

Filed clerk order (Deputy
Clerk: AF): Pursuant to
G.O. § 3.2.h, Judge Paez
has been drawn as the
replacement for Judge
Reinhardt. The panel for
these cases will now
consist
of:
FISHER,
PAEZ and NGUYEN,

DESCRIPTION
Xavier Becerra in 1655727, Appellee Xavier
Becerra
in
16-55786
citation of supplemental
authorities.
Date
of
service:
02/26/2018.
[10777090] [16-55727, 1655786]
(Gordon,
Alexandra)
[Entered:
02/26/2018 12:19 PM]

13
DATE

DOCKET
NUMBER

06/25/2018

100

ARGUED
AND
SUBMITTED
TO
RAYMOND C. FISHER,
RICHARD A. PAEZ and
JACQUELINE
H.
NGUYEN.
[10920739]
[16-55727,
16-55786]
(Witt, Dusty) [Entered:
06/25/2018 12:45 PM]

06/26/2018

101

Filed Audio recording of
oral argument. Note:
Video recordings of public
argument calendars are
available on the Court’s
website,
at
http://www.ca9.uscourts.
gov/media/[10922138]
[16-55727,
16-55786]
(Witt, Dusty) [Entered:
06/26/2018 10:19 AM]

09/11/2018

102

FILED
OPINION
(RAYMOND C. FISHER,
RICHARD A. PAEZ and
JACQUELINE
H.
NGUYEN)
INJUNCTIONS
VACATED;

DESCRIPTION
Circuit
Judges.
[10829034] [16-55727, 1655786, 16-56855, 1656902] (AF) [Entered:
04/09/2018 11:39 AM]

14
DATE

DOCKET
NUMBER

09/25/2018

106

Filed (ECF) Appellant
Americans for Prosperity
Foundation in 16-55786
petition for rehearing en
banc (from 09/11/2018
opinion). Date of service:
09/25/2018.
[11025269]
[16-55727,
16-55786]
(Shaffer,
Derek)
[Entered:
09/25/2018
04:02 PM]

10/05/2018

107

Submitted (ECF) Amicus
brief for review (by

DESCRIPTION
JUDGMENTS
REVERSED;
CASES
REMANDED. The Law
Center’s
motion
for
judicial
notice,
filed
February 12, 2018 (Dkt.
45, No. 16-56855) is
DENIED. The Attorney
General’s
motion
to
strike, filed February 13,
2018 (Dkt. 47, No. 1656855),
is
DENIED.
Judge: RCF Authoring.
FILED AND ENTERED
JUDGMENT. [11006860]
[16-55727, 16-55786, 1656855, 16-56902] (RMM)
[Entered:
09/11/2018
07:28 AM]

15
DATE

DOCKET
NUMBER

10/05/2018

108

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Council on
American-Islamic
Relations.
Date
of
service:
10/05/2018.
[11037058] [16-55727, 1655786] (Masri, Lena)
[Entered:
10/05/2018
01:16 PM]

10/05/2018

109

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Pacific
Legal Foundation. Date

DESCRIPTION
government
or
with
consent per FRAP 29(a)).
Submitted
by
The
Philanthropy
Roundtable,
Liberty
Education Forum, Pacific
Research Institute, and
Alliance
Defending
Freedom. Date of service:
10/05/2018.
[11036983]
[16-55727,
16-55786]
(Gooding,
Robert)
[Entered:
10/05/2018
12:41 PM]

16
DATE

DOCKET
NUMBER

10/05/2018

114

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Citizens
United, Citizens United
Foundation, Free Speech
Defense and Education
Fund, and Free Speech
Coalition. Date of service:
10/05/2018.
[11037584]
[16-55727,
16-55786]
(Titus,
Herbert)
[Entered:
10/05/2018
03:50 PM]

10/05/2018

115

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by American
Target Advertising. Date
of service: 10/05/2018.
[11037601] [16-55727, 16-

DESCRIPTION
of service: 10/05/2018.
[11037388] [16-55727, 1655786]--[COURT
UPDATE:
Attached
corrected
brief.
10/09/2018
by
SLM]
(Talcott,
Jeremy)
[Entered:
10/05/2018
02:51 PM]

17
DATE

DOCKET
NUMBER

10/05/2018

118

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by the States
of Arizona, Alabama,
Arkansas,
Kansas,
Louisiana,
Michigan,
Nebraska, Nevada, South
Carolina, Texas, and
Wisconsin.
Date
of
service:
10/05/2018.
[11037759] [16-55727, 1655786] (Miller, Keith)
[Entered:
10/05/2018
04:41 PM]

10/05/2018

121

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Brief of the
New
Civil
Liberties
Alliance
as
Amicus
Curiae in Support of the
Petition for Rehearing En
Banc. Date of service:
10/05/2018.
[11037876]
[16-55727,
16-55786]
(Mitchell,
Jonathan)

DESCRIPTION
55786]
(Fitzgibbons,
Mark)
[Entered:
10/05/2018 03:56 PM]

18
DATE

DOCKET
NUMBER

10/05/2018

122

Submitted (ECF) Amicus
brief for review (by
government
or
with
consent per FRAP 29(a)).
Submitted by Proposition
8 Legal Defense Fund.
Date
of
service:
10/05/2018.
[11037886]
[16-55727,
16-55786]
(Pugno,
Andrew)
[Entered:
10/05/2018
11:50 PM]

11/06/2018

128

Filed (ECF) Appellant
Xavier Becerra in 1655727, Appellee Xavier
Becerra
in
16-55786
response to petition for
rehearing en banc. Date
of service: 11/06/2018.
[11074202].
[16-55727,
16-55786]--[COURT
UPDATE: Edited docket
text to reflect content of
filing. 11/06/2018 by RY]
(Gordon,
Alexandra)
[Entered:
11/06/2018
04:14 PM]

02/06/2019

132

Filed
(ECF)
Amicus
Curiae State of Michigan
in 16-55727, 16-55786

DESCRIPTION
[Entered:
10/05/2018
09:33 PM]

19
DATE

DOCKET
NUMBER

02/08/2019

133

Filed order (RAYMOND
C. FISHER, RICHARD
A.
PAEZ
and
JACQUELINE
H.
NGUYEN)
Amicus
Curiae
State
of
Michigan’s motion to
withdraw from October 5,
2018 and January 27,
2018 amicus briefs in
support
of
plaintiffappellee
/
crossappellant, filed February
6, 2019 (Dkt. [132]), is
GRANTED. [11183869]
[16-55727,
16-55786]
(OC)
[Entered:
02/08/2019 10:43 AM]

03/29/2019

136

Filed

DESCRIPTION
Motion for miscellaneous
relief
[Motion
to
Withdraw the State of
Michigan from January
27, 2018, Amicus Brief in
Support
of
PlaintiffAppellee/CrossAppellant].
Date
of
service:
02/06/2019.
[11180410] [16-55727, 1655786]
(Hammoud,
Fadwa)
[Entered:
02/06/2019 06:21 AM]

Order

for

20
DATE

DOCKET
NUMBER

DESCRIPTION
PUBLICATION
(RAYMOND C. FISHER,
RICHARD A. PAEZ and
JACQUELINE
H.
NGUYEN) (Dissent by
Judge Ikuta; Reply to
Dissent
by
Judges
Fisher,
Paez,
and
Nguyen)
Denying
Petition for Rehearing En
Banc (ECF Filing) filed
by Appellant Americans
for
Prosperity
Foundation in 16-55727,
16-55786,
Denying
Petition for Rehearing En
Banc (ECF Filing) Judge
Paez and Judge Nguyen
have voted to deny the
petitions for rehearing en
banc and Judge Fisher
has so recommended. The
full court was advised of
the
petitions
for
rehearing en banc. A
judge requested a vote on
whether to rehear the
matter en banc. The
matter failed to receive a
majority of the votes of
the nonrecused active
judges in favor of en banc
consideration. Fed. R.

21
DATE

DOCKET
NUMBER

04/02/2019

137

Filed (ECF) Appellant
Americans for Prosperity
Foundation in 16-55786
Unopposed Motion to
stay the mandate. Date
of service: 04/02/2019.
[11250856] [16-55727, 1655786] (Shaffer, Derek)
[Entered:
04/02/2019
04:55 PM]

04/03/2019

138

Filed order (RAYMOND
C. FISHER, RICHARD
A.
PAEZ
and
JACQUELINE
H.
NGUYEN):
Appellee’s
motion for stay of the
issuance of the mandate
pending application for

DESCRIPTION
App. P. 35. The petitions
for rehearing en banc
(Nos. 16-55727 and 1655786, filed September
25, 2018 - Dkt.[106]; and
Nos. 16-56855 and 1656902, filed September
26,
2018
Dkt.
[11025443-2])
are
DENIED. [11246084] [1655727, 16-55786, 1656855, 16-56902] (RMM)
[Entered:
03/29/2019
07:49 AM]

22
DATE

DOCKET
NUMBER

DESCRIPTION
writ of certiorari, filed
April 2, 2019 (Dkt. [137]),
is GRANTED. Fed. R.
App. P. 41(b). The
mandate is stayed for a
period not to exceed 90
days pending the filing of
the petition for writ of
certiorari in the Supreme
Court. Should appellee
file for a writ of
certiorari, the stay shall
continue
until
final
disposition
by
the
Supreme
Court.
[11251589] [16-55727, 1655786] (AF) [Entered:
04/03/2019 12:06 PM]

23
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
District Court Docket Entries

DATE
12/09/2014

DOCKET
NUMBER
DESCRIPTION
1
COMPLAINT
Receipt
No: 0973-14897188 - Fee:
$400, filed by Plaintiff
Americans for Prosperity
Foundation.
(Attachments:
#
1
Exhibit Exhibits A-K of
Complaint,
#
2
Summons, # 3 Civil
Cover Sheet, # 4 Notice of
Interested Parties, # 5

24
DATE

DOCKET
NUMBER

02/23/2015

33

ORDER
GRANTING
MOTION
FOR
PRELIMINARY
INJUNCTION 15 by
Judge Manuel L. Real It
is hereby ORDERED that
the Attorney General is
preliminarily
enjoined
from demanding, and or
from taking any action to
implement or to enforce
her demand for a copy of
the
Foundation’s
Schedule B to IRS From
990
or
any
other
document that would
disclose the names and
addresses
of
the
Foundation’s
donors,
until this Court issues a
final
judgment.
(pj)
(Entered: 02/23/2015)

03/16/2015

34

ANSWER
filed
by
Defendant
Kamala
Harris. (Attachments: # 1

DESCRIPTION
Notice
of
Pendency)
(Attorney
Harold
A
Barza added to party
Americans for Prosperity
Foundation(pty:pla))(Bar
za, Harold) (Entered:
12/09/2014)

25
DATE

DOCKET
NUMBER

12/30/2015

85

OPINION from Ninth
Circuit Court of Appeals
filed re: Notice of Appeal
to 9th Circuit Court of
Appeals 35 filed by
Kamala Harris. CCA #
15-55446 and 15-55911.
We (9th CCA) vacate the
district court’s orders
granting
preliminary
injunctions and instruct
the district court to enter
new orders preliminarily
enjoining the Attorney
General
only
from
making
Schedule
B
information
public.
ORDERS
VACATED.
[See document for all
details] (mat) (Entered:
12/30/2015)

01/05/2016

94

ORDER
ENJOINING
ATTORNEY GENERAL
FROM
PUBLICLY
DISCLOSING
SCHEDULE B FORMS
by Judge Manuel L. Real:
IT
IS
HEREBY

DESCRIPTION
Certificate
of
Service)(Gordon,
Alexandra)
(Entered:
03/16/2015)

26
DATE

DOCKET
NUMBER

03/08/2016

164

DESCRIPTION
ORDERED
that
the
Attorney General shall be
permitted to obtain and
use Plaintiff’s Schedule B
forms for its nonpublic
enforcement
purposes,
but is strictly prohibited
from
making
the
Schedule B information
public in any manner or
under any circumstances.
(gk)
(Entered:
01/05/2016)
TRANSCRIPT
for
proceedings
held
on
2/23/16 1:08 p.m. TRIAL
DAY 1 VOLUME 2 Court
Reporter: Carol Jean
Zurborg, phone number
(213)
894-3539.
Transcript
may
be
viewed at the court
public
terminal
or
purchased through the
Court Reporter before the
deadline for Release of
Transcript
Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due

27
DATE

DOCKET
NUMBER

03/08/2016

165

DESCRIPTION
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for 6/6/2016. (Zurborg,
Carol)
(Entered:
03/08/2016)
TRANSCRIPT
for
proceedings
held
on
2/24/16 10:56 a.m. TRIAL
DAY 2 VOLUME 2 Court
Reporter: Carol Jean
Zurborg, phone number
(213)
894-3539.
Transcript
may
be
viewed at the court
public
terminal
or
purchased through the
Court Reporter before the
deadline for Release of
Transcript
Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for 6/6/2016. (Zurborg,
Carol)
(Entered:

28
DATE

DOCKET
NUMBER

03/08/2016

166

TRANSCRIPT
for
proceedings
held
on
2/25/16 9:09 a.m. TRIAL
DAY 3 VOLUME 1 Court
Reporter: Carol Jean
Zurborg, phone number
(213)
894-3539.
Transcript
may
be
viewed at the court
public
terminal
or
purchased through the
Court Reporter before the
deadline for Release of
Transcript
Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for 6/6/2016. (Zurborg,
Carol)
(Entered:
03/08/2016)

03/08/2016

167

TRANSCRIPT
for
proceedings
held
on
3/3/16 1:09 p.m. TRIAL
DAY 5 VOLUME 2 Court

DESCRIPTION
03/08/2016)

29
DATE

DOCKET
NUMBER

168

DESCRIPTION
Reporter: Carol Jean
Zurborg, phone number
(213)
894-3539.
Transcript
may
be
viewed at the court
public
terminal
or
purchased through the
Court Reporter before the
deadline for Release of
Transcript
Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for 6/6/2016. (Zurborg,
Carol)
(Entered:
03/08/2016)
TRANSCRIPT
for
proceedings
held
on
3/4/16 10:27 a.m. TRIAL
DAY 6 Court Reporter:
Carol
Jean
Zurborg,
phone number (213) 8943539. Transcript may be
viewed at the court
public
terminal
or
purchased through the

30
DATE

DOCKET
NUMBER

03/08/2016

170

DESCRIPTION
Court Reporter before the
deadline for Release of
Transcript
Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for 6/6/2016. (Zurborg,
Carol)
(Entered:
03/08/2016)
TRANSCRIPT
for
proceedings
held
on
02/23/2016 - 10:01 A.M.
TRIAL DAY 1 VOLUME
1 Court Reporter: Shayna
Montgomery,
E-mail:
shaynamontgomery@yah
oo.com. Transcript may
be viewed at the court
public
terminal
or
purchased through the
Court
Reporter/Electronic
Court Recorder before
the deadline for Release
of Transcript Restriction.
After that date it may be

31
DATE

DOCKET
NUMBER

03/08/2016

171

DESCRIPTION
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for
6/6/2016.
(Montgomery,
Shayna)
(Entered: 03/08/2016)
TRANSCRIPT
for
proceedings
held
on
02/24/2016 - 9:08 A.M.
TRIAL DAY 2 VOLUME
1 Court Reporter: Shayna
Montgomery,
E-mail:
shaynamontgomery@yah
oo.com. Transcript may
be viewed at the court
public
terminal
or
purchased through the
Court
Reporter/Electronic
Court Recorder before
the deadline for Release
of Transcript Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.

32
DATE

DOCKET
NUMBER

03/08/2016

172

DESCRIPTION
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for
6/6/2016.
(Montgomery,
Shayna)
(Entered: 03/08/2016)
TRANSCRIPT
for
proceedings
held
on
02/25/2016 - 1:36 P.M.
TRIAL DAY 3 VOLUME
2 Court Reporter: Shayna
Montgomery,
E-mail:
shaynamontgomery@yah
oo.com. Transcript may
be viewed at the court
public
terminal
or
purchased through the
Court
Reporter/Electronic
Court Recorder before
the deadline for Release
of Transcript Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of

33
DATE

DOCKET
NUMBER

03/08/2016

173

DESCRIPTION
Transcript Restriction set
for
6/6/2016.
(Montgomery,
Shayna)
(Entered: 03/08/2016)
TRANSCRIPT
for
proceedings
held
on
02/26/2016 - 10:02 A.M.
TRIAL DAY 4 Court
Reporter:
Shayna
Montgomery,
E-mail:
shaynamontgomery@yah
oo.com. Transcript may
be viewed at the court
public
terminal
or
purchased through the
Court
Reporter/Electronic
Court Recorder before
the deadline for Release
of Transcript Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for
6/6/2016.
(Montgomery,
Shayna)

34
DATE

DOCKET
NUMBER

03/08/2016

174

TRANSCRIPT
for
proceedings
held
on
03/03/2016 - 10:04 A.M.
TRIAL DAY 5 VOLUME
1 Court Reporter: Shayna
Montgomery,
E-mail:
shaynamontgomery@yah
oo.com. Transcript may
be viewed at the court
public
terminal
or
purchased through the
Court
Reporter/Electronic
Court Recorder before
the deadline for Release
of Transcript Restriction.
After that date it may be
obtained
through
PACER. Notice of Intent
to Redact due within 7
days
of
this
date.
Redaction Request due
3/29/2016.
Redacted
Transcript Deadline set
for 4/8/2016. Release of
Transcript Restriction set
for
6/6/2016.
(Montgomery,
Shayna)
(Entered: 03/08/2016)

03/14/2016

177

NOTICE OF LODGING
filed containing Proposed

DESCRIPTION
(Entered: 03/08/2016)

35
DATE

DOCKET
NUMBER

03/15/2016

178

NOTICE OF LODGING
filed
Containing
Defendant’s
Post-Trial
Proposed Findings of
Fact & Conclusions of
Law re Bench Trial Completed
(Court
Decision),,,
176
(Attachments:
#
1
Proposed Order Proposed
Post-Trial Findings of
Fact & Conclusions of
Law)(Gordon, Alexandra)
(Entered: 03/15/2016)

04/07/2016

182

ORDER
from
Ninth
Circuit Court of Appeals
filed re: Notice of Appeal
to 9th Circuit Court of
Appeals 35 filed by
Kamala Harris. CCA #
15-55446.
Appellants’

DESCRIPTION
Post-Trial Findings of
Fact and Conclusions of
Law re Bench Trial Completed
(Court
Decision),,,
176
(Attachments:
#
1
Proposed
Post-Trial
Findings of Fact and
Conclusions
of
Law)(Shaffer,
Derek)
(Entered: 03/14/2016)

36
DATE

DOCKET
NUMBER

04/18/2016

183

MANDATE
of
Ninth
Circuit Court of Appeals
filed re: Notice of Appeal
35 CCA # 15-55446. The
judgment of the 9th
Circuit Court, entered
December 29, 2015, takes
effect this date. This
constitutes the formal
mandate of the 9th CCA
issued pursuant to Rule
41(a) of the Federal Rules
of Appellate Procedure.
Each party shall bear its
own costs on appeal. [See
USCA
Opinion
85
ORDERS
VACATED](mat)
(Entered: 04/18/2016)

04/21/2016

184

ORDER
FOR
JUDGMENT IN FAVOR
OF PLAINTIFF by Judge
Manuel L. Real: This
Court grants Americans
For
Prosperity
Foundation’s
(“AFP”)

DESCRIPTION
petition
for
panel
rehearing and rehearing
en banc, filed January
11, 2016, is DENIED.
(mat)
(Entered:
04/07/2016)

37
DATE

DOCKET
NUMBER

DESCRIPTION
motion for a permanent
injunction to enjoin the
Attorney
General
of
California
from
demanding its Schedule
B form. After conducting
a full bench trial, this
Court finds the Attorney
General’s Schedule B
disclosure
requirement
unconstitutional
asapplied to AFP. IT IS
HEREBY
ORDERED
that
the
Attorney
General is Permanently
Enjoined from Requiring
AFP to File with the
Registry
a
Periodic
Written
Report
Containing a Copy of its
Schedule B to IRS Form
990. AFP Shall No
Longer Be Considered
Deficient or Delinquent
in
its
Reporting
Requirement because it
Does
Not
File
its
Confidential Schedule B
with
the
Attorney
General.
Each
Party
Shall Bear its Own Costs.
(MD
JS-6.
Case
Terminated)
(gk)

38
DATE

DOCKET
NUMBER

05/18/2016

189

NOTICE OF APPEAL to
the 9th Circuit Court of
Appeals
filed
by
Defendant
Kamala
Harris. Appeal of Order
on Motion in Limine to
Exclude, Motion Hearing,
150 , Order on Motion to
Compel, 77 , Permanent
Injunction, 184 , Order
on Motion to Compel,
Order on Motion for
Reconsideration
of
Discovery Matter, Motion
Hearing, 115 . (Appeal
fee
of
$505
paid.)
(Gordon,
Alexandra)
(Entered: 05/18/2016)

05/31/2016

192

NOTICE OF APPEAL to
the 9th Circuit Court of
Appeals filed by Plaintiff
Americans for Prosperity
Foundation. Appeal of
Permanent
Injunction,
184 . (Appeal Fee - $505
Fee Paid, Receipt No.
0973-17907938.) (Shaffer,
Derek)
(Entered:
05/31/2016)

DESCRIPTION
(Entered: 04/21/2016)

39
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 131
Email from Belinda Johns Regarding Planned
Parenthood

From: Belinda Johns [Belinda.Johns@doj.ca.gov]
Sent: 7/3/2012 09:15:57 AM
To: Kevis Foley [Kevis.Foley@doj.ca.gov]
Subject: Fwd: Request to remove posted Form 990,
Schedule B
Attachments: rggcexlifxco.image.gif
Importance: High
asap, please!

40
>>> “Eric K. Gorovitz” egorovitz@adlercolvin.com
7/2/2012 5:19 PM >>>
Ms. Johns,
I hope this finds you well. I am contacting you
directly at the suggestion of Rosemary Fei. We have
a pressing concern that requires immediate
attention, and we understand that the Registry of
Charitable Trusts can take up to three business days
to respond to inquiries made via phone or the online
e-mail form.
We have discovered that the Registry has posted the
complete Form 990, Schedule B (for FYE June 30,
2009), including all of the names and addresses of
hundreds of donors, to the publically accessible
record for our client, Planned Parenthood Affiliates
of California, Inc. (registration number 017023).
You have indicated that although the Registry
requires the complete unredacted Form 990,
including Schedule B, to be submitted with Form
RRF-1, the Registry’s policy is to remove Schedule B
before posting Form 990 online for public access.
That did not happen in this case, perhaps because
the information requested on Schedule B, though
clearly labelled as such, was submitted in an atypical
format.
We ask for your help in getting this information
removed immediately from the publicly accessible

41
database. As you might imagine, the unintended
public availability of this information is potentially
damaging to both our client and its donors, and the
longer it remains available, the greater the risk it
poses.
Please let me know if you need any
information, and thank you for your help.

more

Best regards,
Eric

Any tax advice contained in this email was not
intended to be used, and cannot be used, for the
purpose of avoiding penalties that may be imposed
under federal tax law. A taxpayer may rely on our
advice to avoid penalties only if the advice is
reflected in a more formal tax opinion that conforms
to IRS standards. Please contact us if you would like
to discuss the preparation of a legal opinion that
conforms to these rules.
Eric Gorovitz
Adler & Colvin
235 Montgomery Street, Suite 1220
San Francisco, CA 94104
Phone: 415/421-7555
Fax: 415/421-0712
Email: egorovitz@adlercolvin.com
Web: www.adlercolvin.com

42
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 582
Sacramento Bee Blogpost Entitled “FPPC Says
Arizona Nonprofit Laundered Money to CA
Campaign”

THE SACRAMENTO BEE
The latest on California politics and government
November 5, 2012
FPPC says Arizona nonprofit laundered money to CA
campaign
The state’s campaign watchdog agency accused an
Arizona nonprofit today of “money laundering” to

43
donate $11 million this month and announced that
two other nonprofits – Americans for Job Security
and The Center to Protect Patient Rights – routed
the money.
The Americans for Job Security is a nonprofit
“business league” that does not have to disclose its
donors. The group has run millions of dollars in ads
against President Barack Obama.
The Center to Protect Patient Rights also does not
have to disclose its donors as a 501(c)4. The Center
for Responsive Politics reported the group has spent
millions
of
dollars
attacking
Democratic
congressional candidates this year and in 2010.
The Fair Political Practices Commission said in a
release this morning that Americans for Responsible
Leadership “sent a letter declaring itself to be the
intermediary and not the true source of the
contribution.”
“Under California law, the failure to disclose this
initially was campaign money laundering,” FPPC
wrote.
“At $11 million, this is the largest
contribution ever disclosed as campaign money
laundering in California history.”
Americans for Responsible Leadership donated last
month toward a business committee opposing
Brown’s tax initiative, Proposition 30, and
supporting a measure restricting union dues
collection, Proposition 32. ARL attorneys argued
that the FPPC was targeting the group because it
opposed the governor’s initiative.
Matt Ross, spokesman for Americans for Responsible
Leadership, said in a prepared statement, “After late
night discussions, Americans for Responsible

44
Leadership and the FPPC reached a settlement. The
Commission has received specific documents it
requested.”
Although it could not be confirmed, the Center to
Protect Patient Rights has been connected to
Kansas-based Koch Industries, whose owners, David
H. Koch and Charles G. Koch, are conservative
advocates.
In a September interview with Bee columnist Dan
Morain, Center to Protect Patient Rights president
Sean Noble offered little explanation about where
its money comes from.
“Our goal is to promote freedom, and we support
groups that do the same,” said Noble, who once
worked as chief of staff to an Arizona congressman
and as a lobbyist opposing the federal health care
overhaul.
“It’s very straightforward.
There is
nothing to expand upon.”
Asked about reported ties to the Center to Protect
Patient Rights, Koch Companies Public Sector
spokeswoman Melissa Cohlmia said in an email,
“Contrary to some media reports, Koch Industries,
Charles Koch, and David Koch have not provided any
financial support in favor of Proposition 32 and are
not involved in this issue.”
Asked further about Proposition 30, Cohlmia said,
“Same goes for Prop 30 no – financial support and no
involvement.”
Attorney General Kamala Harris said by phone this
morning that her office must still review whether
there are any civil or criminal violations related to
money laundering, though it is not pursuing any as

45
of yet. Harris’ office has represented the FPPC in its
suit against Americans for Responsible Leadership.
“Whether it’s the Koch brothers or Karl Rove, this
was a brazen attempt to launder money through outof-state shell organizations, and for the sole purpose
of hiding it from the voters in California,” Harris
said.
Brown, who has kept up constant criticism of the
Arizona donation for weeks, is campaigning for his
initiative throughout the state today. Ace Smith,
whose company, SCN Strategies, is running Brown’s
campaign, said on Twitter that the FPPC had
unraveled a “truly evil money laundering scheme.”
Editor’s note: Updated throughout the morning to
include comments from Harris, Ross, Smith and a
Koch spokeswoman.
Posted by Kevin Yamamura
8:49 AM | Comments
© Copyright The Sacramento Bee.
reserved.

All rights

46
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 581
New Yorker Article Entitled “The Koch Brothers in
California?”

OCTOBER 25, 2013
THE KOCH BROTHERS IN CALIFORNIA?
BY JANE MAYER
It’s now established that a secretive political group
linked to the billionaire conservative activists
Charles and David Koch has agreed to pay a record
fine for violating California’s laws requiring the
disclosure of campaign donations. But much else
about these dark-money maneuvers remains
shrouded in the mystery that inspired the title
“Covert Operations” for the story I wrote about the

47
Koch brothers (http://www.newyorker.com/reporting/
2010/08/30/100830fa_fact_mayer) in 2010.
How are the Kochs connected to the Center to
Protect Patient Rights, which admitted to violating
California’s campaign-disclosure requirements? The
group is based at a post-office box in Arizona—a
state where neither Koch brother has his principal
residence. According to its most recent tax filing, its
president is the Phoenix-based Republican political
consultant named Sean Noble. The name of the
organization makes it sound as if it champions
patients’ rights—again, not a cause with which the
conservative, libertarian, industrialist brothers have
been especially identified.
California’s attorney
general and its Fair Political Practices Commission,
which oversees the state’s campaign-finance laws,
have fined the organization for failing to reveal that
it was the true source of a stunning fifteen million
dollars in 2012 contributions—aimed not at healthcare matters but at scuttling a state initiative that
would have raised taxes on high-income residents
(while also modestly boosting the sales tax) and at
promoting another initiative that would have curbed
the political clout of unions in the state. (The donors’
side lost on both measures, in part because the huge
amounts of last-minute secret money became a toxic
political liability.)
California hasn’t been shy about mentioning the
Koch connection.
The Fair Political Practices
Commission, chaired by Ann Ravel, described the
Center to Protect Patient Rights as “part of the ‘Koch
Brothers’ Network’ of dark money political non-profit
corporations.”

48
And
yet,
yesterday,
Melissa
Cohlmia,
a
spokeswoman for Koch Industries, insisted that the
brothers were not involved in the California
campaign scandal in any way. Asked about Ravel’s
statement, Cohlmia said, “Ms. Ravel’s comments
were without any factual basis.” She also noted that
a redacted list of donors to the California effort,
which has surfaced in connection with the
investigation, has revealed no contributions from
either of the Koch brothers. “You will note there is
no mention of Koch among the donors . . . . We were
not involved in any of the activities at issue in
California,” she said.
However, other documents that emerged yesterday
in connection with the investigation suggest that
many of those directly involved in the shady dealings
believed that the Kochs were, too. Tony Russo, a
longtime California political consultant who helped
to raise funds to promote the union-curbing bill, and
who later became a cooperating witness, told the
state’s attorneys, “We thought we were dealing with
the Koch network,” according to the Sacramento Bee
columnist Dan Morain.
Russo told the attorneys that a donor to the Kochs’
organizations introduced him to Noble, who was
identified as the Kochs’ “outside consultant.” Noble
“thought the Koch network would be interested in
helping fund a campaign similar to the one in
Wisconsin, where Gov. Scott Walker attacked publicemployee unions and withstood a recall,” Morain
wrote, summarizing from Russo’s testimony.
The Fair Political Practices Commission also
released an e-mail to Charles Koch, dated October
11, 2012, from someone whose name was redacted, in

49
which the sender wrote, of the union-curbing bill, “It
would be great if you could support the final effort
with several million.” This person appeared to be on
friendly enough terms with the magnate to chat
breezily about getting together soon: “I look forward
to
seeing
you
on
a
golf
course
(http://topics.sacbee.com/golf+course/)—probably
after the election.” The sender also wrote, “I must
tell you that Sean Noble from your group has been
immensely helpful in our efforts.”
Is Sean Noble part of what the sender called the
Kochs’ “group”? Is the Center to Protect Patient
Rights part of their political apparatus? Numerous
news accounts have described Noble as having
represented the Kochs’ political interests at meetings
with Karl Rove’s group American Crossroads. Noble
has also been widely reported to have attended and
spoken at some of the semi-annual political seminars
that the Kochs host for high-dollar donors. Recently,
Peter H. Stone, of the Huffington Post, quoted a
G.O.P.
operative
who
described
(http://www.huffingtonpost.com/2013/10/02/seannoble-koch-brothers_n_4017578.html) Noble as “the
wizard behind the screen” of the Koch brothers’
network.
Meanwhile,
as
recounted
in
Politico
(http://dyn.politico.com/printstory.cfm?uuid=2AAD09
95-04D3-40D9-905F-CD3C0F06AD13), records show
that in 2012, a new, Koch-tied political nonprofit
called “Freedom Partners” was by far the single
largest source of cash to the controversial Center to
Protect Patient Rights. And Stone reported that in
2011, according to I.R.S. records, “the largest chunk
of the center’s funding to date has come from one

50
group, Freedom Partners . . . which contributed a
hundred and fifteen million dollars to the
organization.”
So what, precisely, is the relationship between the
Kochs, Noble, and the Center to Protect Patient
Rights? Noble didn’t return numerous e-mails and
phone calls asking about this.
An attorney
representing the Center to Protect Patient Rights
issued a press release emphasizing that the group
acted “in good faith” with “no intent to violate
campaign reporting rules,” but leaving any
connection to the Kochs unexplained. And when
pressed on this, Cohlmia, after answering several
other e-mailed questions, simply ceased to respond.
According to California’s attorney general, Kamala
D. Harris, finding out any more will require a change
in campaign-finance laws. In a statement, Harris
said, “This case demonstrates in clear terms that
California’s campaign-finance laws are in desperate
need of reform. California law currently contains a
loophole for certain groups to evade transparency by
maintaining the anonymity of their donors.”
Above: A rally in Beverly Hills. Photograph by Joe
Klamar/AFP/Getty.
Jane Mayer has been a New Yorker staff writer since
1995.

51
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 220
Washington Free Beacon Article Entitled “Official:
Kochs Not Involved in California Campaign Finance
Violation”

- Washington Free Beacon - http://freebeacon.com Official: Kochs Not Involved in California
Campaign Finance Violation
Posted By Elizabeth Harrington On November 4,
2013 @ 4:40 pm In Politics | No Comments
Former Chair of the California Fair Political
Practices Commission (CFPPC) Ann Ravel admitted
this weekend that the Koch brothers were not
involved with campaign finance violations that
resulted in a record fine levied by the agency.

52
Ravel had attempted to link violations by two
Arizona-based nonprofit groups to libertarian
philanthropists Charles and David Koch, saying the
Kochs funneled “dark money” into two 2012 ballot
initiatives.
However, during an interview with KNBC on
Saturday Ravel conceded that the Kochs were not
involved.
“It was not the Koch brothers, it was Eli Broad, and
there were some others,” Ravel said when asked if
she believed that the Kochs were responsible for
making the donations.
The Center to Protect Patient Rights (CPPR) and
Americans for Responsible Leadership (ARL)
reached a civil settlement with the California
Commission last month for failing to disclose
financial contributions during the 2012 campaign
cycle, resulting in a record $1 million fine.
The groups did not properly report $15 million given
to two California committees.
Some of the
contributions were spent in support of Proposition
32, which would have prohibited unions from using
payroll-deducted funds for political purposes.
Koch Industries denied that they were involved in
the campaign, and actually opposed Proposition 32.
“We did not support, either directly or indirectly, this
ballot initiative, which would have restricted public
and private sector employees’ rights to contribute to
candidates,” Koch Industries said in a statement.
“In addition, we did not give directly or indirectly to
any non-profit group in support of this ballot
initiative,” they said.

53
Ravel had said during a press conference on Oct. 24
that the money was sent to the “Koch network,”
which has “tentacles all over the country,” despite
having no evidence that any of the funding was from
the Kochs.
Numerous news reports followed Ravel’s lead, tying
the Kochs to one of the biggest campaign finance
violations in California history, because the founder
of the Center to Protect Patient Rights had worked
as a consultant to Koch Industries in the past. The
group has no formal ties to the Koch brothers.
Ravel, a Democrat, is now a commissioner for the
Federal Election Commission(FEC).
Article printed from Washington Free Beacon:
http://freebeacon.com
URL to article: http://freebeacon.com/politics/
official-kochs-not-involved-incaliforniacampaign-finance-violation/
Copyright © 2012 Washington Free Beacon. All
rights reserved.

54
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 31
Letter From Attorney General To Americans For
Prosperity Foundation Dated October 29, 2014

KAMALA D. HARRIS, Attorney General
State of California, DEPARTMENT OF JUSTICE
1300 I Street P.O. Box 903447 Sacramento, CA
94203-4470
Telephone: (916) 445-2021 Ext 6 Fax: (916) 444-3651
E-Mail Address: Delinquency@doj.ca.gov
October 29, 2014
CT FILE NUMBER: 116822

55
AMERICANS FOR PROSPERITY FOUNDATION
2111 WILSON BOULEVARD, SUITE 350
ARLINGTON VA 22201-3001
RE:

WARNING OF ASSESSMENT OF
PENALTIES AND LATE FEES, AND
SUSPENSION OR REVOCATION OF
REGISTERED STATUS

The Registry of Charitable has not received the
Schedule Bs as previously requested in our letter
dated June 25, 2014, (copy enclosed) for the
captioned organization. Pursuant to that letter, the
following required filings are considered delinquent.
1.

The IRS Form 990, 990-EZ or 990-PF
submitted for the fiscal year ending 12/31/11
and 12/31/12 does not contain the copy of
Schedule B, Schedule of Contributors, as
required. The copy of the IRS Form 990, 990EZ or 990-PF, including all attachments, filed
with the Registry must be identical to the
document filed by the organization with the
Internal Revenue Service.
The Registry
retains Schedule B as a confidential record for
IRS Form 990 and 990-EZ filers.

*NOTE: The Schedule B for the year ending 12/31/13
was not included with the 990 submitted. Please
submit the Schedule B along with the items above.
Failure to timely file required reports violates
Government Code section 12586.
Unless the above-described report(s) are filed
with the Registry of Charitable Trusts within

56
thirty (30) days of the date of this letter, the
following will occur:
1. The California Franchise Tax Board will be
notified to disallow the tax exemption of the
abovenamed entity. The Franchise Tax Board
may revoke the organization’s tax exempt status
at which point the organization will be treated as
a taxable corporation (See Revenue and Taxation
Code section 23703) and may be subject to the
minimum tax penalty.
2. Late fees will be imposed by the Registry of
Charitable Trusts for each month or partial
month for which the report(s) are delinquent.
Directors, trustees, officers and return preparers
responsible for failure to timely file these reports
are also personally liable for payment of all
late fees.
PLEASE NOTE: Charitable assets cannot be
used to pay these avoidable costs. Accordingly,
directors, trustees, officers and return preparers
responsible for failure to timely file the abovedescribed report(s) are personally liable for
payment of all penalties, interest and other costs
incurred to restore exempt status.
3. In accordance with the provisions of Government
Code section 12598, subdivision (e), the Attorney
General will suspend the registration of the
above-named entity.
If you believe the above described report(s) were
timely filed, they were not received by the
Registry and another copy must be filed within
thirty (30) days of the date of this letter. In
addition, if the address of the above-named entity

57
differs from that shown above, the current
address must be provided to the Registry prior to
or at the time the past-due reports are filed.
In order to avoid the above-described actions, please
send all delinquent reports to the address set forth
above, within thirty (30) days of the date of this
letter.
Thank you for
correspondence.

your

attention

to

Sincerely,
Registry of Charitable Trusts
For

KAMALA D. HARRIS
Attorney General

Detailed instructions and forms for filing can be
found on our website at http://ag.ca.gov/charities.

this

58
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 237
Blank IRS 2015 Form 990, Schedule B

65
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 731
Excerpts from the Deposition of Steven Bauman
October 29, 2015

*

*

*

[Page 7]
THE VIDEOGRAPHER: Thank you.
Will the court reporter please swear in the
witness.
STEVEN BAUMAN, called as a deponent and
sworn in by the deposition reporter, was examined
and testified as follows:
DEPOSITION REPORTER: Right hand, please.

66
Do you solemnly swear that the testimony you are
about to give in this matter shall be the truth, the
whole truth, and nothing but the truth, so help you
God?
THE DEPONENT: Yes.
*

*

*

[Page 97]
[BY MR. FORST]
Q. I want to go back to our discussion of, again,
your concern that charities might reach out to donors
and coach them into giving a certain scripted
testimony in connection with the audit. Do you
remember that discussion, generally?
A. Yes.
Q. Okay. Is there a rule in place when you need
to alert a charity to when it’s being investigated
and/or audited?
A. No.
Q. So is there any general rule of thumb or
written protocol in your performance that you follow
when you alert a charity?
A. No.
Q. Okay. What’s your experience, then?
A. When we get a case assigned to us, I can tell
you the general practice is that the charity is alerted
very early on in the process, because one of the
things we do is send out an audit letter requesting
documents, or informing them that we would like
come and do a field audit and what’s a good date for
you. We’re going to -- follow this up with a letter
that will explain the documents we’re looking for.

67
That usually happens fairly quick, because the
bulk of the information we get is from the charity,
but there is nothing written that says, you know, you
get the complaint and within two days you’ve got to
notify the charity.
Q. But it happens, again, in your words, very
early in the process, typically?
A. Yes.
Q. Okay. So your concern about coaching donors
or tampering with evidence only comes into play for
audits that you’re trying to keep secret for a period of
time?
A. No.
Q. Why not?
A. Just because we contact a charity and we’re
looking at you and here’s documents we want or
what have you, I don’t know that that gives them a
head’s up to contact all donors and everyone that
they’ve dealt with to coach them who we may ask for.
If -- or who we may contact, I mean.
If we contact a charity and specifically say, “We
want the contact information for Donor A,” I think
that’s a much bigger head’s up.
Q. Got it. You’re telegraphing your next move;
right?
A. Yes.
Q. But you don’t have any idea, understandably,
what a charity does in response to receiving an audit
letter from you; right?
A. In their entirety, no.

68
Q. Yeah. So for all you know, they contact donors
or they don’t; right? You just don’t know what
happens?
A. Correct.
Q. And I guess as you sit here today, it’s
conceivable that they would alert their largest
contributors, specifically those listed on a Schedule
B?
A. Anything is possible.
Q. Okay. How many of -- talking about your
audit letters, how specific are they?
Do they
specifically clue them in to the type of violation, the
issue on Form 990 or what exactly you’re looking at?
A. Depends on the complaint. It certainly can.
Q. Okay. And I mean is there a form letter that
goes out, or is it something more than that, a form
letter followed by a description of what the audit is
about?
A. There is a form letter that lists out the more
common documents that we request. That form
letter is a start. We go through there and -- I mean I
don’t recall – let’s just say, for example, there’s 20
items on there. We’ll go through that and say, “Well,
this request isn’t pertinent to this investigation,” so
we delete it, and we will add others that we deem
appropriate.
Q. Okay. I’m sure I’ve asked this, so forgive me,
it might draw an objection, but have you personally
ever contacted a donor before alerting to a charity
that you were investigating them or auditing them?
A. Prior to notifying them that they were being
audited? No.

69
Q. Okay. And that’s over your entire tenure at
the charitable trust division; right?
A. Yes –
Q. Okay.
A. -- to my recollection.
Q. The Schedule B, in particular in the
foundations case which only lists donors who are
above the 2 percent threshold for the time being,
would it be your expectation if you called them that
they would alert the charity that they had been
reached -- contacted by an auditor and you’re asking
questions?
A. Would I expect the donor to contact the charity
and let them know we called?
Q. Uh-huh.
A. Probably.
Q. Okay. Would you have the expectation that
large contributors who really back these charities
would be forthcoming and answer all your questions
without lawyering up or without alerting the charity
and just spill the beans?
A. I have no idea what they would do. It would
probably depend on the questions.
Q. Okay. So, again, your -- in your declaration
when you said they may tamper with evidence,
charities, by coaching witnesses, you have no
personal experience of that happening in connection
with an audit you performed?
A. Correct
*
[Page 144]

*

*

70
EXAMINATION (Resumed)
BY MR. FORST:
Q. Great. Welcome back, Mr. Bauman. There are
two things that I want to circle back to just to revisit,
and I promise just those two, and then we’ll move
forward with other things. But the first is: Do you
guys perform random audits at any time?
A. No.
Q. Okay. So there’s no procedure in which you’ll
pluck or identify a charity, pull their Form 990 and
perform an audit?
A. No.
*

*

*

[Page 178]
[Q.] That doesn’t relate to Schedule B, does it?
A. Solicitations? No.
Q. Okay. Let me short-circuit it this way and to
figure it out. Which of these in your mind implicates
Schedule B?
A. Implicates Schedule B or where Schedule B
may be of help?
Q. Well, what’s the difference, in your mind?
A. Well, I guess looking at this, if you were to say
implicates Schedule B, Schedule B would be one of
the first things I’d go to and I’d take a look at, versus
Schedule B helps out, we can go back to Schedule L,
and say, “Well, looking at Schedule L with Schedule
B, it looks like there may be something going on.”
Q. Okay. So let’s start with the former, then,
where Schedule B would be one of the first places

71
you’d go to look. Is that the first place or one of the
first places you’d go for the first bullet, self-dealing
transactions by directors or trustees?
A. No.
Q. Okay. What about -- is it one of the first places
you’d go to for loans to a director or an officer?
A. No.
Q. Is it one of the first places you’d go to for
losing money through speculative investments?
A. No.
Q. Is it a place that you’d go to for a charity that
is overspending for salaries, benefits, travel, et
cetera?
A. No.
Q. Is it the first place you might go for the next
bullet, sales of charitable assets or conversion of
corporations for-profit?
A. No.
Q. What about for the next one, illegal use of
charitable funds?
A. No.
Q. The next one, diversion of charitable trust
funds from their intended purpose?
A. The first place? No.
Q. And the last one we already covered, but false
or misleading solicitations?
A. No.
Q. Okay. I want to stick to –
THE VIDEOGRAPHER: Mic.

72
THE DEPONENT: But there are a couple here
that I could see where Schedule B would be useful,
even if it’s not the first place we go to.
*

*

*

[Page 241]
Q. I see. Do you recall in that instance whether
you had -- I think maybe I asked this -- the
unredacted Schedule B in your possession without
having to ask for it were from the charity?
A. I don’t recall.
Q. Okay. This is the one you were involved in;
right?
A. Yes.
Q. So could you go back and figure that out?
A. Yes.
Q. And, again, this complaint came to you how,
from a news media story?
A. I believe this was from media.
Q. Okay. Did that media story, or as it came to
you, suggest that the charity was receiving large
donations from the for-profit organization?
A. I don’t recall that being part of the story. It
may have been. I don’t recall.
Q. Okay. And so, again, in this scenario, like the
one before it, Schedule B was used in a
substantiation way or a corroborating way; right?
A. Yes.
Q. Do you ever reach out to the people who write
the news stories or various media reports to ask for
information in connection with wrongdoing?

73
A. No.
Q. Why not?
A. I -- well, the auditors are not -- the policy is we
are not to contact the media. If there’s going to be a
request made, it’s going to be from one of the DAGs.
Q. Do you know if the DAGs have ever done it?
A. I don’t know if they have or haven’t. I think
it’s something they tend to shy away from.
Q. Okay. So the next one, three – I’m not sure
what to call this on the list -- 8 through 10, 8, 9 and
10; right?
A. Correct.
Q. Why are these lumped together here?
A. Because they are three examples of the same
thing.
Q. Isn’t it just one investigation into three
charities? In other words, you’ve got a lead about a
founder improperly something with three charities
and so you did the investigation?
A. It was an investigation into three different
charities.
Q. Kicked off at one time?
A. I don’t know if it was kicked off at the same
time or not.
Q. Sir, do you understand what I’m asking? I’m
asking whether these are three separate instances,
one in 2010, 2012, 2014 and you put them together
because they’re similar in nature, or whether this
was an investigation led by one person into three
charities in which they used the Schedule B.

74
A. I don’t know the timing of these three,
whether we were put on notice that this individual
was operating in three charities and therefore looked
at the three charities at the same time, whether we
were put on notice that there was one charity going
on and then from there found the other two. I -- I
don’t know the timing of that.
Q. Okay. Who was responsible for this one, or -- I
don’t know. This one?
A. The investigation into these three charities
was Joe Zimring and Debra Phillips.
Q. Okay. And do you know when that kicked off?
A. I don’t recall. It’s been, I don’t know, five, six
years.
Q. And do
investigation?

you

know

the

genesis

of

this

A. No.
Q. Was
document?

it

the

Schedule

B,

the

triggering

A. I don’t know what triggered this.
Q. Okay. And so if I understand this, this is
saying that something about a consistent lack of
Schedule B donors clued you in to that they were a
sham organization?
A. Correct.
Q. Okay. So help me understand that.
looked at the Schedule B to understand what?

You

A. These entities had been around for a little
while. They weren’t brand new entities. Entities
that are brand new tend to not have a donor base.
Entities that have been around for a while and have

75
-- I don’t know if “create” is the right word, but
they’ll have a donor base, and it would be typical to
see these donors, if they’re donating or not, on
Schedule B. The fact that there were no Schedule B
donors on this led him to believe that this was just a
situation
where
the
charities
were
just
telemarketing, soliciting, and the purpose of these
charities were really to create funds for the
fundraisers.
Q. Okay. So it was just a sham organization to
where the founder could funnel money through and
fund -- I mean was the charity itself performing
telemarketing activities?
A. No, they were hiring out.
Q. They were hiring out.
Okay. So he was taking a tax deduction by giving
money and then, ultimately -- right? I mean if he’s
donating -- was the founder like the sole donor of
these charities?
A. No. The founder was running the charities
and also making money on the telemarketing aspect
of it.
Q. So what were the Form 990s showing in terms
of the revenue for these charities?
A. I -- if you’re asking for dollars, I don’t recall.
Q. Because I guess I’m not understanding -- I
mean some Schedule Bs, for example, we have AFP
foundations for 2011 and 2012. I don’t know if they
list -- one might list five donors; correct? But they
can be a small number; right?
A. Of donors –
Q. Listed on Schedule B.

76
A. Yes.
Q. Right. I mean, especially if they’re applying
the 2 percent threshold and the revenues are large;
right?
A. Yes, yes.
Q. Right. Then, conceivably, you could have a
Schedule B with nobody for a perfectly legitimate
charity?
A. Yes.
Q. So I guess that in and of itself isn’t all that
telling; right?
A. The fact that there is a Schedule B with
nothing reported on it by itself may not necessarily
be all that telling.
Q. Right.
So do you know whether these
charities checked the box that said they were filing -they needed to submit a Schedule B; that they were
receiving funds from, let’s say, the special exception
33 percent rule?
A. I do not know.
Q. Again, going back, do you know what triggered
this investigation?
A. No.
Q. Okay. For any of these, do you know whether
it was necessary to consult the Schedule B in order to
successfully complete the audit?
A. I’m not really sure I understand the question
in that we use Schedule B in various ways and
assisted in completing the audit, and if you’re asking
me if you had taken away the Schedule B if that
would have stopped us from doing the audit, I don’t

77
know that it would have stopped us. We would have
continued to work, and whether we were able to
connect the dots otherwise, I -- I don’t know how to
answer that. Maybe, maybe not.
Q. What about the one you worked on, Number 7,
this one where Schedule B confirmed that donations
were coming from the public, which I think again, by
definition, that’s what Schedule B means.
A. We probably could have completed that
without it.
Q. Okay. Are you ever aware of an investigation
that your team or you have done where, upon
consultation of the Schedule B, that resolved the
need or resolved the investigation? In other words,
you looked at the Schedule B and that told you, “You
know what? There’s nothing here. We don’t need to
continue with an audit or an enforcement action”?
A. Would looking at Schedule B stopped us from
doing an investigation. Are you asking me if that’s
possible it could have happened, or am I aware –
Q. Are you aware.
A. -- of any specific cases?
No, I’m not aware of it.

78
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 56
Excerpted List of Publicly Linked Schedule Bs
(Set 1 of 5)

Charity Name
18TH STREET ARTS
COMPLEX
3 WAY THRIFT STORE, INC.
3 WAY THRIFT STORE, INC.
3 WAY THRIFT STORE, INC.
5 - CITIES MEALS ON
WHEELS, INC.
A BETTER L.A.
ABLE DISABLED
ADVOCACY, INC.

document_title
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2006
IRS Form 990 2003

79
ABODE SERVICES
ACADEMY OF BUSINESS
LEADERSHIP
ACADEMY OF BUSINESS
LEADERSHIP
ACADEMY OF BUSINESS
LEADERSHIP
ACCESS ANAHEIM, INC.
ACCESS FUND
ACCION USA, INC.
ADOPTAPLATOON
SOLIDER SUPPORT
EFFORT
ADOPT-A-SCHOOL
COUNCIL
ADULT CONGENITAL
HEART ASSOCIATION, INC
ADVOCACY FOR PATIENTS
WITH CHRONIC ILLNESS,
INC.
AFFORDABLE COMMUNITY
HOUSING TRUST - BETA
AFFORDABLE COMMUNITY
HOUSING TRUST - GAMMA
AFFORDABLE COMMUNITY
HOUSING TRUST - THETA
AFFORDABLE LIVING FOR
THE AGING
AIDS ALLIANCE
AIDS ALLIANCE
AIDS ALLIANCE

IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2001
IRS Form 990 2009
Founding
Documents
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2002
IRS Form 990 2005
IRS Form 990 2001
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003

80
ALA-COSTA CENTER, A
PROGRAM FOR THE
DEVELOPMENTALLY
DISABLED
ALA-COSTA CENTER, A
PROGRAM FOR THE
DEVELOPMENTALLY
DISABLED
ALA-COSTA CENTER, A
PROGRAM FOR THE
DEVELOPMENTALLY
DISABLED
ALAMEDA COUNTY MEALS
ON WHEELS, INC.
ALBANIAN HEALTH FUND
ALBERT L. SCHULTZ AND
JANET A. SCHULTZ 1991
SUPPORTING
FOUNDATION
ALBERT L. SCHULTZ AND
JANET A. SCHULTZ 1991
SUPPORTING
FOUNDATION
ALCOHOLISM COUNCIL OF
ANTELOPE VALLEY/NCA.
ALDEA, INC.
ALETHEIA PSYCHOPHYSICAL FOUNDATION
ALLIANCE FOR COLLEGEREADY PUBLIC SCHOOLS
ALLIANCE ON AGING INC
ALPA EMERGENCY RELIEF
FUND, INC

IRS Form 990 2006

IRS Form 990 2004

IRS Form 990 2003

IRS Form 990 2010
IRS Form 990-EZ
2008
IRS Form 990 2004

IRS Form 990 2003

RRF-1 2009
IRS Form 990 2005
IRS Form 990-EZ
2012
IRS Form 990 2011
RRF-1 2013
IRS Form 990 2005

81
ALPHA CRISIS PREGNANCY
CENTER
ALPHA HOUSE, A PLACE
FOR NEW BEGINNINGS
ALPHA OMICRON PI
FOUNDATION
ALS THERAPY
DEVELOPMENT
FOUNDATION
ALS THERAPY
DEVELOPMENT
FOUNDATION
ALTERNATIVE
VOCATIONAL SERVICES
ALUMNI ASSOCIATION,
CALIFORNIA STATE
UNIVERSITY,
SACRAMENTO
ALVAREZ TITANS YOUTH
ACTIVITIES, INC.
ALZHEIMER’S DISEASE
RESEARCH FOUNDATION
AMADOR-TUOLUMNE
COMMUNITY RESOURCES
AMAZING GRACE
CONSERVATORY INC.
AMERICAN BAPTIST
HOMES FOUNDATION OF
THE WEST, INC.
AMERICAN CENTER FOR
LAW AND JUSTICE, INC.
AMERICAN CONSTITUTION
SOCIETY FOR LAW AND
POLICY

RRF-1 2009
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2004

IRS Form 990 2001
IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2011
IRS Form 990 2010
IRS Form 990 2011

82
AMERICAN COUNCIL OF
THE BLIND
AMERICAN COUNCIL ON
SCIENCE AND HEALTH,
INC.
AMERICAN FRIENDS OF
THE CZECH REPUBLIC
AMERICAN FRIENDS OF
THE HEBREW
UNIVERSITY, INC.
AMERICAN INDIAN FILM
INSTITUTE
AMERICAN INDIAN
HEALTH & SERVICES
CORPORATION
AMERICAN LEPROSY
MISSIONS, INC.
AMERICAN LEPROSY
MISSIONS, INC.
AMERICAN SOCIAL
HEALTH ASSOCIATION
AMERICAN SOCIAL
HEALTH ASSOCIATION
AMERICAN SOCIETY FOR
BARIATRIC SURGERY
FOUNDATION, INC.
AMERICAN SOCIETY FOR
REPRODUCTIVE MEDICINE
AMERICAN THEATRE
ORGAN SOCIETY
ANAHEIM MEMORIAL
MANOR
ANALY HIGH SCHOOL
EDUCATION FOUNDATION

IRS Form 990 2007
Miscellaneous
Documents
IRS Form 990 2007
IRS Form 990 2005
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2001
IRS Form 990 2006
IRS Form 990 2008
RRF-1 2009
IRS Form 990 2008
IRS Form 990 2011
IRS Form 990 2005
IRS Form 990-EZ
2011

83
ANDERSON VALLEY
AMBULANCE SERVICE
ANDERSON VALLEY
EDUCATION FOUNDATION
ANDERSON ‘Y’ CENTER
ANDRES DUARTE
TERRACE
ANDRES DUARTE
TERRACE
ANIMAL CANCER
FOUNDATION
ANIMAL FRIENDS OF THE
VALLEYS, INC.
ANIMAL HELPLINE
ANIMAL HELPLINE
ANIMAL HELPLINE
ANIMAL HELPLINE
ANIMAL HELPLINE
ANTELOPE VALLEY
CONSERVANCY
ARC OF THE UNITED
STATES
ARCADIA PUBLIC LIBRARY
FOUNDATION
ARCATA COMMUNITY
RECYCLING CENTER, INC.
ARCATA COMMUNITY
RECYCLING CENTER, INC.
ARCATA COMMUNITY
RECYCLING CENTER, INC.
ARCATA ENDEAVOR, INC
ARICA INSTITUTE, INC.

IRS Form 990 2009
IRS Form 990-EZ
2011
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2012
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990-EZ
2009
IRS Form 990 2010

84
ARIZONA MEMORIAL
MUSEUM ASSOCIATION
ARTHUR E. WRIGHT
MIDDLE SCHOOL PARENT
FACULTY CLUB
ARTS AND CULTURAL
FOUNDATION OF ANTIOCH
ASDL SERVICES, INC.
ASIAN AND PACIFIC
ISLANDER AMERICAN
HEALTH FORUM
ASIAN PACIFIC
ENVIRONMENTAL
NETWORK ACTION
ASIANWEEK FOUNDATION
ASOCIACION MAYAB
ASSE INTERNATIONAL,
INC.
ASSE INTERNATIONAL,
INC.
ASSE INTERNATIONAL,
INC.
ASSISI INTERNATIONAL
ANIMAL INSTITUTE
ASSISTANCE LEAGUE OF
ARCADIA
ASSISTANCE LEAGUE OF
ARCADIA
ASSISTANCE LEAGUE OF
TUSTIN
ASSOCIATION OF GERMAN
SHEPHERD RESCUERS,
INC.

IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2007
IRS Form 990-EZ
2011
IRS Form 990 2010
IRS Form 990-EZ
2012
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2011
IRS Form 990 2012
IRS Form 990 2008
IRS Form 990 2003

85
ASSOCIATION OF RETIRED
SAN JOSE POLICE
OFFICERS AND FIR
ATHLETES FOR
EDUCATION
ATSC ASSESSMENT AND
TREATMENT SERVICES
CENTER
ATSC ASSESSMENT AND
TREATMENT SERVICES
CENTER
AUSAR ECONOMIC
DEVELOPMENT
CORPORATION
AUTISM SOCIETY OF
AMERICA SAN DIEGO
CHAPTER
AUTOMOBILE DRIVING
MUSEUM
AVEDIS INCORPORATED
AZAHAR DANCE
FOUNDATION
BAKERSFIELD WEST
ROTARY FOUNDATION
BALANCE 4 KIDS
BANDERA SENIOR
HOUSING CORP.
BARRIO STATION
BAY AREA LEARNING
CENTER
BAY AREA LEARNING
CENTER
BAY AREA LEARNING
CENTER

IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2002
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2003

86
BAY AREA OUTREACH &
RECREATION PROGRAM,
INC.
BAY AREA RIDGE TRAIL
COUNCIL
BAY CHORAL GUILD
BAY EAST ASSOCIATION
OF REALTORS
FOUNDATION
BAY LAUREL
ELEMENTARY SCHOOL
PARENT FACULTY
ASSOCIATION
BEACON HOUSE
BEAUTIFUL DAY
FOUNDATION
BENSON HOUSE, INC.
BERKELEY COMMUNITY
FUND
BERKELEY COMMUNITY
FUND
BERKELEY HISTORICAL
SOCIETY
BERKELEY YOUTH
ALTERNATIVES
BERKLAND FOUNDATION,
INC.
BET TZEDEK
BET TZEDEK
BETHESDA FOUNDATION
BEVERLY HILLS MEALS ON
WHEELS
BEVERLY HILLS MEALS ON
WHEELS

IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990 2003

IRS Form 990 2003
IRS Form 990 2005
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2002
Miscellaneous
Documents
IRS Form 990 2004
IRS Form 990 2012
IRS Form 990 2007
IRS Form 990 2006
RRF-1 2009
IRS Form 990 2011
IRS Form 990 2011

87
BEVERLY HILLS SENIOR
CITIZEN HOUSING
CORPORATION
BEVERLY HILLS SENIOR
CITIZEN HOUSING
CORPORATION
BEVERLY HILLS SENIOR
CITIZEN HOUSING
CORPORATION
BEVERLY NORMANDIE
HOUSING CORPORATION
BI-BETT
BINGHAM, OSBORN &
SCARBOROUGH
FOUNDATION
BIRTH CHOICE OF
TEMECULA, INC.
BIRTH2WORK
BLACK ADOPTION
PLACEMENT AND
RESEARCH CENTER
BODY WISDOM, INC.
BOLINAS COMMUNITY
LAND TRUST, INC.
BOLSA CHICA LAND TRUST
BOOJUM INSTITUTE FOR
EXPERIENTIAL
EDUCATION
BOOJUM INSTITUTE FOR
EXPERIENTIAL
EDUCATION
BORREGO COMMUNITY
HEALTH SOCIETY, INC.

IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2002
IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2006

88
BORREGO COMMUNITY
HEALTH SOCIETY, INC.
BORREGO COMMUNITY
HEALTH SOCIETY, INC.
BORREGO COMMUNITY
HEALTH SOCIETY, INC.
BOYS & GIRLS CLUB
FOUNDATION OF KERN
COUNTY
BOYS & GIRLS CLUB OF
TULARE COUNTY
BOYS & GIRLS CLUBS OF
FRESNO COUNTY
BOYS & GIRLS CLUBS OF
FRESNO COUNTY
BOYS & GIRLS CLUBS OF
FRESNO COUNTY
BOYS & GIRLS CLUBS OF
FRESNO COUNTY
BOYS’ AND GIRLS’ CLUB OF
FALLBROOK FOUNDATION
BREATHE CALIFORNIA OF
SACRAMENTO-EMIGRANT
TRAILS
BREATHE CALIFORNIA OF
SACRAMENTO-EMIGRANT
TRAILS
BRIDGE WEST OAKLAND
HOUSING, INC.
BURLINGAME HIGH
SCHOOL PARENTS’ GROUP,
INC.
BURLINGAME HIGH
SCHOOL PARENTS’ GROUP,

IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2008

89
INC.
BURLINGAME LIBRARY
FOUNDATION
BURLINGAME LIBRARY
FOUNDATION
BUTTE ENVIRONMENTAL
COUNCIL, INCORPORATED
CABRILLO MUSIC
THEATRE, INC.
CALIFORNIA AGAINST
SLAVERY
CALIFORNIA ASSOCIATION
TO AID UKRAINE
CALIFORNIA CHILDREN
AND FAMILIES
FOUNDATION, INC.
CALIFORNIA COMMUNITY
ECONOMIC
DEVELOPMENT
ASSOCIATION
CALIFORNIA CONFERENCE
ON ALCOHOL PROBLEMS
CALIFORNIA COURT
APPOINTED SPECIAL
ADVOCATE ASSOCIATION
CALIFORNIA DRUG
CONSULTANTS, INC.
CALIFORNIA FILM
INSTITUTE
CALIFORNIA LATINO
MEDICAL ASSOCIATION,
INC.
CALIFORNIA MENTOR

IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990-EZ
2011
IRS 990 Form 2006
IRS Form 990 2012
IRS Form 990 2009

IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2009
IRS Form 990 2005
IRS Form 990 2007

90
FOUNDATION
CALIFORNIA MINERAL
EDUCATION FOUNDATION
CALIFORNIA NEVADA
HAWAII STATE
ASSOCIATION OF EMBLEM
CLUBS
CALIFORNIA ODD FELLOWREBEKAH YOUTH CAMP
CALIFORNIA ODD FELLOWREBEKAH YOUTH CAMP
CALIFORNIA ONCOLOGY
RESEARCH INSTITUTE,
INC.
CALIFORNIA RIVER
WATCH
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA
SHAKESPEARE THEATER
CALIFORNIA STATE RURAL
HEALTH ASSOCIATION

IRS Form 990 2008
RRF-1 2013

IRS Form 990 2008
IRS Form 990 2007
IRS Form 990-EZ
2009
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2003

91
CALIFORNIA TEACHING
FELLOWS FOUNDATION
CALIFORNIA TENNIS
ASSOCIATION FOR
UNDERPRIVILEGED
YOUTHS
CALIFORNIA VETERANS
ASSISTANCE
FOUNDATION, INC.
CALL OF THE SEA
CAL-PAC SCHOLARSHIP
FUND, INC.
CAMARILLO HOSPICE
CORPORATION
CAMBRIA’S ANONYMOUS
NEIGHBORS
CAMBRIA’S ANONYMOUS
NEIGHBORS
CAMBRIA’S ANONYMOUS
NEIGHBORS
CAMBRIA’S ANONYMOUS
NEIGHBORS
CAMP COOKIE FOR
CHILDREN, INC.
CAMP FIRE CENTRAL
COAST OF CALIFORNIA,
INC.
CAMP HOPE, INC.
CANCER ANGELS OF SAN
DIEGO
CANCER RESEARCH
INSTITUTE, INC.
CANCER SUPPORT
COMMUNITY

IRS Form 990 2011
IRS Form 990-EZ
2009
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990-EZ
2008
IRS Form 990 2008
IRS Form 990 2004

92
CANTORI DOMINO
CAPITOLA-APTOS ROTARY
FOUNDATION
CARE NET
CARENOW FOUNDATION
CARNEGIE ART MUSEUM
CORNERSTONES
CARPENTERS HOUSING
CORPORATION
CASA DE LAS AMIGAS
CASTLE ARGYLE
CASTLE ARGYLE
CATHOLIC CHARITIES OF
CALIFORNIA , INC.
CATTLEMEN FOR DRUG
FREE YOUTH
CELL PHONES FOR
SOLDIERS INC.
CENTER FOR CLIMATE
PROTECTION
CENTER FOR CLIMATE
PROTECTION
CENTER FOR
COLLABORATIVE
SOLUTIONS
CENTER FOR COMMUNITY
AND FAMILY SERVICES,
INC.
CENTER FOR DEMOCRACY
IN THE AMERICAS
CENTER FOR
GOVERNMENTAL STUDIES,

IRS Form 990-EZ
2011
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990-EZ
2010
IRS Form 990 2011
IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2008
IRS Form 990 2010
IRS Form 990 2007
IRS Form 990 2006
Founding
Documents
IRS Form 990 2002
IRS Form 990 2006
IRS Form 990 2005

93
INC.
CENTER FOR INQUIRY
HOLDING CORPORATION
CENTER FOR INQUIRY,
INC.
CENTER FOR JEWISH
CULTURE AND
CREATIVITY
CENTER FOR JEWISH
CULTURE AND
CREATIVITY
CENTER FOR VENTURE
EDUCATION, INC.
CENTER ON JUVENILE
AND CRIMINAL JUSTICE
CENTER ON JUVENILE
AND CRIMINAL JUSTICE
CENTRAL CALIFORNIA
CHILD DEVELOPMENT
SERVICES, INC.
CENTRAL CALIFORNIA
LABRADOR RETRIEVER
RESCUE
CENTRAL CITY ACTION
COMMITTEE INC
CENTRAL CITY ACTION
COMMITTEE INC
CENTRAL CITY ACTION
COMMITTEE INC
CENTRAL CITY ACTION
COMMITTEE INC
CENTRAL COAST
PREGNANCY CENTER

IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2013
IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2012
IRS Form 990 2010
IRS Form 990 2011
RRF-1 2007
RRF-1 2005
IRS Form 990 2003
IRS Form 990 2012
IRS Form 990 2005

94
CENTRAL COAST WINE
GROWERS ASSOCIATION
FOUNDATION, INC.
CENTRAL COAST WINE
GROWERS ASSOCIATION
FOUNDATION, INC.
CENTRAL VALLEY SENIOR
HOUSING CORPORATION
CENTRAL WEST BALLET
CHAI HOUSE II, INC.
CHALLENGER CENTER
FOR SPACE SCIENCE
EDUCATION
CHARLEY’S FUND INC
CHIAROSCURO INSTITUTE,
INC.
CHICANA/LATINA
FOUNDATION
CHICO THEATER
COMPANY,
INCORPORATED
CHILD ABUSE
PREVENTION CENTER OF
THE INLAND EMPIRE
EXCHANGE CLUBS, INC.
CHILD AID
CHILD CARE LAW CENTER
CHILD DEVELOPMENT
RESOURCES OF VENTURA
COUNTY INCORPORATED
CHILD FOUNDATION
CHILD GUIDANCE
CENTER, INC.

IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2006
Miscellaneous
Documents
IRS Form 990 2011
IRS Form 990 2011
RRF-1 2012
IRS Form 990 2011
IRS Form 990 2004
IRS Form 990 2003

IRS Form 990 2003
IRS Form 990 2006
RRF-1 2003
IRS Form 990 2009
IRS Form 990 2005

95
CHILDHOOD LEUKEMIA
FOUNDATION, INC.
CHILDREN AWAITING
PARENTS, INC.
CHILDREN OF ARMENIA
FUND, INC.
CHILDREN, NATURE AND
YOU
CHILDREN’S BOOK PRESS/
EDITORIAL LIBROS PARA
NINOS
CHILDREN’S BOOK
PROJECT
CHILDREN’S BOOK
PROJECT
CHILDREN’S BOOK
PROJECT
CHILDREN’S BOOK
PROJECT
CHILDREN’S BOOK
PROJECT
CHILDREN’S
CARDIOMYOPATHY
FOUNDATION INC
CHILDRENS CHAIN OF
CHILDRENS HOSPITAL
CHILDREN’S CRISIS
CENTER OF STANISLAUS
COUNTY, INC.
CHILDREN’S DIABETES
FOUNDATION AT DENVER,
COLORADO
CHINESE PROGRESSIVE
ASSOCIATION, INC.

IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2010
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2003
IRS FORM 9902003
IRS Form 990-EZ
2012
IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2009

96
CHRISTIAN APPALACHIAN
PROJECT INC
CHRISTIAN CARE
FOUNDATION FOR
CHILDREN WITH
DISABILITIES USA (CCDUSA)
CINEQUEST, INC.
CITY OF WILLITS PUBLIC
FACILITIES CORPORATION
CLAREMONT MANOR
CLUB, INC.
CLEAN TECH LOS
ANGELES
CLOVIS COMMUNITY
FOUNDATION
COACHELLA VALLEY
COMMUNITY TRUST
COACHELLA VALLEY
RESCUE MISSION
COACHELLA VALLEY
RESCUE MISSION
COACHELLA VALLEY
RESCUE MISSION
COACHELLA VALLEY
RESCUE MISSION
COACHELLA VALLEY
RESCUE MISSION
COACHELLA VALLEY
RESCUE MISSION
COACHELLA VALLEY
RESCUE MISSION
COALITION FOR
ECONOMIC SURVIVAL

IRS Form 990 2006
IRS Form 990-EZ
2011

IRS Form 990 2008
IRS Form 990 2008
IRS Form 990 2008
IRS Form 990-EZ
2011
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2001
IRS Form 990 2010
IRS Form 990 2011

97
COALITION FOR
URBAN/RURAL
ENVIRONMENTAL
STEWARDSHIP
COATS & SHOES FOR KIDS,
INC.
COLETTE’S CHILDREN
HOME, INC.
COLLECTIVE IMPACT
COLLEGE WOMEN’S CLUB
OF PASADENA
SCHOLARSHIP
FOUNDATION
COMMON GROUND
THEATRE
COMMUNITIES ACTIVELY
LIVING INDEPENDENT &
FREE
COMMUNITIES FOR A NEW
CALIFORNIA EDUCATION
FUND
COMMUNITY & FAMILY
SERVICE AGENCY
COMMUNITY & FAMILY
SERVICE AGENCY
COMMUNITY & FAMILY
SERVICE AGENCY
COMMUNITY ALLIANCE
FOR SPECIAL EDUCATION
COMMUNITY ALLIANCE
FOR SPECIAL EDUCATION
COMMUNITY ALLIANCE
FOR SPECIAL EDUCATION

IRS Form 990 2003

IRS Form 990-EZ
2010
IRS Form 990 2009
IRS Form 990 2011
IRS Form 990 2004

IRS Form 990 2010
IRS Form 990 2010
IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006

98
COMMUNITY ALLIANCE
FOR SPECIAL EDUCATION
COMMUNITY ALLIANCE
FOR SPECIAL EDUCATION
COMMUNITY ALLIANCE
FOR SPECIAL EDUCATION
COMMUNITY FOUNDATION
OF NEW JERSEY
COMMUNITY HOME
BUILDERS AND
ASSOCIATES
COMMUNITY HOUSING
SONOMA COUNTY
COMMUNITY LINKS
INTERNATIONAL, INC.
COMMUNITY MEDIA
CENTER OF MARIN
COMMUNITY
PRESBYTERIAN CHURCH
TRUST
COMMUNITY REENGINEERING, INC.
COMMUNITY SERVICES
FUND
COMMUNITY SERVICES
FUND
COMMUNITY VIOLENCE
SOLUTIONS
COMPASSIONATE CARE
ALLIANCE
CONCERN FOUNDATION
CONCERNS OF POLICE
SURVIVORS, INC.
CONCERNS OF POLICE

IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2002
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2004
Founding
Documents
IRS Form 990 2010
IRS Form 990 2003
IRS Form 990 2012
IRS Form 990-EZ
2011
IRS Form 990 2002
IRS Form 990 2012
IRS Form 990 2013

99
SURVIVORS, INC.
CONGRESS FOR THE NEW
URBANISM, INC.
CONSERVATION FARMS &
RANCHES
CONSERVATION SERVICES
GROUP, INC.
CONSORTIUM FOR
COMMUNITY CARE
CONSUMERS UNION OF
UNITED STATES, INC.
COOPERATIVE
DEVELOPMENT
FOUNDATION
COPD FOUNDATION INC
CORA (COMMUNITY
OVERCOMING
RELATIONSHIP ABUSE)
CORAZON
COSUMNES LEGACY
FOUNDATION
COUNCIL ON RELIGIOUS &
CIVIL LIBERTY, INC.
COUNCIL ON RELIGIOUS &
CIVIL LIBERTY, INC.
COUNCIL ON RELIGIOUS &
CIVIL LIBERTY, INC.
COVINA DEVELOPMENT
CENTER
CRAFTON HILLS COLLEGE
FOUNDATION
CRCL, INC.
CRCL, INC.

IRS Form 990 2003
IRS Form 990 2003
RRF-1 2012
IRS Form 990 2004
IRS Form 990 2004
Founding
Documents
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2002
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2006

100
CRIME PREVENTION
PROGRAM OF SOUTHERN
CALIFORNIA
CRIME PREVENTION
PROGRAM OF SOUTHERN
CALIFORNIA
CROATIAN SCHOLARSHIP
FUND
CROATIAN SCHOLARSHIP
FUND
CROSS INTERNATIONAL
AID, INC.
CULTURAL AND
EDUCATIONAL MEDIA
CUNHA INTERMEDIATE
SCHOOL PARENT
TEACHER ORGANIZATION
CUPERTINO
EDUCATIONAL
ENDOWMENT
FOUNDATION
CYSTINOSIS RESEARCH
FOUNDATION
D.A.R.E. AMERICA
D.E.A.F. MEDIA, INC.
D.E.A.F. MEDIA, INC.
DANA-FARBER CANCER
INSTITUTE, INC.
DANCE PENINSULA
DAVID S WYMAN
INSTITUTE FOR
HOLOCAUST STUDIES
DAYLE MCINTOSH CENTER
FOR THE DISABLED

IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2003
RRF-1 2002
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990-EZ
2010
IRS Form 990 2002

IRS Form 990 2003
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990 2002
IRS Form 990 2010
IRS Form 990 2003
IRS Form 990-EZ
2010
IRS Form 990 2009

101
DEMEO TEEN CLUB, INC.
DENSHO
DESERT REGIONAL
TOURISM AGENCY
DESERT SAMARITANS FOR
SENIORS
DIABETES SOCIETY
DIABLO REGIONAL ARTS
ASSOCIATION, INC.
DIABLO REGIONAL ARTS
ASSOCIATION, INC.
DIAMOND COMMUNITY
DEVELOPMENT
CORPORATION
DIAMOND EMPOWERMENT
FUND, INC
DIGNITY/LOS ANGELES
DIGNITY/LOS ANGELES
DIRECTORS GUILD
FOUNDATION
DIRECTORS GUILD
FOUNDATION
DISABLED AMERICAN
VETERANS NATIONAL
SERVICE FOUNDATION
DISABLED POLICE
OFFICERS COUNSELING
CENTER, INC.
DJERASSI RESIDENT
ARTISTS PROGRAM
DOWNTOWN SANTA
MONICA, INC.
DREAM FACTORY, INC.
DREAM FACTORY, INC.

IRS Form 990 2003
IRS Form 990 2002
IRS Form 990-EZ
2012
IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2012
IRS Form 990 2009

102
DUNBAR ECONOMIC
DEVELOPMENT
CORPORATION
EAH-CONTRA COSTA, INC.
EARTH ISLAND INSTITUTE
INC.
EARTHACTION ALERTS
NETWORK
EARTHS BIRTHDAY
PROJECT INC
EAST BAY JUDO
INSTITUTE
EAST COUNTY BUSINESSEDUCATION ALLIANCE
EAST OAKLAND
SWITCHBOARD
EAST OAKLAND
SWITCHBOARD
EAST OF EDEN CANINE
RESCUE
EAST VALLEY POLICE
ACTIVITY LEAGUE
SUPPORTERS INC
EASTERN LOS ANGELES
REGIONAL CENTER FOR
THE DEVELOPMENTALLY
DISABLED, INC.
EASTMONT COMMUNITY
CENTER
EASTMONT COMMUNITY
CENTER
EASTMONT COMMUNITY
CENTER

IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2001
IRS Form 990-EZ
2005
IRS Form 990 2003
IRS Form 990 2001
IRS Form 990-EZ
2010
IRS Form 990 2004
IRS Form 990 2010

IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2005

103
ECONOMIC
DEVELOPMENT
CORPORATION OF LOS
ANGELES COUNTY
ECONOMIC VITALITY
RESEARCH & EDUCATION
FOUNDATION
EDAR (EVERYONE
DESERVES A ROOF) INC
EDUCATION FOUNDATION
FOR ORANGE COUNTY
SCHOOLS
EDUCATIONAL
RESOURCES OF
MONTEREY COUNTY
EL DORADO COUNTY
HUMANE SOCIETY
EL PROYECTO DEL
BARRIO, INC.
EL SOLYO FOUNDATION
EL VERANO PARENT
TEACHER ORGANIZATION
ELEPHANTS OF AFRICA
RESCUE SOCIETY, INC.
ELIZABETH GLASER
PEDIATRIC AIDS
FOUNDATION
ELTON JOHN AIDS
FOUNDATION, INC.
ENCINA HIGH SCHOOL
BOOSTERS CLUB, INC.
ENCORE THEATER
FOUNDATION

IRS Form 990 2003

IRS Form 990 2008
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990-EZ
2010
IRS Form 990 2010
IRS Form 990 2010
Miscellaneous
Documents
IRS Form 990-EZ
2009
IRS Form 990 2003

104
END VIOLENCE AGAINST
IRS Form 990 2003
WOMEN (EVAW)
INTERNATIONAL
ENDANGERED HABITATS
IRS Form 990 2010
CONSERVANCY
ENTERPRISE FOUNDATION IRS Form 990-EZ
2009
ENVIRONMENTAL ACTION IRS Form 990 2005
COMMITTEE OF WEST
MARIN
ENVIRONMENTAL ARTS
IRS Form 990 2004
AND RESEARCH
EPIPHANY PRODUCTIONS
IRS Form 990-EZ
SONIC DANCE THEATER
2010
ERM GROUP FOUNDATION, IRS Form 990 2008
INC.
ESCONDIDO GARDENS
IRS Form 990 2007
HOUSING FOUNDATION
ESTHER B. COLLISHAW
IRS Form 990 2003
MEMORIAL FOUNDATION
ESTRELLA WARBIRDS
IRS Form 990 2011
MUSEUM, INC.
EUREKA THEATRE, INC.
IRS Form 990 2005
EXPANDING HORIZONS
IRS Form 990 2010
DEVELOPMENTAL
DISABILITY SERVICES
FALLBROOK HISTORICAL
IRS Form 990 2011
SOCIETY
FALLBROOK PEOPLE TO
IRS Form 990 2003
PEOPLE SERVICES
FAMILY EMERGENCY
IRS Form 990 2004
SHELTER COALITION
FAMILY EMERGENCY
IRS Form 990 2003
SHELTER COALITION

105
FAMILY SERVICE SENIOR
HOUSING CORPORATION
FAMILY SUPPORTIVE
HOUSING, INC.
FAMILY SUPPORTIVE
HOUSING, INC.
FAMILY YMCA OF THE
DESERT
FAR WEST YOUTH
FOUNDATION, INC.
FAULDING HOTEL, INC.
FAULDING HOTEL, INC.
FEEDING AMERICA SAN
DIEGO
FELLOWSHIP OF
RECONCILIATION, INC.
FERNDALE REPERTORY
THEATRE, INC.
FESTIVAL OF CHILDREN
FOUNDATION
FESTIVAL OF CHILDREN
FOUNDATION
FESTIVAL OF CHILDREN
FOUNDATION
FESTIVAL OF CHILDREN
FOUNDATION
FESTIVAL OF WHALES
COMMITTEE, INC.
FIDDLETOWN
PRESERVATION SOCIETY,
INC.
FINANCIAL ACCOUNTING
FOUNDATION
FINEST CITY PERFORMING

IRS Form 990 2012
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990-EZ
2011
IRS Form 990 2008
IRS Form 990 2002
Founding
Documents
IRS Form 990 2011
IRS Form 990-EZ
2010
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2003

106
ARTS, INC.
FIREBIRD YOUTH CHINESE
ORCHESTRA
FIREFIGHTERS QUEST FOR
BURN SURVIVORS
FIREFIGHTERS QUEST FOR
BURN SURVIVORS
FIREFIGHTERS QUEST FOR
BURN SURVIVORS
FIRST AMENDMENT
PROJECT
FIRST AMENDMENT
PROJECT
FISH OF FULLERTON, INC.
FLYING LEATHERNECK
HISTORICAL FOUNDATION
FONKOZE USA INC
FOOD & WATER WATCH
FOOD BANK OF CONTRA
COSTA AND SOLANO
FOOTHILL INDIAN
EDUCATION ALLIANCE,
INC.
FOOTHILL SERVICE CLUB
FOR THE BLIND
FORCE-FACING OUR RISK
OF CANCER EMPOWERED,
INC.
FORD STREET PROJECT
FORD STREET PROJECT
FORESTERS PREVENTION
OF CHILD ABUSE FUND

IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2005
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2009

107
FORESTERS PREVENTION
OF CHILD ABUSE FUND
FORESTERS PREVENTION
OF CHILD ABUSE FUND
FORESTERS PREVENTION
OF CHILD ABUSE FUND
FOREVER YOUNG
FOUNDATION
FOREVER YOUNG
FOUNDATION
FOREVER YOUNG
FOUNDATION
FOREVER YOUNG
FOUNDATION
FOREVER YOUNG
FOUNDATION
FOREVER YOUNG
FOUNDATION
FOUNDATION FOR
CHILDREN WITH CANCER
FOUNDATION FOR POOL &
SPA INDUSTRY
EDUCATION
FOUNDATION FOR THE
HUMANITIES IN MEDICINE
FOUNDATION FOR THE
HUMANITIES IN MEDICINE
FRANK W. JOBE
FOUNDATION
FREE ARTS FOR ABUSED
CHILDREN
FREE CLINIC OF SIMI
VALLEY

IRS Form 990 2004
IRS Form 990 2003
Miscellaneous
Documents
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2006
IRS Form 990-EZ
2010
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2008

108
FREE TO BREATHE
FRESNO ART MUSEUM
FRESNO ARTS COUNCIL,
INC.
FRIENDS ASSOCIATION OF
SERVICES FOR THE
ELDERLY
FRIENDS OF CASTAIC
LAKE
FRIENDS OF ETHNIC ART
FRIENDS OF LA JOLLA
SHORES
FRIENDS OF LEVITT
PAVILION - GREATER LOS
ANGELES & PASADENA
FRIENDS OF LEVITT
PAVILION - GREATER LOS
ANGELES & PASADENA
FRIENDS OF LEVITT
PAVILION - GREATER LOS
ANGELES & PASADENA
FRIENDS OF LOS GATOS
PUBLIC LIBRARY
FRIENDS OF MOUNTAIN
VIEW CEMETERY
FRIENDS OF OVERLAND
SCHOOL
FRIENDS OF SAN JOSE
FRIENDS OF THE ANIMALS
IN THE REDWOOD EMPIRE
FRIENDS OF THE
CHOWCHILLA LIBRARY
FRIENDS OF THE
CHOWCHILLA LIBRARY

IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990-EZ
2010
IRS Form 990 2007
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990-EZ
2010
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990-EZ
2010
IRS Form 990 2005
IRS Form 990 2003

109
FRIENDS OF THE EASTERN
CALIFORNIA MUSEUM
FRIENDS OF THE EEL
RIVER
FRIENDS OF THE ISRAEL
DEFENSE FORCES
FRIENDS OF THE LOS
ANGELES RIVER
FRIENDS OF THE LOS
ANGELES RIVER
FRIENDS OF THE
MENDOCINO COAST
RECREATION AND PARK
DISTRICT
FRIENDS OF THE MERCED
COUNTY PUBLIC LIBRARY
FRIENDS OF THE RANCHO
BERNARDO BRANCH, SAN
DIEGO PUBLIC LIBRARY,
INC.
FRIENDS OF THE READING
PROGRAM
FRIENDS OF THE
REDWOOD LIBRARIES
FRIENDS OF THE SANTA
MARIA PUBLIC LIBRARY
FRIENDS OF THE SANTA
MARIA PUBLIC LIBRARY
FRIENDS OF THE SANTA
MARIA PUBLIC LIBRARY
FRIENDS OF THE SANTA
MARIA PUBLIC LIBRARY

IRS Form 990 2005
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2002

IRS Form 990 2008
IRS Form 990 2007

IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2007

110
FRIENDS OF THE SANTA
MARIA PUBLIC LIBRARY
FRIENDS OF THE SANTA
MARIA PUBLIC LIBRARY
FRIENDS OF THE
TRINITARIANS
FRIENDS OF THE
WATSONVILLE PUBLIC
LIBRARY
FRIENDS OF YAD SARAH,
INC.
FRIENDS OUTSIDE IN LOS
ANGELES COUNTY
FRONTIER GIRLS
FTM ALLIANCE OF LOS
ANGELES, INC.
FULFILLMENT FUND
FULLERTON EDUCATION
FOUNDATION
GATEHELP, INC.
GEMS FOR KIDS
GEOKIDS
GEYSERVILLE
VOLUNTEER
FIREFIGHTERS’
ASSOCIATION, INC.
GIRL SCOUTS OF
CALIFORNIA’S CENTRAL
COAST
GIRLS AFTER SCHOOL
ACADEMY

IRS Form 990 2005
IRS Form 990 2004
IRS Form 990-EZ
2011
IRS Form 990-EZ
2006
IRS Form 990 2012
IRS Form 990 2008
IRS Form 990-EZ
2007
RRF-1 2004
IRS Form 990 2011
IRS Form 990-EZ
2012
IRS Form 990-EZ
2008
IRS Form 990-EZ
2012
IRS Form 990 2010
IRS Form 990 2007

IRS Form 990 2006
IRS Form 990 2002

111
GIRLS INCORPORATED OF
ALAMEDA COUNTY
GIRLS INCORPORATED OF
ALAMEDA COUNTY
GIVE A DOG A BONE
GIVE A DOG A BONE
GIVE A DOG A BONE
GIVE A DOG A BONE
GIVE A DOG A BONE
GIVE A DOG A BONE
GIVE TO COLUMBIA
GLAUCOMA RESEARCH
AND EDUCATION GROUP
GLAUCOMA RESEARCH
AND EDUCATION GROUP
GLOBAL CITIZEN YEAR,
INC.
GLOBAL COLLEGE FOR
BEHAVIORAL
MODIFICATION
GLOBAL MAPPING
PROJECT INCORPORATED
GLOBAL WOMEN INTACT
GO CAMPAIGN
GO NEXT GENERATION
GOD SQUAD
PRODUCTIONS, INC.

IRS Form 990 2004
IRS Form 990 2003
IRS Form 990-EZ
2007
IRS Form 990-EZ
2006
IRS Form 990-EZ
2005
IRS Form 990-EZ
2009
IRS Form 990-EZ
2004
IRS Form 990-EZ
2003
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2010
IRS Form 990-EZ
2009
IRS Form 990 2006

112
GOKID.ORG, INC.
GOLDEN GATE RAILROAD
MUSEUM, INC.
GOLDEN GATE RAILROAD
MUSEUM, INC.
GOLDEN STATE LAND
CONSERVANCY
GOLETA VALLEY GIRLS
SOFTBALL ASSOCIATION
GOODWILL INDUSTRIES
OF THE REDWOOD EMPIRE
GOSPEL MESSENGERS
GOSPEL MESSENGERS
GRAND VISION
FOUNDATION
GRASSROOT SOCCER, INC.
GRASSROOT SOCCER, INC.
GRAZIDE ELEMENTARY
PTA
GREAT OAK ACADEMIC
LEADERSHIP SOCIETY
(“GOALS”)
GREATER BAY AREA
MAKE-A-WISH
FOUNDATION, INC.
GREENBELT
ALLIANCE/PEOPLE FOR
OPEN SPACE
GSH MINISTRIES, INC.
H.E.A.R.T.S. CONNECTION
HABITAT FOR HUMANITY
CALAVERAS

IRS Form 990-EZ
2010
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990-EZ
2009
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990-EZ
2012
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2009
IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2005

113
HABITAT FOR HUMANITY
OF GREATER LOS
ANGELES
HABITAT FOR HUMANITY
OF SONOMA COUNTY
HABITOT CHILDREN’S
MUSEUM
HAKONE FOUNDATION
HAMILTON FOUNDATION
HANDS 4 HUMANITY, INC.
HARC, INC.
HAROLD AND LIBBY ZIFF
FOUNDATION
HARRIS MYCFO
FOUNDATION, INC.
HARVARD BUSINESS
SCHOOL ASSN SO CALIF
SCHOLARSHIP...
HARVARD BUSINESS
SCHOOL ASSN SO CALIF
SCHOLARSHIP...
HAY FOUNDATION
HEALDSBURG FUTURE
FARMERS COUNTRY FAIR
HEALTH CONNECTED
HEALTH IMPROVEMENT
PARTNERSHIP OF SHASTA
HEALTH IMPROVEMENT
PARTNERSHIP OF SHASTA
HEALTH RESEARCH
ASSOCIATION, INC.

IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2009
Founding
Documents
IRS Form 990 2012
IRS Form 990 2008
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2002
IRS Form 990 2008
IRS Form 990 2009
IRS Form 990-EZ
2010
IRS Form 990 2007
IRS Form 990 2003
IRS Form 990 2006

114
HEALTHRIGHT 360
HEALTHRIGHT 360
HEATHER FARM GARDEN
CENTER ASSOCIATION,
INCORPORATED
HEATHER FARM GARDEN
CENTER ASSOCIATION,
INCORPORATED
HEATHER FARM GARDEN
CENTER ASSOCIATION,
INCORPORATED
HELKEINU FOUNDATION
HELP OF CARPINTERIA
HELPING HAND FOR
RELIEF AND
DEVELOPMENT INC
HEREDITARY DISEASE
FOUNDATION
HERITAGE COMMUNITY
HOUSING INC.
HERMOSA BEACH
FIREFIGHTERS
FOUNDATION
HIGHER GROUND FOR
HUMANITY
HIGHWAY 50 ASSOCIATION
HIS SHELTERING ARMS
INC.
HOLLYWOOD INDIES
LITTLE LEAGUE
HOLLYWOOD POLICE
ACTIVITIES LEAGUE

RRF-1 2008
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990-EZ
2010
IRS Form 990-EZ
2010
IRS Form 990 2008
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2005
IRS Form 990 2006

115
HOME OWNERSHIP MADE
EASY
HOMELESS CARE FORCE,
INCORPORATED
HOMELESS HEALTH CARE
LOS ANGELES
HOMICIDE VICTIMS
MEMORIAL FOUNDATION
HOOPS THAT HELP
HOPE INTERNATIONAL
HOPE TO ACTION
HOPE WORLDWIDE, LTD.
HORSEPLAY
THERAPEUTIC RIDING
CENTER
HORSES IN THE HOOD
HOSPICE OF AMADOR &
CALAVERAS
HOSPICE OF PALM BEACH
COUNTY FOUNDATION,
INC.
HOSPICE OF SANTA
BARBARA, INC.
HOUSE EAR INSTITUTE
HOUSING CORPORATION
OF AMERICA
HOUSING RIGHTS, INC.
HUMANE SOCIETY OF THE
NORTH BAY
HUMBOLDT SENIOR
RESOURCE CENTER,
INCORPORATED

IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990-EZ
2009
IRS Form 990 2005
IRS Form 990 2008
IRS Form 990 2011
IRS Form 990 2011
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2010
IRS Form 990 2004

116
HUMBOLDT SENIOR
RESOURCE CENTER,
INCORPORATED
ICAPS, INC.
ICAPS, INC.
ICLEI - LOCAL
GOVERNMENTS FOR
SUSTAINABILITY U.S.A.,
INC.
IEF EDUCATION
FOUNDATION
ILSI HEALTH AND
ENVIRONMENTAL
SCIENCES INSTITUTE
IN SPIRIT
INFACT DBA CORPORATE
ACCOUNTABILITY
INTERNATIONAL
INLAND TEMPORARY
HOMES
INNVISION SHELTER
NETWORK
INSPIRED LEGACIES
INSTITUTE FOR
EVIDENCE-BASED
CHANGE
INSTITUTE FOR THE
STUDY OF FAMILIES,
WORK, AND COMMUNITY
INTERNATIONAL ANIMAL
RESCUE, US
INTERNATIONAL
DEVELOPMENT

IRS Form 990 2003
IRS Form 990-EZ
2009
IRS Form 990 2007
IRS Form 990 2010

IRS Form 990 2012
IRS Form 990 2009
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2002
RRF-1 2007
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990-EZ
2010
IRS Form 990 2005

117
EXCHANGE
INTERNATIONAL
DEVELOPMENT
EXCHANGE
INTERNATIONAL
FOUNDATION FOR
APPLIED RESEARCH IN
THE NATURAL SCIENCES
INTERNATIONAL MEDICAL
CORPS
INTERNATIONAL
MUSICIANS’ RECORDING
FUND
INTERNATIONAL
POLYTECHNIC HIGH
SCHOOL FOUNDATION
INTERNATIONAL
PSORIASIS COMMUNITY,
INC.
INTERNATIONAL SOCIETY
FOR THE PROTECTION OF
MUSTANGS AND BURROS
INTERNATIONAL SOCIETY
OF AUTOMATION
INTERNATIONAL SPORTS
HEROES
INTERSTITIAL CYSTITIS
ASSOCIATION OF
AMERICA, INC.
INTERVAL HOUSE
IRIS CENTER: WOMEN’S
COUNSELING AND
RECOVERY SERVICES
ISRAEL VENTURE

IRS Form 990 2010
IRS Form 990 2007

IRS Form 990 2013
IRS Form 990 2005
IRS Form 990 2007
IRS Form 990 2005
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2012
IRS Form 990 2006
IRS Form 990 2009
IRS Form 990 2003

118
NETWORK
ISRAEL VENTURE
NETWORK
ISRAEL VENTURE
NETWORK
ITALIAN CULTURAL
SOCIETY
IYF
J PAUL GETTY TRUST
JAMES EMMI AND VELMA
W. EMMI FOUNDATION
JERRY RICE 127
FOUNDATION
JEWISH COMMUNITY
RELATIONS COUNCIL OF
SAN FRANCISCO, MARIN
AND THE PENINSULA
JEWISH FAMILY SERVICES
OF SILICON VALLEY
JOE GOODE
PERFORMANCE GROUP
JUI RAJADHYAKSHA
MEMORIAL FOUNDATION
JUNIOR ACHIEVEMENT OF
SAN DIEGO COUNTY, INC.
JUNIOR ACHIEVEMENT OF
SOUTHERN CALIFORNIA,
INC.
JUNIOR LEAGUE OF
BAKERSFIELD
JUST TRANSITION
ALLIANCE
KARA

IRS Form 990 2004
IRS Form 990 2006
IRS Form 990-EZ
2008
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2001
IRS Form 990 2004
IRS Form 990 2007

IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990-EZ
2011
IRS Form 990 2011

119
KEEP AMERICA
BEAUTIFUL INC
KERN ECONOMIC
DEVELOPMENT
CORPORATION
KETTLEMAN CITY
FOUNDATION
KETTLEMAN CITY
FOUNDATION
KETTLEMAN CITY
FOUNDATION
KETTLEMAN CITY
FOUNDATION
KETTLEMAN CITY
FOUNDATION
KETTLEMAN CITY
FOUNDATION
KID STOCK, INC.
KIDS 4 EVER, INC.
KIDS CHARITIES
KID’S HEADQUARTERS
KID’S HEADQUARTERS
KINGS MOUNTAIN
ASSOCIATED PARENTS,
INC.
KIWANIS CAL-NEV-HA
FOUNDATION
KIWANIS CAL-NEV-HA
FOUNDATION
KIWANIS CLUB OF
RANCHO MURIETA
FOUNDATION
KIWANIS CLUB OF SAN
JOSE, CALIFORNIA

IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2000
IRS Form 990 2005
RRF-1 2012
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2001
IRS Form 990-EZ
2010
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990-EZ
2008
IRS Form 990 2007

120
KLAAS KIDS FOUNDATION
KLAMATH RIVER INTERTRIBAL FISH AND WATER
COMMISSION
KLAMATH RIVER INTERTRIBAL FISH AND WATER
COMMISSION
KNIGHTS VALLEY
VOLUNTEER FIRE
DEPARTMENT
KNIGHTS VALLEY
VOLUNTEER FIRE
DEPARTMENT
KOINONIA FOSTER
HOMES, INC.
KOREA CREATIVE
CONTENT AGENCY
KOREA UNIFICATION
RESEARCH FOUNDATION
OF ORANGE SAN DIEGO,
INC.
KOREAN IMMIGRANT
WORKERS ADVOCATES OF
SOUTHERN CALIFORNIA
KOREATOWN YOUTH AND
COMMUNITY CENTER, INC.
KOREATOWN YOUTH AND
COMMUNITY CENTER, INC.
L.A.THEATRE WORKS
L.A.THEATRE WORKS
LA CASA DE SAN GABRIEL
COMMUNITY CENTER

IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2011
IRS Form 990-EZ
2010
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2009
IRS Form 990 2003
IRS Form 990 2003

121
LA JOLLA GOLDEN
TRIANGLE ROTARY CLUB
FOUNDATION
LA JOLLA MUSIC SOCIETY
LA POSADA OF LOS
ANGELES, INC.
LABOR PROJECT FOR
WORKING FAMILIES
LADIES BIKUR CHOLIM OF
LOS ANGELES
ESTABLISHED 1977
LAGUNA BEACH SENIORS,
INC.
LAKE TAHOE MARATHON,
INC.
LAKEWOOD MEALS ON
WHEELS
LANCASTER MUSEUM AND
PUBLIC ART FOUNDATION
LAO IU MIEN CULTURE
ASSOCIATION, INC.
LAS VECINAS
LATINO CENTER OF ART
AND CULTURE
LATINO DIABETES
ASSOCIATION
LATINO THEATRE
COMPANY
LEAGUE OF RESIDENTIAL
NEIGHBORHOOD
ADVOCATES
LEAGUE OF RESIDENTIAL
NEIGHBORHOOD
ADVOCATES

IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990-EZ
2011
IRS Form 990 2007
IRS Form 990 2001
IRS Form 990 2008
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2009
IRS Form 990-EZ
2009
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007

122
LEAGUE OF RESIDENTIAL
NEIGHBORHOOD
ADVOCATES
LEAGUE OF RESIDENTIAL
NEIGHBORHOOD
ADVOCATES
LEAGUE OF WOMEN
VOTERS OF CALIFORNIA
LEAGUE OF WOMEN
VOTERS OF CALIFORNIA
LEAGUE OF WOMEN
VOTERS OF SANTA
BARBARA
LEARNING FORUM
INTERNATIONAL
LEARNING THROUGH
DOING ADVENTURES
LEGACY BEHAVIORAL
SERVICES, INC.
LEUKEMIA RESEARCH
FOUNDATION, INC.
LEUKEMIA RESEARCH
FOUNDATION, INC.
LEVITT & QUINN FAMILY
LAW CENTER, INC.
LIBERTY GYMNASTICS
PARENT CLUB
LIFE MANAGEMENT
INSTITUTE
LIFE SAIL, INC.
LIFE SAIL, INC.
LIFE SAIL, INC.
LIFE SAIL, INC.
LIFE SAIL, INC.

IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990-EZ
2011
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990-EZ
2007
IRS Form 990 2000
IRS Form 990-EZ
2011
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003

123
LIGA INTERNATIONAL
LINC HOUSING
CORPORATION
LITHUANIAN NATIONAL
FOUNDATION, INC.
LIVE OAK HIGH SCHOOL
ATHLETIC BOOSTER CLUB,
INC.
LIVE OAK HIGH SCHOOL
ATHLETIC BOOSTER CLUB,
INC.
LIVING WATER
INTERNATIONAL
LIVINGHELP GROUP
LOBSTER THEATER
PROJECT, INC.
LOCAL 39 EDUCATIONAL
SCHOLARSHIP FUND
LOCKS OF LOVE INC
LOMA LINDA UNIVERSITY
PHYSICIANS MEDICAL
GROUP, INC.
LONG BEACH COMMUNITY
PLAYERS, INC.
LONG BEACH LESBIAN
AND GAY PRIDE, INC.
LONG BEACH SYMPHONY
ASSOCIATION,
INCORPORATED
LONG BEACH SYMPHONY
ASSOCIATION,
INCORPORATED

IRS Form 990 2006
IRS Form 990 2011
IRS Form 990 2005
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2011
IRS Form 990-EZ
2010
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2011
IRS Form 990 2011

124
LONG BEACH YOUTH
ACTIVITIES AND D.A.R.E.
INC.
LONG TERM CARE
OMBUDSMAN SERVICES
OF SAN LUIS OBISPO
COUNTY
LOS ANGELES COUNTY
BAR ASSOCIATION
CONTINUING LEGAL
EDUCATION, INC.
LOS ANGELES COUNTY
EDUCATION FOUNDATION
LOS ANGELES HILLEL
COUNCIL
LOS ANGELES
NEIGHBORHOOD
INITIATIVE
LOS ANGELES OPERA
COMPANY
LOS ANGELES POLICE K-9
FUND
LOS ANGELES POLICE K-9
FUND
LOS ANGELES POLICE K-9
FUND
LOS ANGELES UNIVERSAL
PRESCHOOL
LOS ANGELES WOMEN’S
SHAKESPEARE COMPANY
LOS ANGELES/VENTURA
CHAPTER ABC TRAINING
TRUST FUND
LOS GATOS COMMUNITY

IRS Form 990 2003
IRS Form 990 2005

IRS Form 990 2007

IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2002
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2009
IRS Form 990 2008

125
FOUNDATION, INC.
LOS PADRES FOREST
WATCH, INC.
LOS PADRES FOREST
WATCH, INC.
LOVE LITTLE CHILDREN,
INC.
LOVE RIDE FOUNDATION
LOVE RIDE FOUNDATION
LOVE RIDE FOUNDATION
LOVE RIDE FOUNDATION
LOVE RIDE FOUNDATION
LOWELL OBSERVATORY
LYTTON GARDENS SENIOR
COMMUNITIES
M.A.C.T. HEALTH BOARD,
INCORPORATED
M3 FOUNDATION
M3 FOUNDATION
MAJOR LEAGUE BASEBALL
PLAYERS TRUST
MAJOR LEAGUE BASEBALL
PLAYERS TRUST
MAKING HOPE HAPPEN
FOUNDATION
MAKING HOPE HAPPEN
FOUNDATION
MAKING HOPE HAPPEN
FOUNDATION
MAKING HOPE HAPPEN
FOUNDATION
MANTECA C.A.P.S.
CORPORATION

IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
Miscellaneous
Documents
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2003

126
MARANATHA
VOLUNTEERS
INTERNATIONAL, INC.
MARIN MUSEUM OF
CONTEMPORARY ART, INC.
MARIN OPEN SPACE
TRUST
MARINSPACE
MARPLE MANOR, INC.
MARSHALL-WYTHE
SCHOOL OF LAW
FOUNDATION
MARTIN LUTHER KING JR
CENTER SOCIALCHANGE
MARTIN TRUEX, JR.
FOUNDATION, INC.
MARY’S KITCHEN
MARY’S KITCHEN
MARY’S KITCHEN
MATTOLE RESTORATION
COUNCIL
MATTOLE SALMON GROUP
MAYACAMAS VILLAGE,
INC.
MAYFLOWER GARDENS II
MENDOCINO FOOD AND
NUTRITION PROGRAM
MENTORING - A TOUCH
FROM ABOVE
MERCY HOUSING
NORTHWEST
MERCY HOUSING
NORTHWEST-IDAHO, INC.

IRS Form 990 2006
IRS Form 990 2003
IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2011
IRS Form 990 2011
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2006

127
MERCY HOUSING, INC.,
WHICH WILL DO BUSINESS
IN CALIFORNIA AS
NEBRASKA MERCY
HOUSING, INC.
MERCY HOUSING, INC.,
WHICH WILL DO BUSINESS
IN CALIFORNIA AS
NEBRASKA MERCY
HOUSING, INC.
MERCY PROPERTIES
CALIFORNIA
MERRITT COMMUNITY
CAPITAL CORPORATION
MFI RECOVERY CENTER
MICHAEL AIELLO
MEMORIAL
AGRICULTURAL
SCHOLARSHIP FUND
MIDDLE AMERICAN
INSTITUTE, INC.
MIGRATION POLICY
INSTITUTE
MIND TREASURES
MIRACLES FOR KIDS, INC.
MISSION PRESERVATION
FOUNDATION
MISSIONARY KIDS
MINISTRIES, INC.
MOBILIZING AMERICA’S
YOUTH, INC.
MODESTO AFFILIATED
CHURCH HOUSING
CORPORATION

IRS Form 990 2011

IRS Form 990 2009

IRS Form 990 2007
IRS Form 990 2000
IRS Form 990 2008
Founding
Documents
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2003
IRS Form 990 2012
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2003

128
MONTEBELLO
FIREFIGHTERS
ASSOCIATION
MONTECITO FRIENDS OF
THE LIBRARY
MONTECITO TRAILS
FOUNDATION
MONTECITO TRAILS
FOUNDATION
MONTERERY COUNTY
SHERIFF’S ADVISORY
COUNCIL
MONTEREY COUNTY
SHERIFF’S POSSE
MONTEREY STATE
HISTORIC PARK
ASSOCIATION
MOSES HOUSE
MINISTRIES
MOSES HOUSE
MINISTRIES
MOSES HOUSE
MINISTRIES
MOSES HOUSE
MINISTRIES
MOSQUITO RESEARCH
FOUNDATION
MOUNT WILSON
INSTITUTE
MT. SAC AUXILIARY
SERVICES
MULTIPLE MYELOMA
RESEARCH FOUNDATION,
INC

IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990-EZ
2012
IRS Form 990 2006
IRS Form 990-EZ
2012
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990-EZ
2010

129
MUSEUM OF
CONTEMPORARY ART, SAN
DIEGO
MUSEUM OF
PERFORMANCE & DESIGN
MUSEUM OF
PERFORMANCE & DESIGN
MUSTANG SOCCER
LEAGUE, INC.
NAMI MONTEREY COUNTY
NAPA CITY FIREFIGHTERS
ASSOCIATION
NAPA SOLANO SANE/SART
NAPA VALLEY EDUCATION
FOUNDATION
NAPA VALLEY LITTLE
LEAGUE, INC.
NAPA VALLEY LITTLE
LEAGUE, INC.
NARCONON
INTERNATIONAL
NARRATIVE MAGAZINE,
INC.
NATIONAL ASSOCIATION
OF BLACK ACCOUNTANTS
NATIONAL ASSOCIATION
OF BLACK ACCOUNTANTS
NATIONAL ASSOCIATION
OF BLACK ACCOUNTANTS
NATIONAL ASSOCIATION
OF COLLEGE ADMISSIONS
COUNSELORS

IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2003
Miscellaneous
Documents
IRS Form 990 2009
IRS Form 990 2000
IRS Form 990-EZ
2010
IRS Form 990 2008
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2010

130
NATIONAL ASSOCIATION
OF STATE EMERGENCY
MEDICAL SERVICES
DIRECTORS
NATIONAL CAPTIONING
INSTITUTE, INC.
NATIONAL CAPTIONING
INSTITUTE, INC.
NATIONAL CENTER FOR
STATE COURTS
NATIONAL CHARITY
LEAGUE, INC., PALM
SPRINGS CHAPTER
NATIONAL HISPANA
LEADERSHIP INSTITUTE
NATIONAL HOUSING
CORPORATION
NATIONAL LATINO PEACE
OFFICERS ASSOCIATION
NATIONAL LIFE CENTER,
INC.
NATIONAL SAFETY
COUNCIL
NATIVE DIRECTIONS, INC.
NAVY LEAGUE OF THE
UNITED STATES
NCB CAPITAL IMPACT
NEGATIVE POPULATION
GROWTH, INC.
NEHEMIAH CORPORATION
OF AMERICA
NESTLDOWN
THERAPEUTIC RIDING
CENTER

IRS Form 990 2006

IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2009
Founding
Documents
IRS Form 990-EZ
2008
IRS Form 990 2003
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2011
IRS Form 990 2007
Founding
Documents

131
NETZ 4 LIFE INC.
NEW DIRECTIONS FOR
WOMEN FOUNDATION
NEW DOOR VENTURES
NEW EDUCATION OPTIONS
NEW HOPE FOR ANIMALS
FOUNDATION
NEW VILLAGE ARTS, INC.
NEW VISION PARTNERS,
INC.
NEW WAYS TO WORK PALO
ALTO
NEW WEST SYMPHONY
ASSOCIATION
NEW YORK PUBLIC RADIO
NEW YORK PUBLIC RADIO
NEWPEAK FOUNDATION
NEWPORT BEACH LITTLE
LEAGUE
NEXT VISTA FOR
LEARNING
NIHONMACHI LITTLE
FRIENDS
NINE GIRLS ASK
NIPOMO AREA
RECREATION
ASSOCIATION, INC.
NIRVANA DRUG AND
ALCOHOL TREATMENT
PROGRAM
NIRVANA DRUG AND
ALCOHOL TREATMENT
PROGRAM

IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990-EZ
2011
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2002
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2010
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990-EZ
2011
IRS Form 990 2010
IRS Form 990 2004
IRS Form 990 2003

132
NISEI WEEK FOUNDATION
NISHKAAM FOUNDATION
NITHYANANDA
FOUNDATION
NOBLIS INC
NOMADS SOCCER CLUB
NORCAL THINK PINK, INC.
NORTH AMERICAN
EDUCATIONAL
FOUNDATION
NORTH AMERICAN
EDUCATIONAL
FOUNDATION
NORTH AMERICAN
EDUCATIONAL
FOUNDATION
NORTH HOLLYWOOD
SENIOR CITIZENS
TOWERS, INC.
NORTH LAKE TAHOE
RESORT ASSOCIATION,
INC.
NORTH OF MARKET
NEIGHBORHOOD
IMPROVEMENT
CORPORATION
NORTH VALLEY
SPONSORING COMMITTEE,
A CALIFORNIA NONPROFIT
CORPORATION
NORTHERN CALIFORNIA
EQUINE FOUNDATION

IRS Form 990-EZ
2009
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2007

IRS Form 990-EZ
2011
IRS Form 990 2009

133
NORTHERN CALIFORNIA
PLANNED GIVING
COUNCIL
NORTHWEST HEALTH
CENTER OF SANTA MARIA,
CA
NORTHWOOD LITTLE
LEAGUE, INC.
NTC FOUNDATION
NTC FOUNDATION
NTC FOUNDATION
OAKLAND COMMUNITY
HOUSING, INC.
OAKLAND METHODIST
FOUNDATION
OBA, INC.
OCCUR
OCEAN FUTURES SOCIETY,
INC.
OCEANSIDE HIGH SCHOOL
FOUNDATION
OFFICE OF THE AMERICAS
OJAI VALLEY LIBRARY
FRIENDS AND
FOUNDATION, INC.
OLD SKOOL CAFE
OLIN VIRTUAL ACADEMY
OLIN VIRTUAL ACADEMY
OLYMPIC RHF HOUSING,
INC.
ONE LA-IAF

IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2005
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990-EZ
2009
IRS Form 990-EZ
2012
IRS Form 990 2008
Founding
Documents
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990-EZ
2009

134
OPERA PICCOLA
OPERATION GRATITUDE,
INC.
OPERATION YOUTH
EDUCATIONAL SERVICES
ORACLE EDUCATION
FOUNDATION
ORANGE COUNTY ASIAN
AND PACIFIC ISLANDER
COMMUNITY ALLIANCE,
INC.
ORANGE COUNTY
MUSEUM OF ART
ORANGE COUNTY OPERA
ORANGE COUNTY’S
UNITED WAY
ORGANIZACION EN
CALIFORNIA DE LIDERES
CAMPESINAS, INC.
ORGANIZATION OF
HUMANITARIAN SERVICE
FOR ARMENIA
OUTDOOR RECREATION
HERITAGE FUND, INC.
OUTSIDE THE BOWL
OVERSEAS MEDICAL AND
HEALTH EDUCATION
FOUNDATION
OXFAM-AMERICA INC
OXFAM-AMERICA INC
OXNARD CONVENTION &
VISITORS BUREAU
PACIFIC AVIATION

IRS Form 990 2004
RRF-1 2006
IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2006

IRS Form 990 2011
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2011
IRS Form 990 2009
IRS Form 990-EZ
2009
IRS Form 990-EZ
2010
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2010

135
MUSEUM PEARL HARBOR
PACIFIC AVIATION
MUSEUM PEARL HARBOR
PACIFIC CLINICS
FOUNDATION.
PACIFIC COUNCIL ON
INTERNATIONAL POLICY
PACIFIC LODGE YOUTH
SERVICES, INC.
PACIFIC MANOR, INC.
PALO ALTO VETERANS
INSTITUTE FOR RESEARCH
PARENT PROJECT FOR
MUSCULAR DYSTROPHY
RESEARCH, INC.
PARKINSON RESEARCH
FOUNDATION, INC
PASADENA KIWANIS
FOUNDATION
PASADENA KIWANIS
FOUNDATION
PASADENA KIWANIS
FOUNDATION
PASADENA KIWANIS
FOUNDATION
PASO ROBLES MAIN
STREET, INC.
PATHPOINT
PATHPOINT
PATRIARCH
ATHENAGORAS
ORTHODOX INSTITUTE

IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2006
IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2005

136
PATTERSON RECOGNIZING
INDIVIDUALS
DETERMINED TO EXCEL,
INC.
PEACE OFFICERS’ RELIEF
AND EDUCATION
FOUNDATION
PEACEFUL VALLEY
DONKEY RESCUE, INC.
PEACEFUL VALLEY
DONKEY RESCUE, INC.
PEARL S. BUCK
INTERNATIONAL INC.
PEARL S. BUCK
INTERNATIONAL INC.
PENINSULA BEACH
PRESERVATION GROUP,
INC.
PENINSULA COMMUNITY
SERVICES, INC.
PENINSULA CONFLICT
RESOLUTION CENTER
PENNINGTON DANCE
GROUP
PEOPLE OF PROGRESS,
INC.
PERFORMING ARTS
CENTER OF LOS ANGELES
COUNTY
PERFORMING ARTS
CENTER OF LOS ANGELES
COUNTY
PESTICIDE ACTION
NETWORK NORTH
AMERICA REGIONAL

IRS Form 990-EZ
2008
IRS Form 990 2012
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990-EZ
2010
IRS Form 990 2011
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2010

137
CENTER
PET ADOPTION LEAGUE,
INC.
PET PROJECT
FOUNDATION, INC.
PHCC EDUCATIONAL
FOUNDATION
PHOENIX HOUSE ORANGE
COUNTY, INC.
PHOENIX HOUSES OF LOS
ANGELES, INC.
PIEDMONT GPS
ORGANIZATION
PIKE CITY VOLUNTEER
FIRE DEPARTMENT
PINE RIDGE ASSOCIATION
PLANNED PARENTHOOD
ACTION FUND OF THE
PACIFIC SOUTHWEST.
PLUMAS-EUREKA STATE
PARK ASSOCIATION
POLARIS PROJECT
POODLES AND PALS OF
SOUTHERN CALIFORNIA
POPULATION
COMMUNICATION
POPULATION MEDIA
CENTER, INC.
POPULATION RESOURCE
CENTER INC C/O
KATHLEEN BONIFILIO L
POSITIVE DIRECTIONS
EQUALS CHANGE, INC.

IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2011
Founding
Documents
RRF-1 2013
IRS Form 990-EZ
2005
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2004
IRS Form 990 2008
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990 2003

138
POTTER VALLEY
COMMUNITY PARKS AND
RECREATION
POWAY UNIFIED SCHOOL
DISTRICT FOUNDATION
PRADER-WILLI
CALIFORNIA FOUNDATION
PRENTICE AND PAUL SACK
PHOTOGRAPHIC TRUST
PRESCOTT-JOSEPH
CENTER FOR COMMUNITY
ENHANCEMENT, INC.
PRESENTE ACTION
PRESIDIO HISTORICAL
ASSOCIATION
PRESIDIO HISTORICAL
ASSOCIATION
PRESIDIO HISTORICAL
ASSOCIATION
PRESIDIO HISTORICAL
ASSOCIATION
PRIMER PASO INSTITUTE,
INC.
PROJECT MANAGEMENT
INSTITUTE EDUCATIONAL
FOUNDATION
PROJECT SANCTUARY,
INC.
PROJECT SAVING GRACE
PROJECT SECOND
CHANCE, INC.
PROVIDING LAUGHTER
AND AMUSEMENT FOR

IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2007
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2009
IRS Form 990-EZ
2004
IRS Form 990 2005
IRS Form 990-EZ
2009

139
YOUTH
PSYCHOGENIC RESEARCH
PUBLIC MEDIA CENTER
PUBLIC MEDIA CENTER
RACHEL’S VINEYARD
MINISTRIES
RAGEJAX FOUNDATION
RAINBOW FAMILY, INC.
RANCHO SANTA FE
LIBRARY GUILD
RAPE TRAUMA SERVICES
REACH OUT WEST END
REACH OUT WEST END
READING AND BEYOND
READING AND BEYOND
READING TO KIDS
REBUILDING TOGETHER
EAST BAY-NORTH
REDLANDS COMMUNITY
FOUNDATION
REDLANDS DISTRICT
HUMANE SOCIETY
REDLANDS DISTRICT
HUMANE SOCIETY
REDONDO BEACH
CHAMBER OF COMMERCE
COMMUNITY FOUNDATION
REDWOOD PARKS
ASSOCIATION
REDWOODS RURAL
HEALTH CENTER,
INCORPORATED

IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2013
RRF-1 2004
IRS Form 990-EZ
2010
IRS Form 990 2011
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2004

140
REFLECTIVE IMAGE, INC.
REGIONAL CENTER OF
ORANGE COUNTY, INC.
REGIONAL CENTER OF
ORANGE COUNTY, INC.
REHABILITATION CENTER
FOR BRAIN DYSFUNCTION,
INC.
RELIEF INTERNATIONAL
RENAISSANCE
ENTREPRENEURSHIP
CENTER
REPRODUCTIVE HEALTH
CARE CENTER
RESQCATS
RESTORE - A RENEWAL
CENTER FOR WOMEN, INC.
RHF FOUNDATION, INC.
RICHMOND POLICE
ACTIVITIES LEAGUE, INC.
RINCON DE LOS ESTEROS,
INC.
RIVER CITY RECOVERY
CENTER, INC.
RIVER CITY RESIDENTIAL
CLUB, INC.
RIVERSIDE CHILDREN’S
THEATRE
RIVERSIDE-SAN
BERNARDINO COUNTY
INDIAN HEALTH, INC.
ROBERT WELCH
UNIVERSITY
ROTARY CLUB OF

IRS Form 990 2005
IRS Form 990 2007
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2007
IRS Form 990-EZ
2011
IRS Form 990 2003
IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2003
IRS Form 990-EZ
2010
IRS Form 990 2003

141
CORONADO
ROTARY CLUB OF
WOODLAND SUNRISE
ROTARY DISTRICT 5150
CHARITABLE
FOUNDATION
ROTARY DISTRICT 5240
CHARITABLE
FOUNDATION
ROTARY DISTRICT 5240
CHARITABLE
FOUNDATION
RURAL MEDIA ARTS AND
EDUCATION PROJECT
RURAL MEDIA ARTS AND
EDUCATION PROJECT
RURAL MEDIA ARTS AND
EDUCATION PROJECT
RURAL SCHOOL AND
COMMUNITY TRUST
SACRAMENTO CALIFORNIA
- BIKERS AGAINST CHILD
ABUSE, INC.
SACRAMENTO HOUSING
ALLIANCE
SACRAMENTO HOUSING
ALLIANCE
SACRAMENTO MEDICAL
SCHOLARSHIP FUND
SACRAMENTO REGION
PERFORMING ARTS
ALLIANCE
SACRAMENTO REGIONAL
SCIENCE AND

IRS Form 990 2005
IRS Form 990-EZ
2013
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990-EZ
2009
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2003

142
ENGINEERING FAIR
FOUNDATION
SACRAMENTO REGIONAL
SCIENCE AND
ENGINEERING FAIR
FOUNDATION
SACRAMENTO REGIONAL
SCIENCE AND
ENGINEERING FAIR
FOUNDATION
SACRED HEART
COMMUNITY SERVICE
SAFE REFUGE
SAFEQUEST, SOLANO
SAKURA KAI
SALINAS JAYCEES
FOUNDATION, INC.
SALMONID RESTORATION
FEDERATION
SALTON SEA BEACH
VOLUNTEER FIRE
DEPARTMENT
SALTON SEA
INTERNATIONAL BIRD
FESTIVAL, INC.
SAM AND GERTA BENNETT
FOUNDATION
SAM SCHMIDT
FOUNDATION
SAMARITAN COUNSELING
CENTER
SAN ANTONIO
COMMUNITY
REVITALIZATION, INC.

IRS Form 990 2002

IRS Form 990-EZ
2011
IRS Form 990 2001
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990-EZ
2010
IRS Form 990 2005
IRS Form 990 2001
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2007

143
SAN CARLOS
EDUCATIONAL
FOUNDATION
SAN CARLOS
EDUCATIONAL
FOUNDATION
SAN CARLOS
EDUCATIONAL
FOUNDATION
SAN CARLOS
EDUCATIONAL
FOUNDATION
SAN CARLOS
EDUCATIONAL
FOUNDATION
SAN DIEGO ADAPTIVE
SPORTS FOUNDATION
SAN DIEGO BOWL GAME
ASSOCIATION
SAN DIEGO CHINESE
HISTORICAL SOCIETY AND
MUSEUM
SAN DIEGO COUNTY BAR
FOUNDATION
SAN DIEGO COUNTY BAR
FOUNDATION
SAN DIEGO COUNTY BAR
FOUNDATION
SAN DIEGO COUNTY BAR
FOUNDATION
SAN DIEGO COUNTY BAR
FOUNDATION
SAN DIEGO FINE ART
SOCIETY

IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2009
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990-EZ
2008

144
SAN DIEGO FOUNDATION
FOR CHANGE
SAN DIEGO HOUSING
FEDERATION
SAN DIEGO HUMAN
DIGNITY FOUNDATION
SAN DIEGO INTERFAITH
HOUSING FOUNDATION
SAN DIEGO OPERA
ASSOCIATION
ENDOWMENT TRUST
SAN DIEGO YOUTH
SYMPHONY AND
CONSERVATORY
SAN DIEGUITO HERITAGE
MUSEUM
SAN DIEGUITO RIVER
VALLEY LAND
CONSERVANCY
SAN DIEGUITO RIVER
VALLEY LAND
CONSERVANCY
SAN FRANCISCO ADULT
DAY SERVICES NETWORK
SAN FRANCISCO ARTS
EDUCATION PROJECT
SAN FRANCISCO ARTS
EDUCATION PROJECT
SAN FRANCISCO BOYS
CLUB ENDOWMENT TRUST
SAN FRANCISCO CHILD
ABUSE PREVENTION
CENTER
SAN FRANCISCO CLEAN

IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2012
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2011
IRS Form 990 2006

145
CITY COALITION
SAN FRANCISCO FORTY
NINERS FOUNDATION
SAN FRANCISCO LYRIC
CHORUS
SAN FRANCISCO
MARITIME NATIONAL
PARK ASSOCIATION
SAN FRANCISCO WOMEN’S
CENTERS
SAN GABRIEL VALLEY
TRAINING CENTER
RESIDENTIAL FACILITY
SAN GERONIMO VALLEY
COMMUNITY CENTER
SAN GERONIMO VALLEY
COMMUNITY CENTER
SAN JOAQUIN COUNTY
HISTORICAL SOCIETY
SAN JOAQUIN COUNTY
SHERIFF’S FOUNDATION
SAN JOAQUIN VALLEY
FOUNDATION, INC.
SAN JOSE FIREFIGHTERS
BURN FOUNDATION, INC.
SAN JOSE GRAIL FAMILY
SERVICES
SAN JOSE STATE
UNIVERSITY HOSPITALITY
ADVISORY BOARD
SAN LUIS OBISPO COUNTY
AGRICULTURAL
EDUCATION COMMITTEE,
INC.

IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2009
IRS Form 990 2003
IRS Form 990-EZ
2011
IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2005
IRS Form 990 2006

146
SAN LUIS OBISPO COUNTY
AIDS SUPPORT NETWORK
SAN LUIS OBISPO
MOTHERS FOR PEACE, INC.
SAN MARINO ROTARY
CHARITIES
SAN MATEO COUNTY
COMMUNITY COLLEGES
FOUNDATION
SAN MATEO HIGH SCHOOL
FOUNDATION
SAN MATEO HIGH SCHOOL
FOUNDATION
SAN PASQUAL ACADEMY
FOUNDATION
SAN PASQUAL SCHOOL
FOUNDATION
SAN RAMON ARTS
FOUNDATION
SAN RAMON HISTORIC
FOUNDATION
SAN RAMON VALLEY HIGH
SCHOOL ATHLETIC
BOOSTER CLUB, INC.
SAN RAMON VALLEY HIGH
SCHOOL ATHLETIC
BOOSTER CLUB, INC.
SAN RAMON VALLEY HIGH
SCHOOL ATHLETIC
BOOSTER CLUB, INC.
SAN RAMON VALLEY HIGH
SCHOOL ATHLETIC
BOOSTER CLUB, INC.
SANTA ANA IMMIGRATION

IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2011
IRS Form 990-EZ
2011
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
Miscellaneous

147
AND TAX SERVICE
SANTA BARBARA
BASEBALL PARENTS
ASSOCIATION
SANTA BARBARA
INTERNATIONAL FILM
FESTIVAL, INC.
SANTA BARBARA
MARITIME MUSEUM
SANTA BARBARA
VOLLEYBALL CLUB
SANTA CLARA COUNTY
SOCIAL ADVOCATES FOR
YOUTH
SANTA CLARA COUNTY
SOCIAL ADVOCATES FOR
YOUTH
SANTA CLARA COUNTY
SOCIAL ADVOCATES FOR
YOUTH
SANTA CLARITA VALLEY
FOOD PANTRY
SANTA CLAUS, INC. OF
GREATER SAN
BERNARDINO
SANTA LUCIA
CONSERVANCY
SANTA MARIA MUSEUM OF
FLIGHT, INC.
SANTA ROSA COMMUNITY
MEDIA ACCESS CENTER,
INC.
SANTA ROSA YOUTH
SOCCER LEAGUE

Documents
IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2011
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2010
IRS Form 990 2006

148
SANTA YNEZ VALLEY
HISTORICAL SOCIETY
SARATOGA FOOTHILL
CLUB HISTORIC
LANDMARK FOUNDATION
SARATOGA FOOTHILL
CLUB HISTORIC
LANDMARK FOUNDATION
SATURDAY AFTERNOON
CLUB OF SANTA ROSA
SATURDAY AFTERNOON
CLUB OF SANTA ROSA
SAUSALITO ROTARY
EDUCATIONAL
SCHOLARSHIP FUND
SAUSALITO WOMAN’S
CLUB SCHOLARSHIP
RECOGNITION FUND
SCHUMAN-LILES CLINIC,
INC.
SCLERODERMA
FOUNDATION/SOUTHERN
CALIFORNIA CHAPTER
SCRIPPS RANCH
FOOTBALL BOOSTER
CLUB, INC.
SCT CHARITIES
SEA STUDIOS
FOUNDATION
SEALIFE CONSERVATION,
INC.
SEAVIEW COUNSELING,
INC.

IRS Form 990 2011
IRS Form 990-EZ
2006
IRS Form 990-EZ
2012
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990-EZ
2010
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990-EZ
2011
IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2005

149
SEAVIEW COUNSELING,
INC.
SECOND CHANCE 4 PETS
SECOND CHANCE 4 PETS
SEEING EYE, INC.
SENIOR AFFORDABLE
HOUSING CORP. NO. 1
SENIOR AFFORDABLE
HOUSING CORP. NO. 1
SENIOR AFFORDABLE
HOUSING CORP. NO. 1
SENIOR AFFORDABLE
HOUSING CORP. NO. 2
SENIOR NUTRITION
PROGRAM OF SAN LUIS
OBISPO COUNTY
SEQUOIA FOUNDATION
SERVICES FOR BRAIN
INJURY
SEW PRODUCTIONS, INC.
SHAKESPEARE AT PLAY,
INC.
SHAKESPEARE AT PLAY,
INC.
SHAKESPEARE AT PLAY,
INC.
SHAKESPEARE--SAN
FRANCISCO
SHAWNINGAN U.S.A. FUND
SHEEN EDUCATIONAL
FOUNDATION
SHINE ON SIERRA LEONE,
INC.
SIERRA HEALTH

IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2008
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2012
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2012
IRS Form 990 2011
IRS Form 990 2005

150
FOUNDATION
SIERRA HOPE
SIERRA MONO MUSEUM
SILICON VALLEY
INDEPENDENT LIVING
CENTER
SILICON VALLEY
TECHNOLOGY
SCHOLARSHIP FUND
SILVER BUFFALO
SIMI VALLEY DAYS
FOUNDATION
SINGLE MOTHERS
OUTREACH, INC.
SISKIYOU FAMILY YMCA,
INC.
SKY LAKES MEDICAL
CENTER FOUNDATION,
INC.
SKY LAKES MEDICAL
CENTER FOUNDATION,
INC.
SKYLIGHT THEATRE
COMPANY
SKYLINE POP WARNER
FOOTBALL YOUTH
ASSOCIATION INC.
SOAR FOUNDATION FOR
RESEARCH AND
EDUCATION
SOCCER FOR HOPE
SOCIEDADE FILARMONICA
‘NOVA ALIANCA’

IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990-EZ
2011
IRS Form 990 2004
IRS Form 990 2009
RRF-1 2002
RRF-1 2001
IRS Form 990 2006
IRS Form 990 2000
IRS Form 990-EZ
2011
IRS Form 990-EZ
2010
IRS Form 990 2002

151
SOCIETY FOR NEW
COMMUNICATIONS
RESEARCH
SOCIETY OF AUTOMOTIVE
ENGINEERS, INC.
SOJOURN TO THE PAST
SOJOURN TO THE PAST
SOJOURN TO THE PAST
SONOMA VALLEY TEEN
SERVICES
SOROPTIMIST
INTERNATIONAL-BIDWELL
RANCHO
SOUTH CENTRAL
SCHOLARS FOUNDATION
SOUTH LAKE FIRE SAFE
COUNCIL, INC.
SOUTH LAKE FIRE SAFE
COUNCIL, INC.
SOUTH OF MARKET
MERCHANTS’ AND
INDIVIDUALS’ LIFESTYLE
EVENTS
SOUTH OF MARKET
MERCY HOUSING
SOUTHERN CALIFORNIA
ALCOHOL AND DRUG
PROGRAMS, INC.
SOUTHERN EXPOSURE
SOUTHERN SIERRA
COUNCIL OF BOY SCOUTS
OF AMERICA
SOUTHERN SIERRA
COUNCIL OF BOY SCOUTS

IRS Form 990 2012
IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2008

IRS Form 990 2008
IRS Form 990 2001
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2008

152
OF AMERICA
SOUTHERN SIERRA
COUNCIL OF BOY SCOUTS
OF AMERICA
SOUTHERN SIERRA
COUNCIL OF BOY SCOUTS
OF AMERICA
SOUTHWEST RESEARCH
INSTITUTE
SPECIAL PARENTS
INFORMATION NETWORK
OF SANTA CRUZ COUNTY
SPINAL MUSCULAR
ATROPHY FOUNDATION
ST. CECILIA SOCIETY OF
SANTA BARBARA
ST. GEORGE’S
PATHFINDERS
ST. GEORGE’S
PATHFINDERS
ST. HOPE ACADEMY
ST. JOHN’S VOLUNTEERS
ST. MARY’S FOUNDATION
STAND! FOR FAMILIES
FREE OF VIOLENCE
STANDING FOR FAMILIES
STANLEY W. STREW
EDUCATIONAL FUND, INC.
STEWARDSHIP
FOUNDATION
STOCKTON YMI ELDERLY
HOUSING

IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2002
IRS Form 990 2001
IRS Form 990 2010
IRS Form 990 2004
IRS Form 990-EZ
2009
Founding
Documents
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990 2005

153
STROKE RECOVERY
CENTER
SUB CITY
SUNNYVALE HISTORICAL
SOCIETY AND MUSEUM
ASSOCIATION, INC.
SUNNYVALE LIFE, INC.
SUNRISE COMMUNITY
OUTREACH CENTER, INC.
SUNSET CULTURAL
CENTER
SUNSET CULTURAL
CENTER
SURF DEVELOPMENT
COMPANY
SUTTER AUBURN FAITH
HOSPITAL FOUNDATION
SUTTER SOLANO
CHARITABLE
FOUNDATION
SWEENEY YOUTH HOMES,
INC.
SWORDS TO PLOWSHARES:
VETERANS RIGHTS
ORGANIZATION
TARGET EARTH
INTERNATIONAL
TAYLOR METHODIST
HOUSING, INC.
TEACH WITH AFRICA
TECHSOUP GLOBAL
TELACU HOUSINGBALDWIN PARK, INC.

IRS Form 990 2011
IRS Form 990-EZ
2011
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2011
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2010
IRS Form 990 2003
IRS Form 990 2000
IRS Form 990 2012
IRS Form 990 2011
IRS Form 990 2007

154
TELACU HOUSINGCOMMERCE II, INC.
TELACU HOUSINGPASADENA, INC.
TELACU MANOR, INC.
THANKS USA
THE AESTHETIC SURGERY
EDUCATION AND
RESEARCH FOUNDATION
THE AKC HUMANE FUND
INC
THE AMERICAN COLLEGE
OF TRUST AND ESTATE
COUNSEL FOUNDATION
THE AMERICAN COLLEGE
OF TRUST AND ESTATE
COUNSEL FOUNDATION
THE AMERICAN COLLEGE
OF TRUST AND ESTATE
COUNSEL FOUNDATION
THE AMERICAN COLLEGE
OF TRUST AND ESTATE
COUNSEL FOUNDATION
THE AMERICAN HEAD AND
NECK SOCIETY, INC.
THE ANDY VARGAS
SCHOLARSHIP
FOUNDATION
THE ANIMAL GUARDIAN
SOCIETY
THE ANTAEUS COMPANY
THE ARMENIAN DENTAL
SOCIETY OF CALIFORNIA
THE ARTHRITIS

IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990-EZ
2010
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2002
IRS Form 990 2009

155
FOUNDATION, INC.
THE ARTIVIST
COLLECTIVE
THE ASSUMPTION
FOUNDATION
THE ASSUMPTION
FOUNDATION
THE BLINDNESS
FOUNDATION
THE BREAST CANCER
RESOURCE CENTER OF
SANTA BARBARA
THE BRET SABERHAGEN
MAKE A DIFFERENCE
FOUNDATION
THE BRITISH HOME IN
CALIFORNIA, LTD.
THE BULLIS-PURISSIMA
ELEMENTARY SCHOOL
FOUNDATION
THE C G JUNG INSTITUTE
OF SAN FRANCISCO
THE CALIFORNIA
SPORTFISHING
PROTECTION ALLIANCE
THE CANYON CLUB, INC.
THE CAT CONNECTION
THE CENTER FOR
ENVIRONMENTAL
STRUCTURE FOUNDATION,
INC.
THE CENTER FOR JEWISH
CAMPUS LIFE, INC.

IRS Form 990 2010
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2011
IRS Form 990 2004
IRS Form 990 2012
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2005

IRS Form 990 2010

156
THE CENTER FOR
LIBERTARIAN STUDIES,
INC.
THE CHARLES R. DREW
MEDICAL SOCIETY OF LOS
ANGELES, INC.
THE CIRCLE OF CONCERN,
INC.
THE COACHELLA VALLEY
DESERT VISIONAIRES
THE COACHELLA VALLEY
DESERT VISIONAIRES
THE COALITION FOR
SUSTAINABLE
TRANSPORTATION
THE COMMON FIRE
FOUNDATION
THE COMMUNITY BOARD
PROGRAM
THE COMMUNITY BOARD
PROGRAM
THE CORONADO SCHOOLS
FOUNDATION
THE CORONADO SCHOOLS
FOUNDATION
THE DEAFNESS RESEARCH
FOUNDATION
THE DON DIEGO
SCHOLARSHIP
FOUNDATION
THE DREAMPOWER
FOUNDATION
THE ECONOMIC
PROSPERITY COUNCIL OF

IRS Form 990 2002
RRF-1 2000
IRS Form 990-EZ
2010
IRS Form 990 2007
IRS Form 990 2002
IRS Form 990 2005
IRS Form 990 2012
IRS Form 990 2008
IRS Form 990 2005
IRS Form 990 2009
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990-EZ
2009
IRS Form 990-EZ
2013

157
TUOLUMNE COUNTY
THE ELLIOTT FAMILY
FOUNDATION
THE EMBERY INSTITUTE
FOR WILDLIFE
CONSERVATION
THE ENVIRONMENTAL
HEALTH COALITION
THE ENVIRONMENTAL
HEALTH COALITION
THE ENVIRONMENTAL
HEALTH COALITION
THE ESCHATON
FOUNDATION
THE FAMILY VIOLENCE
PROJECT
THE FORGOTTEN DOG
FOUNDATION
THE FOR-SITE
FOUNDATION
THE FOR-SITE
FOUNDATION
THE FOR-SITE
FOUNDATION
THE FOSTER FAMILY
FOUNDATION
THE FOUNDATION FOR
ADVANCEMENTS IN
SCIENCE AND EDUCATION
THE FOUNDATION FOR
AIDS RESEARCH
THE FOUNDATION FOR
AIDS RESEARCH

IRS Form 990 2003
IRS Form 990-EZ
2010
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2012
IRS Form 990 2009
IRS Form 990-EZ
2012
IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2003
IRS Form 990 2006
IRS Form 990 2003

158
THE FOUNDATION OF
PALM SPRINGS UNIFIED
SCHOOL DISTRICT
THE FREEDOM WRITERS
FOUNDATION
THE FREEDOM WRITERS
FOUNDATION
THE GARDEN HOUSE
WORKSHOP, INC.
THE GARDEN PROJECT
THE GENERAL
ASSOCIATION OF THU-DUC
& NAM-DINH FORMER
OFFICERS, INC.
THE GENTLE BARN
FOUNDATION
THE GENTLE BARN
FOUNDATION
THE GENTLE BARN
FOUNDATION
THE GENTLE BARN
FOUNDATION
THE GENTLE BARN
FOUNDATION
THE GLENWOOD SCHOOL
FOUNDATION
THE GOOD NEIGHBORS
CLUB OF DEL PASO
HEIGHTS, CALIFORNIA
THE HARMONY PROJECT
THE HARMONY PROJECT
THE HARMONY PROJECT
THE HEMET POLICE
ACTIVITIES LEAGUE, INC.

RRF-1 2009
IRS Form 990 2003
IRS Form 990 2002
RRF-1 2009
IRS Form 990 2005
IRS Form 990 2006

IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2006
IRS Form 990 2002
RRF-1 2001
RRF-1 2000
IRS Form 990 2004

159
THE HOPE STREET GROUP
THE INSTITUTE FOR LAW
AND POLICY PLANNING
THE INSTITUTE FOR LAW
AND POLICY PLANNING
THE INSTITUTE OF
CULTURAL AFFAIRS
THE INTERNATIONAL
ASSOCIATION OF CANCER
VICTORS AND FRIENDS
THE IRISH ARTS
FOUNDATION
THE JAPAN SOCIETY OF
NORTHERN CALIFORNIA
THE JASON PROJECT
THE JEWISH COMMUNITY
FREE CLINIC
THE JUSTICE PROJECT,
INC.
THE KIDS’ BREAKFAST
CLUB
THE KILGORIS PROJECT
THE LACE MUSEUM, INC.
THE LANTERMAN
HISTORICAL MUSEUM
FOUNDATION
THE LAURASIAN
INSTITUTION
THE LAZARUS PROJECT,
INC.
THE LINDEN CENTER
THE LINKS, SACRAMENTO
CHAPTER

IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2003
IRS Form 990 2000
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2009
IRS Form 990-EZ
2011
IRS Form 990 2000
IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990-EZ
2010

160
THE LYCEUM OF
MONTEREY COUNTY
THE MARCH FIELD
MUSEUM FOUNDATION,
INCORPORATED
THE MARIN BOCCE
FEDERATION
THE MARTIN V. AND
MARTHA K. SMITH
FOUNDATION
THE MESOTHELIOMA
APPLIED RESEARCH
FOUNDATION, INC.
THE NATIONAL
HEMOPHILIA
FOUNDATION
THE NATIONAL MUSEUM
OF WOMEN IN THE ARTS,
INC.
THE NATURE CORPS.
THE NATURE CORPS.
THE NATURE OF
WILDWORKS
THE NEBRASKA LAWYERS
FOUNDATION
THE NORWOOD KIDS
FOUNDATION, INC.
THE OC MARATHON
FOUNDATION
THE OJAI FOUNDATION
THE PACIFIC FOREST
TRUST, INCORPORATED
THE PASADENA
PLAYHOUSE STATE

IRS Form 990-EZ
2010
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2009
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2009

161
THEATRE OF CALIFORNIA,
INC.
THE PEACH FOUNDATION
THE PIERSON-LOVELACE
FOUNDATION
THE POPULATION
COUNCIL, INC.
THE PRISON LAW OFFICE
THE RANCHO CORDOVA
POLICE ACTIVITIES
LEAGUE, INC.
THE REDWOOD PIGSKIN
CLUB
THE RHYTHMIC ARTS
PROJECT, INC.
THE ROOSEVELT
ELEMENTARY
EDUCATIONAL
FOUNDATION
THE RUTH BANCROFT
GARDEN, INC.
THE RUTH BANCROFT
GARDEN, INC.
THE SABIN CHILDREN’S
FOUNDATION
THE SACRAMENTO RIVER
PRESERVATION TRUST
THE SAHANDAYWI
FOUNDATION
THE SAM AND ALFREDA
MALOOF FOUNDATION
FOR ARTS AND CRAFTS
THE SAN CARLOS PARKS
AND RECREATION

IRS Form 990 2002
IRS Form 990 2005
IRS Form 990 2009
IRS Form 990 2012
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990-EZ
2011
RRF-1 2013

IRS Form 990 2008
IRS Form 990 2004
IRS Form 990 2002
IRS Form 990 2009
IRS Form 990 2003
IRS Form 990 2002
IRS Form 990-EZ
2008

162
FOUNDATION, INC.
THE SAN DIEGO SOCIETY
OF NATURAL HISTORY
THE SAN JOSE PUBLIC
LIBRARY FOUNDATION
THE SANTA BARBARA BIRD
SANCTUARY
THE SANTA BARBARAVENTURA COUNTIES
DENTAL CARE
FOUNDATION, INC.
THE SHASTA COLLEGE
FOUNDATION
THE SHOTGUN PLAYERS,
INC.
THE SKAGGS INSTITUTE
FOR RESEARCH
THE SOCIETY OF ST.
VINCENT DE PAUL
DIOCESAN COUNCIL OF
SAN DIEGO
THE SOCIETY OF ST.
VINCENT DE PAUL
DIOCESAN COUNCIL OF
SAN DIEGO
THE SONORA AREA
FOUNDATION
THE STUDENT
CONSERVATION
ASSOCIATION, INC.
THE STUDENT
CONSERVATION
ASSOCIATION, INC.

IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2010

IRS Form 990 2004
IRS Form 990 2009
IRS Form 990 2005
IRS Form 990 2005

IRS Form 990 2003

IRS Form 990 2010
IRS Form 990 2007
IRS Form 990 2006

163
THE THEATRE AT BOSTON
COURT
THE TOMALES BAY
WATERSHED COUNCIL
FOUNDATION
THE TREVARNO
FOUNDATION
THE UNITARIAN
UNIVERSALIST SERVICE
COMMITTEE, INC.
THE VACAVILLE
NEIGHBORHOOD BOYS
AND GIRLS CLUB
THE VALLEY ECONOMIC
ALLIANCE
THE VISION OF CHILDREN
THE WILLIAM JAMES
ASSOCIATION
THE WOMAN’S CLUB OF
LAGUNA BEACH,
CALIFORNIA
THE WOMENSHELTER OF
LONG BEACH, CALIFORNIA
THE WORKFORCE
DEVELOPMENT
COLLABORATIVE
THESECONDOPINION
THIRD MARINE DIVISION
ASSOCIATION, INC.
THOMAS HOUSE
TEMPORARY SHELTER
THURGOOD MARSHALL
COLLEGE FUND
TIBETAN LANGUAGE

IRS Form 990 2004
IRS Form 990 2011
IRS Form 990 2003
IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2012
IRS Form 990 2004
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2007
IRS Form 990 2005
IRS Form 990 2001
IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2009
IRS Form 990 2006

164
INSTITUTE
TIBETAN LANGUAGE
INSTITUTE
TIBETAN LANGUAGE
INSTITUTE
TOM FLORES YOUTH
FOUNDATION
TOPANGA ENRICHMENT
PROGRAMS, INC., A
NONPROFIT
CORPORATION
TORRANCE CULTURAL
ARTS CENTER
FOUNDATION
TOWARDS MAXIMUM
INDEPENDENCE
TRAINING AND HEALTH
EDUCATION CENTER FOR
YOUTH
TREASURE ISLAND
HOMELESS
DEVELOPMENT
INITIATIVE, INC.
TREEPEOPLE, INC.
TREEROOTS, INC.
TRIBAL ECONOMIC AND
SOCIAL SOLUTIONS
AGENCY
TRI-CITY VOLUNTEERS,
INC.
TRITON MUSEUM OF ART
TRI-VALLEY
CONSERVANCY
TULARE SENIOR

IRS Form 990 2005
IRS Form 990 2002
IRS Form 990 2008
IRS Form 990-EZ
2010
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2009
IRS Form 990 2012

IRS Form 990 2002
IRS Form 990 2006
IRS Form 990-EZ
2009
IRS Form 990 2009
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990-EZ

165
SERVICES, INC.
TURKISH EDUCATIONAL
FOUNDATION
UNITED CEREBRAL PALSY
ASSOCIATION, INC. OF
STANISLAUS COUNTY
UNITED IN HARMONY
UNITED LATINO FUND
UNITED NEIGHBORHOOD
IMPROVEMENT
ASSOCIATION, INC.
UNITED RELIGIONS
UNITED WAY OF FRESNO
COUNTY
UNIVERSALGIVING
UNIVERSITY OF THE WEST
URBAN CREEKS COUNCIL
URBAN PRESERVATION
FOUNDATION
URBAN TREE
FOUNDATION
URDC HUMAN SERVICES
CORPORATION
US DREAM ACADEMY, INC.
USC HEAD AND NECK
GROUP, INC.
VACAVILLE CHAMBER OF
COMMERCE FOUNDATION
VACAVILLE POLICE
ACTIVITIES LEAGUE
VACAVILLE YOUTH
SOCCER LEAGUE

2010
IRS Form 990-EZ
2010
IRS Form 990 2002
IRS Form 990 2011
IRS Form 990 2007
IRS Form 990 2002
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2003
IRS Form 990 2009
IRS Form 990 2011
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990-EZ
2012
IRS Form 990 2002

166
VALLEY ECONOMIC
DEVELOPMENT CENTER,
INC.
VALLEY ECONOMIC
DEVELOPMENT CENTER,
INC.
VALLEY VETERINARY
CLINIC CHARITABLE
NONPROFIT
CORPORATION
VENTURA COUNTY ARTS
COUNCIL
VENTURA COUNTY
MEDICAL RESOURCE
FOUNDATION
VENTURA COUNTY
MEDICAL RESOURCE
FOUNDATION
VERMONT-SLAUSON
ECONOMIC
DEVELOPMENT
CORPORATION
VETERANS AND FAMILIES
FOUNDATION
VETERANS
REMEMBRANCE
COMMITTEE
VIA REHABILITATION
SERVICES, INC.
VISITING NURSE AND
HOSPICE CARE OF SANTA
BARBARA FOUNDATION
VISTA DE LA TERRAZA
COOPERATIVE, INC.

IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2010

IRS Form 990-EZ
2011
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2009

IRS Form 990-EZ
2008
IRS Form 990 2003
IRS Form 990 2013
IRS Form 990 2005
IRS Form 990 2008

167
VISTA GUIDANCE
CENTERS, INC.
VISUAL EFFECTS SOCIETY
VITAL LINK EDUCATIONBUSINESS CONSORTIUM
VITAL LINK EDUCATIONBUSINESS CONSORTIUM
VOLUNTEER SAN DIEGO
VOTERPUNCH
VOTERPUNCH
WAR CASUALTY FAMILY
ASSISTANCE FUND
WAR CASUALTY FAMILY
ASSISTANCE FUND
WASHINGTON
TOWNHOUSES, INC.
WE CARE ANIMAL RESCUE,
INC.
WE CARE FOR YOUTH
WEATHERBY FOUNDATION
INTERNATIONAL
WEED REVITALIZATION
COALITION
WELCOME HOME
HOUSING, INC.
WEST MARIN LITTLE
LEAGUE
WEST SIDE FOOD BANK, A
NON-PROFIT
CORPORATION
WEST SIDE FOOD BANK, A
NON-PROFIT
CORPORATION

IRS Form 990 2008
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2006
Miscellaneous
Documents
Founding
Documents
IRS Form 990 2004
IRS Form 990 2006
IRS Form 990-EZ
2011
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2003

168
WEST SIDE FOOD BANK, A
NON-PROFIT
CORPORATION
WEST SIDE FOOD BANK, A
NON-PROFIT
CORPORATION
WEST VALLEY BOYS &
GIRLS CLUB, INC.
WESTERN ALLIANCE OF
FARMWORKER
ADVOCATES, INC.
WESTERN KENTUCKY
UNIVERSITY
FOUNDATION, A
CORPORATION
WESTSIDE BALLET, A
NONPROFIT
CORPORATION
WESTSIDE BALLET, A
NONPROFIT
CORPORATION
WESTSIDE HOUSING AND
ECONOMIC NETWORK,
INC.
WHITTIER PREGNANCY
CARE CLINIC, INC.
WILDFLOWERS INSTITUTE
WILDLAND RESIDENTS
ASSOCIATION
WILDLAND RESIDENTS
ASSOCIATION
WILDWOOD MUSIC
ASSOCIATES, INC.

RRF-1 2002
IRS Form 990 2001
IRS Form 990 2011
IRS Form 990 2008
IRS Form 990 2005

IRS Form 990 2008
IRS Form 990 2007
IRS Form 990 2004
RRF-1 2012
IRS Form 990-EZ
2009
IRS Form 990 2005
IRS Form 990 2004
IRS Form 990 2011

169
WILLIAM L. VALENTINE
PARENT TEACHER
ASSOCIATION OF SAN
MARINO,
CALIFORNIA
WISEBURN EDUCATION
FOUNDATION
WITTENBERG MANOR, INC.
WIZO – WOMEN’S
INTERNATIONAL ZIONIST
ORGANIZATION
WOMEN HELPING ALL
PEOPLE
WOMEN OF ENTERPRISE,
INCORPORATED
WOMEN’S CAMPAIGN
FORUM
WOMEN’S CIVIC
IMPROVEMENT CLUB OF
SACRAMENTO
WOMEN’S EMPOWERMENT
WOOD GLEN HALL
ENDOWMENT TRUST
WOODBRIDGE CHILDREN’S
CENTER
WOODSIDE VAULTERS,
INC.
WORLD AFFAIRS COUNCIL
OF THE DESERT
WORLD LUNG
FOUNDATION
WORLD SAVVY, INC.
X PRIZE FOUNDATION,
INC.

IRS Form 990 2003

IRS Form 990 2008
IRS Form 990 2003
IRS Form 990 2010
IRS Form 990 2001
IRS Form 990 2001
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2005
IRS Form 990 2003
IRS Form 990 2011
IRS Form 990 2007
IRS Form 990 2006
IRS Form 990 2010
IRS Form 990 2005

170
XERODERMA
PIGMENTOSUM FAMILY
SUPPORT GROUP
YELLOWSTONE BOYS AND
GIRLS RANCH
FOUNDATION
YIDDISHKAYT LOS
ANGELES
YOLO FAMILY SERVICE
AGENCY
YOLO FAMILY SERVICE
AGENCY
YOLO FAMILY SERVICE
AGENCY
YOUNG MEN’S CHRISTIAN
ASSOCIATION OF
METROPOLITAN LOS
ANGELES
YOUNG MUSICIANS
FOUNDATION
YOUR OWN GREATNESS
AFFIRMED
YOUTH HOMES
AUXILIARY, INC.
YOUTH VENTURE INC
ZAYTUNA COLLEGE
ZETA RHO FOUNDATION,
INC.
ZIONIST ORGANIZATION
OF AMERICA
ZIONIST ORGANIZATION
OF AMERICA
ZIONIST ORGANIZATION
OF AMERICA

IRS Form 990 2011
IRS Form 990 2010
IRS Form 990-EZ
2010
IRS Form 990 2006
IRS Form 990 2004
IRS Form 990 2003
IRS Form 990 2007

IRS Form 990 2007
IRS Form 990 2002
IRS Form 990 2007
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2001
IRS Form 990 2006
IRS Form 990 2005
IRS Form 990 2004

171
ZIONIST ORGANIZATION
OF AMERICA

IRS Form 990 2003

172
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 345
Field Audit Form Letter Dated November 25, 2015

KAMALA D. HARRIS, Attorney General
State of California, DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 94203-4470
Public: (213) 897-2000
Telephone: (213) 897-2184
Fax: (213) 897-7605
E-Mail: steve.bauman@doj.ca.gov
November 25, 2015
RE:

[insert charity name] (CT No.)

173
Dear: [insert Mr. or Ms. and surname]
The Office of the Attorney General has the duty
to supervise charitable organizations under
California Corporations Code section 5250, and
Government Code sections 12580 through 12599.7.
One of the ways the Office performs this duty is by
conducting audits of charitable organizations. We
have selected [insert charity name] for a field audit.
Unless otherwise stated, our audit will cover the
period from [insert date], to [insert date], and is
scheduled to begin on [insert date] at [insert time] at
[insert location]. Please contact me as soon as
possible to confirm the date, time, and place of the
audit. To facilitate our audit, please make the
following records available:
[Delete any of the below which do not apply and add
others which do apply.]
1. Articles of Incorporation;
2. Bylaws;
3. IRS Form 1023 and related correspondence;
4. IRS Forms 990, 990EZ, or 990PF, and
Questionnaires;
5. Registry of Charitable Trusts Form RRF -1;
6. Financial statements (audited or unaudited);
Management Letters, Auditor’s Engagement
Letters, and Withdrawal Letters from
Auditors;
7. Budgets and Budget Variances;
8. General Ledgers;
9. Cash Receipts and Disbursement Journal;
10. Bank statements for all bank accounts;

174
11. Canceled checks for all bank accounts;
12. Contracts for goods and/or services;
13. Provider invoices or bills for goods and/or
services received;
14. Correspondence related to donations received
from the public;
15. Names, addresses, and telephone numbers of
all past and current members of the board of
directors and officers;
16. Minutes of the proceedings of corporate
members,
board
of
directors,
board
committees, and any board resolutions;
17. Records of all grant applications received and
grants made;
18. Reports or accountings made to or received
from any other state agency, grantor or
grantee, and fundraisers;
19. Written information regarding the policies or
criteria used in selecting the grant recipients;
20. Names, addresses, and telephone numbers of
persons and organizations who have received
grants;
21. Copies of all employment contracts, including
employees or independent contractors;
22. Names and addresses of all fundraisers;
23. Copies of any agreements or contracts with
fundraisers;
24. Conflict of Interest Policy, Whistleblower
Policy and Logs, and Record Retention Policy;

175
25. Policies and procedures related to fiscal
controls; and
26. Policies and procedures related to governance.
If you have any questions, I can be reached at the
above telephone number.
Sincerely,
STEVEN B. BAUMAN
Supervising Investigative Auditor
For

KAMALA D. HARRIS
Attorney General

SBB
LA2015401093
Document in ProLaw

176
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 134
Excerpted List of Publicly Linked Schedule Bs
(Set 2 of 5)

Charity Name
ACTION AGAINST CRIME &
VIOLENCE EDUCATION
FUND
AFRICAN WILDLIFE
FOUNDATION
AIR FORCE AID SOCIETY
AMERICAN
CONSTITUTION SOCIETY
FOR LAW AND POLICY

document_title
IRS Form 990 2012
IRS Form 990 2012
IRS Form 990 2010
IRS Form 990 2010

177
AMERICAN PSYCHIATRIC
FOUNDATION INC
AMERICANS FOR
MEDICAL PROGRESS
EDUCATIONAL
FOUNDATION
BLADDER CANCER
ADVOCACY NETWORK INC
CALIFORNIA HIGH
SCHOOL ACADEMIC
BOOSTERS
CHALLENGER CENTER
FOR SPACE SCIENCE
EDUCATION
COMPASSION WITHOUT
BORDERS
CONGRESSIONAL
SPORTSMENS CAUCUS
FOUNDATION

IRS Form 990 2009

CULTURE TO CULTURE
FOUNDATION, INC
EPILEPSY FOUNDATION
OF AMERICA
EPILEPSY FOUNDATION
OF AMERICA
FAITH AND PUBLIC LIFE,
INC.
FOUNDATION FOR THE
HUMANITIES IN
MEDICINE
FOUNDATION FOR THE
NATIONAL ARCHIVES

IRS Form 990-EZ
2010
IRS Form 990 2010

IRS Form 990 2010

IRS Form 990 2011
IRS Form 990 2012
IRS Form 990 2012
IRS Form 990-EZ
2011
IRS Form 990 2011

IRS Form 990 2011
IRS Form 990 2011
IRS Form 990 2006
IRS Form 990 2010

178
FOUNDATION FOR THE
NATIONAL ARCHIVES
FOUNDATION FOR THE
NATIONAL ARCHIVES
GOODWILL INDUSTRIES
INTERNATIONAL, INC.
GREENPEACE FUND, INC.
GREENPEACE FUND, INC.
GREENPEACE, INC.
HEALTHWELL
FOUNDATION
HUNTERS POINT
AFFORDABLE HOUSING,
INC.
KENNEDY’S DISEASE
ASSOCIATION
KIDSAVE INTERNATIONAL
LANDMINE SURVIVORS
NETWORK
LIGHTHOUSE FOR THE
BLIND AND VISUALLY
IMPAIRED
MONTEVIDEO EDUCATION
FOUNDATION
NATIONAL PSORIASIS
FOUNDATION
NATIONAL VETERANS
LEGAL SERVICES
PROGRAM, INC.
PBS FOUNDATION
RIDE TO WALK, INC.

IRS Form 990 2011
IRS Form 990 2012
IRS Form 990 2012
IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2010
IRS Form 990 2010
IRS Form 990 2008
IRS Form 990-EZ
2011
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990 2004
IRS Form 990-EZ
2013
IRS Form 990 2013
IRS Form 990 2010
IRS Form 990 2009
IRS Form 990-EZ
2009

179
SECURITIES AND
EXCHANGE COMMISSION
HISTORICAL SOCIETY

IRS Form 990 2010

SHARE OUR STRENGTH
SIGMA XI THE SCIENTIFIC
RESEARCH SOCIETY INC.
SOJOURNERS
THE AMA FOUNDATION
THE AMERICAN
ASSOCIATION FOR
PEDIATRIC
OPHTHALMOLOGY AND
STRABISMUS
THE AMERICAN CIVIL
WAR CENTER AT
HISTORIC TREDEGAR

IRS Form 990 2010
IRS Form 990 2012

THE DESMOID TUMOR
RESEARCH FOUNDATION,
INC.
THE GLOBAL FUND FOR
CHILDREN
THE GLOBAL FUND TO
FIGHT AIDS
TUBERCULOSIS AND
MALARIA
THE NATIONAL ROWING
FOUNDATION INC
UNIVERSITY OF SOUTH
DAKOTA FOUNDATION
WASHINGTON INSTITUTE
FOR NEAR EAST POLICY

IRS Form 990 2012

IRS Form 990 2010
IRS Form 990 2012
IRS Form 990 2009

IRS Form 990 2010

IRS Form 990 2010
IRS Form 990 2010

IRS Form 990 2011
IRS Form 990 2013
IRS Form 990 2012

180
WOMEN IN MILITARY
SERVICE FOR AMERICA
MEMORIAL FOUNDATI

IRS Form 990 2012

THEODORE ROOSEVELT
CONSERVATION
PARTNERSHIP INC

IRS Form 990 2010

THEATREWORKS SILICON
VALLEY

IRS Form 990 2007

181
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 187
Excerpted List of Publicly Linked Schedule Bs
(Set 3 of 5)

Charity Name
ACTERRA: ACTION FOR A
HEALTHY PLANET
AFFORDABLE COMMUNITY
HOUSING TRUST - BETA

document_title
IRS Form 990 2004

ALICE: ARTS AND
LITERACY IN CHILDREN’S
EDUCATION

IRS Form 990 2008

IRS Form 990 2001

182
ALICE: ARTS AND
LITERACY IN CHILDREN’S
EDUCATION

IRS Form 990-EZ
2010

ALLIANCE FOR RURAL
COMMUNITY HEALTH
ALZHEIMER’S
ASSOCIATION OF ORANGE
COUNTY, INC.

IRS Form 990 2009
IRS Form 990 2004

AMERICAN ASSOCIATION
IRS Form 990 2008
OF CRITICAL CARE NURSES
AMERICAN FRIENDS OF
THE CZECH REPUBLIC
AMERICAN HERBAL
PHARMACOPOEIA
AMERICAN LAW INSTITUTE

IRS Form 990 2006

AMERICAN MEDICAL
ASSOCIATION
FOUNDATION

IRS Form 990 2010

AMERICAN NEAR EAST
REFUGEE AID
AMERICAN REFUGEE
COMMITTEE
ASIAN AND PACIFIC
ISLANDER AMERICAN
HEALTH FORUM

RRF-1 2007

ASIAN PACIFIC HEALTH
CARE VENTURE, INC.
ASSE INTERNATIONAL,
INC.

IRS Form 990 2008

IRS Form 990 2003
IRS Form 990 2010

IRS Form 990 2006
IRS Form 990 2005

IRS Form 990 2009

183
ASSISI INTERNATIONAL
ANIMAL INSTITUTE
AVENIDAS

IRS Form 990 2004

BALANCE 4 KIDS

IRS Form 990 2003

IRS Form 990 2008

BALANCE FOUNDATION
RRF-1 2003
BAY AREA ASSOCIATION OF IRS Form 990 2005
DISABLED SAILORS
BAY AREA CABARET
IRS Form 990-EZ
2010
BBB WISE GIVING
IRS Form 990 2012
ALLIANCE
BEING ALIVE SAN DIEGO
RRF-1 2004
BEING ALIVE SAN DIEGO
RRF-1 2005
BERKELEY BALLROOM
IRS Form 990 2006
FOUNDATION
BERKELEY COMMUNITY
IRS Form 990 2004
FUND
BERKELEY COMMUNITY
IRS Form 990 2005
FUND
BEYOND BASICS, INC.
RRF-1 2009
BEYOND SHELTER
IRS Form 990 2007
BOYS & GIRLS CLUBS OF
OAKLAND
BREAD OF LIFE EPA
CALIFORNIA COALITION
FOR PUBLIC HIGHER
EDUCATION

IRS Form 990 2009
IRS Form 990-EZ
2010
RRF-1 2012

184
CALIFORNIA INSTITUTE
FOR FEDERAL POLICY
RESEARCH

IRS Form 990 2002

CALIFORNIA INSTITUTE
FOR FEDERAL POLICY
RESEARCH

IRS Form 990 2003

CALIFORNIA INSTITUTE
FOR FEDERAL POLICY
RESEARCH

IRS Form 990 2004

CALIFORNIA TENNIS
ASSOCIATION FOR
UNDERPRIVILEGED
YOUTHS

IRS Form 990 2005

CALIFORNIA VEHICLE
FOUNDATION
CAREER CLOSET OF SANTA
CLARA COUNTY
CENTRO DE SALUD DE LA
COMUNIDAD DE SAN
YSIDRO, INC.

IRS Form 990 2005

CHAMBER MUSIC IN NAPA
VALLEY, INC.
CHAPEL OF OMKARA
MULTICULTURAL SOCIETY
OF USA

IRS Form 990 2009

CHICO FRIENDS OF THE
BUTTE COUNTY LIBRARY
CHILD DEVELOPMENT
RESOURCES OF VENTURA
COUNTY
INCORPORATED

IRS Form 990 2005

IRS Form 990 2008
IRS Form 990 2009

Miscellaneous
Documents

RRF-1 2004

185
CHINATOWN ALLEYWAY
IMPROVEMENT
ASSOCIATION

IRS Form 990 2004

CITIZENS CLEARINGHOUSE IRS Form 990 2007
FOR HAZARDOUS WASTE,
INC.
CLINICAS DE SALUD DEL
PUEBLO, INC.
COMMUNITY HEALTH
AFRICA - A POVERTY
SOLUTION (CHAPS), INC.

IRS Form 990 2007

COOPERATIVE
DEVELOPMENT
FOUNDATION

IRS Form 990 2006

CROATIAN SCHOLARSHIP
FUND
CULTURAL AND
EDUCATIONAL MEDIA
DESERT HEALTHCARE
FOUNDATION
DESERT WILDLIFE
UNLIMITED, INC.
DINING FOR WOMEN

IRS Form 990 2001

DOUBLE CHECK RETREAT

IRS Form 990 2002

EASTER SEALS, INC.

IRS Form 990 2006

EIMAGO, INC

IRS Form 990 2005

ELECTRICORE, INC.

IRS Form 990 2006

IRS Form 990-EZ
2010

IRS Form 990 2005
IRS Form 990 2005
RRF-1 2007
IRS Form 990 2010

186
ENVIRONMENTAL
PROTECTION
INFORMATION CENTER,
INCORPORATED

IRS Form 990 2003

EQUUS RESCUE AND
SANCTUARY
ERNEST GALLO CLINIC
AND RESEARCH CENTER
ERNEST GALLO CLINIC
AND RESEARCH CENTER
FAR WEST NORDIC SKI
EDUCATION ASSOCIATION

IRS Form 990 2002

FLIGHT PATH LEARNING
CENTER OF SOUTHERN
CALIFORNIA

IRS Form 990 2005

FOOD & WATER WATCH

IRS Form 990 2011

FOOTLOOSE DANCE
COMPANY, INC.
FRIENDS OF CYPRESS
CULTURAL ARTS
FRIENDS OF CYPRESS
CULTURAL ARTS
FRIENDS OF CYPRESS
CULTURAL ARTS
FRIENDS OF THE
CARPINTERIA PUBLIC
LIBRARY

IRS Form 990 2009

FRIENDS OF THE
SARATOGA LIBRARIES

IRS Form 990 2004

IRS Form 990 2003
IRS Form 990 2007
IRS Form 990 2003

RRF-1 2008
RRF-1 2009
RRF-1 2010
IRS Form 990 2008

187
GOLETA VALLEY
BEAUTIFUL
GREENE HOME FOR BOYS

IRS Form 990 2009

HALCYON CLUB

IRS Form 990 2001

HANDSON BAY AREA

IRS Form 990 2007

HEARING RESEARCH, INC.

IRS Form 990 2008

HISTORICAL SOCIETY OF
SOUTH SAN FRANCISCO
INC.

IRS Form 990 2007

INSTITUTE OF
INTERNATIONAL
EDUCATION, INC.

RRF-1 2002

INTERVAL HOUSE

IRS Form 990 2003

JURUPA JUNIOR ALL
AMERICAN FOOTBALL
KID’S TURN, SAN DIEGO

IRS Form 990 2004

KITKA, INC.
KITKA, INC.

RRF-1 2008
IRS Form 990 2003

KIWANIS CLUB OF ALPINE

IRS Form 990-EZ
2008
RRF-1 2002
IRS Form 990 2005

LARTA INSTITUTE
LATIN BUSINESS
ASSOCIATION INSTITUTE
LEARNING ALLY, INC

IRS Form 990 2004

IRS Form 990 2007

RRF-1 2008

188
LEGAL SELF HELP CENTER IRS Form 990 2008
OF MARIN, INC.
LIKHA-PILIPINO FOLK
IRS Form 990 2007
ENSEMBLE
LOS ALTOS HIGH SCHOOL
IRS Form 990 2007
ATHLETIC BOOSTERS CLUB
LOS ALTOS HIGH SCHOOL
IRS Form 990 2008
ATHLETIC BOOSTERS CLUB
LOS ANGELES LOMOD
SOUTH, INC.
LOS ANGELES POLICE
MUSEUM
LOS ANGELES SECTION 8
APPERSON LOMOD
CORPORATION - 4

IRS Form 990 2008

LOS ANGELES SECTION 8
APPERSON LOMOD
CORPORATION - 4

IRS Form 990 2008

LOS ANGELES SECTION 8
APPERSON LOMOD
CORPORATION - 4

IRS Form 990-EZ
2009

LOS ANGELES SECTION 8
CORONADO LOMOD
CORPORATION - 2

IRS Form 990-EZ
2009

LOS ANGELES SECTION 8
JEFFERSON LOMOD
CORPORATION

IRS Form 990 2007

LOS ANGELES SECTION 8
JUANITA LOMOD
CORPORATION - 8

IRS Form 990-EZ
2009

IRS Form 990 2006
IRS Form 990 2007

189
LOS ANGELES SECTION 8
SIMPSON LOMOD
CORPORATION - 6

IRS Form 990-EZ
2009

LUTHERAN WORLD RELIEF
INC.
MALIBU ADAMSON HOUSE
FOUNDATION
MALIBU ADAMSON HOUSE
FOUNDATION
MARY MAGDALENE
PROJECT, INC.
MARY MAGDALENE
PROJECT, INC.
MERCY CORPS

IRS Form 990 2004

MERCY HOUSING
NORTHWEST
MILL VALLEY SCHOOLS
COMMUNITY FOUNDATION

IRS Form 990 2008

MINISTRY OF MERCY INC.

IRS Form 990 2004

MONTECITO TRAILS
FOUNDATION
MONTECITO TRAILS
FOUNDATION
MONTECITO TRAILS
FOUNDATION
MONTEREY COUNTY
AGRICULTURAL & RURAL
LIFE MUSEUM

IRS Form 990 2007

IRS Form 990 2006
IRS Form 990 2007
IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2010

IRS Form 990 2006

IRS Form 990 2008
IRS Form 990 2006
IRS Form 990 2005

190
MORRO BAY FRIENDS OF
THE LIBRARY
MOSES HOUSE MINISTRIES

IRS Form 990 2003

MOUNTAIN HEALTH &
COMMUNITY SERVICES,
INC.

IRS Form 990 2009

NATIONAL PARK TRUST,
INC.
NAVY MARINE COAST
GUARD RESIDENCE
FOUNDATION

IRS Form 990 2012

O’CONNOR WOODS
HOUSING CORPORATION
OPERATION
INTERDEPENDENCE
OPTIONS RECOVERY
SERVICES
PALO ALTO ROTARY CLUB
ANNUAL CHARITIES, INC.

IRS Form 990 2004

PATHWAYS TO YOUR
FUTURE
PENINSULA INTERFAITH
ACTION
PEOPLE FOR THE ETHICAL
TREATMENT OF ANIMALS,
INC.

IRS Form 990-EZ
2010
IRS Form 990 2002

RADY CHILDREN’S HEALTH
SERVICES- SAN DIEGO

IRS Form 990 2008

RRF-1 2008

IRS Form 990 2003

IRS Form 990 2004
RRF-1 2009
IRS Form 990 2008

IRS Form 990 2004

191
RE/MAX RELIEF FUND, INC
READING TO KIDS
RETURN TO FREEDOM INC.

IRS Form 990-EZ
2012
RRF-1 2006
IRS Form 990 2003

RICHARD NIXON LIBRARY
& BIRTHPLACE
FOUNDATION

IRS Form 990 2007

RIDGECREST REGIONAL
HOSPITAL FOUNDATION
RIO HONDO-VERNON
ROTARY CLUB
FOUNDATION

IRS Form 990 2006

RIVERSIDE-SAN
BERNARDINO COUNTY
INDIAN HEALTH, INC.

IRS Form 990 2002

SACRAMENTO
EDUCATIONAL CABLE
CONSORTIUM

RRF-1 2002

SALMONID RESTORATION
FEDERATION
SALMONID RESTORATION
FEDERATION
SAN CARLOS
EDUCATIONAL
FOUNDATION

RRF-1 2009

SAN CLEMENTE ROTARY
CLUB
SAN DIEGO BRAIN TUMOR
FOUNDATION

IRS Form 990 2006

Founding
Documents

RRF-1 2012
IRS Form 990 2003

IRS Form 990-EZ
2010

192
SAN DIEGO CONVENTION
CENTER CORPORATION,
INC.

IRS Form 990 2008

SAN FRANCISCO ARTS
EDUCATION PROJECT
SAN FRANCISCO ARTS
EDUCATION PROJECT
SAN FRANCISCO ARTS
EDUCATION PROJECT
SAN FRANCISCO ARTS
EDUCATION PROJECT
SANTA BARBARA COTTAGE
HOSPITAL FOUNDATION

IRS Form 990 2007

SANTA BARBARA COTTAGE
HOSPITAL FOUNDATION

IRS Form 990 2006

SANTA BARBARA COTTAGE
HOSPITAL FOUNDATION

IRS Form 990 2007

SANTA CLARA VALLEY
PERFORMING ARTS
ASSOCIATION

IRS Form 990-EZ
2009

SANTA MARIA
PHILHARMONIC SOCIETY
SAUSALITO ROTARY
EDUCATIONAL
SCHOLARSHIP FUND

IRS Form 990 2004

SHASTA COUNTY ARTS
COUNCIL
SIMA HUMANITARIAN
FUND

RRF-1 2004

IRS Form 990 2008
IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2005

IRS Form 990-EZ
2009

IRS Form 990-EZ
2009

193
SONOMA COUNTY LEGAL
SERVICES FOUNDATION,
INC.

IRS Form 990 2003

SOUTHERN CALIFORNIA
CENTER FOR NONPROFIT
MANAGEMENT

IRS Form 990 2004

STREET LEVEL HEALTH
PROJECT
SUTTER SOLANO
CHARITABLE FOUNDATION

IRS Form 990-EZ
2007
IRS Form 990 2002

THE AMERICAN
CONSERVATORY THEATRE
FOUNDATION

IRS Form 990 2008

THE AMERICAN
CONSERVATORY THEATRE
FOUNDATION

IRS Form 990 2009

THE BAY AREA VIDEO
COALITION,
INCORPORATED

IRS Form 990 2004

THE COMMUNITY
NETWORK FOR
APPROPRIATE
TECHNOLOGIES

IRS Form 990 2008

THE FOUNDATION FOR
ADVANCEMENTS IN
SCIENCE AND EDUCATION

IRS Form 990 2007

THE FRIENDS OF THE
ESPARTO REGIONAL
LIBRARY

IRS Form 990 2003

194
THE HEALY SENIOR
CENTER OF SOUTHERN
HUMBOLDT INC.

RRF-1 2010

THE HEALY SENIOR
CENTER OF SOUTHERN
HUMBOLDT INC.

RRF-1 2012

THE LAS LOMITAS
EDUCATION FOUNDATION

IRS Form 990 2004

THE NATIONAL CENTER
FOR SCIENCE EDUCATION,
INC.

IRS Form 990 2005

THE NATOMAS BASIN
CONSERVANCY, A
CALIFORNIA NONPROFIT PUBLIC BENEFIT

IRS Form 990 2004

THE SAN FRANCISCO BAY
TRAIL PROJECT
THE SINO-JUDAIC
INSTITUTE
TIBETAN LANGUAGE
INSTITUTE
TIBETAN NUNS PROJECT

IRS Form 990 2006

UNITED CEREBRAL PALSY
ASSOCIATION OF SAN LUIS
OBISPO COUNTY

RRF-1 2004

UNITED STATES FUND FOR
UNICEF
UNITED STATES FUND FOR
UNICEF

IRS Form 990 2007

IRS Form 990-EZ
2007
IRS Form 990 2004
IRS Form 990 2008

IRS Form 990 2009

195
UNITED STATES SOCCER
FEDERATION
FOUNDATION, INC.

IRS Form 990 2002

UNITED WAYS OF
CALIFORNIA
UNIVERSITY CAMPS

IRS Form 990-EZ
2008
IRS Form 990 2006

UNIVERSITY CAMPS

IRS Form 990 2003

UP VALLEY FAMILY
CENTERS OF NAPA
COUNTY

IRS Form 990 2003

UPWARDLY GLOBAL

Miscellaneous
Documents
IRS Form 990-EZ
2009
IRS Form 990 2010

VAUGIRARD
VISTA COMMUNITY CLINIC
WEST ANGELES
COMMUNITY
DEVELOPMENT
CORPORATION

IRS Form 990 2008

WISTAR INSTITUTE OF
ANATOMY AND BIOLOGY
WORLDWIDE FOUNDATION
FOR CREDIT UNIONS INC

IRS Form 990 2006
Founding
Documents

196
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 188
Excerpted List of Publicly Linked Schedule Bs
(Set 4 of 5)

Charity Name
AMERICAN LAW
INSTITUTE

document_title
IRS Form 990 2013

BEIT T’SHUVAH

RRF-1 2014

BONITA GARDEN CLUB
CHRON’S & COLITIS
FOUNDATION OF
AMERICA, INC.

Miscellaneous
Documents

197
COMMUNITY
AWARENESS &
TREATMENT SERVICES,
INC.
COMMUNITY HOSPICE,
INC.

RRF-1 2014

FRIENDS OF CORTE
MADERA CREEK
WATERSHED
FRIENDS OF THE
BLANCHARD
COMMUNITY LIBRARY
FRIENDS OF THE
LIBRARIES OF NEVADA
COUNTY
GLENN COMMUNITIES
WORKING TOGETHER

IRS Form 990 2014

HINDU SWAYAMSEVAK
SANGH USA, INC.

IRS Form 990 2013

HOME AND HOPE

RRF-1 2012

I HAVE A DREAM
FOUNDATION - LOS
ANGELES
JAY N. SCHAPIRA MD
MEDICAL RESEARCH
FOUNDATINO, INC.
JUNIOR GOLF
ASSOCIATION OF
NORTHERN CALIFORNIA
LAST HOPE CAT
KINGDOM

RRF-1 2014

RRF-1 2014

IRS Form 990 2014
IRS Form 990-EZ
2014
IRS Form 990-EZ
2009

IRS Form 990 2014
IRS Form 990 2010
IRS Form 990-EZ
2014

198
LOCKS OF LOVE INC.

IRS Form 990 2010

LOCKS OF LOVE, INC.

IRS Form 990 2014

NATIONAL MENTORING
PARTNERSHIP INC

Miscellaneous
Documents

PACT, PLAN OF ACTION
FOR CHALLENGING
TIMES, INC.
REDWOOD HEIGHTS
SCHOOL PARENTS’ FUND
ASSOCIATION
SAMAHAN FILIPINO
AMERICAN PERFORMING
ARTS AND EDUCATION
CENTER,
INCORPORATED
SANTA BARBARA YOUTH
SAILING FOUNDATION

RRF-1 2014

SANTA CLARA VALLEY
PERFORMING ARTS
ASSOCIATION
SHINE ON SIERRA
LEONE

IRS Form 990-EZ
2013

SOUTHWEST CHAMBER
MUSIC SOCIETY

IRS Form 990 2014

THE CARPINTERIA
VALLEY HISTORICAL
SOCIETY
THE PROTECT OUR
COMMUNITIES
FOUNDATION

IRS Form 990 2011

IRS Form 990-EZ
2012
IRS Form 990-EZ
2013

IRS Form 990 2013

IRS Form 990 2014

IRS Form 990-EZ
2009

199
THE RIVER PROJECT

IRS Form 990 2013

THE STUDENT
CONSERVATION
ASSOCIATION, INC.
UFCW LOCAL 770 ICAZA
FOUNDATION

IRS Form 990 2014

VETERANS EQUITY
CENTER

IRS Form 990 2014

VIEWPOINT
PHOTOGRAPHIC ART
CENTER, INC.
WEIGHT CITY
PRODUCTIONS

IRS Form 990-EZ
2014

WEPERFORM.ORG

RRF-1 2014

IRS Form 990-EZ
2011

IRS Form 990 2013

200
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 737
Excerpts from the Deposition of Tania Ibanez
January 6, 2016

*

*

*

[Page 6]
THE VIDEOGRAPHER: Thank you.
Will the court reporter please swear in the
witness.
TANIA IBANEZ, called as a deponent and sworn
in by the deposition reporter, was examined and
testified as follows:
DEPOSITION REPORTER: Right hand, please.

201
Do you solemnly swear that the testimony you are
about to give in this matter shall be the truth, the
whole truth, and nothing but the truth, so help you
God?
THE DEPONENT: I do.
*

*

*

[Page 208]
Q. Gladly. At the time that you wrote this letter,
did you or anyone else under your supervision, to the
best of your knowledge, harbor any specific
suspicions about the Americans for Prosperity
Foundation and its compliance with California’s laws
governing nonprofits?
A. I didn’t even know who Americans for
Prosperity Foundation were when I wrote this letter.
Q. Do you today have any specific suspicions
about the Americans for Prosperity Foundation?
MS. GORDON: Objection; vague.
THE DEPONENT: You’re suing us, so -- and you
don’t want to give us your Schedule B, so that has
put my suspicions somewhat on alert.
BY MR. SHAFFER
Q. The fact that the organization does not want
to provide its Schedule B is ground of suspicion, in
your mind?
A. Well, I -- I have to wonder why.
Q. Does -- is that degree of suspicion any greater
or different than what it was for each of the other
organizations we were looking at that wrote you
letters questioning the requirements of filing a
Schedule B?

202
A. No, I did not have any suspicion of any of
these organizations at all. Maybe I’m not answering
your question, I don’t know, but there wasn’t -- it
wasn’t as if I was thinking, “Oh, jeez, these charities
must be, you know, having problems.”
Q. That’s what you are thinking, though, about
the Americans for Prosperity Foundation?
MS. GORDON: Objection; misstates testimony,
assumes facts.
THE DEPONENT: Yeah, I basically don’t have
any specific suspicions, per se, but the litigation
causes me to have some concerns.
BY MR. SHAFFER
Q. Am I correct that those concerns would persist
following the conclusion of litigation?
A. I don’t know.
Q. They may?
A. They may.

203
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 732
Excerpts from the Deposition of Jami Cantore
January 21, 2016

*

*

*

[Page 6]
THE VIDEOGRAPHER: Thank you.
Will the court reporter please swear the witness.
JAMI CANTORE, called as a deponent and sworn
in by the deposition reporter, was examined and
testified as follows:
DEPOSITION REPORTER: Right hand, please.
Do you solemnly swear that the testimony you are
about to give in this matter shall be the truth, the

204
whole truth, and nothing but the truth, so help you
God?
THE DEPONENT: Yes, I do.
*

*

*

[Page 75]
Q. Do you recall if you got it from your system or
if you had to go and ask for the Schedule B?
A. It could have been both. I think we had it, but
I always ask for them anyway. I ask for the Form
990, not the Schedule B specifically.
Q. Why do you ask for the Form 990 and not the
Schedule B specifically?
A. I ask for the complete Form 990, which
includes all the schedules.
*

*

*

[Page 85]
Q. How many audit letters have you sent out
requesting a complete Form 990?
A. I have no idea. I always ask for that in my
audit letters, so every audit letter.
Q. Okay. And you can’t recall any instances
where the response to that audit letter has included
a Form 990 but not a Schedule B?
A. When I receive the responses, I assume that
this is their complete 990.
Q. Okay. How about when you receive a response
from an organization that, with your eight years of
experiences in this, you know there should be an
Exhibit B -- excuse me -- a Schedule B.
Has that ever happened?

205
A. I’m not that concerned -- you know, I assume
that they’re giving me their complete filed 990 when
I receive it.
Q. Okay.
A. I assume that when I get it if there’s no
Schedule B that they didn’t file a Schedule B.
*

*

*

[Page 89]
Q. So an organization that you would expect to
file a Schedule B, they don’t send you a Schedule B
in response to your audit letter, you then just
assume, “Oh, they must not have filed a Schedule B.
I’m wrong”?
A. Schedule B is merely a component of the Form
990. I don’t send out my audit letter fishing for a
Schedule B. I want the 990 form in its complete
form. If they give me a 990 that has no Schedule B,
it does not concern me that they’re withholding that
document from me. I assume that they did not file it.
I look at the rest of the 990 and the other schedules
and the rest of the financials I requested.
If there is -- I suppose if it was something
significant, if there was some issue, I would follow up
on it, but, you know, I don’t assume that they’re just
not giving it to me.
Q. What about in those situations where they
were organizations you would have expected to file a
Schedule B so it doesn’t make sense that you didn’t
get one.
Did you follow up in those circumstances?
A. My investigations are not Schedule B driven.
Schedule B is a tool of the investigation. It doesn’t --

206
what you’re saying is not making sense to me; that I
would be on this hunt for the Schedule B.
Q. Turning back to Exhibit 11 and Investigation
Number 3, okay?
A. Yes.
Q. The interrogatory in Exhibit 11 asks the
Attorney General to identify instances in which an
unredacted Schedule B enabled them to determine
that a specific organization has violated the law.
Do you see that?
A. I have seen that on the interrogatory, yes.
Q. Okay. And you’ve identified Investigation
Number 3 as one in which a Schedule B enabled you
to determine that a specific organization had violated
the law; correct?
A. Uh-huh, yes.
Q. Are there any other investigations in which
the Schedule B enabled you to determine that
specific organization had violated the law?
A. I’m sure that there have been. The Schedule
B is useful.
Q. Okay. I’m -- I’ve got your point on efficiency.
I’ve got your point on usefulness.

207
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day One, Volume I
Excerpts from the Trial Testimony of
Lucas Hilgemann
February 23, 2016

*

*

*

[Day One, Vol. I: Page 38]
THE COURT: All right. Call your first witness.
MR. FORST: Your Honor, plaintiffs call Mr.
Lucas Hilgemann. And, Your Honor, we provided
you with a direct witness binder that I think is to
your left with only the documents that we propose or
intend to use for Mr. Hilgemann.

208
THE COURTROOM DEPUTY: Please raise your
right hand.
(The witness, LUCAS ANTHONY
HILGEMANN, was sworn.)
THE COURTROOM DEPUTY:
Thank you.
Please take a seat. And please state your full and
true name for the record, and spell your last name.
THE WITNESS: Lucas Anthony Hilgemann, H-IL-G-E-M-A-N-N.
DIRECT EXAMINATION
Q (BY MR.
Hilgemann.

FORST)

Good

morning,

Mr.

A Good morning.
Q Are you currently employed, sir?
A I am.
Q And where is that?
A I am the chief executive officer of Americans
for Prosperity Foundation.
Q And how long have you worked there, Mr.
Hilgemann?
A I’ve been with AFP Foundation since 2012.
Q And did you join -- or what was your title
when you joined, sir?
A I was Wisconsin state director.
*

*

*

[Day One, Vol. I: Page 40]
Q And can you describe the content of your
typical communications with them and what they
say to you?

209
A Sure. A lot of the communications are around,
again, the mission, goals, objectives, some of the
accomplishments that we’ve seen at the Foundation.
One of the topics that often comes up is their
confidentiality.
Q And that’s a concern that they raise, the
donors, with you?
A Yes, especially prospective donors
currently the donors who have that concern.

and

Q And how do you address that Mr. Hilgemann?
A I stress the importance and the systems
protocols that we have in place to make sure that
their anonymity is something that we see as one of
our top priorities for partnerships with our donors.
Q And what are the practices that the
Foundation does put in place regarding that
anonymity?
A So we have very limited exposure to the
names, identities and interests of those donors. It’s
something that we take very serious precautions to
prevent being leaked or being discussed outside of a
small group of people internally. We also stress the
importance with all of our employees of keeping that
confidentiality as something that is a top priority,
not just within the institution but outwardly as well.
Q And you personally as CEO, is that something
that you do and undertake?
A Yes, absolutely.
Q In what ways?
A Again, it’s something that, you know, we -- I
rarely have access to a full list of our donors. It is a
very small group of people, again, that I operate with

210
or communicate with. And I can honestly say that as
CEO for the last year and a half, I’ve yet to see a full
list of our donors.
Q Okay. And why is, as CEO, protecting that
donor information so important to you and the
organization?
A Because they really are the lifeblood of our
organization. We are a donor-driven institution that
receives donations across the board. And again, they
are the folks that keep the lights on and the
machines going.
Q And so when these conversations come up
about anonymity with donors, what do you
specifically tell them?
A I walk them through the process and the
priority that we place on it; that each one of the
dollars that they invest with us is something we see
as our duty and an expectation from them to make
sure that we keep their identities secret; and that it’s
not something that is broadly shared in the
institution.
Q Now, sir, as CEO, are you familiar with the
Schedule B Form 990?
A Yes, I am.
Q And what is that?
A It is an IRS document that we share that lists
the names of our top donors to our foundation.
Q And have you ever discussed, you yourself,
Schedule B with donors?
A Yes, I have.
Q And in what context?

211
A Just a couple weeks ago -- this is a
conversation that comes up quite frequently -- but
they referenced this case. I was at an event, inviteonly event in Utah, multiple donors who were firsttime attendees at an AFP Foundation event. One of
them asked specifically about this case and the
priority we were placing on keeping the names of our
donors private.
Q And what did you say to the donors?
A Again, I explained to them the importance and
the priority that we place on that information; that it
is not only an expectation, but it’s also a process and
protocol situation that we constantly and
consistently are looking to keep those things private.
Q And has the donor who asked the question
about the litigation contributed to the foundation to
date?
A No.
Q How have donors expressed to you their
concerns about appearing on Schedule B, if at all?
A It’s something that comes up quite frequently.
Again, with the leaks that we’ve seen at the IRS,
groups like ours being targeted, individuals being
targeted by government entities, it’s a concern that’s
always on their mind. And I think the biggest
concern that I’ve seen is from the donor group that I
had interactions with in Wisconsin where a group of
those folks were targeted by the opposition who were
outed and were boycotted; their businesses were
boycotted. There were personal threats that were
lobbied against themselves, their businesses and
their employees.
Q And in what ways were they outed, sir?

212
A It was something that the opposition had
pulled together a list of suspected donors to the
Foundation because of their interactions with groups
like ours in the past that had been publicized. They
boycotted their businesses. They made personal and
private threats against them, their families and their
businesses and their employees.
Q And was this in a certain geographic location?
A It was. It was localized to generally across the
state of Wisconsin folks that they had, again,
believed were supporters of the AFP Foundation.
Q And what time frame was that?
A That was approximately in 2012.
Q Do you know, sir, of instances where
purported donors of the Foundation have actually
been identified publicly beyond this instance that
you just described?
A Yes. There was a National Law Journal story
that came out in 2012 or 2013 when I was chief
operating officer of AFP Foundation that listed the
names of multiple top donors, including the amounts
of money that they had given our organization.
Q And, Mr. Hilgemann, I think there’s a binder
-- or if somebody can ask -- the binder there.
MR. FORST: Your Honor, I also believe that you
have a witness binder for Mr. Hilgemann.
THE COURT: Yes, I do.
MR. FORST: Okay, great.
Q (BY MR. FORST) Mr. Hilgemann, if you can
turn to the first tab in your binder, which should be

213
labeled Exhibit Number 396. Do you recognize that
document?
A Yes, I do.
Q And what is it?
A The story that I referenced about one of our
Schedule Bs that a reporter had received and outed
the names of multiple donors to our Foundation.
Q And do you recall reading it at the time?
A I do.
Q And discussing it within the Foundation?
A Yes, I do.
MR. FORST: Your Honor, we would respectfully
move Exhibit Number 396 for admission into
evidence.
MS. GORDON: No objection, Your Honor.
THE COURT: 396 in evidence. (Exhibit No. 396
received into evidence.)
Q (BY MR. FORST) And here, this article that
you described, did it, in fact, link to the Foundation’s
Schedule Bs?
A There was a link that it was included from a
leaked document of our 2000 -- I believe 2001, 2002
Schedule B.
Q And how did the reporter get a hold of these
Schedule Bs, if you know?
A I believe it was a Schedule B that was received
from the Massachusetts Attorney General’s office
that had been mistakenly –
MS. GORDON: Objection, move to strike. No
foundation.

214
THE COURT: Objection is overruled.
Q (BY MR. FORST) Was
concerned about this publication?

the

Foundation

A Yes, it was.
Q And in what ways?
A Because I wasn’t a part of the Foundation in
2002, again, because of the priority and importance
we put on the anonymity of our donors, it was
something that I shared with our general counsel,
with our board members who were part of the
institution at the time, to develop a path forward to
make sure that we did everything in our power to
protect the identity of those folks that had been
shared.
Q You can set that exhibit aside, Mr. Hilgemann.
As CEO, if a Schedule B donor is exposed, what are
the consequences to the Foundation?
A Well, I think in general that because these are
our major funders, that even if one of them moved
away or didn’t donate to our Foundation, it would
have a massive effect on our operations.
Q And what effect specifically?
A Because these are seven-figure-plus donors,
potentially if one left or decided not to give, that it
would shut down parts of our operation, including
laying off staff, turning down capabilities that we
had been building.
Q And are there other consequences that you
perceived, or have been expressed to you between
donors in groups among each other?
A Yeah, these are a small group of individuals
that talk on a regular basis about the investments

215
they’re making in our groups and others, and it has a
chilling effect. There’s no doubt about it; that if one
person were to be outed and decided to step away,
that it would definitely have consequences
throughout that group of people.
Q Now, earlier, sir, you testified about the
experience in Wisconsin and the groups that have
been boycotted. Do these concerns from donors that’s
expressed to you resonate with you personally?
A Yeah, they absolutely do.
Q And in what ways?
A Well, shortly after starting with the
Foundation, months -- a couple of months after I
started as the state director in Wisconsin, it was
brought to my attention that a liberal blogger had
posted the home address of my home, my family’s
home, and the addresses of my children’s schools as a
way to intimidate us for the actions that we were
taking.
Q And do you recall reading that blog post?
A I do.
Q And how did you react to that?
A It was frightening. You know, it’s unfortunate
that there are those types of attacks that are lobbied
against people who are working for our organization
or believe in the causes that we believe. But I think
in general we could all agree that taking -- or
attacking a person’s family takes it to a new level.
Q And in your experience and based on this
critic’s, you know, posting on the blog, does the
public or even authors, blog-posters, differentiate

216
between the
Prosperity?

Foundation

and

Americans

for

MS. GORDON: Objection, irrelevant.
THE WITNESS: No, they don’t.
THE COURT: Objection is overruled.
THE WITNESS: No, I don’t think that they do.
You know, while we have internal conversations and
understanding of the difference between the
Foundation and our (c)(4), Americans for Prosperity,
that – it’s not generally understood by those in the
media, and especially those who oppose what we are
trying to accomplish.
Q (BY MR. FORST) And does that include
protesters at events?
A Absolutely.
Q In response to this event, again, this posting
on the blog, did you take any additional steps
regarding your personal security?
A I shared the existence of it with my wife, who
was obviously upset at the information being out
there; talked to her about what we could potentially
do to make sure that our family was protected. We
actually put in a home security system at the time
and beefed up the monitoring that we had at our
home. I tried to encourage her to apply for a
concealed carry permit, because it’s something that I
had had at that point, and I wanted to make sure
that her and the kids were safe.
Q And again, you mentioned the boycott in
Wisconsin. Are there any other events in Wisconsin
that come to mind?

217
A Yeah. Shortly after that event happened,
couple of months after that, there was a Tax Day
rally that we had in Madison where we had about 4or 500 of our activists who were with us that day
talking about the importance of limited government
and lowering taxes for citizens in that state. And I
was giving a speech at the time, and there were
several thousand protesters that had surrounded
that event that were chanting, making threats at our
activists and myself. And shortly after I got done
speaking that day, I walked off the podium to go and
greet my parents who were also a part of the event
that day. And there was a protester that approached
me, made multiple slurs and, you know, used some
foul language to describe his thoughts of me and
what we were doing.
And I -- I was talking to my parents and tried to
grab them and move them away from the situation.
As I turned back around, he spit in my face and
called me a bunch of other names.
Q And what’d you do in response?
A I -- at that point I wanted to deescalate the
situation as much as possible, so I wiped the spit off
my face, grabbed my dad, because I was concerned
that he was going to, you know, retaliate for what
had been done, and move him away from that
situation.
Q So beyond these two events in Wisconsin that
you’ve now described, are there other events that
stand out from your time in the Foundation?
A Yes.
Q And what are those?

218
A There was an event in 2000 -- late 2012 that
was revolving around the Right to Work conversation
or that was being had in Michigan. And I was asked,
as state director in Wisconsin at the time, to come
over and speak to the activists in Michigan about the
experiences we had with a similar type of policy
engagement.
Q And so how was that event set up on the
grounds of Michigan?
A There was –
MS. GORDON: Objection, Your Honor. Lacks
foundation. My belief is this is actually a (c)(4)
event, and it is irrelevant to the current action. The
(c)(4) is a separate legal entity that is not a party in
this action.
THE COURT: The objection is overruled.
Q (BY MR. FORST) And so again, Mr.
Hilgemann, the question I posed was, what was -how was the event set up on the grounds in
Michigan?
A There was an events tent that was set up for
kind of a rallying point for our activists who were
joining us at the capitol that day.
We were
encouraging them to go and speak to their legislators
about our support for Right to Work legislation that
was being considered in the legislature. So it was an
events tent. We had multiple speakers that were a
part of that event. We also had refreshments in the
tent for our activists.
Q And how many activists attended?
A I think there was probably about 60 to 70 folks
at the height of our gathering, and then it was

219
disbursed throughout the day as they were going to
speak with their legislators.
Q And were there even non-AFP activists or AFP
activists there?
A Yes.
There were thousands of pro-union
protesters who were also on the capitol grounds that
day.
Q And where were those protesters located?
A They were -- I mean, it was a large crowd, so
they were kind of taking over the whole capitol
grounds. But there were several hundred of them
that had surrounded our tent and were trying to
shut us down, intimidate us, intimidate our activists.
Q And did the protesters do anything else?
A They did. At one point I remember standing
outside of the tent and seeing multiple protesters
approach with knives or box-cutters cutting at the
ropes of the tent, trying to collapse the tent.
Q And did they, in fact, collapse the tent?
A They did.
Q And do you recall hearing anything else from
the protesters?
A Yeah. There was -- shortly after they had cut
the ropes and collapsed the tent, there were actually
people that were left inside of the tent, multiple
activists, probably more than a dozen, including
some of our elderly activists who couldn’t get into the
capitol because of their limitations. And so I -- as
soon as the tent was collapsed, I remember going
over to the side, because I could see the people
underneath it, lifting up the tent, trying to pull them
out to safety.

220
Q And did you take video recording of that
event?
A I did. I was actually using my cell phone to
take video of the protesters before they were cutting
at the ropes and making sure we had evidence of
that.
Q And have you otherwise watched footage of
that event as you recall seeing it?
A Yes, I do.
Q Did you watch it contemporaneously, what
happened, afterwards?
A I did. I watched it that day.
Q Mr. Hilgemann, if you turn to the second tab
in your binder, which is Exhibit 380.
THE COURTROOM DEPUTY: Exhibit 380 is
identified and placed before the witness.
Q (BY MR. FORST) Are you there?
A I am.
Q And
document?

do

you

recognize

what’s

on

this

A I do.
Q And what is it?
A It’s a recorded video of the protesters
collapsing our tent and destroying our property
during that rally.
Q And do you recall watching that video?
A I do.
MR. FORST: With Your Honor’s permission, it’s a
very short video, we would like to play that.

221
THE COURT: All right.
MS. GORDON: We object for lack of foundation
and authentication and that this video was not
produced during discovery.
THE COURT: The objection is overruled. (Exhibit
380 played in open court.)
THE COURT: I think that’s enough, Counsel.
Q (BY MR. FORST) Now, Mr. Hilgemann, does
that video accurately reflect what happened as you
witnessed it?
A It does.
Q I didn’t see any police in this video. Were there
any present?
A Not at that point in time.
Q And so did they arrive at any point in time?
A They did. When I witnessed the protesters
starting to cut at the ropes, I sent one of our other
staff members to try and seek law enforcement’s
help, and it took approximately 30 to 40 minutes
after they had actually collapsed the tent for law
enforcement to show up on scene.
Q And were there any non-AFP-injured -- people
injured, if you know?
A There were. Amongst our -- again, the
activists that I discussed were under the tent when it
collapsed.
I do remember seeing a Fox News
contributor at the time, who was among one of the
groups of people that were sheltering away from the
situation, who had blood on his face.
Q And when did you see him?
A It was shortly after the tent had collapsed.

222
Q And do you have any understanding of what
happened to him?
A Yeah. I found out later that day, through the
news that I had watched, that he had actually been
punched or assaulted by one of the protesters.
Q And you recall watching that news footage
that same day?
A I do.
Q If you turn to the next tab in your binder, sir,
it’s Exhibit Number 573.
THE COURTROOM DEPUTY: Exhibit Number
573 is identified and placed before the witness.
Q (BY MR. FORST) Do you recognize what’s on
that exhibit?
A I do.
Q And what is it?
A It is the news story of that contributor who
was attacked or assaulted shortly after the tent
collapsed.
A And is that the news story that you watched?
A Yes, it is.
MR. FORST: Your Honor, we would respectfully
move Exhibit Number 573 into evidence.
MS. GORDON: And Your Honor, we would
respectfully object because it lacks foundation and
authenticity, and it was not produced during
discovery.
THE COURT: 573 in evidence. (Exhibit No. 573
received into evidence.)

223
MR. FORST: And we have another video of that,
Your Honor. But with your permission, it’s another - about a minute and a half. We can show it or -- I
really defer to whether you want to see another
video.
THE COURT: For what it’s worth.
MR. FORST: Let’s play it. (Exhibit No. 573 played
in open court.)
THE COURT: That’s enough, Counsel.
MR. FORST: Now, Your Honor, I think I forgot
actually to formally request that Exhibit 380, the
video before, be moved into evidence. I just want to
make that request now.
MS. GORDON: We object, Your Honor.
THE COURT: 380 in evidence. (Exhibit No. 380
received into evidence.)
Q (BY MR. FORST) Now, at this event, Mr.
Hilgemann, did you fear for your life?
A I did.
Q And for others’?
A Yes. It was the first instance of many that I’ve
been a part of since my time with the Foundation
where I truly feared for the lives of not only myself
but our activists, our staff, who were a part of that
event. And I think one of the things that’s crystalclear in my mind and one of the things that I’ll
always remember was the fact that as the tent was
going over, the group of the angry protesters was
right in front of me as I was trying to pull people out
of the tent. And they made the comment that, Let’s
trample these mother-f’ers. And it was at that point
that I realized that lives were in jeopardy; that the

224
level of violence and anger has risen to a point where
people’s lives were definitely in danger.
Q And in your meetings with donors, have they
told you that they have seen these events?
A Yes.
Q And what have those discussions been?
MS. GORDON: Objection, hearsay, Your Honor.
THE COURT: The objection is overruled.
THE WITNESS: Other donors are seriously
concerned not only for the well-being of our staff and
our activists, but they’re also concerned that we’re
taking the proper protocols to protect our staff, our
activists, any of our folks who attend similar events
in the future.
Q (BY MR. FORST) Now, Mr. Hilgemann, are
there other personal threats, for example, that you
have experienced?
A Yes, I have.
Q And can you describe it?
A The one that I think is most personal to me
and, again, the one that’s probably most numbing to
what I’ve experienced during my time with the
Foundation is in 2013 I was alerted by our security
staff that they had received some postings that were
made on another liberal blog about someone who was
working inside of our institution and making
frequent posts about how they were inside the belly
of the beast; and that they could -- they were right
outside of my office; and that they could easily walk
in and slit my throat.
Q And how did you react to learning that?

225
A Again, it’s one of those situations that you
don’t think you’re going to have to endure working in
the business that I work in, but it was another one of
those frightening moments that unfortunately I had
to share with my wife, because the security staff had
also told me at the time that the person was found,
the actual person who was making those posts was
found in our parking garage taking pictures of
license plates, including my personal vehicle.

226
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day One, Volume I
Excerpts from the Trial Testimony of Mark Holden
February 23, 2016

*

*

*

[Day One, Vol. I: Page 70]
THE COURT: Call your next witness.
MR. BURCK: Thank you. Your Honor, plaintiff
calls Mark Holden.
THE COURTROOM DEPUTY: Please step
forward. Stop right there, turn around. Please raise
your right hand.

227
(The witness, MARK VINCENT HOLDEN, was
sworn.)
THE COURTROOM DEPUTY: Please take a
seat. And please state your full and true name for
the record, and spell your last name.
THE WITNESS: Mark Vincent Holden, H-O-L-DE-N.
*

*

*

[Day One, Vol. I: Page 75]
Q Now, you’re the general counsel for Koch
Industries.
You’re also on AFP.
Is there a
relationship between the --Charles Koch and David
Koch and AFP?
A Yes.
Q Tell us what that is.
A Charles Koch and David Koch were two of the
original founders, created what became Americans
for Prosperity Foundation. They started -- it was
called, in the 1980s, Citizens for Sound Economy
Foundation. And David Koch currently is the chair
of the (c)(3), of the Foundation.
Q And are they both significant donors? Is that
publicly known?
A I don’t know if it’s publicly known or not.
They contribute money, I believe, yeah.

228
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day One, Volume II
Excerpts from the Trial Testimony of Mark Holden
February 23, 2016

*

*

*

[Day One, Vol. II: Page 14]
Q Now, Mr. Holden, to your knowledge is Mr. –
is President Obama the only politician who has made
negative public remarks about Americans for
Prosperity?
A No, he’s not.
Q Who are some of the others that you’re aware
of?

229
A There are many of them.
For example,
Senator Harry Reid would probably be first and
foremost on the list, has made a number of negative
comments, disparaging comments about Charles
Koch, David Koch, Americans for Prosperity over the
past two years, and again, into this year, I believe, as
well. Others come to mind, Former Representative
Henry Waxman; Senator Sheldon Whitehouse;
Senator -- I think it’s Sandra Levin, former senator;
Senator Schumer; Representative Van Hollen. I
don’t want to go on and on, but that’s a
representative list.
Q And is it your recollection that those
politicians linked Charles Koch and David Koch to
AFP in those disparaging remarks?
A Yes.
Q Now, are there any other politicians that
you’re aware of that have made remarks about
Charles Koch, David Koch and AFP in a similar
fashion?
A Yes.
Q Who would that be?
A Here in California, there’s a few.
Q Who are they?
A Kamala Harris, Attorney General Harris;
former FPPC Chairwoman Ann Ravel; the former
head of enforcement for the FPPC, I think it’s Gary
Winuk, Mr. Winuk, to name a few.
Q I am going to direct your attention to Trial
Exhibit 582 for identification purposes only.

230
THE COURTROOM DEPUTY: 582 is identified
and placed before the witness. (Exhibit 582 for
identification.)
THE WITNESS: Yes.
BY MR. BURCK:
Q Have you seen this before?
A Yes.
Q Can you tell us what it is?
A Yeah.
It’s a story and article from the
Sacramento Bee from November 5th, 2012, “FPPC
Says Arizona Nonprofit Laundered Money to
California Campaign.”
Q And do you recall reviewing this or seeing this
article in roughly the time frame that it came out?
A Yes.
MR. BURCK: Your Honor, we would offer into
evidence Trial Exhibit Number 582.
MR. CALIA: We object. This document contains
hearsay, especially the statements of the FPPC.
THE COURT: 582 in evidence. (Exhibit 582
received.)
BY MR. BURCK:
Q Mr. Holden, can you just generally describe
what this article is about from your perspective.
A Beginning it was an investigation that the
FPPC was doing into some nonprofits that were
accused of money laundering, to donate money in
California to a ballot initiative, as I understand it.

231
Q And are there references in this article to the
Koch brothers or Koch companies or anything related
to Koch?
A Yes, there are.
Q Could you look at the bottom of the first page
of the article. It’s highlighted in the article, at least,
the second to last paragraph.
A Yes, I see it.
Q It says “Although it could not be confirmed,
the Center to Protect Patient Rights has been
connected to Kansas-based Koch Industries, whose
owners David H. Koch and Charles G. Koch are
conservative advocates.” Do you see that?
A Yes.
Q On the next page, page 2, the third paragraph
from the bottom, there is a reference to a statement
that the defendant in this case, Attorney General
Kamala Harris, is purported to have made. Do you
see that?
A Yes.
Q And I will read the paragraph and then the
quote. “Attorney General Kamala Harris said by
phone this morning that her office must still review
whether there are any civil or criminal violations
related to money laundering so it is not pursuing any
as of yet. Harris’s office has represented the FPPC
in its suit against Americans for Responsible
Leadership,” and then there is a quote from Ms.
Harris. “Whether it’s the Koch brothers or Carl
Rove, this was a brazen attempt to launder money
through out-of-state shell organizations and for the

232
sole purpose of hiding it from the voters in
California, Harris said.” Do you see that?
A Yes.
Q And do you recall seeing those words at the
time?
A Yes.
Q What effect did those words have on you at the
time?
A Very concerning, very disturbing. It made me
very concerned that the attorney general would say
something like this, accusing Koch of a brazen
attempt to launder money.
Q Let me ask you, you were the general counsel
of Koch Industries at the time?
A Yes.
Q And you were involved in AFP at the time?
A I wasn’t on the board, but I was familiar with
it and worked with people who worked with them,
yes.
Q In your view, was this an accurate statement?
A No. It’s a false statement.
Q I would like to -- you can put that exhibit
aside. For identification purposes only, I would like
the witness to take a look at Trial Exhibit 219.
A Yes.
THE COURTROOM DEPUTY: Exhibit 219 is
identified and placed before the witness. (Exhibit 219
for identification.)
BY MR. BURCK:
Q Do you recognize that document?

233
A Yes.
Q What is it?
A This is an October 24th, 2013 release, “FPPC
Announces Record Settlement in $11 Million Arizona
Contribution Case,” and it was a joint release from
the FPPC and the California attorney general.
Q And do you recall seeing this statement
around the time that it was -- it was issued?
A Yes. And I saw the press conference as well
that day.
MR. BURCK: Your Honor, we would offer Trial
Exhibit Number 219 into evidence.
MR. CALIA: We have no objection.
THE COURT: 219 in evidence.
received.)

(Exhibit 219

BY MR. BURCK:
Q Now I will read an excerpt from this, and you
let me know if you recall hearing this at the time.
The title, “FPPC Announces Record Settlement of
$11
Million
Arizona
Contribution
Case,”
“Sacramento - the FPPC and California attorney
general today announced a record civil settlement
against the Center to Protect Patient Rights (CPPR)
and Americans for Responsible Leadership (ARL),
two nonprofits operated as part of the ‘Koch brothers
network’ of dark money political nonprofit
corporations. The settlement requires CPPR and
ARL to pay $1 million to the state general fund for
their failure to disclose two dark money independent
expenditure contributions in the 2012 election to
oppose Proposition 30 and support Proposition 32.”
Do you recall that?

234
A Yes.
Q The next paragraph says, and it’s a quote from
the FPPC chair, Ann Ravel, “‘This case highlights
the nationwide scourge of dark money nonprofit
networks hiding the identities of their contributors,’
said FPPC chair Ann Ravel.
‘The FPPC is
aggressively litigating to get disclosure and working
on laws and regulations to put a stop to these
practices in California.’” And then we will skip
down to the second to the bottom paragraph. “This
resulted in a joint investigation by the FPPC and the
attorney general’s office that revealed that CPPR,
the key nonprofit in the Koch brothers’ dark money
network of nonprofit corporations, was actually the
source of two major contributions that were not
properly reported.” Now, do you recall -- again, do
you recall reading those words at the time?
A Yes.
Q What effect did this press release by the
FPPC, in which it states that it was doing an
investigation with the attorney general, what effect
did that have on you?
A It, again, was disturbing and concerning. We
were being accused of certain acts that we weren’t
involved in. Koch was the, quote/unquote, Koch
brothers’ network of dark money. That was very
concerning because, again, it was not accurate.
Q And did you discuss this press release and this
investigation with others at Koch or at AFP?
A Yes.
Q And what was the reaction of the other people
that you spoke to about this allegation?

235
A It was, again, concern and people were
disturbed. You start back a couple years, there would
have been a steady drumbeat of activities that we
were linked to that we weren’t involved in and a lot
of negative press, and then now, here this was in
2013, you are being accused of being part of this
settlement. You did something wrong in California.
The accusations were very troubling, and we felt
they were false.
Q You can put that exhibit aside. I am going to
show you now, for identification purposes only, Trial
Exhibit 581. (Exhibit 581 for identification.)
BY MR. BURCK:
Q Do you recognize that document?
A Yes, I do.
Q And can you tell us what it is?
A It is – it’s an article from New Yorker
Magazine, October 25th, 2013, “The Koch brothers in
California?” by Jane Mayer.
Q And is that the same author of Exhibit 424
that we looked at earlier this morning?
A Yes.
Q And do you recall reading this article around
the time it was published?
A Yes, I do.
MR. BURCK: Your Honor, we would offer Trial
Exhibit 581 into evidence.
MR. CALIA: No objection.
THE COURT: 581 in evidence. (Exhibit 581
received.)

236
BY MR. BURCK:
Q Turning to -- well, before we turn to the last
paragraph, can you just tell us just generally what
this article was about, as far as you recall?
A This was about the California case that we
just referred to that was referenced in the FPPC
exhibit that we saw. It was the next day or the day
after that that was announced.
Q And the first -- the very first paragraph of this
article, I will read it, just a portion of it. “It’s now
established that a secretive political group linked to
the billionaire conservative activists, Charles and
David Koch, has agreed to pay a record fine for
violating California’s laws requiring the disclosure of
campaign donations.” Do you remember reading
that?
A Yes.
Q “But much else about these dark money
maneuvers remain shrouded in the mystery that
inspired the title,” quote, “covert operations for the
story I wrote about the Koch brothers in 2010.” Do
you see that?
A Yes.
Q And that’s the article we talked about earlier
this morning?
A Correct.
Q Now, the final paragraph of this article, there
is a quote from the defendant in this case, and I will
read that.
“According to California’s attorney
general, Kamala D. Harris, finding out any more will
require a change in campaign-finance laws. In a
statement, Harris said, ‘This case demonstrates in

237
clear terms that California’s campaign-finance laws
are in desperate need of reform. California law
currently contains a loophole for certain groups to
evade transparency by maintaining the anonymity of
their donors.’” Do you recall reading those words?
A Yes.
Q What was your understanding of what those
words meant in that article?
A The attorney general wants to know who our
donors are.
Q Now, you can put that exhibit aside. For
identification purposes, I would like you to take a
look at Trial Exhibit 220.
THE COURTROOM DEPUTY: Exhibit 220 is
identified and placed before the witness. (Exhibit
220 for identification.)
THE WITNESS: Yes.
BY MR. BURCK:
Q Do you recognize this?
A Yes.
Q What is it?
A It’s a copy of a blog post from the Washington
Free Beacon, and it’s entitled “Official,” and then
there is a full colon, “Kochs Not Involved in
California Campaign Finance Violation,” and it’s
November 4, 2013.
Q And do you recall reading this article around
the time it was published?
A Yes.

238
MR. BURCK: Your Honor, we would offer Trial
Exhibit 220 into evidence.
MR. CALIA: We object. This document contains
hearsay, especially the statements of the FPPC.
THE COURT: 220 in evidence. (Exhibit 220
received.)
BY MR. BURCK:
Q I am going to read a very short excerpt of this,
and you tell me if you recall these words. “Former
chair of the California Fair Political Practices
Commission, Ann Ravel, admitted this weekend that
the Koch brothers were not involved with campaign
finance violations that resulted in a record fine
levied by the agency. Ravel had attempted to link
violations by two Arizona-based nonprofit groups to
Libertarian philanthropists Charles and David Koch,
saying the Kochs funneled ‘dark money’ into two
2012 ballot initiatives.
“However, during an
interview with KNBC on Saturday, Ravel conceded
that the Kochs were not involved.” “It was not the
Koch brothers, it was Eli Broad, and there were some
others,’ Ravel said when asked if she believed that
the Kochs were responsible for making the
donations.” This article was published on November
4th, 2013; is that right?
A Yes.
Q This is only a couple weeks after the press
release that the FPPC had put out?
A Correct.
Q And sometime shorter than that, after Ms.
Harris had made the statements to Ms. Mayer in the
article we just talked about?

239
A Correct.
Q What was the effect on you of seeing this
article published?
A Well, it was good to see that Ms. Ravel
admitted we weren’t involved, so that was good, but I
was puzzled by why we were accused in the first
place. And then after this the story changed again,
and Ms. Ravel and others said we were involved. So
it was confusing.
Q Now, you testified about Trial Exhibit 219 a
bit ago, and that was the press release by the FPPC.
A Correct.
Q Has there been a formal retraction by the
FPPC or the attorney general of the statements
made about the Kochs in that press release?
A No. I mean, it’s still up on their website today.
Q How do you know that?
A Because I saw it this morning.
Q You checked this morning?
A Yes.
Q And that exact press release is still there?
A Yes.
Q Now, you testified that President Obama and
Attorney General Harris and other politicians have
made public remarks questioning who the donors to
AFP or the foundation or to the network are, right?
A Yes.
Q Are you aware of efforts by media publications
to reveal the identities of donors to AFP?
A Yes.

240
Q Can you describe some of the efforts that
you’re aware of?
A It’s a constant -- I mean, that’s what media
does, and it’s a constant issue that they are trying to
either infiltrate media or activists who will then feed
the media information, infiltrate our seminars and
get documents and get information, and then when
they get it, whether it’s a surreptitious tape
recording or a document that they find, they will
publish it and list the details of the individuals who
are at the seminar that they can disclose and put in
details about them for the public to read.
*

*

*

[Day One, Vol. II: Page 30]
A Yes. What happened, they issued the press
release so we had some advance notice, and we tried
to get our ducks in a row at Koch, and AFP tried to
do it as well to protect the IT systems. And we
reported it. What happened was they tried to attack
the Koch Industries website, and this ultimately,
because of the information we were able to put
together in these attacks, led to the indictment,
prosecution and guilty pleas for three individuals for
federal cybercrime laws after they tried to shut down
our website.
They were unsuccessful largely doing that, and
they went on the activist/hactivist Anonymous group
to attack AFP’s website, and they did shut that one
down through a distributor denial of service, a
DDOS, which I don’t quite understand it, but that’s
what they call it, and it shut down the AFP website.
So that was reported to the authorities. And like I

241
mentioned, three people
ultimately pled guilty.

were

indicted

and

Q Now, can you tell us about any threats or
attacks or harassment that you’re aware of directed
at David and Carlos Koch in connection with their
affiliation with AFP?
A There have been a lot since 2009 to the
present, and it’s been across the spectrum. There’s
been -- you know, whether it’s phone calls, we have
had phone call death threats right around the time of
the Wisconsin event. Someone phoned in a death
threat saying they were going to put a bullet in the
head of both Charles Koch and David Koch, and we
reported that to the FBI. And they investigated it,
and it was an individual in Northern California. He
was not prosecuted.
There have been two other people who have made
death threats against Charles and David that have
been prosecuted by the authorities after the FBI
investigated it. But we have had all kinds of
different death threats, really awful, just unhinged
things that are said about them and their families.
There was a death threat made against one of the
grandchildren in an anonymous poem at the end of
2012 that was very unhinged. There’s been just
several of them. We have had threats of a terroristic
attack against our Enid, Oklahoma fertilizer facility.
That happened in 2012. It was such a serious
matter.
The Oklahoma City FBI drove up to
Wichita, called me on the phone.
THE REPORTER: Hold on. Slow down.
THE WITNESS: Sorry, I get going. It was a very
serious matter. And the Oklahoma City FBI called

242
me up and said they wanted to come up in person,
three of the agents and one of the U.S. attorneys, to
discuss it. And they disclosed that as part of an
event that was going to happen over President’s Day
in Wichita called Occupy Koch Town, K-o-c-h Town.
There was going to be another anonymous attack,
and it was going to be a fire-bombing of our
Oklahoma facility. So those are some that come to
mind.
Q I am just going to direct your attention to Trial
Exhibit 226, just for identification purposes only.
THE COURTROOM DEPUTY: 226 is identified
and placed before the witness. (Exhibit 226 for
identification.)
THE WITNESS: I see it.
BY MR. BURCK:
Q Do you recognize this document?
A Yes.
Q Can you tell us what it is?
A This is a compilation of different threats and
negative --where the messages, e-mails, tweets,
whatever that was put together by the security team
at Koch.
Q Security team at Koch?
A Yes.
Q And you are the general counsel of Koch, and I
think you testified that the security group reports to
you.
A Yeah.
The head of that group is Ed
McCormick. He is a direct report of mine, and I work
with the whole team, yes.

243
Q And did you ask them to put this together?
A What we have been -- yes. We wanted to get -we do random or periodic surveys, different points in
time of what, you know, what it looks like out there
in the landscape and social media with regard to
Koch and any groups that might be tied to us, like
AFP, just to see what’s going on to try to stay ahead
of issues, if we can, and find trends. And to the
extent there is something disturbing and needs to be
followed up on, we can get ahead of it, hopefully.
Q Is it fair to say this is a document that was put
together in the normal course of business by your
team at your instruction as general counsel?
A Yes.
MR. BURCK: Your Honor, we would offer Trial
Exhibit Number 226 into evidence.
MR. CALIA: We object that the threats in this
document don’t relate to the foundation, so it’s
irrelevant.
THE COURT: The objection is sustained.
BY MR. BURCK:
Q Without discussing the document directly,
does this document reflect, texts, e-mails,
communications by people outside of Koch who sent
in threats to Koch?
A Yes, or they were on social media and picked
up, one or the other.
Q Do you recall what some of these threats said?
A Yeah, I mean, they were “Kill David Koch,”
“Kill Charles Koch.” There’s -- you know, with

244
profanities that I don’t want to use in court telling
them to “F off and go die,” those types of things.
Q And then just for identification purposes Trial
Exhibit 337.
A Yes.
THE COURTROOM DEPUTY: 337 is identified
and placed before the witness. (Exhibit 337 for
identification.)
BY MR. BURCK:
Q What is this document?
A This is a compilation of other -- of social media
mentions that are threatening or e-mails or
communications that are threatening.
Q And who put this together?
A I did it with our security team.
Q And does this document reflect only comments
that came into Koch threatening the Koch -- David
Koch or Charles Koch?
A Yes, it appears to be, yes.
MR. BURCK: Your Honor, we would offer into
evidence Trial Exhibit No. 337.
MR. CALIA: We have the same objection, Your
Honor.
THE COURT: 337 in evidence. (Exhibit 337
received.)
BY MR. BURCK:
Q And just very briefly going through all of these
various threats, the picture at the bottom left-hand
side of the first page, you see that with the
Swastika?

245
A Yes, I do.
Q Do you recall seeing that?
A Yes.
Q What effect did that have on your mindset?
A It is obviously disturbing to see Charles Koch
and David Koch or any other law-abiding citizen or
anyone compared to Nazis. It’s disturbing, but it’s
happened before as well so it’s not unusual, I guess.
Q Just a couple of others. On the second page of
the document you will see from someone named Sam
Snyder, “Guillotine the Koch brothers please.” And
further down, “Shoot them as traitors.”
A Yeah.
Q And there are other notes and e-mails and
texts of a similar sort, correct?
A Correct.
Q In total, what effect on you, as the general
counsel of Koch Industries, currently as a board
member of AFP, and as your association with AFP,
these types of statements, what impact have they
had on you?
A Just the last several years it can be
frightening. It is disturbing, as I said several times,
and I think about it. It is troubling that people will
say things like this. And we have seen in our society
a lot of times people do crazy things when they’re
stirred up. So it’s disturbing, and it’s troubling. And
my opinion, it’s inappropriate, and it shouldn’t be
happening, but it does, and we deal with it.

246
Q Now, despite these types of threats, you
continue to work as the general counsel of Koch
Industries, right?
A Yes.
Q And you remain on the board of AFP?
A Yes.
Q And Freedom Partners?
A Yes.
Q And you have appeared publicly on behalf of
Koch Industries, on behalf of AFP?
A Yes.
Q You have written op ads?
A Correct.
Q You haven’t hidden the fact that you are
connected to these organizations, right?
A No.

247
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day One, Volume II
Excerpts from the Trial Testimony of
Christopher Fink
February 23, 2016

*

*

*

[Day One, Vol. II: Page 55]
THE COURT: You may step down. Call your next
witness.
MR. SHAFFER: Thank you, Your Honor. With
the court’s permission, Plaintiff will call Christopher
Fink. And, Your Honor, I think you should have up
there a binder for Mr. Fink.

248
MR. CALIA: We don’t have a binder for Mr. Fink,
if you have one for us.
THE COURTROOM DEPUTY: Mr. Fink, do you
want to step forward. Stop right there. Turn
around. Please raise your right hand.
CHRISTOPHER JOSEPH FINK, PLAINTIFF’S
WITNESS, WAS SWORN
THE WITNESS: Yes.
THE COURTROOM DEPUTY: Thank you.
Please take a seat. And please state your full and
true name for the record, and spell your last name.
THE WITNESS: Sure. Christopher Joseph Fink,
F-i-n-k.
DIRECT EXAMINATION
BY MR. SHAFFER:
Q Good afternoon, Mr. Fink.
*

*

*

[Day One, Vol. II: Page 60]
A We have had people bring audio-recording
devices into different events to record talks or
speeches, trying to get access to donors’ names. We
have people scouring our events. When we are
trying to raise money we generally try to -- we
actually try to buy out the hotel in a lot of places or
buy out the area where this is happening, but we
have had situations where people have scoured our
conference rooms and found documents. We have
had attacks on our databases from outside groups.
We had an attack from a group called Anonymous
that tried to get access to our database and
discovered in that way.

249
Q And just -- we have had some testimony about
Anonymous and what hactivists tried to do. Mr.
Fink, just for clarity of the record, what are you
referring to when you talk about trying to access the
database? What is your understanding around that?
A So my understanding from our security team
was that they were able to shut our website down for
a number of hours, but that they also tried to gain
access to our database and were unsuccessful.
Q And what would be inside that database?
A The lists of our donors and contributions and
their contact information and details about the
relationship between them and the foundation and
Americans for Prosperity.
Q Any other efforts to penetrate foundation or
AFP events or the events of related entities in order
to identify people who . . . .
*

*

*

[Day One, Vol. II: Page 63]
Q And, Mr. Fink, were you present at this event?
A Yes.
Q Now, as you look at this list, do you see any
individuals who subsequently reported that they
suffered negative repercussions as a result of having
been associated on this list and in the Mother Jones
article?
A Yes.
Q Is that one or a couple of individuals? How
many, sir?
A I would say six.

250
Q And what sort of negative repercussions did
they report?
A We had reports anywhere from their
businesses being audited or investigated to articles
that were posted in local newspapers, essentially
character assassinations for the individuals, calling
for boycotts on their businesses, things of that
nature.
Q What, if anything, did the foundation and AFP
and any affiliated entities do in the aftermath of this
episode?
A So the first thing we did was members of the
Freedom Partners fundraising team contacted
everyone on this list and let them know their
information had been exposed. They let them know
we take this very seriously. It is obviously part of
our donor pitch that we were going to guard your
confidentiality. After that, it was mainly working
with the supporters, alleviate the best we could the
risks or future risks.
*

*

*

[Day One, Vol. II: Page 66]
THE WITNESS: So generally, the number one
concern is about being disclosed, about their
information or their identity, in connection with
Americans for Prosperity, the information being
exposed.
BY MR. SHAFFER:
Q What are they conveying to you about why
they fear disclosure?
A You know, it’s different, circumstances are
different. There’s a few common themes. Generally

251
it’s they are afraid to have their information in the
hands of state government or a federal government
or in the hands of the public.
So I will give you an example on the state side. I
have met with some business owners or small
business owners, many who have said that they
contribute to both Republicans and Democrats
equally, and they try to keep their head down. They
are afraid if they are associated with our foundation
or Americans for Prosperity, their businesses would
be targeted or audited from the state government.
We also have people that are concerned about the
federal government, especially with the IRS, recent
leaks or scandals that happened there, that has come
up more and more. And then also people are
concerned about their information getting out in the
public, that they are supporters for Americans for
Prosperity and Americans for Prosperity Foundation
as well.
Q Why do they indicate
information becoming public?

they

MR. CALIA: Objection; hearsay.
statement of belief by the declarant.

fear

their

This is a

THE COURT: The objection is overruled.
THE WITNESS: So I think they believe and they
have seen other perceived reporters be attacked.
They have seen what happened to Charles and David
Koch. They have seen what happened to other
supporters, the threats on their life and safety, and
they just don’t want that for their family or their
business.
BY MR. SHAFFER:

252
Q Would you say you have been hearing more or
less of this concern, the concern of governmental or
public disclosure, in recent years?
A More.
Q Is there a particular point in time when you
noticed the concerns spiking?
A Yes. I think the IRS scandal was a big uptake
at that point. They also -- I remember when the
CEO of Mozilla Firefox was forced to resign after it
became clear or the information was leaked that he
had made a contribution towards an issue he cared
about but that was unpopular in the state of
California.
But I think as the political runner has gotten
louder and louder, people have become more and
more sensitive to that and more and more concerned
about being identified as a supporter of our
foundation or Americans for Prosperity.
Q When actual or potential donors expressed to
you their concerns about potential disclosure, how do
you respond?
A I mean, I generally respond by explaining all
the different measures we take to protect their
identity. I talk about, you know, our database and
how we keep that information confidential. I talk
about how we don’t share our donor information with
anyone that we are not legally obligated to. And so
generally I walk through some of those measures
depending on how much level of detail they want to
get into. I try to read a little bit of their body
language, if I am at all easing their discomfort. And
after I kind of walk through our security measures, I
also try to give them a little bit of a rah-rah speech.

253
This is obviously critical, and there is a reason we
are being targeted, and it’s because we are effective,
and I try to get them a little bit inspired to help them
overcome that anxiety or fear as well.
Q Does that rah-rah speech always work?
A No.
*

*

*

[Day One, Vol. II: Page 70]
BY MR. SHAFFER:
Q And have you had any communications with
actual or potential donors about this lawsuit and the
issues it raises?
A I have had some, yes.
Q And what do those communications tend to
consist of?
A Mostly it was at a donor prospect conference
earlier this year where people were aware of the
case. They were asking how it was going. They were
concerned about the repercussions of this case,
wanted to know what my thoughts were.
Q Can I ask you, please, to turn further in the
binder, just for identification purposes, I would mark
Exhibit 335.
THE COURTROOM DEPUTY: 335 is identified
and placed before the witness.
(Exhibit 335 for identification.)
THE WITNESS: Okay. Got it.
BY MR. SHAFFER:

254
Q Do you see at the top there is an e-mail from
Robert Heaton to Clay Gordon, dated July 15th,
2015?
A Yes.
Q Who is Robert Heaton?
A Robert Heaton is our CFO.
Q And to whom -- do you interact with Mr.
Heaton?
A Yes. Mr. Heaton reports to me.
Q And do you understand what Mr. Heaton was
reporting in this particular e-mail thread?
A Yes.
Q What was – what’s your summary of that,
please?
A Yeah, so Clay’s one of our -- Clay Gordon, who
the e-mail is from, is one of our junior fundraisers,
was asking Robert Heaton on behalf of a donor
essentially how they could avoid being disclosed to
the IRS or what those levels were they could give
under that would not put them on our 990s, Schedule
Bs.
Q Did you have an understanding as to why that
donor wanted to avoid being on the Schedule B?
A I mean, yeah, based on the e-mail and based
on the conversations, they were worried about being
targeted.
MR. SHAFFER: Your Honor, we
respectfully move into evidence Exhibit 335.
MR. CALIA: We have no objection.
THE COURT: 335 in evidence.

would

255
(Exhibit 335 received.)
BY MR. SHAFFER:
Q Can you tell us, please, Mr. Fink, what
exactly, as COO, is your involvement with the
security issues? I think you indicated you have
responsibility for security. Could you just explain
what that is?
A Sure. Currently our security team works for
Freedom Partners. They report up through my chief
operating officer. And generally, it just depends. So
before major donor events, I sit down with the
security team. They brief me on the perceived
threats. They walk through past threats and what
steps we’re taking to alleviate that.
They will go through permits and let us know
about potential protests or what they believe to be
potential significant risks in those different areas.
They also alert us on a fairly regular basis to threats
that they deem more likely to be followed through on
in terms of threats on the office, threats on our staff,
threats on our supporters, et cetera.
Q And what sorts of measures does
foundation take when it comes to security?

the

A We take every measure possible. So, for
example, we’ve got the elevators in our office
building at the national office have key cards, so you
can’t get up the elevator to our office floor without
key cards. The doors all have the same key cards
that are there. At our donor events we typically try
to buy out the entire hotels. We have security staff
that’s spread out across the whole grounds of the
resorts, generally to try to protect our people. You

256
know, we try to do what we can to keep our people
safe.
Q What types of threats have you encountered
over your -- over the course of your time at AFP and
Americans for Prosperity Foundation?
A Sure. A lot. We have had things -- we have
had a bomb threat -- we have had a bomb threat at
the national office. We have had fire-bombing at one
of our state offices. We have had numerous threats
via social media, e-mail, phone-in threats.
We have had someone who worked for an IT
consultant who our security team identified as being
a potential threat on social media or stating
aggressive behavior about the foundation, and then
they located -- or they found out where he was
located. He was actually located in our office. We
have since moved to internal IT capabilities, not
outside sources.
We have had employees threatened. We have had
stalkings. We have had violent protests at our
events. We have had employees’ tires slashed. At
one point I remember we had feces sent in by mail to
our office. So yeah, quite a bit.
Q Do you mean that to be an exhaustive list
what you just recited?
A No. Those are just things off the top of my
head.
Q Do you or your security team maintain a
record of the threats that the foundation receives?
A Yes, the security team does.
Q And are those conveyed to you in some way?

257
A Just generally I’m given reports or updates on
what the current status is or significant threats that
are facing the organization.
Q May I ask you, please, to turn to what we will
mark for identification purposes as Exhibit 306.
THE COURTROOM DEPUTY: Exhibit 306 is
identified and placed before the witness.
(Exhibit 306 for identification.)
THE WITNESS: Okay.
BY MR. SHAFFER:
Q Mr. Fink, do you see an e-mail here from
Tracy Henke sent on 8/22/2011?
A Yes.
Q Who is Ms. Henke?
A She was our former chief operating officer.
Q And do you know what Ms. Henke was
reporting in this e-mail?
A Yes. She was reporting on a bomb threat that
was called in to our office in Arlington.
MR. SHAFFER: Your Honor, we would
respectfully ask to move Exhibit 306 into evidence.
MR. CALIA: No objection.
THE COURT: 306 in evidence.
(Exhibit 306 received.)
BY MR. SHAFFER:
Q Would you please turn, Mr. Fink, to what we
will mark for identification purposes as Exhibit 318.
THE COURTROOM DEPUTY: 318 is identified
and placed before the witness.

258
(Exhibit 318 for identification.)
BY MR. SHAFFER:
Q Do you see in front of you, Mr. Fink, this
exhibit which reflects an e-mail from Eric Bott, dated
June 25th, 2015?
A Yes.
Q Can you tell us, please -- maybe we should
adjust the language -- what you recall from this email being reported?
A Yes. This was an e-mail back to one of our
Wisconsin staff, essentially a threat saying that they
would be glad to execute all of you. We will just
switch “people” in there for the two words he used.
MR. SHAFFER: We would respectfully ask to
move into evidence No. 318.
MR. CALIA: No objection.
THE COURT: 318 in evidence.
(Exhibit 318 received.)
BY MR. SHAFFER:
Q Could you turn, please, for identification
purposes to what we will mark as Exhibit Number
314.
THE COURTROOM DEPUTY: 314 is identified
and placed before the witness.
(Exhibit 314 for identification.)
THE WITNESS: Okay.
BY MR. SHAFFER:
Q Mr. Fink do you see this exhibit as an e-mail
from Vic Bernson to Susan Estes dated March 3rd,
2013?

259
A Yes.
Q Who is Mr. Bernson?
A Vic Bernson is our vice president and general
counsel.
Q Do you understand what Mr. Bernson was
reporting in this or responding to you was a report
from Ms. Estes?
A Yes.
Q By the way, who is Ms. Estes?
A She is an employee in our Kansas chapter.
Q What is she reporting in this e-mail?
A She is reporting the arrest of a man that had
stalked some employees at our Kansas state fair.
Apparently they had gotten the police involved, and
the police warned him about continuing to harass
and stalk our employees. He was then arrested.
Q I would ask you to turn to one more exhibit
that we will mark as 347 for identification purposes.
THE COURTROOM DEPUTY: Exhibit 347 is
identified and placed before the witness.
(Exhibit 347 for identification.)
BY MR. SHAFFER:
Q And, Mr. Fink, do you see in this exhibit
another e-mail from Ms. Henke, this one dated
3/7/2011?
A Yes.
Q And do you understand what Ms. Henke was
reporting in this e-mail?
A Yes.

260
Q Am I correct that it was in response to the
Anonymous hacking episode that we were talking
about earlier?
A It was.
Q And what was done as reflected in this e-mail
in response to that episode.
A I mean, essentially we tried to tighten up
security. Since then we’ve changed our databases.
We have changed our protocol, and they have done a
bunch to boost up our security for our database.
MR. SHAFFER: Your Honor, I would respectfully
ask to move into evidence Exhibit Number 314,
which was the exhibit prior.
MR. CALIA: No objection.
THE COURT: 314 in evidence.
(Exhibit 314 received.)
MR. SHAFFER: And I would make the same
request for Exhibit Number 347.
MR. CALIA: No objection.
THE COURT: 347 in evidence.
(Exhibit 347 received.)
BY MR. SHAFFER:
Q One more question for you, Mr. Fink. If the
foundation’s Schedule B would be disclosed to the
attorney general at the end of this case, what effect
do you envision that would happen -- what effect do
you envision that would have on your ability to
perform your job and the ability of the foundation to
continue raising money from donors?

261
A I think it would be devastating to our
fundraising efforts.
Q Why do you say that?
A I mean, I think we have seen that in every
case where someone who is a perceived supporter of
the foundation where Americans for Prosperity has
been targeted and harassed, it has a chilling effect
for our other supporters out there. And I think,
especially to the extent on Schedule B donors, they’re
such a large portion of our support, that chilling
effect for people that give at that level, it could have
major effects. And from what you see from that email from Robert Heaton about lowering their gift
amount in terms of the (c)(4), if that continues to
happen and people try to figure out what is that level
that they can give to to not be disclosed, I mean
essentially it is a race to the bottom from our major
supporters, I mean, the major lifeline of our funding,
so I think it would be devastating.
*

*

*

[Day One, Vol. II: Page 80]
[CROSS-EXAMINATION]
[BY MR. CALIA]
Q I am just asking if you have any
understanding of the number of donors in recent
years that have been listed for each year, the range.
A Yes.
Q And what is your understanding?
A Somewhere between 7 and 20 per year.

262
Q Do you also have an understanding that some
of the foundation’s donors publicly disclose their
contributions?
A Yes.
Q And some of the foundation’s donors are
private foundations who are required, by law, to
publicly disclose such contributions, correct?
A That’s correct.
*

*

*

[Day One, Vol. II: Page 81]
A I’m not familiar with which supporters are on
our Schedule Bs.
Q Do you have an understanding of whether
donors, when they are providing their address to the
foundation. Use P.O. boxes?
A I mean, I’m sure some do.
Q And some also use business addresses?
A I’m sure.
Q Do you have an understanding that some of
the foundation’s donors are donor-advised funds; is
that correct?
A That’s correct.
Q And one of the things that donor-advised
funds promote is they allow donors to remain
anonymous, correct?
A That’s correct.
Q You are on the board of your family’s private
foundation, correct?
A Yes.

263
Q And that’s the R and M Fink Foundation?
A Yes.
Q That foundation has also made contributions
to the Americans for Prosperity Foundation?
THE COURT: Counsel, get to this case. Get to
this case and cross-examination of this witness’
testimony.
BY MR. CALIA:
Q Your family’s foundation is one of the donors
to Americans for Prosperity Foundation, correct?
THE COURT: Don’t do that, Counsel. I just
indicated to you get to cross-examination of this
witness’ testimony.
BY MR. CALIA:
Q Has your family’s foundation experienced any
of the threats that you testified about in your direct
testimony?
A My dad’s received numerous death threats,
fairly serious to the extent where they have had
security for the past few years, not only taking him
to and from work while he was at work, but in his off
time and on our family vacations. They also paid to
have a security system installed in his house.
There’s been numerous media articles written about
him as well. So yes, we have received threats.
Q When you prepared for your deposition in this
case, you were designated as a designee of the
foundation to talk about harm to donors, correct?
A Correct.
Q And you prepared for that deposition by
studying harm to the foundation’s donors, correct?

264
A Correct.
Q Are you aware of any donor to the foundation
who has had their property, their home damaged
because of an association with the foundation?
A Not that I’m aware of, no.

265
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day One, Volume II
Excerpts from the Trial Testimony of Teresa Oelke
February 23, 2016

*

*

*

[Day One, Vol. II: Page 91]
THE COURT: Call your next witness.
MR. SHAFFER: With the Court’s permission,
Your Honor, the plaintiffs will call Teresa Oelke.
THE COURTROOM DEPUTY: Please raise your
right hand.
TERESA OELKE, PLAINTIFF’S WITNESS, WAS
SWORN

266
THE WITNESS: I do.
THE COURTROOM
Please take a seat.

DEPUTY:

Thank

you.

Please state your full and true name for the
record, and spell your last name.
THE WITNESS: Teresa Lynn Oelke.
name is spelled O-e-l-k-e.

My last

DIRECT EXAMINATION
BY MR. SHAFFER:
Q Good afternoon, Ms. Oelke. Can you please tell
us what you do for a living.
*

*

*

[Day One, Vol. II: Page 96]
Q Have you observed any trends surrounding
donors’ concerns about disclosure and loss of
confidentiality? Has the expression of that increased
or decreased or stayed the same over the course of
your time at the foundation?
A So in 2011 I began to have an increased
number of conversations with donors about IRS
audits, their association of those audits with their
association of us. And then I began to see another
spike in conversations in 2013 in regards to
additional government intrusiveness they felt, or
targeting would be a better word, from other
agencies outside the IRS, which would include
OSHA, the labor department in various states, as
well as the environmental agencies.
Q Can you recall specific donors who expressed
concern to you about governmental targeting,
governmental retaliation?

267
MR. ZELIDON-ZEPEDA: Objection; calls for
hearsay, Your Honor.
THE COURT: The objection’s overruled.
THE WITNESS: Yes, I have had direct
conversation with donors. I would say it’s consistent
across the entire profile of the individuals that I
meet with. I can give you a specific example of an
individual who ceased giving in 2013. Some of these
conversations stick out, I guess, in my mind because
I was going into those meetings feeling very
confident about receiving a donation or leaving with
a donation or commitment for a donation, but that
individual’s comments, he specifically said that, you
know, he was not going to give because his business
did business with the Government. That was a great
portion of the business that he did, and he and his
business associates did not feel like they could take
on the risk of continuing to give to us.
Another donor conversation included a discussion
between this donor and his spouse, that he had
committed to her that he would no longer give to our
organizations because he, his business partner and
their business had experienced seven different
reviews from government agencies, including
individual IRS audits, both personally and their
businesses, and their family was not willing to
continue enduring the emotional, financial, time
stress and the stress that it placed on their business.
Q Do those concerns resonate with you at all,
Ms. Oelke, based on your personal experience?
A Absolutely. In the, I guess, ’90s, I worked in
the speaker’s office in Kansas, the speaker pro tem’s
office, speaker’s office, and I didn’t experience the

268
threats, character assassinations, harassments,
sexist comments that are made about me in my job
today working for Americans for Prosperity or
Americans for Prosperity Foundation.
There have been press stories really just from
their association with me. I have no business
interest in my brothers’ construction company,
Crossen Construction, but because of their
relationship to me as my brothers, they are pulled
into numerous articles.
When I began my work as Arkansas state
director, my husband has these conversations, a
state senator -- we were just awarded a contract for
roads, and we were the low bidder, qualified bidder,
and the state senator said, “You will have to now
back your wife off that gas tax increase now that
you’re one of us.” So those are ongoing conversations
from elected officials and just in the press, public -- I
would call it public bullying, trying to intimidate me.
When -- you know, just this last Thanksgiving -- I
have nine brothers and sisters. There’s ten of us,
and my mom is still living. Of my nine brothers and
sisters, seven have been audited. Myself and my
husband have been audited, and my mom received
her audit notice this fall.
Q Is that something you hear about from your
family?
A Yes. My sister-in-laws, two of the audits had
closed out, and their comments to me was, “Teresa,
do we have you to thank for this?”
Q Have any donors specifically expressed
concerns about the prospect they have been or they
might be subject to organized boycotts?

269
A Yes. As people who are assumed to be donors
of ours have been publicly targeted in the press, our
chairman of our foundation, David Koch, the, you
know, calls for boycotts, the death threats that he
faces that are sent to his family, and not just him
personally, but his family and his children, the
public boycotts for his businesses.
There’s also our former (c)(4) chairman, Art Pope,
who has been targeted in press stories to boycott his
business. But then in addition to that, I can give you
an example of a donor whose business was targeted
by an association, a reputable association in that
state. A letter was sent to all the school boards in
that state encouraging all the school boards to
discontinue awarding this individual’s business
contracts because of his assumed association with
Americans for Prosperity and Americans for
Prosperity Foundation.
Q Did that in any way impact the donor’s
continuing association?
A That individual reduced his contributions in
half, so from $500,000 annually to 250,000 based on
the pressure from his board that remains in place
today.
Q And as the vice president of state operations,
do you play any role in monitoring and responding to
threats against the foundation or AFP employees?
A I do. If a threat is sent to one of our employees
in the state chapters, I am included on the first email that goes to security. So I would be one of the
first individuals notified by e-mail or text, and help
mitigate those and try and determine how to move
forward to ensure that our employees are safe.

270
Q To what extent do such threats arise and get
reported to you?
A I will just go down the list. There’s October of
2015, there’s a fire bomb in the dumpster behind our
Tennessee headquarters. Our Louisiana office had
someone threaten to drive down and ensure that
they would no longer be able to come by their house
and knock on the doors again. That was a threat
deemed credible by our security team. There was a
stalking incident in Des Moines. Our Iowa office was
broken into.
This is just specific threats of violence or physical
safety. This doesn’t cover the level of bullying that
our employees face, so the number of, you know,
hateful mail that we receive, the public comments
that not only target our employees, but their spouses
and their family members, the descriptive voicemails
that are left.
*

*

*

[Day One, Vol. II: Page 105]
[CROSS-EXAMINATION]
[By Mr. Zepeda:]
Q Now, you testified that in your capacity in
your work, that you come across donor reports
regarding concerns about safety. Do you remember
that testimony?
A Yes.
Q And now isn’t it true that in terms of your
testimony about donors who believe they are at
increased audits and inspections, that you didn’t ask
the basis for why they think this?

271
A I think I would have to speculate the context
of each and every donor conversation.
Q Isn’t –
A I would expand simply by saying that they
discuss news articles of other donors who have been
publicly targeted. They discuss -- donors have a
circle of influence, and that as one donor is publicly
targeted, that carries through the whole donor
community. So those stories are referenced along
with their own personal experience in regards to the
IRS targeting or the government-agency targeting.
*

*

*

[Day One, Vol. II: Page 112]
Q And sticking with donors, isn’t it true that you
are aware of two donors who have made public their
donations to the foundation, and, to your knowledge,
they did not suffer any adverse consequences?
A I am aware of public statements made. I have
not had a direct conversation with them because they
are not individuals that I would have -- they would
not be on my list of 15 to 20 individuals.
Q And to your knowledge, they have not suffered
any adverse consequences from this disclosure?
A To my knowledge I have not had a direct
conversation with them about it. I have heard them
discuss it in larger -- I guess at receptions.
Q In terms of the concerns that you’ve expressed
about foundation employees, have you ever had a
situation -- first, have you ever had a situation where
you reported any safety concerns regarding the
foundation employees when law enforcement was not
responsive?

272
A Yes.
In Michigan, at the event that I
referenced at the capitol where the tent was knocked
down on top of our activists, our state director had
concerns prior about that event and had reached out
to the capitol police and asked them if they would be
close -- in close proximity to our tent at the onset of
that event. Capitol police were not close at that
capitol event, and it wasn’t until one of our attendees
was punched, that capitol police did not come over
until the tent was knocked down. There was an
individual who was struck, and that’s when they
arrived.
Q Now -- okay. Was this incident -- was this
event an activity of the Americans for Prosperity or
Americans for Prosperity Foundation?
A It was an activity of Americans for Prosperity.
Q Okay. In that case, for clarification, can I ask
you in terms of any threats that you discussed about
-- to foundation employees, not the (c)(4), Americans
for Prosperity, are you aware of any situations when
law enforcement was not responsive?
A I am not.
Q In terms of any concerns for safety for the
foundation employees, are you aware of any
situations
where
any
foundation
employee
necessitated emergency treatment?
A I am aware of instances where employees have
received treatment, but not emergency room
treatment, and it would be -- I mean, I am an
employee of both organizations. All of our employees
are employees of both organizations, so just for
clarity.

273
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 689
Excerpted List of Publicly Linked Schedule Bs
(Set 5 of 5)

Charity Name
INSIGHT VISION CENTER
OUR CHILDREN’S EARTH
FOUNDATION
FOUNDATION FOR THE
CARE OF INDIGENT
ANIMALS
FRIENDS OF POWERHOUSE
INSIGHT VISION CENTER
MOVEON.ORG CIVIC
ACTION

Document Title
IRS Form 990 2002
IRS Form 990 2002
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2003
IRS Form 990 2003

274
PCI-MEDIA IMPACT, INC.
INSIGHT VISION CENTER
MIRANDA’S RESCUE
PARTNERS IN HEALTH A
NON-PROFIT
CORPORATION
PUBLIC WORKS GROUP
GRATEFUL HEARTS
STOREHOUSE, INC.
INSIGHT VISION CENTER
MIRANDA’S RESCUE
MOVEON.ORG CIVIC
ACTION
KAWEAH DELTA HOSPITAL
FOUNDATION
PUBLIC WORKS GROUP
SAN FRANCISCO
CHINATOWN LIONS CLUB
OUR CHILDREN’S EARTH
FOUNDATION
PUBLIC WORKS GROUP
SANTA BARBARA MUSEUM
OF ART
COMPREHENSIVE CHILD
DEVELOPMENT, INC.
EASTER SEALS BAY AREA
WEST HILLS COMMUNITY
COLLEGE FOUNDATION
ABILITIES UNITED
MATHEMATICAL
ASSOCIATION OF AMERICA
FRESH ARTISTS

IRS Form 990 2003
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2004
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2005
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2006
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2007
IRS Form 990 2008
IRS Form 990 2008
IRS Form 990 2008
IRS Form 990 2009
IRS Form 990 2010
IRS Form 990 2013

275
OPEN SOURCE INITIATIVE
CONSUMER CREDIT
COUNSELING SERVICE OF
THE NORTH COAST
GLOBAL LIFEWORKS
HERITAGE MUSEUM OF
ORANGE COUNTY
ONE DOLLAR FOR LIFE
READING AND BEYOND
FAMILIES AGAINST
MANDATORY MINIMUMS
FOUNDATION
SOUTHERN CALIFORNIA
CRICKET ASSOCIATION,
INC.
CIVIC ASSETS
FIRST NATIONS
DEVELOPMENT INSTITUTE
JOSEPH M HAYKOV’S
KNOWLEDGE AFTER
SCHOOL PROGRAM

IRS Form 990-EZ
2004
IRS Form 990-EZ
2008
IRS Form 990-EZ
2009
IRS Form 990-EZ
2009
IRS Form 990-EZ
2014
IRS Form 990-PF
2012
Miscellaneous
Document 2012
Miscellaneous
Documents
RRF-1 2014
RRF-1 2014
RRF-1 2014

276
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Two, Volume I
Excerpts from the Trial Testimony of James McClave
February 24, 2016

*

*

*

[Day Two, Vol. I: Page 5]
THE COURT: Call your next witness.
MR. LYTTLE: Your Honor, the plaintiff calls Dr.
James T. McClave.
THE COURTROOM DEPUTY: Please raise your
right hand.
(The witness, JAMES T. McCLAVE, was sworn.)

277
THE COURTROOM DEPUTY: Thank you.
Please take a seat. And please state your full and
true name for the record, and spell your last name.
THE WITNESS: My name is James T. McClave,
and the last name is M-C-C-L-A-V-E.
*

*

*

[Day Two, Vol. I: Page 19]
Q In identifying these deficiency letters, did you
spot-check your results?
A Oh, yeah. Yes. We wanted to be sure that, in
fact, we were getting letters. We didn’t check all
102,000, but we did lots and lots of spot-checks. And,
Counsel, again, I stress the fact that this is an
iterative process. We tried some search terms that
didn’t work and others obviously that did, and we
finally gained a lot of confidence that we were
getting deficiency letters.
Q Now, as I understand it, that 102,000
deficiency letters that you identified, that was the
entire universe of a number of different type of
deficiency letters, not just deficiency letters asking
for Schedule B; is that correct?
A Yes. That was the population, if you will, of
deficiency letters.
Q So among that population of deficiency letters,
did you take any steps to further identify how many
of those actually related to Schedule B?
A Yes.
Q What steps did you take?
A So, again, we looked at some samples of letters
that did request Schedule B, and we found that there

278
were certain search terms that were unique to
Schedule B deficiency letters. And there are some on
this slide right here: Schedule of Contributors, IRS
Form 990, Schedule B itself -- the words themselves.
And we did that search of the 102,000 and found
about 8,000 Schedule B deficiency letters.
Q And among those 8,000 Schedule B deficiency
letters you found, did you spot-check those results?
A Yes, sir.
Q Dr. McClave, did you create a chart of your
findings?
A Yes, I did.
Q Okay.
shows?

Can you explain what this chart

A Sure. The blue bars represent the 102,000
letters, all the registry letters, deficiency letters.
And I’ve organized this by time, by quarter of the
year. And you see that the earliest blue bar is
Quarter 1, 2008. There aren’t very many in 2008.
They build in 2009 to much larger numbers and
remain pretty much large through the end of our
search, which was second quarter of 2015. So that
was the population of deficiency letters. And then,
as I just testified, we went and we looked among
those 102,000 for Schedule B letters themselves, not
general letters but Schedule B letters. And the
orange bars represent only Schedule B letters that
we found.
Q And so if we look at this chart correctly, you
did not locate any Schedule B deficiency letters on
the registry website prior to third quarter of 2010; is
that correct?

279
A Yes. The first one we found was when -- in
August of 2010.
Q Now, Dr. McClave, how do you know you just
didn’t miss any in that time period before third
quarter of 2010?
A Well, because we did exactly the same search.
We used exactly the same search terms in 2008 and
2009 and the beginning of 2010 that we did after Q3,
2010. So it’s not like we changed methodologies. We
used exactly the same methodology. So I’m quite
confident that there’s -- there are no Schedule B
letters prior to August of 2010.
Q Dr. McClave, has anything else confirmed
your view that there are no Schedule B deficiency
letters prior to August of 2010?
A Yes.
Q What is that?
A There was a letter that I saw -- it might have
been an exhibit to a deposition, I don’t remember.
But it was a letter from the Attorney General that
indicated that there had been no letters prior to -- I
think the letter said September of 2010.

280
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Two, Volume II
Excerpts from the Trial Testimony of James Pope
February 24, 2016

*

*

*

[Day Two, Vol. II: Page 5]
THE COURTROOM DEPUTY: All rise.
This District Court is now in session.
come to order.

Please

THE COURT: All right. Call your next witness.
MR. BURCK: Thank you, Your Honor.
plaintiff calls James Arthur Pope.

The

281
THE COURTROOM DEPUTY: Hi, Mr. Pope. If
you could stand right there.
Please raise your right hand.
JAMES ARTHUR POPE, PLAINTIFF’S
WITNESS, WAS SWORN
THE WITNESS: I do.
THE COURTROOM DEPUTY: Please take a
seat.
And please state your full and true name for the
record, and spell your last name.
THE WITNESS: James Arthur Pope, P-o-p-e.
MR. BURCK: With the Court’s permission.
THE COURT: Yes.
DIRECT EXAMINATION
BY MR. BURCK:
Q Mr. Pope, do you sometimes go by Art
sometimes?
A Yes, I am commonly known by Art Pope.
Q Okay. Thank you.
*

*

*

[Day Two, Vol. II: Page 11]
Q I would like you to take a look just for
identification at trial Exhibit 371. And, Your Honor,
I believe you have a binder as well in front of you for
the exhibits.
THE COURT: Yes.
THE COURTROOM DEPUTY: Exhibit 371 is
identified and placed before the witness.
(Exhibit 371 for identification.)

282
BY MR. BURCK:
Q Mr. Pope, do you recognize this document?
A Yes, sir, I do.
Q Can you just briefly tell us, without going into
the substance, what it is?
A It is a posting from a blog site called BlueNC
that was posted November 3rd, 2010.
Q And do you recall reading this document
around the time it was published?
A Yes, sir.
Q And does this document discuss you by name?
A Yes, sir.
Q And does it also make reference to your
affiliation with Americans for Prosperity?
A Not directly.
It does so indirectly by
referencing myself being a puppet master and having
a chart of the so-called puppet show, which includes
Americans for Prosperity.
MR. BURCK: Your Honor, we would offer into
evidence Trial Exhibit No. 371.
MR. CALIA: We have no objection.
THE COURT: 371 in evidence.
(Exhibit 371 received.)
BY MR. BURCK:
Q Now, Mr. Pope, would you please -- well,
before we read pieces of this document, again, this
was written in November 3rd of 2010; is that right?
A Yes, sir.
Q Do you know who the author of this was?

283
A A gentleman named James Protzman. He is
the owner of the website of a firm called blueprint
NC, LLC.
Q And is that the group that controls or owns
this blog, as far as you understand it?
A Yes, sir.
Q Now, could you read the first two sentences,
please, of this article.
A “I know it’s bad when I wake up thinking
assassination. But that’s how today started, with
the Puppetmaster as one intended target.”
Q Would you read the next sentence?
A “I’m a trained killer, you know, courtesy of
U.S. taxpayers, and it would be easy as pie to him
take out.”
Q And then it says “But I would never do that.
I’m a pacifist,” right?
A Yes, sir.
Q And the last two sentences of that paragraph,
would you read that as well?
A “Indeed, there is an endless supply of traitor
corporatists who share the Puppetmaster’s ‘lie and
buy’ approach to our sacred elections. Don’t worry
Mr. Pope. You’re not worth dying for, not to me
anyway.”
Q Do you understand by “Puppetmaster” he is
referring to Mr. Pope?
A He is referring to me, yes, sir.
Q He is referring to you.

284
Now, if you would turn to the next page of this
document.
Would you please read the last two paragraphs on
this page.
A “I have been a member of the Democratic
Party for the past two years. As such, it is clear to
me that I have failed to do my part. I did not hold
party leadership accountable. I did not do whatever
was necessary to stop Art Pope from buying our
democracy. I allowed this blood bath to unfold.
“At this early date, I don’t know what’s next for
me, but I do know this. I’m done playing fair.”
*

*

*

[Day Two, Vol. II: Page 26]
A Well, one major one is the following year I was
at the Americans for Prosperity Foundation offices in
-- I believe it’s September of 2011, and Tracy Henke
who was our chief operating officer, referred to her
as the COO, came to me very upset and concerned,
brought to my attention a video of a video game of
people killing AFP employees at our offices in
Virginia.
Q So I’m clear, it’s a video of a video game in
which AFP employees are being killed, not really
killed, just part of the video game?
A Correct, it was a part of a video game, yes, sir.
Q Can you turn to Trial Exhibit 378, please.
A Yes, sir.
THE COURTROOM DEPUTY: 378 is identified
and placed before the witness.
(Exhibit 378 for identification.)

285
BY MR. BURCK:
Q Mr. Pope, do you recognize that?
A Yes, sir.
Q Can you just tell us what it is.
A It’s a screen shot of a YouTube video of the
video game. It appears to be the same one that
Tracy Henke showed me when I was at the AFP
offices in 2011.
Q And do you recall actually watching this video
with Ms. Henke at the time?
A Yes, sir. When Tracy came and talked to me
about expressing concerns, I said, “What are you
talking about? Show me.” So we literally walked to
her office, and I literally looked over her shoulder
when she played it, and this is what it showed.
MR. BURCK: Your Honor, we would offer into
evidence Trial Exhibit Number 378.
MR. CALIA: We object. It lacks foundation, and
it was not produced during discovery.
THE COURT: 378 in evidence.
(Exhibit 378 received.)
MR. BURCK: Your Honor, we have a very brief,
20-second clip that we would like to show.
THE COURT: All right.
MR. BURCK: Thank you.
(Video played in open court.)
MR. BURCK: Thank you.
Q Now, in that clip, although it’s hard to see
here, but for the record, there is a banner that says
“Americans for Prosperity”?

286
A Yes, sir.
Q And you saw that at the time that you saw the
video game?
A Yes, sir.
Q And did you think this was a joke?
A No, sir. I thought it was horrible.
Q You find it funny?
A No, sir, not at all.
Q Did you discuss this game with Ms. Henke?
A We did. I mean, it caused us real concern. I
mean, we -- Americans for Prosperity’s involved in
the education, research and public policy, including
the debate. But what this video we thought would
encourage people to do, rather than respectfully
disagree or debate, that the Americans for Prosperity
Foundation and our employees and supporters we
are not really legitimate, that we are not merely
wrong. We are mistaken. We are evil, and it’s okay
to kill us like zombies. So it caused us concern and
we talked about what measures we could take to
make our employees and make our offices safer.
Q And did you take any steps -- are you aware of
any steps that were taken to make your offices safer
after this video?
A I directed and authorized Tracy Henke to take
steps. We improved the security at the door. We
used to be just -- you could just walk into the door
and ask for someone at the desk and sign in. We
now made sure the system was so that you have to
be -- magnetic lock on the door so you couldn’t come
in until you were recognized or let in the door. And
Tracy was going to work with the building security to

287
start with positive identification at the lobby level
before you can even be admitted to the elevator to
come up to our offices.
Q You can take that down. Thank you.
Now, I think you mentioned briefly earlier in
testimony that you also experienced boycotts as a
result of your affiliation with AFP Foundation; is
that right?
A Yes, sir.
Q Before we get into the boycotts, you mentioned
that your business was Variety Wholesalers –
A Yes, sir.
Q -- which was referenced in one of the blog
posts before?
A Yes, sir.
Q Can you just tell us what that business is.
A We are not actually wholesalers. We only
wholesale to ourselves. We are a variety discount
store. We have stores throughout the southeast, the
mid-Atlantic states. Our home state, we have more
stores in North Carolina than any other state.
Q And what is your position with Variety
Wholesalers?
A At present I’m chairman and CEO.
Q And how – I’m sorry. How long has the
business been in the family?
A My father started the business in 1949.
Variety Wholesalers, Inc. was incorporated in 1956.
And I have been with the business since 1986.

288
Q And so since – let’s say since 1986, since you
have been in the business, since 1986 through the
year 2000, did you have any boycotts?
A Never.
Q What about 2000 to 2010, did you have any
boycotts?
A The first time there was a call for boycott was
in the fall of 2010, but we never had any boycotts in
the entire history of the company –
Q And so –
A -- before then.
Q So the first time was the fall of 2010?
A Yes, sir.
Q And how many boycotts since 2010 has your
business suffered, as far as you know?
A It’s five or six. It depends on whether you
consider some repeated calls were boycotts, separate
boycotts or renewed or continuation.
Q And did you understand these boycotts were
tied to, at least in part, your affiliation with
Americans for Prosperity Foundation?
A Yes, sir.
MR. BURCK: Your Honor, I would like to -- for
identification purposes only, I would like the witness
to take a look at Trial Exhibit 572.
THE COURTROOM DEPUTY: Exhibit 572 is
identified and placed before the witness.
(Exhibit 572 for identification.)
BY MR. BURCK:
Q Mr. Pope, do you recognize this document?

289
A Yes, sir, I do.
Q What is this?
A This was put out, again, by the organization
that I referenced to earlier, Institute for Southern
Studies,
on
their
website
encouraging/promoting/boycotting against my stores.
It started in December of 2013 and continuing on
through January of 2014.
Q Now, there’s a lot of URLs in this, so it’s a
little bit hard to read. Could you just read the
second paragraph – I’m sorry, excuse me. Your
Honor, we would offer into evidence Trial Exhibit
Number 572.
MR. CALIA: We have no objection.
THE COURT: 572 in evidence.
(Exhibit 572 received.)
BY MR. BURCK:
Q Mr. Pope, first of all, could you just read the
title again?
A “Pickets at Art Pope’s stores gain steam, go
statewide.”
Q Now, the second paragraph, could you just
read that without reading the URLs?
A “These stores are the source of Pope’s family
fortune, which he has used to generously support
Republican candidates and conservative causes.
This wealth launched the John William Pope
Foundation in 1986, which has given tens of millions
of dollars to outfits that have promoted key pieces of
the GOP agenda, like North Carolina’s sweeping new
restrictions on voting access.”

290
Q And then the last sentence?
A “And Variety Wholesalers itself has directly
bankrolled groups that has spent millions in North
Carolina to benefit Republican candidates.”
Q Do you recall clicking at the time on some of
these URLs?
A Yes, sir.
Q And do you recall that Americans for
Prosperity was mentioned in some of these URLs?
A Yes, sir.
Q Now, going three paragraphs down, can you
read that paragraph, beginning “So far.”
A “So far, organizers say about 130 supporters
have come out to picket in Chapel Hill, Durham and
Raleigh, reaching hundreds of holiday shoppers.
More pickets are planned this week in Charlotte,
Fayetteville, Winston-Salem and Weaverville.”
Q Is that an accurate reflection, as far as you
recall, of what happened with those boycotts?
A Yes, sir. And there were additional locations
boycotted as well.
Q And your belief at the time was that at least,
in part, the reason that people are picketing you was
because of your affiliation with Americans for
Prosperity?
A Yes, sir.
Q You can set that aside, please.
For
identification purposes, please take a look at Trial
Exhibit 575.
THE COURTROOM DEPUTY: Exhibit 575 is
identified and placed before the witness.

291
(Exhibit 575 for identification.)
BY MR. BURCK:
Q Do you recognize this?
A Yes, sir.
Q Can you just tell us what this is?
A This is a flyer that was both put out in paper
but also posted on websites by a group called NC
Heat -- I believe it’s primarily a student group -- to
promote a boycott at a specific location, our Maxway
store in Raleigh, North Carolina.
Q And do you recall seeing this around the time
of the boycotts?
A Yes, sir.
MR. BURCK: Your Honor, we would offer into
evidence Trial Exhibit Number 575.
MR. CALIA: We have no objection.
THE COURT: 575 in evidence.
(Exhibit 575 received.)
*

*

*

[Day Two, Vol. II: Page 47]
Q Can you take that down?
Thank you.
Are you aware of any other -- or are you present
for any events in which -- for the Americans for
Prosperity Foundation or AFP in which you saw acts
of violence or threats?
A Yes, sir.
Q Can you tell us what that was?

292
A In the fall of 2011, I attended the Americans
for Prosperity Foundation’s Defending the American
Dream Summit, and it was an annual summit. It
took place in Washington, D.C., and there were
protests, attempts to enter the building and disrupt
our summit, our dinner, our speakers. And then
they changed tactics, and the protesters tried to push
and shove and keep people in the building, including
myself and many other people that I observed.
Q Were you there present for this?
A I was there in person, yes, sir.
Q And you saw protesters pushing or keeping
you in the building?
A Yes, sir.
Q You?
A I personally could not get out of the building.
I was trying to help other people get out of the
building as well.
Q Do you recall that this event, this protest,
received some press coverage?
A Yes, sir.
Q Just for identification purposes, please take a
look at Trial Exhibit 684.
THE COURTROOM DEPUTY: Exhibit 684 is
identified and placed before the witness.
(Exhibit 684 for identification.)
THE WITNESS: Yes, sir.
BY MR. BURCK:
Q Do you recognize this?
A Yes, sir.

293
Q And can you tell us what it is?
A It’s a screen shot of a video taken at the
protest.
Q And what is the title?
A “Occupy DC Pushes Grandma Down Stairs.”
Q What is Occupy DC?
A Occupy was the umbrella group or one of the
groups that took credit for organizing the protests at
the Defending American Dreams Summit.
MR. BURCK: Your Honor, we would offer into
evidence Trial Exhibit Number 684.
MR. CALIA: We have no objection.
THE COURT: 684 in evidence.
(Exhibit 684 received.)
MR. BURCK: Your Honor, we have a very brief
clip that we would like to show.
(Video played in open court.)
BY MR. BURCK:
Q Mr. Pope, do you recall seeing that woman on
the floor?
A No, sir. I personally did not see the woman on
the floor. I was elsewhere in the building at that
time. And when we were – “we” being the AFP
Foundation were reviewing what happened, what we
could do to prevent it, I saw it on the YouTube video
after the fact.
Q Did you feel personally threatened when you
were at this event?
A Yes, sir.

294
Q And did you believe that the people that were
there protesting were there in part because of your
affiliation with Americans for Prosperity?
A The whole event was Americans for Prosperity
Foundation event. That’s exactly why they were
there.
Q Do you have any doubt in your mind?
A No, I don’t have any doubt in my mind, no, sir.
Q Now, sir, you said that you did not give for two
years -- or the foundation did not give for two years,
the family foundation did not give for two years to
the Americans for Prosperity Foundation.
A That’s correct, sir.
Q Have you ever considered -- but you have since
then?
A Yes, sir.
Q Have you ever considered stopping funding or
providing support to Americans for Prosperity
Foundation?
A Yes, sir, I have considered it.
Q And why?
A Well, because of the resulting threats on my
life, boycotts on my business. I was having to
constantly defend my reputation, what I actually
believed in, what I have actually done as an elected
legislator. My wife wanted me to keep a lower
profile. The people at my business weren’t real
happy about it. So yes, I did consider not giving any
more, trying to give some other way.
Q Why have you considered -- why have you
continued to give despite these threats?

295
A Well, it’s too late. Back in 1986, when we
formed the John William Pope Foundation, I knew
then that routinely private foundations will list their
grantees.
And for over 20 years that was
noncontroversial; no one thought twice about it. As I
said earlier, it really started in 2006, it really took off
in 2009, 2010, when these grants and what the
grants were allegedly used for, historic used for
became public and were used to attack me and
justify attacks on me, it was already done. The grant
history was already out there.

296
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Three, Volume I
Excerpts From The Trial Testimony Of James Pope
February 25, 2016

*

*

*

[Day Three, Vol. I: Page 20]
[CROSS-EXAMINATION]
[By Mr. Calia:]
Q Because you were on the board of the
Americans for Prosperity Foundation, your affiliation
with that foundation would have been known even if
you were not a donor, correct?
A Yes, sir.

297
*

*

*

[Day Three, Vol. I: Page 24]
Q If Americans for Prosperity Foundation were
forced to disclose it’s Schedule B to the California
attorney general, it wouldn’t change your desire to
contribute to the Americans for Prosperity
Foundation, correct?
A It would not change my desire for the John
William Pope Foundation to contribute to Americans
for Prosperity Foundation because John William
Pope Foundation already discloses its grantees to the
public, as we already discussed, through the 990PFs.
Q And that’s a unanimous decision that you and
the board of the John William Pope Foundation have
made, correct?
A The board approves the grants. I think most
all the time our grants are unanimous by consensus.
And when the board does that, is with the knowledge
that all our grantees are disclosed publicly.

298
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Three, Volume I
Excerpts from the Trial Testimony of Paul Schervish
February 25, 2016

*

*

*

[Day Three, Vol. I: Page 25]
THE COURT: You may step down. Call your next
witness.
MR. LYTTLE: Your Honor, the plaintiff calls Dr.
Paul Schervish.
THE COURTROOM DEPUTY: Please stop right
there and turn around.
Please raise your right hand.

299
PAUL SCHERVISH, PLAINTIFF’S WITNESS,
WAS SWORN
THE WITNESS: I do.
THE COURTROOM DEPUTY: Thank you. Please
take a seat.
Please state your full and true name for the
record, and spell your last name.
THE WITNESS: My name is Paul G. Schervish,
S-c-h-e-r-v-i-s-h.
*

*

*

[Day Three, Vol. I: Page 35]
MR. ZEPEDA: In that case, Counsel, can you
specify the areas in which you are offering Dr.
Schervish to testify to?
MR. LYTTLE: Yes.
As I stated previously,
charitable giving and donor behavior.
MR. ZEPEDA: No objection, Your Honor. We will
reserve cross-examination.
THE COURT: All right.
MR. LYTTLE: Thank you.
Q Dr. Schervish, what were you asked to do in
this case?
A I was asked to provide an expert opinion on
whether donors would wish to preserve their
anonymity when they so desire and to provide an
expert opinion about whether it would hurt
contributions to a charity if donors who did not
remain anonymous were not left to be -- left to
remain anonymous, whether this would curtail their
participation in their donations to that charity.

300
Q Have you reached any opinions in this case?
A Yes, I have.
Q Okay. I would like to briefly walk through
those opinions, and then we will go through the
bases for those. Okay?
A Yes, sir. As I said, I believe, as an expert
witness, that the donors do have a legitimate and
reasonable desire to protect their anonymity and just
protect against disclosure of their names outside of
the organization. And not only do they have this
reasonable desire, they have an interest in
anonymity, and this extends to the disclosure of their
names to the foundation -- their names and
addresses on the foundation’s Schedule B to the
registry. And that disclosure to the registry of this
Schedule B information would chill contributions to
the foundation, and this chilling effect would extend
to donors who are not now contributing or who have
in the past contributed and have stopped
contributing to this foundation. This would be a
chilling effect to potential participation in donations.
*

*

*

[Day Three, Vol. I: Page 50]
Q For all these reasons that you discussed today,
Dr. Schervish, is it your opinion that there would be
a chilling effect on the foundation’s donors if the
foundation’s Schedule B was disclosed to the
California attorney general?
A There would be a chilling effect, in my opinion,
and this chilling effect would extend to not only
people who have been associated, ceasing to
associate, people that are now ceasing to associate or
not associate at the same level of intensity or

301
contribution, and it would affect people who had
considered or are considering participation in the
future.
Q I want to quickly break that down a little bit,
Dr. Schervish. Is it your opinion -- is it – you’re
aware that there is a certain number of donors listed
on Schedule B, correct?
A Yes.
Q And there are other donors to the foundation
that are not listed on Schedule B?
A That is correct.
Q Is it your opinion that the donors who are
actually listed on Schedule B would be chilled with
disclosure to the attorney general?
A Yes. And I think we heard that the people on
-- I don’t know myself whether the small number
that you said that are on Schedule B are the same
people every year, whether they will be the same
people in the future. We also don’t know whether
the 2 percent -- that having to contribute 2 percent or
more of the total funding that year for the charity,
whether that cutoff point with only a few donors
would remain that few in the future. It could be a
much higher number of people reaching that 2
percent level, or it could be not using that 2 percent
level, but using the $5,000 level. It could be any
indefinite amount of people depending on how much
is raised in a year. So no one knows ahead of time in
the year that they are contributing whether in the
year of reporting they would be on a Schedule B.
Q And so for that reason, Dr. Schervish, is it also
your opinion that the chilling effect you have been

302
discussing would extend to donors who are not
currently listed on the foundation’s Schedule B?
A That’s what I was trying to suggest by talking
about future donors and not knowing what level you
would have to be in. And, in fact, people have asked,
“What level would I have to be” -- at least one person
that I know of that I read about in the testimony was
saying, “I want to know how much I have to give in
order to not be listed.”
Q Based on your experience and work in this
case, are donors to the foundation aware of the risks
of associating and being known to associate with the
foundation that you have been discussing today?
A Well, this is a demonstration effect. When
people are outed, when people are harassed, when
people’s families are threatened, when people are
fearful, this has -- I mean, the word “chilling” is a
good word, and not just chilling them in a technical
sense, but chilling their emotions, chilling them to
the core, to the bone, about a fear for their families,
themselves, their businesses. This is not something
that is easily endured by any individual as strong as
somebody’s determination may be.
Q And so for those reasons, Dr. Schervish, is it
your opinion that the chilling effect that you’ve been
discussing would extend to potential donors of the
foundation?
A Potential donors and even activists who would
show up and not only be donors, but would try to be,
in addition, active in local affairs and so on.
MR. LYTTLE: Thank you, Dr. Schervish. I have
nothing further.
*

*

*

303
[Day Three, Vol. I: Page 57]
Q You’re not aware of any California government
employee subjecting donors to the Americans for
Prosperity Foundation to harassment, are you?
A No.
Q Or subjected them to hostility?
A No.
*

*

*

[Day Three, Vol. I: Page 62]
Q You did not perform any statistical analyses
regarding the foundation’s donors or their purported
safety concerns, correct?
A No, sir.
Q You did not conduct any random sampling of
the foundation’s donors?
A No.
Q You did not conduct any structured surveys of
donors?
A No.
Q Or potential donors to the foundation?
A No. I didn’t need to.
testifying to.

That’s what I was

Q And you stated that you didn’t meet with any
of the foundation’s donors to prepare your expert
opinions in this case?
A That’s correct.
Q Or any of its potential donors?
A That’s correct.

304
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Three, Volume I
Excerpts from the Trial Testimony of Belinda Johns
February 25, 2016

*

*

*

[Day Three, Vol. I: Page 72]
THE COURT: All right. Call your first witness.
MS. GORDON: The defense calls Belinda Johns.
THE COURTROOM DEPUTY: If you could walk
straight through. Stop right there.
THE WITNESS: Uh-huh.
THE COURTROOM DEPUTY: Turn around.
Please raise your right hand.

305
BELINDA JOHNS, DEFENSE WITNESS, WAS
SWORN
THE WITNESS: I do.
THE COURTROOM DEPUTY: Okay. Thank you.
Please take a seat.
And please state your full and true name for the
record, and spell your last name.
THE WITNESS: Belinda Johns, J-o-h-n-s.
DIRECT EXAMINATION
BY MS. GORDON:
Q Good morning, Ms. Johns. Can you tell us
what is your present occupation?
A I’m retired.
Q And what was your occupation before you
were retired?
A I was an attorney in the California State
Attorney General’s Office.
Q And did you have a specific section that you
worked in in that office?
A I was in the tort section for five years, and
then I transferred to charitable trusts. I was a
deputy attorney general handling cases, and then I
transferred in 1989. And then in 2000 I became a
supervising deputy attorney general. In 2004 I
became the senior assistant attorney general for the
section.
Q Okay. So if I’m understanding correctly, from
between 1989 to 2013, approximately 24 years?
THE COURT: You don’t have to repeat. Just ask
the . . . .

306
*

*

*

[Day Three, Vol. I: Page 78]
Q I want to back up just for clarity. You said
there were 120 charities. Is that what you meant?
A That’s what I think, there were 120 registered
charities, but they weren’t all current.
Q Just to be clear, I’m questioning your use of
zeros. Do you actually mean 120, or do you mean
more than that?
A No, I mean 120,000. I’m sorry.
Q Okay. And you said registered charities, and
then, I’m sorry, you said something about
unregistered and delinquent charities. How many
unregistered and delinquent charities are there?
A I think when I left, there were 40,000
delinquent, and we are slowly trying to work through
that backlog. The unregistereds, I don’t know. At
the time I left, 400 new charities were incorporating
in California every month, so that number could -- I
don’t know what that number is now.
*

*

*

[Day Three, Vol. I: Page 81]
Q Can you give us an idea of the size of the
caseload per year in charitable trusts?
A Well it depends on what you mean by
“caseload” because complaints come in from a variety
of sources: Complaints from individuals, from board
members, from various kinds of whistle-blowers,
from the press, law enforcement, and sometimes a
section member will see an article in the paper that
alerts them to a potential problem. So the registry

307
receives the complaints, for the most part, directly
because that’s what it says to do on the website, send
your complaint to the registry.
There are, I don’t know, maybe 50 to 100
complaints some months, but it varies, but in
addition to that -- so it isn’t -- those aren’t all cases.
Those start as reviews. They are assigned out to
attorneys, and the attorney looks at the complaint
and then looks at the 990 and any other available
information, maybe there are documents attached to
the complaint, to determine if the complaint may
have validity. So that’s the first step. And I can’t
tell you how many reviews are conducted.
The next step would be opening an investigation,
giving the matter to an auditor to work up an audit
plan which would then be approved by the handling
attorney and then by me as senior assistant. And
then that would take its course. I can’t tell you how
many investigations there were in a year. I think
the supervising auditor, Steve Bauman, kept track of
that. And then a certain number of those cases will
be filed cases, but a very small number.
Q Okay. I want to get back to that, but first I
just want to ask you, I think you said that you might
get 50 to 100 complaints per month. Does every
single one of those need to be reviewed?
A Yes.
Q And you have described different ways, but
how are most cases resolved?
A Most cases are resolved informally. It’s such a
small staff for such a huge number of charities. We
could not take all of the cases to trial, nor would we
want to because many times the charity has made a

308
mistake and they’re perfectly willing to correct it if
they get one of our letters that says it has come to
our attention, which is a soft request for documents.
And so if the matter resolves at that level, there
will be, you know, some corrective action they will be
required to take, which in later years always
required board training because it meant that they
didn’t understand the nature of restricted assets or
they didn’t understand -- their duty was to the
charity and not to themselves.
Q What percentage of matters are resolved
informally?
A Oh, well over half.
Q And if matters are resolved informally, are
there any public record of those matters?
A I don’t know if there is now. There wasn’t
when I was there. The section from as long as I was
in it, which was 1989, always took the position that
they didn’t want to harm a charity’s reputation if a
charity -- if the charity wasn’t engaged in fraud, you
know, in which case we would go directly to filing
and getting a TRO or something. But if the charity
was cooperating and the problems could be fixed, we
didn’t want something out there that would flag
them as a problem so that they wouldn’t receive
donations. I don’t know if that has changed.
Q Okay. And I think you described the first level
is you get a soft letter. What happens if that doesn’t
work? What happens next?
A Well, that would be a red flag if we didn’t get
correspondence. The next level would be issuing an
administrative subpoena. We had the authority to
do that under The Supervision Act. We could also do

309
it under another provision in the Government Code.
That subpoena has the force of a subpoena issued in
court. It’s enforceable in court. So we would issue
that either for testimony or for documents or for
both. And most people would respond to that,
otherwise we would go in on a contempt order in
court.
Q When you say “respond to that,” what do you
mean?
A It would provide what
administrative subpoena.
*

*

we

ask

in the

*

[Day Three, Vol. I: Page 91]
THE COURTROOM DEPUTY: Exhibit 142 is
identified and placed before the witness.
(Exhibit 142 for identification.)
BY MS. GORDON:
Q So, Ms. Johns, I would like to ask you to look
at the first page and then skip to the third page just
so you can tell what you’re looking at.
A Okay.
Q Have you seen this document before?
A Yes.
Q Can you tell us what it is?
A The first page is the RRF-1 form that is filed
as an annual renewal report.
Q And if you go further into the document, about
the third page, starting with the third page, can you
tell us what that is?
A Yes. That is the IRS 990.

310
MS. GORDON: We would respectfully ask that
Exhibit 142 be admitted into evidence. I believe
there is a stipulation.
MR. BURCK: No objection, Your Honor.
THE COURT: Exhibit 142 in evidence.
(Exhibit 142 received.)
BY MS. GORDON:
Q Ms. Johns, if you could look at the first page,
the annual registration renewal fee report, can you
just give us an overview of what this document is?
A Yes. This was developed as a substitute for a
more complex form called a CT-2. It’s a one-page
document that may require some attachments, but it
highlights -- well, first of all, it gives all the basic
information about the charity and its assets, really
basic, and it highlights a number of issues that we
felt were important for charities to think about, like
restricted funds and loans and embezzlement if they
hadn’t already thought about it. It also allowed the
registry staff to kick out any of the “yes” answers to
us.
Q And what does that mean, “kick out any of the
‘yes’ answers”?
A Well, any of the -- well, if there was -- I can see
this better than I can up above. Number 1, number
2, number 3, 4 and 8 -- 8 and 9, if those were “yes,”
the registry staff could send those to the supervising
attorney. If 9 was “no” and the assets were over $2
million, then staff would know, perhaps, they should
have done audited financial, and that would go to
somebody to follow up and say, “You know, cite the

311
statute about when audited financial statements
were required.”
And then the commercial fundraiser question
would alert the person who runs the commercial
fundraiser program to look and make sure that
fundraisers were actually registered. So it was a
really high-level check sheet for registry staff.
Q So just looking at this quickly, Ms. Johns, I
don’t see any request for donor list, major donor
names or information. Am I correct?
A That’s right, because that information would
be on the 990.
Q Well, I understand that, but why isn’t it on
this form?
A Because staff could easily see on the 990
whether it was there or not.
Q And would staff ever only be looking at the
RRF-1?
A No.
They are always looked at together
because it’s the whole renewal process. Both come in
together. They don’t come in separately.
*

*

*

[Day Three, Vol. I: Page 97]
Q You testified that during reviews, and I think
in investigations, that you would always look at the
whole 990; is that correct?
A Yes.
Q And that includes Schedule B?
A If it was required, yes.

312
Q Can you give me some examples of cases
where B was particularly useful to you?
A Yes. There was a case involving a charity that
raised money for the animal victims of Hurricane
Katrina, and they received millions of dollars in
donations. When they solicited for relief for the
animal victims of Hurricane Katrina, it restricted
those assets solely to that purpose, and we got a
complaint saying that they weren’t using the money
correctly. We were able to determine from Schedule
B where the money came from. We were able to
determine from looking at the unrestricted versus
restricted assets portion that they were not -- they
had not maintained the restriction.
And we could -- in this case they were all
individuals who had made the contributions, and
based on that review, we realized there was a really
serious problem. So we contacted the charity. In
that case we did not have to contact the individual
donors to confirm that they wanted their gift to be
restricted. In some cases we might have to do that if
we were going to trial, but here, it was perfectly clear
that they had accepted the funds, public donations,
and they were using the money for their own
purposes.
We recovered, I don’t know, 2- or $3 million and
sent it to Louisiana to build a new shelter, which is
what it was supposed to be used for.
*

*

*

[Day Three, Vol. I: Page 100]
Q Could you give us another example of a case
that you worked on, Ms. Johns, using the Form 990.

313
A There was a case called LB Research that
involved a pass-through. The founder of the charity
donated a large amount of money to the charity for
the specific purpose of endowing a chair at UCLA in
the medical school, I think. If we hadn’t had the 990
and Schedule B in particular, we would not have
realized that the donation was from him, and the
terms of the endowed chair required that the
endowed chair be given to him. So it was important
to know who had made that contribution, and we
wouldn’t have known it if we hadn’t seen that
Schedule B.
Q Thank you.
Ms. Johns, there are other schedules, IRS
schedules, to Form 990, correct?
A Yes.
Q And presumably
information, correct?

they

contain

a

lot

of

A Yes.
Q Why can’t you just use those schedules?
A Well, for us, when I was there, it was always
looking at the entire document to get a complete
picture. And in our fraud cases, we often found that
people were inconsistent. They would -- they would
not consistently provide the same information across
the schedules, and so that would give us the
discrepancy that would give us the red flag.
Q Just to be clear, what do you mean they were
not consistently providing the same information?
Could you give an example?
A Well, somebody might -- might say on
Schedule B that they had donated a specific amount

314
of money, or it could be in-kind contributions,
medicine and clothing and that sort of thing, but that
necessarily wouldn’t be reflected in the proper place
on another schedule or another place on the 990.
And these were things that the auditors would go
through, you know. An attorney might look at a 990
and say, “Oh, this doesn’t look right,” and the
auditors would go ahead and evaluate and analyze
the whole thing.
*

*

*

[Day Three, Vol. I: Page 104]
Q Understood.
Did there come a time, Ms. Johns, when you
realized that some charities were not actually
complying with the requirement to file Schedule B?
A Yes. I started to do a direct review of the
complaints. I would go up to the registry, and one of
the auditors would have a stack of files with the
complaints, and I would go through them and tell -you know, tell the auditor how they should be
distributed. And it seemed like in that anecdotal
evidence that I wasn’t seeing as many Schedule Bs
as I expected to see based on my memory of looking
at files in the past. So I talked to Kevis, and I asked
her -- Kevis Foley, the registrar, and I asked her if
that was being included in the deficiency notice, and
I don’t think it systematically was. So I said, “Well, I
would like it to be because it’s part of the filing. And
if you’re asking for any deficiency, that should be
included.”
Q And when you say it wasn’t –
THE COURT: When was that?

315
THE WITNESS: I think it was around 2010.
THE COURT: 2000 what?
THE WITNESS: ’10.
THE COURT: 2010.
BY MS. GORDON:
Q When you say it wasn’t being systematically
included in the deficiency letter, what does that
mean?
A Well, it means that staff in their attempt to
get the filings moved through the process wouldn’t
always check to see if Schedule B was required, or
they wouldn’t check to see – there’s a box. If it says
it has to be filed and it isn’t there, that would be the
easiest way. I don’t know what their thinking was,
but that wasn’t systematically being included at that
time.
Q Are you aware, though, during that time of
staff finding a missing Schedule B and sending a
deficiency letter about it?
A Well, Kevis asked the staff to start including
it, to be sure that they included it in the list of
deficiencies at that time.
Q And when you were sort of doing your audit
that triggered this realization, do you have a sense of
sort of how many charities were not -- were not
complying with the B requirement?
MR. BURCK: Objection to the form of the
question, versus an audit.
THE COURT: The objection’s sustained.
BY MS. GORDON:

316
Q So you testified that you were reviewing files
for distribution, and you noticed that some were
missing Schedule B.
A Yes.
Q Do you have a sense, just from that process, of
how many were missing Schedule B?
A Based on the sample, it seemed that there
were a higher number of files missing Schedule B
than I remembered from the past.
Q Can you quantity higher number?
A Maybe half or two-thirds did not include
Schedule B, whereas in the past when I looked at
large groups of files, more than half or two-thirds
included the Schedule B.
Q Okay. And as I think has been pointed out,
this was not an audit; this was sort of -- would you
call this a random sample?
A This was just a review of the complaints that
came in. Instead of farming them out to attorneys to
review, I just did them myself. I just spent a day at
the registry and do it because people were busy. So I
was simply looking -- doing that very high-level
review that I would ask others to do, looking at the
complaint and related documents, looking at the 990
to see if I could confirm issues raised in the
complaint.

317
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Three, Volume II
Excerpts from the Trial Testimony of Belinda Johns
February 25, 2016

*

*

*

[Day Three, Vol. II: Page 20]
[CROSS-EXAMINATION]
[By Mr. Burck]
Q Now, did you ever -- while you were the head
of the section, did you ever personally instruct that a
check be made of the Registry’s public website to see
if any confidential Schedule Bs were on the website?

318
A I don’t know if I personally instructed -- I don’t
know if I knew what -- what could be done to check,
but I –
Q That’s not my question.
A -- I did talk to Kevis several times about the
confidentiality of Schedule B and about the protocols.
And I know she changed them over time to -- to, you
know, try to make them more ironclad.
Q You’ve answered a different question than I
asked, so I’ll ask my question. Did you personally
instruct that anyone in your staff, including Kevis
Foley, check the public website of the section to see if
Schedule Bs were inappropriately listed?
A I don’t remember having that conversation.
Q That’s –
A I don’t remember.
Q You don’t remember.
deposition in this case?

Do you recall your

A Vaguely. I haven’t looked at it again.
Q Do you know how long ago it was, your
deposition? Was it in the last ten years?
A It was within the last couple of months, three
months.
Q Couple months.
Do you recall that you
answered that question that you did not instruct
anybody?
A No. But I don’t recall now; and if I didn’t then,
I didn’t.
Q Okay. And you’re not aware of anybody else in
your section or in the Attorney General’s office
instructing anyone to check the public website to

319
make
sure
that
Schedule
Bs
were
inappropriately listed on the website; right?

not

A The only person who could have done it would
be Kevis Foley, the registrar.
*

*

*

[Day Three, Vol. II: Page 41]
Q Okay. Now let’s talk about a document that
you did -- you talked about on direct examination,
which is the exchange between yourself and Eric
Gorovitz –
A Yes.
Q -- the attorney for Planned Parenthood.
you recall that?

Do

A Yes.
Q I believe this is already admitted into
evidence, Trial Exhibit 131. Now, in this -- this is
the e-mail that -- well, the middle of this e-mail Mr.
Gorovitz sent to you; right?
A Yes.
Q And he says that the Registry had posted
online all the names and addresses of hundreds of
donors?
A Yes.
Q And you would agree, sitting here today or
back then, that posting that kind of information
publicly could be very damaging to Planned
Parenthood, just as Mr. Gorovitz said?
A Yes.
Q And do you have a reason why you think it
would be damaging to them?

320
A Well, a donor list is, for an organization like
Planned Parenthood, something that needs
undoubtedly to remain private, because there are
people who are antagonistic to Planned Parenthood.
Donors to Planned Parenthood may not want people
to be aware that they’ve made those donations; they
don’t want to be targeted. And that would be true for
any organization, but Planned Parenthood is the
type of organization that would be -- it would be a
good idea not to have that on the website.
Q And this is because, as you said, there are
people antagonistic to Planned Parenthood; correct?
A Yes.
Q And so antagonistic people might see the
donor list on the website and then might take action
against Planned Parenthood in some fashion, or the
donors?
A I don’t know what action they might take, but
I know from reading in the newspaper that there is
antagonism toward Planned Parenthood, and most
donors wouldn’t want their names on the public
website.
Q And do you agree that that’s a serious issue,
maintaining
the
confidentiality
of
Planned
Parenthood’s donors?
A Maintaining the confidentiality of all donors is
serious to me.
Q So after -- you testified that you have an email here, you send it -- you forward the Gorovitz email to Ms. Foley, and Ms. Foley then took it down;
right?
A Yes, she did.

321
Q Were there any disciplinary proceedings or
any punishment that was issued against anyone for
this posting of Planned Parenthood’s donors on the
website?
A No. It was an inadvertent disclosure, and I
think that’s described in the e-mail that Kevis Foley
wrote to me. The Schedule B in this case came in in
a format the staff didn’t recognize.
Q So it was Planned Parenthood’s fault?
A Staff looked for Schedule B, and as I recall,
this didn’t look like Schedule B. But -- handwritten
page, not on the form, not clearly labeled “Schedule
B.”
Q Planned Parenthood’s fault?
A I don’t assign fault. It was an error. It was a
mistake.
Q So in that instance, because it was an error,
mistake, maybe by Planned Parenthood, even if we
don’t assign fault, in that case there was no reason in
your mind to punish or to discipline anyone for
posting the donor information on the website?
A Well, discipline for the State of California is a
long, drawn-out process. And there are very specific
reasons that it can be accomplished, and inadvertent
error is not one of those reasons. Within the
Registry, people might be reassigned, temporary
staff, like students, could be let go if they made
errors like this because they were inattentive. But
there would be no grounds for formal discipline.
Q So students could be let go if they were
inattentive, but not employees?

322
A Right. Because students are not civil service
employees.
Q I see. So the civil service rules, your testimony
is that it would prevent any kind of formal discipline
against somebody who inattentively caused a donor
list to be posted on a website?
A That’s correct. But that doesn’t mean that an
employee who made that error wouldn’t be retrained
or wouldn’t be taken off that specific job because they
weren’t doing their job properly. There are plenty of
other places in the Registry where they could work.
Q By the way, are you aware of any student who
was let go for being inattentive with respect to the
Schedule B?
A Not the Schedule B in particular, but I do
know of many students who were let go.
Q But not for Schedule B?
A That would be something Kevis Foley would
have to answer.
Q And you’re not aware of any employee ever
being disciplined or reassigned, as you mentioned,
because they might have mishandled, even
inadvertently, even inattentively, Schedule B?
A I don’t know specific to Schedule B. Kevis
Foley would have to answer that question. She
didn’t talk to me about that kind of personnel
decision, but we did talk generally about the fact
that she reassigned people.
Q But generally, not with respect to Schedule Bs
or this particular instance?

323
A Yeah, not this instance. And I don’t remember
if we ever talked about reassignment specific to
handling of Schedule B.
Q After you learned about the Planned
Parenthood Schedule B being posted, did you ask
anybody in the Registry or in the AG’s office to check
the website to see if there were other Schedule Bs
that were inadvertently posted?
A Again, I don’t remember. I know I talked to
Kevis, and I talked about how to avoid it in the
future, but I don’t know if I instructed her to check
the website. I don’t know -- I wouldn’t know how to
do it or if it was even possible, but I know that I
discussed with her changing protocols to keep it from
occurring in the future.
Q You don’t know if it’s possible to check the
website for Schedule Bs?
A Not personally. I don’t know anything about
search options.
Q Do you have people who know about that on
your staff?
A Christopher Harriman at the Registry is the
tech person.
Q Is he someone that you spoke to on a regular
occasion?
A No, I did not.
Q Did he report to you?
A No. He reported to Kevis.
Q Does Kevis report to you?
A She reports to me. He –
Q So he reports to Kevis, who reports to you?

324
A Correct.
Q Did he have a phone in his office?
A Yes.
Q Did he have e-mail?
A Yes.
Q Was there anything that prevented you from
calling him to ask him if there was a way to check
the website?
A No. That was the responsibility of Kevis Foley
–
Q So this is Kevis’s issue? This is Ms. Foley’s
issue?
A She would take responsibility for that.
Q So it’s her responsibility. Understood. Did
you tell the donors whose names were listed on the
Planned Parenthood Schedule B that their names
had been listed?
A We did not.
Q Their addresses had been listed? Did you tell
them that?
A I don’t know if their addresses were listed.
Q Well, Schedule B has names and addresses.
A Well, generally, we always told charities to use
the charity’s address, not the donor’s personal
address.
Q But you didn’t tell them their names were
listed?
A Pardon me?
Q You didn’t tell them their names were listed?

325
A We did not.
Q Did you ever have a practice at the Registry to
inform donors when their names or their addresses
were inadvertently posted on your website?
A I don’t believe so.
Q And it’s not the practice to even notify a
charity if its Schedule B is listed on the website,
right, at least as far as you know when you were
there?
A I don’t believe so. I think they were taken
down when they were found. I don’t think the
Registry ever notified charities.
Q Now, just going briefly back to Mr. Gorovitz’s
e-mail exchange, 536, which I believe is also in
evidence. This is your response -- excuse me, his
response including your response.
You explain to Mr. Gorovitz that the Registry
staff are overwhelmed -- this is on the second page of
the document, sort of a carryover from the first page
to the second page. Registry staff does their best but
are overwhelmed with the volume of paper, e-mail
and voicemail” they have to handle. That’s why this
had happened; right? Do you agree with that? Is
that -- not what it says, but is that what you believed
as well?
A I knew that they were overwhelmed from time
to time, most of the time. And the reason I wrote
this was so that he would call me -- he would contact
me and not the Registry, because they didn’t respond
to e-mail and voicemail as quickly as I did.
Q Now, I think you’d said that on direct
testimony that you’d increased your staff in roughly

326
2010, which is one of the reasons why you thought
you could start sending out more deficiency letters
relating to Schedule Bs. Remember that testimony?
A Yes. That’s what Kevis determined.
Q I’m sorry, what?
A Well –
Q That’s what Kevis told you?
A No. I said when -- when we got the extra staff,
she said, We have more people now, we can start
doing a better job on the deficiency letters and
particularly Schedule B, because we have more staff.
Q And this letter was written in -- this e-mail,
excuse me, was written in 2012, so two years later?
A Right, but this -- they still were overwhelmed.
It still was half the staff of what was needed for that
volume of charities.
Q So the increase in staff had not actually really
reduced the burden significantly, from your
perspective?
A It reduced the burden somewhat, but they still
had tremendous workloads. But all I was trying to
say to him here was that he should contact me
because he would get a quicker answer from me than
he would from staff.
Q July 3, 2012, at this point, you are aware of an
inadvertent disclosure of a Schedule B; right?
A Yes.
Q And the prior letters we looked at, you had
said that you were not aware; right?
A Right.

327
Q Those were previous in time, because this day
you are aware?
A Yes.
Q And you worked for the Attorney General of
California; right?
A Yes.
Q The defendant in this case?
A Yes.
Q It would be inaccurate to say in, say, July
2014, two years after this letter, that there is no
evidence to suggest that any inadvertent disclosure
of Schedule Bs has occurred; right?
A That would be inaccurate.
Q And are you aware of or were you involved in
the briefing by the Attorney General’s office to the
Ninth Circuit Court of Appeals in July of 2014 in a
case called CCP v. Harris?
A No.
*

*

*

[Day Three, Vol. II: Page 81]
Q (BY MR. BURCK) Take a quick look at those, if
you like, but those are all deficiency letters issued to
the Americans for Prosperity Foundation.
A Okay, I don’t have 31. (Pause in proceedings.)
Q (BY MR. BURCK) So these are all deficiency
letters issued to Americans for Prosperity
Foundation from March of 2013 through October 29
of 2014; is that right?
A Yes.

328
Q So some of these came after you left, but do
you recognize them in terms of the form?
A Yes.
MR. BURCK: Your Honor, we’d offer all five
exhibits into evidence pursuant to stipulation.
MS. GORDON: No objection.
THE COURT: 205, 206, 207 and Exhibit 31 in
evidence. (Exhibit Nos. 205, 206, 207, 31 received
into evidence.)
MR. BURCK: Thank you, Your Honor.
Q (BY MR. BURCK) Now, while you were still
with the section, at least one of those letters issued;
right?
A Yes.
Q Now, at the time you were there, you don’t
recall ever hearing of a complaint about the
Americans for Prosperity Foundation; right?
A No.
Q Do you recall issuing a subpoena against the
Americans for Prosperity Foundation?
A I did not.
Q For anything? Schedule B? Anything?
A No.
Q And when you say no, it’s not that you don’t
recall; you know that it didn’t happen?
A I know it didn’t happen.
Q And that’s because you were aware of all the
investigations that were going on?
A Yes.

329
Q But you were not, as you said, aware of the
deficiency letters that would go out?
A No.
*

*

*

[Day Three, Vol. II: Page 89]
Q So this was a conflict of interest basically?
A Well, yeah. I mean, he’s a disqualified person.
It’s –
Q It’s not good, no matter how you describe it?
A No.
Q Now, that started from a complaint; right?
A That part I don’t remember. It certainly didn’t
start with us just, you know, perusing 990s. It
started from some source. Whether it was a news
report or a complaint, I don’t remember.
Q Let me just back up. So it didn’t start -- that
was going to be my question. You anticipated it.
You didn’t have your staff looking through 120,000
charities looking for Schedule Bs and you said, This
one looks weird?
A No. We’ve never had the staffing to do that.
Q So your belief is -- your best belief, sitting here
today, is that somebody made a complaint?
A Or there was an article in the LA Times.
Q Which would also mean –
A One of the two.
Q And isn’t it the case that the article or the
source said something to the effect, You should look
at this charity because the physician who’s endowing
it is the same guy who’s going to get the chair?

330
A I don’t really remember those details. You
really have to talk to Tania Ibanez or Wendi
Horwitz.
*

*

*

[Day Three, Vol. II: Page 92]
Q And you wouldn’t use your administrative
subpoena power in order -- if you had it to ensure you
got all the evidence?
A As IRS likes to say, it’s all facts and
circumstances. I can’t say in what percentage of the
cases we thought we needed to use subpoena power
to get everything we needed before filing. I certainly
filed lots of cases in which I didn’t use subpoenas.
Q And how many of those –
A But I’m sure others have.
Q How many of those other cases were
incidences in which you were sure you received all
the information that you needed from the charity?
A Well, if we sent an audit letter and say, We’re
coming in to look at your books, and they let us come
in to look at the books, we get the evidence. We don’t
need the administrative subpoena. And the vast
majority of investigations are handled that way.
Q Fair enough. So the audit process where they
allow you to actually go into their offices or get
access to their records and you can -- your people can
sit there and peruse them, take notes, take copies, et
cetera, et cetera, that’s the normal – that’s the way
to do an investigation?
A Well, that’s the preference, because we have
limited staff. And besides, that would indicate that

331
the charity was kind of interested in resolving the
problems.
Q So fair to say, even though you don’t really
remember that much about L.B. Research, you
probably used the audit process or a subpoena
process in order to investigate that case?
A It just –
Q Or you don’t remember?
A I don’t remember that. I remember the facts.
I remember the egregiousness of it to me, but there
were two DAGs handling it, and I was just looking at
the high-level stuff.
Q What about the animals for Katrina -- excuse
me, the Animal Victims of Katrina?
A I was supervising that.
Q That one you said 2 to $3 million. That’s a lot
of money.
A Actually, there was more, but they could
arguably say that some of it had been used for
related purposes.
Q Understood. And as to that one, you used an
audit process or a subpoena process; right?
A Used -- I think -- I don’t remember. Again, it
was one of the two. We had -- I remember that there
was a review of the charity’s books and records. I
don’t remember if they cooperated or we had to get
the subpoena.
Q And, again, as far as you know -- well,
actually, not as far as -- well, as far as you know,
Americans for Prosperity has never been the subject
of a complaint of any sort?

332
A Well, I don’t recall ever seeing a complaint
about them. I don’t recall ever hearing the name
until my deposition was noticed.
Q Had there been a complaint, there’s nothing
that would have stopped you from being able to use
your audit powers or your other powers; is that
right?
A No, if it was considered to be a valid complaint
that needed to be pursued.
Q You’d use the process; right?
A We would try the informal process first, and if
that didn’t work -- but even the complaints that are
pursued, that’s triage too, because -- our definition of
triage, because it’s always going to be the case that
represents the most harm to charity, because all the
section’s about is recovering misplaced -- or
misapplied assets, getting rid of fraud and giving
that -- getting that money back to use for the purpose
it was intended.

333
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Four
Excerpts from the Trial Testimony of Belinda Johns
February 26, 2016

*

*

*

[Day Four: Page 9]
[By Mr. Burck]
Q Okay. So –
A The only security procedures I ever had to
implement were to receive investigative documents.
Q Understood. So your testimony is that when
you’d receive investigative documents, that’s the only

334
time that you would have to take any kind of security
precautions, your understanding?
A IRS security precautions.
Q IRS security precautions.
A Yeah.
Q And I think you testified about -- on direct
about taking certain steps to protect Schedule Bs.
Do you recall that?
A Yes.
Q And those were -- included having a copy that
was stored in a filing cabinet, that kind of thing?
A No. That was for the investigative documents.
Schedule B -- well, first of all, the investigative
documents we received when California was part of
the pilot project -- which is what it was called -- was
a wholly different protocol. I was allowed to receive
envelopes from IRS that contained investigative
reports on specific charities and people -- disqualified
persons related to specific charities. And those
would have been very valuable in aiding us if we
were already investigating or were planning -- or
thought we needed to investigate because it was a
California charity.
So I could receive those, and I signed up to do
that in paper format. I had to keep them behind two
locked barriers in a locked filing cabinet. I could
have them in my office, but if I wanted one of my
staff to look at them, they had to come to my office.
They couldn’t make notes. We couldn’t rely on those
documents to further a case.
We had to
independently confirm the name of the charity that -and then ask that charity if they’d ever had any

335
correspondence with IRS.
We couldn’t tell the
charity that we had received these documents from
IRS.
So the whole thing became a fiction. We couldn’t
use them for our investigations. And then I had to
shred them in accordance with the specific IRS
shred. I couldn’t keep anything on the website -- not
on the website, but even on my desktop. I had to
keep a log that was written in pen. And I did all
those things, but in the end it was impossible to use
what we were receiving even though it was valuable.
So I was ready to let it go when I retired, and I think
now the office has dropped out of that project.
*

*

*

[Day Four: Page 14]
Q (BY MR. BURCK) Let’s turn to just the
concept of electronically provided IRS information,
information the IRS would provide to you
electronically, right, that’s regarding confidential
documents. You understand what I’m talking about?
A No, because -- well, the only information the
Registry ever received from IRS electronically were
the 990s that came through the fed/state retrieval
system.
Q Right. And that’s because California, your
office, declined to comply with the safeguards that
the IRS required for receiving and using
electronically provided documents from the IRS; isn’t
that right?
MS. GORDON: Objection, Your Honor, lacks
foundation.
THE COURT: The objection is overruled.

336
THE WITNESS: I’ll try to answer that question.
We received complete 990s, together with Schedule
B, through the fed/state retrieval system. I elected
not to request the investigative documents when I
was part of the pilot project in electronic format
because it would require a three-day audit of our
data center. These documents would not have gone
into the Registry database. They would have gone
into our document management system, and it was
not something that I wanted to do unless it was
going to be useful, for one thing; and two -- and it
wouldn’t be useful, as I now know, because I still
couldn’t use the documents.
I had to do a
workaround to even use them.
But secondly, the documents would go in -- if I
put them in the document management system that
the office uses, it would have been -- the same level
of security that’s imposed on revenue agencies would
have been imposed on our data center. I don’t know
if the data center has that level of security or not,
but it didn’t matter to me how I got the documents.
Paper was just fine.
Q (BY MR. BURCK) It didn’t matter to you how
you got the documents?
A It didn’t matter if I got them electronically. It
wasn’t going to be any difference in the way I could
use them.
Q Who would have conducted the audit you
mentioned, the three-day audit?
A IRS contracted with PriceWaterhouse for that.
Q And you didn’t want to go through that
process; right?

337
A No, it wasn’t that I didn’t want to go through
it -- I didn’t think the data center would want to -but it was more that I didn’t need to have that level
of access. And in part, that was because at the
beginning we had no idea if the volume of documents
we received were going to be useful.
Q Okay. So fair to say -- and I’ll wrap up this
line of questioning -- that you did not -- and when I
say “you,” I’m talking about also your section -- chose
not to put in the safeguards that the IRS required for
electronically provided confidential documents?
MS. GORDON: Objection, Your Honor, asked and
answered.
THE COURT: The objection is overruled.
Q (BY MR. BURCK) That’s a yes or no question,
Ms. Johns.
A Well, except – it’s yes or no except that I
wouldn’t have been putting the safeguards in. It
would have been the Hawkins Data Center that
would have to do it, and I didn’t ask them to do it.
Q Again, this is not something you did because
you didn’t personally do it? Is that what you’re
saying?
A It wouldn’t have been me. It would have been
the Hawkins Data Center.
Q Does the Hawkins Data Center make those
kind of policy decisions?
A I don’t know how they work –
Q So –
A -- I just -- I don’t think that -- I have no idea.
Yes, they – I’m sorry, I don’t know.

338
Q You don’t know, okay. So you don’t know who
would have made the policy decision to not put in
place the IRS safeguards? You have no idea?
A I never discussed it with anyone. I made a
decision –
Q So it just happened? You made a decision?
A I made a decision on behalf of the section to
receive the documents in paper format and not -- not
even deal with the possibility of receiving them
electronically.

339
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Five, Volume I
Excerpts from the Trial Testimony of Kevis Foley
March 3, 2016

*

*

*

[Day Five, Vol. I: Page 4]
THE COURT: All right. Call your next witness.
MS. SOICHET: Defendant calls Kevis Foley.
THE COURTROOM DEPUTY: Please raise your
right hand.
(The witness, KEVIS FOLEY, was sworn.)
THE COURTROOM
Please take a seat.

DEPUTY:

Thank

you.

340
Okay. And please state your full and true name
for the record and spell your last name.
THE WITNESS: Kevis Michelle Foley, F-O-L-EY.
THE COURT: All right.
DIRECT EXAMINATION
Q (BY MS. SOICHET) Good morning, Ms. Foley.
A Good morning.
Q What was your last position
California Department of Justice?

with

the

A Registrar of Charitable Trusts.
Q And when did you start in the Registry?
A November 2005.
Q And how long did you serve there?
A A little over ten years until -- well, actually a
little under ten years. Until September of 2015.
Q And you said you were the registrar. What
was your role as registrar?
A The role of registrar is overseeing the day-today operations of the Registry of Charitable Trusts.
Q And what are those operations?
A The enforcement of the -- the supervision of
trustees and fundraisers for charitable purposes. I
have registration reporting requirements related to
those laws.
Q How is that work divided among the office?
A It’s separated up programmatically. So for
instance, we have the registration program and the
renewal program, and then we have a delinquency

341
program and a dissolution program. Those are all
related to the charity registration reporting
requirements. And we have a charitable raffles
program, as well as a commercial fundraiser
program. And then sort of a general front desk area,
I’ll call it, for lack of a better term, that makes sure
all the mail gets processed every day. They sort of
supervise the students, set their schedules, and then
they also do all the prepping of the documents for
scanning and oversee that scan project.
Q And what is the bulk of the work of the
Registry of Charitable Trusts?
A Processing the annual filings that come in for
the charities.
Q How many renewals do you process per year,
approximately?
A The year before I left, it was 60,000-plus.
*

*

*

[Day Five, Vol. I: Page 9]
Q You said earlier the bulk of the Registry’s
work was to handle renewals. What specific forms
are charities required to file with the Registry every
year?
A They’re required to file the state form, which
is the registration renewal fee report, or referred to
as the RF-1, along with a copy of their tax return, the
Form 990 as filed with the IRS, if they file one, and
pay a fee.
Q I’m sorry, what was that?
A And they also pay -- submit a fee if a fee is
owed for the registration renewal.

342
Q And how do most renewal filings come into the
Registry?
A They come in paper in the mail.
Q Do they come evenly throughout the year?
A There are -- they do come throughout the year,
but there’s a couple of peak filing periods in May and
November, related to whether the organization’s
fiscal year end is December or June.
*

*

*

[Day Five, Vol. I: Page 15]
Q And when was the public’s website up and
running?
A I think it was 2008 sometime, but I’m not
positive.
Q And how long did it take for the Registry to
scan and upload public files to the website?
A They started scanning them in 2007, once they
had the ability to store the documents. And up until
-- you know, it took them, I want to say, two, three
years before they got all the original legacy files
scanned.
And then they started scanning the
documents that had come in since those files went off
the shelf. So newer filings, annual filings.
Q When you say “legacy” documents, what do
you mean by that?
A Those would be old files -- the original files
that were on the shelves prior to automation.
Q And since automation, do you have a sense of
how many pages of paper documents have been
converted?
A I want to say -- pages? 7 to 8 million.

343
Q You said earlier that most renewals come by
mail. What percentage of renewals would you say
come that way?
A Probably about 95 percent, if not more.
*

*

*

[Day Five, Vol. I: Page 27]
Q Who can access a charity’s Schedule B?
A The only people that can access it are the
people that work in the Registry and staff of the
Charitable Trusts Section, the deputy Attorney
Generals and investigative auditors.
Q And how are they able to access it?
A They access it through the back-end database
of My License Office.
Q Are there any restrictions on that access?
A Yes, there is. There’s -- each individual PC
that’s going to be accessing the My License Office,
they have to have -- the IP address of that computer
has to be authorized, as well as they also get a logon
and passwords that are assigned to them when
they’re hired.
Q Does the Registry share Schedule Bs with
other staff members of the Attorney General’s office?
A No. Not other than the Charitable Trusts
Sections attorneys and investigative auditors.
Q What about other law enforcement?
A No.
Q Other state agencies?
A No.

344
Q Does the Registry train all staff on this
confidentiality policy?
A Yes.
*

*

*

[Day Five, Vol. I: Page 33]
Q Who notified you?
A I think in one case it was one of the deputy
Attorney Generals. One of the investigative auditors
I think it was the other case. And then ones that
hadn’t been made -- that we had discovered on our
own within the Registry would just be brought to my
attention by a staff person.
Q And what would you do at that point?
A Just check/uncheck the box that was making
the document public in the record.
Q I’m sorry, you would check or uncheck a box?
What do you mean by that?
A Part of the upload process to make a document
available for viewing in the Registry as an electronic
document was checking a box whether the document
was to be made public or not. So the default is that
it’s not public, and the checked box would mean that
it is public. So if we discovered a document had been
inadvertently made public, we would just go into the
record to that document and uncheck the box.
Q Did you ever notify the charities that their
Schedule B had been inadvertently posted on the
website?
A No.
Q Did you -- would you notify anyone at all?
A No.

345
Q Why not?
A It was just part of the office process. So, I
mean, I didn’t feel that it was really necessary, as far
as I knew, to notify anybody. If it was a staff
member that had inadvertently done it, I would -you know, obviously I would go to them and let them
know that, You need to be more careful when you’re
uploading the documents, make sure you don’t make
a, you know, confidential document public.
Q At any point in your tenure, did you create a -did you ever search for public -- for documents that
had been made public that shouldn’t have been?
A We did develop a query to go out and look for
documents that were potentially confidential
documents that had something in the naming of the
document that would lead us to believe it should be
confidential.
Q And when approximately did that occur?
A I want to say it wasn’t until maybe 2012, ’13.
Q And was there any follow-up after those
searches?
A We would get a weekly -- a weekly report of
those documents that were -- potentially should not
have been uploaded as public. And we would look at
the individual documents to determine whether they
should or should not be. And if they were, then we
would obviously go in and make them confidential.
Or sometimes it just -- if it was -- a document that
had the wrong scan sheet, so it was named as a
confidential document but it really wasn’t, so we
would go in and change the name of the document.
*

*

*

346
[Day Five, Vol. I: Page 63]
[CROSS-EXAMINATION]
[By Mr. Burck]
Q But before that happened, before they got the
review piece, there are thousands of documents, tens
of thousands of documents?
A Excuse me? For the scan –
Q That were reviewed –
A -- the scan –
Q Before -- when they were going to scan the
documents.
Thousands?
Tens of thousands of
documents? Hundreds of thousands of documents
that are reviewed by the seasonal and the students
to check for confidential information; right?
A Yes, pages of documents, yes.
Q Thousands, hundreds of thousands, tens of
thousands? Lots?
A Lots.
Q And it wasn’t the full-time staff that would be
doing that; right?
A Not for the most part, no. Again, they were -sometimes the office technicians would do that as
well, just depends on what workload was. And of
course during the training process, they would be
going through the documents with them.
Q But you would agree with me that the vast
majority of those documents were reviewed by
seasonal and students, right? Seasonal workers and
students?
A That’s correct.

347
Q Now, you testified that in 2010-2011 time
frame, this is when there was the decision -- there
was a decision made to make the process of finding
deficiencies with Schedule Bs more systematic;
right?
A Well, overall, the process in the office was to
make sure -- we had more staffing then, and we also
-- that was when we did our first mass mailings. So
the process of, you know, what we’re going to ask for,
specific, how you’re going to do the deficiency notices,
delinquency notices, how they’re going to be entered
into the databases when different deficiencies are
there, all those were -- you know, you’re always
changing process. So it was just part of the changing
of the processes of how to get -- the most efficient
way to do the work and also maintain the goal of the
Registry to get all the filings that are required to us
in a timely manner.
Q Okay. So but bottom line, staffing. There
were more staff now to help you look for Schedule Bs
that were missing?
A Yes.
*

*

*

[Day Five, Vol. I: Page 81]
Q And you mentioned this -- this -- I think it was
a weekly update that you’d get about problems with
confidential documents on the website?
A Possible
-yes,
documents that are public.

possible

confidential

Q And can you, sitting here today, identify
anybody else, other than Ms. Rose, who you talked to
about the mistakes that were made?

348
A Not specifically, no.
Q When you say “not specifically,” do you think
that there were some, you just can’t remember who?
Or you don’t know?
A I’m with staff all the time, so that would be
just one of the things they may have made
inaccuracies in and they would have been talked to
about.
Q But there was no discipline brought for any
confidential -- anyone who brought -- who uploaded
or mistakenly posted confidential information; right?
A Not that was let go specifically for schedule -Schedule B, no.
Q Okay.
uploading?

Anybody demoted for Schedule B

A No.
Q Anybody had their pay docked for Schedule B
uploading?
A No.
Q Anyone get a formal letter in their file for
Schedule B uploading?
A No.
Q Anybody get an e-mail saying, you know, You
should take this as a warning to cease doing this
because it could have repercussions for you?
A No.
Q And, in fact, I think when -- you were deposed
in this case; right?
A Yes.

349
Q And I think you said -- and if you don’t recall -but that it was just part of the daily work for your
staff to find confidential documents in the public
website; right?
A Not that they – I’m not sure what you’re
asking. I never said they found them daily, but it
was part of their work to look for -- to see if there
were any inadvertent ones. And the staff had the
ability to make the documents confidential as well.
So it’s possible they came across one themselves and
corrected it. I wouldn’t know about it necessarily.
*

*

*

[Day Five, Vol. I: Page 84]
Q Well, during the several years prior to your
deposition when you had the weekly updates about
confidential information that might be uploaded, I
think you also testified on direct that you had a
meeting or a process where you’d have a search done
for confidential documents; right?
A That was that weekly –
Q Weekly –
A -- query that was run, yes.
Q That was the weekly -- that search led to the
weekly reports?
A No, the search was the weekly report.
Q The search was the weekly reports. And that
was for 2012, 2013, 2014, 2015, roughly?
A I don’t even believe it started that early. You’d
have to question my tech person that worked on it. I
don’t remember the first day we got the first report.

350
Q Okay. But during that period, did you find
thousands of Schedule Bs that had been
inadvertently uploaded in that process?
A No.
Q Did you find hundreds?
A No.
Q Dozens?
A Dozens, maybe less. I don’t even know. I
want to say definitely less than a hundred. Maybe
25, 30.
Q Maybe 25 or 30?
A That were identified by that query, yeah.
Q Okay. And just to be clear, you pulled those
down when you found them?
A Well, we made them confidential, yes, and
took them off the public website.
Q Took them off the public site. But, again, you
didn’t tell anybody -- those charities, that, in fact,
that their Schedule Bs has been inadvertently
posted?
A No.
Q Now, I think when you were testifying in your
deposition, when you learned about the 14 -- the
thousands, I’ll put it that way -- it was 1400 at the
time, but it was more later -- the thousands of
confidential Schedule Bs that were found in the
website as of the time of your deposition, you said
that you wanted to hire a programmer to help the
Registry identify Schedule Bs that was missing;
right? Do you remember saying that?
A Jokingly, yes.

351
Q Jokingly. But you did say -- and maybe this
was a joke too -- that you don’t have anybody
currently on staff -- or programmer currently on staff
who could do a search like the one that had identified
the 1400 at the time.
A We didn’t have anyone at the time I was there
that -- able to do that type of a search in the back
end, yeah.
Q Okay. So Mr. Harryman is not somebody you
consider to be capable of doing that?
A I don’t believe we thought that we had the
ability to search the documents like that, because of
the way they were uploaded; they weren’t really
made searchable. So I didn’t know you could even do
that.
Q Did you ask anybody before you left whether
or not it was possible to do something like that?
A No.
Q Did you ask Mr. Harryman -- or did you
confirm with Mr. Harryman that he did not have the
capability to do that?
A No.
Q So this is an assumption again?
A Yes.
Q And is it fair to say that you expect the
charities themselves to check the website to make
sure that their information is not -- their confidential
information is not inadvertently posted?
A Well, I don’t expect them to, but definitely if
they have a concern about it, they would -- I would

352
assume they would check the website to make sure
that that hadn’t happened.
Q So if they have a concern, then you think they
should check?
A Yes.

353
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Five, Volume II
Excerpts from the Trial Testimony of Kevis Foley
March 3, 2016

*

*

*

[Day Five, Vol. II: Page 5]
THE COURTROOM DEPUTY: This Honorable
District Court is now in session. Please come to
order.
THE COURT: Redirect?
MS. SOICHET: Your Honor, we have no further
questions of Ms. Foley.

354
THE COURT: I may have some questions. Ms.
Foley, has the registry of the trust and you as
registrar determined the confidentiality of a
Schedule B?
THE WITNESS: No.
THE COURT: You have
determination of confidentiality?

not

made

any

THE
WITNESS: Well,
we
treat
them
confidentially because the IRS treats them as
confidential documents. So as far as I know, since
my period as registrar, we have always followed the
IRS’s lead on that.
THE COURT: What does the attorney general get
from the Schedule B? What information do they use?
THE WITNESS: I don’t know how it’s
individually used by the investigative auditors and
the DAGs in the charitable trust section, but the
information on there is donor information for the
charities.
THE COURT: And what information does the
registry of the trust have with reference to the
information that’s on Schedule B?
THE WITNESS: The registry itself doesn’t use
any of the information on there. We just collect it as
one of the schedules that’s part of the 990 that we
collect.
THE COURT: Then why do you look for the
Schedule B?
THE WITNESS: Because it’s one of the schedules,
and we require that the 990, as filed with the IRS,
the entire thing be submitted to our office.

355
THE COURT: For what purpose do you look at a
Schedule B?
THE WITNESS: Again, it’s just because it’s part
of the form itself, and we collect the entire form.
THE COURT: What information do you want
from the Schedule B that is used by you?
THE WITNESS: By the registry?
THE COURT: Yes.
THE WITNESS: The registry doesn’t use any of
the information on the Schedule B.

356
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Five, Volume II
Excerpts from the Trial Testimony of
Christopher Harryman
March 3, 2016

*

*

*

[Day Five, Vol. II: Page 6]
THE COURT: All right.
Call your next witness.

You may step down.

MR. ZEPEDA: Your Honor, the defendants call
Mr. Chris Harryman.
THE COURTROOM DEPUTY: Mr. Harryman, if
you can come down this way.

357
You can stop right there. Turn around. Please
raise your right hand.
CHRISTOPHER PAUL HARRYMAN, DEFENSE
WITNESS, WAS SWORN
THE WITNESS: I do.
THE COURTROOM
Please take seat.

DEPUTY:

Thank

you.

Please state your full and true name for the
record, and spell your last name.
A Christopher Paul Harryman. The last name is
spelled H-a-r-r-y-m-a-n.
*

*

*

[Day Five, Vol. II: Page 24]
[CROSS-EXAMINATION]
[BY MR. FORST]
Q You were deposed in this case on December
15th, 2015 by me. Do you remember that?
A I do.
Q Do you remember telling me that after you
had been -- well, in connection with this case, you
had been provided, over periods of times, lists from
the plaintiff of confidential documents that have
been discovered on your website, correct?
A Yes.
Q Okay.
And you testified on direct you
immediately went and took those down, right?
A As soon as I was made aware of them, yes.
Q But you also don’t know, as you’re sitting
there today, for how long any of those documents --

358
any of those confidential documents were on the
website before you took them down?
A I did analysis -- I had similar analysis for all of
the batches, sets of documents that were provided to
me, and provided those to management.
Q Sure. And similarly, some of those documents
had been available even going back to 2008, just like
Exhibit 720?
A Some of them were not all the way back to
2008, but it was roughly the same kind of bell curve,
yes.
Q So they were available for years. Even though
you took them down immediately, they were
available on the website for years; am I right?
A Some of them were, yes.

359
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Five, Volume II
Excerpts from the Trial Testimony of David Eller
March 3, 2016

*

*

*

[Day Five, Vol. II: Page 61]
THE COURT: All right. You may step down.
Call your next witness.
MR. ZEPEDA: Your Honor, defendants call Mr.
David Eller to the stand.
THE COURTROOM DEPUTY: Walk straight
through. You can stop right there. Turn around.
Please raise your right hand.

360
DAVID EDWARD ELLER, DEFENSE WITNESS,
WAS SWORN
THE WITNESS: Yes, I do.
THE COURTROOM DEPUTY: Thank you.
Please take a seat. Please state your full and true
name for the record, and spell your last name.
THE WITNESS: David Edward Eller, E-l-l-e-r.
DIRECT EXAMINATION
BY MR. ZEPEDA:
Q Mr. Eller are you currently employed?
A Yes, I am.
Q And what is your position?
A I am the registrar for the Registry of
Charitable Trusts in the Department of Justice,
State of California.
Q And how long have you been the registrar for
the registry?
A I started August 17th of 2015.
Q And what is the registry?
A The registry is a state department that
manages the registration of charitable trusts who are
actively fundraising in the state of California.
Q And what is the purpose of the registry?
A Its responsibility is to uphold the regulations
that require the qualified organizations to register
and to submit required documentation.
Q Could you give me an approximation of how
many people work for the registry?
A Currently we have a little bit over 40.

361
Q Does the registry
investigations of charities?

have

any

role

in

A Not directly. The registry’s primary function,
as I mentioned, is to intake documentation relative
to the initial registration, subsequent renewals, if
there is a change in the organization, a dissolution.
And other administrative matters/ investigations are
handled by our legal and investigative team.
Q How many charities are currently registered
with the registry in California?
A I don’t have an exact number, but a good
approximation would probably be about 118,000.
Q How is the registry organized?
A We break our functions into logical segments
following the timeline of an organization. When they
first come in, we have a program for registration.
We have a program for renewals. We have a
program for dissolution. We have a program for
complaints, for commercial fundraising and for
raffles.
Q And what is your role as registrar?
A I manage all the people and processes who
perform the functions within those programs that I
just noted.
Q You talked about investigations, and you
mentioned that those are handled by a different
section of the Department of Justice, correct?
A That’s correct.
*

*

[Day Five, Vol. II: Page 66]

*

362
Q Are you aware of any Department of Justice
policy regarding confidentiality of documents?
A Yes. There’s an overarching policy within the
Department of Justice that addresses security, data
security, information security, yes.
Q Are employees of the registry trained
regarding the Department of Justice policy regarding
confidentiality?
A Yes. As part of the initial onboarding of a new
employee, they are required to read the security
information disclosure form, which is a standard
justice form, and read it and then sign an
attestation. In addition, there’s annual mandated
training for security and confidentiality of
information.
Q Earlier you discussed the procedures within
the registry for handling confidential documents.
Are employees of the registry trained in that?
A Yes, they are.
Q And how is that training implemented?
A All employees are given general training when
they come in, and then they’re given specific training
relative to the program that they are going to be
working in. And so they are made aware of the
document types they will be handling. And based on
that, obviously there’s going to be classifications for
public and nonpublic, and they are given instruction
on how to process those documents.
Q Are these procedures enforced in any way?
THE COURT: Haven’t we already had those
procedures by three other people?
MR. ZEPEDA: I can move on, Your Honor.

363
Q Does the confidentiality policy cover Schedule
B information?
A Yes, they do.
Q In your capacity as registrar, have you been
involved in reenforcing or training your staff about
the confidentiality policy?
A Yes, I have.
*

*

*

[Day Five, Vol. II: Page 73]
A There is no official program for document
management. We have a document management
team, and their responsibility is to support all of the
programs’ -- all of the programs’ intake documents.
So all of the management team is -- I consider them
the hub, and the programs are the spokes, and they
serve as the needs of all the programs.
Q And what is the -- what does the document
management team do?
A Pretty much what the label describes. They
intake the initial documents for the program. They
identify them, sort them by program, and then
distribute them to the programs. The programs then
utilize those documents to address whatever issues
they’re handling, and then those documents are then
managed -- given back to the document management
team so that they can then be processed for indexing,
classification, and uploading to our system.
Q Can you give us a rough idea how many
documents come into the registry on a particular
week, for example?
A Well, that’s a little difficult, and let me explain
why I say that. There are certain times of year when

364
certain deadlines are upcoming, and we get a large
volume of documents when renewals are done or
when renewals are expected and so forth. I would
say on average, though, we’re probably intaking
maybe about 3- to 600 pieces of mail a day under
normal conditions.
Q And does the registry see documents via any
other way other than mail?
A We do get documents. We do get e-mails,
documents that might be e-mailed to us, but
principally we are pretty much getting paper.
Q And can you break it down roughly in
percentage how many documents you receive via
mail versus how many are received electronically?
A 90-plus percent would be paper.
Q You discussed the steps that the registry took
place -- the steps the registry took going forward to
try to address the concerns about inadvertent
disclosures. Do you remember that?
A Yes, I do.
Q As the registrar, do you feel that this will
address that problem?
A I think it’s -- I think those are very positive
steps, and I know that’s based on the results that we
have been able to obtain as a result. Are there other
things that we can do? We are constantly looking for
new ideas. One thing that we are doing from a
document management perspective is to move the
responsibility, shift the responsibility from the
document management team for the classification of
documents back to the programs so that the experts,
the most knowledgeable experts, based on the

365
document types are looking at those and making
decisions. So we are in transition, as we speak, to do
that. We feel that will provide incremental value
and help reduce or improve quality and reduce error
rates.
Q Now, as part of its process, the registry
handles the Schedule Bs; is that correct?
A Yes, they do.
Q And those documents
confidential by the registry?

are

considered

A Yes, they are.
Q Who has access within the registry to the
Schedule B and other confidential documents?
A Basically all registry staff.
Q Outside registry staff. Does anyone have –
THE COURT: Counsel, why don’t we make a
situation to what use do they put the Schedule Bs
that they get?
MR. ZEPEDA: Yes, Your Honor.
Q Mr. Eller, does the registry put the Schedule B
to any use as part of its day-to-day business?
A No, they don’t. This information is utilized by
our legal and audit team, so -- but to answer your
question, no, the registry does not.
*

*

*

[Day Five, Vol. II: Page 86]
[CROSS-EXAMINATION]
[By Mr. Shaffer]
Q Did you get any outcry from the attorney
general’s office or from anywhere else that they

366
didn’t have access to important tax documents that
they needed?
A No.
Q Did you have any indication that there was a
bottom-line impact based on the fact that you were
running these extra protocols on the documents
before uploading them?
A Well, we anticipated that would be a valueadded process for everyone, for the organizations
that were submitting information, for them to
understand that we were taking the utmost care in
classifying their docs and performing our job as we’re
supposed to.
Q And you felt that even if it meant that the
attorney general’s office would go without months for
the tax documents that were awaiting uploading,
right?
A Our goal is to always upload information as
quickly as possible, but we have to ensure it’s
accurate.
*

*

*

[Day Five, Vol. II: Page 94]
Q Now, you haven’t investigated the extent to
which more Schedule Bs might still be available on
the registry’s website today, have you?
A I’m not sure I understand your question.
Q Well, do you know how many Schedule Bs that
ought to be treated as confidential are right now still
publicly available on the registry’s website?
A To my knowledge there are none, otherwise we
would have fixed them. Are you saying I’m aware of

367
items that I need to take action on?
aware of any action.

No, I’m not

Q The protocols that you are describing are
protocols that you are putting in place going forward,
correct, as far as Schedule Bs and other confidential
documents that have yet to be uploaded?
A Right. These processes are in place, so they
have been ongoing, but yes.
Q There really hasn’t been a discussion about
doing some sort of scrub of the database looking
backwards, has there?
A That’s correct.
Q So you can’t assure the Court that no
additional documents that should be confidential are
right now publicly available, can you?
A That’s correct, I can’t certify that.
Q Well, nor can you put an upper bound on how
many supposed-to-be-confidential documents are
right now publicly accessible on the registry’s
website, can you?
A I can only comment to what I know. I don’t
know what I don’t know.
Q Do you agree that you and the registry have
more work to do before you can get a handle on
maintaining confidentiality?
A I agree that quality -- we can always do better
across the board. Quality is certainly a very critical
piece of our job and we are always striving to do the
best we can.
Q And you need to be doing better, don’t you, Mr.
Eller?

368
A Well, the goal is a hundred percent. The ideal
goal is a hundred percent. We are not at a hundred
percent, so ideally there is room for improvement.
Q And when you learned that the Schedule B
that’s supposed to be confidential is, in fact, publicly
accessible, you consider it imperative to fix that
problem ASAP, don’t you?
A We make the correction of error as a top
priority.
Q In fact, you feel that the correction of errors
needs to happen immediately, don’t you?
A As soon as possible.
Q And I think you testified that when Schedule
Bs were brought to your attention, that happened
within 24 hours?
A Yeah, I believe that’s correct.
Q That’s a point of pride for you, isn’t it?
A It’s a point of responsibility.
Q And it’s a point of responsibility because every
single one of these public disclosures of a confidential
document has a high degree of impact, doesn’t it?
A It’s part of our job to do the right thing, so my
responsibility is to make sure that we are doing the
right thing.
Q Because you do recognize that these instances
where there’s an inadvertent disclosure, they have a
high degree of impact, right?
A I’m not making -- I have really not made a
value judgment on the content of the information. I
just know that these documents need to be coded a

369
certain way. They were incorrectly coded, and so my
responsibility is to fix errors that have been created.
Q Well, do you recall testifying at your
deposition that “Obviously there’s a scale of impact.
In my opinion this had a high degree of impact, and,
therefore, required a high degree of attention”?
A I don’t deny saying those words. I’m not sure
of the context of that statement, but in general, I
would say that errors are very important to us. We
take pride in the quality of our work, and we want to
fix errors that we have created.
Q And that’s true regardless of when the error
happened, even if it’s an error associated with an
improper uploading dated back to 2008, 2009, 2010,
right?
A Well, I’m not going to ignore anything that I’m
aware of, so if there are errors that are outstanding,
our goal would be to fix them and address them.
Q And you treat them with the same degree of
sensitivity and importance, don’t you?
A With what else?
Q Regardless of when -- what the time period is,
whether it’s an error that dates back to 2008 or it
was one that was made last week, you treat it with
the same degree of sensitivity and importance, don’t
you?
A Our goal is to -- if there’s something that
needs to be fixed, obviously we are going to try to
make sure that we fix it.
Q And that’s true regardless of time period?
That’s my only question.

370
A As it pertains to documents that should be
nonpublic on the website, sure.
Q And you don’t have anyone at the registry
whose
specific
responsibility
is
enforcing
confidentiality protections and making sure that
everyone is abiding by them, do you?
A Well, I would say that’s my primary
responsibility, and that’s why I instituted those
additional controls.
*

*

*

[Day Five, Vol. II: Page 102]
Q You just said you believe there are
confidentiality provisions within the contract with
the vendor, correct?
A That’s correct.
Q So my question is what is your basis for
testifying to that?
A By the fact that I have taken a look at that.
Q When did you do so?
A It was subsequent to my deposition.
Q Because this question came up at your
deposition and you didn’t know the answer then, did
you?
A I did not.
Q Do you know whether the contract that you’re
referring to has been produced to us?
A No, I do not.
Q Lets talk about Hines. Is it true that Hines is
an outside vendor that scans documents and then
prepares them for uploading by the registry?

371
A That’s correct.
Q Are you aware that Hines has come into
possession of confidential Schedule Bs that was
improperly treated as public for some period of time?
A That’s correct.
Q What have you done to ensure that Hines is
maintaining the confidentiality of those materials?
A Again, that’s part of -- what am I doing? They
are -- as far as their handling or use of that
information?
I’m not sure I understand your
question.
Q That is the right understanding of the
question.
A I believe they are bound contractually to
confidentiality.
There’s a confidentiality clause
within their contract.
Q Have you asked them what they’re doing to
return or destroy Schedule Bs that they are
improperly in possession of?
A They returned the hard copy information to
us.
Q What about the electronic copies that were
created in scanning them?
A They provide those to us as well. We upload
those.
Q My question is what have you done to ensure
that they have returned or destroyed all of the
electronic copies that they have made of the
documents that were scanned for the registry by
Hines?

372
A They return that information to us on a biweekly basis.
Q Have you asked them whether they retain any
copies?
A No, I have not.
Q Have you told them that there were
confidential Schedule Bs that they should never have
been in possession of that they, nonetheless, have
come in possession of?
A No, I have not had that conversation with
them.
Q Another vendor you have is Pacific Storage; is
that correct?
A That is correct.
Q Pacific Storage stores all of your archived
documents?
A Correct.
Q So Pacific Storage is in
confidential Schedule Bs, isn’t it?

possession

of

A Yes, they are.
Q What are you doing to ensure that they are
maintaining the confidentiality of those confidential
Schedule Bs?
A Nothing beyond what I have done with the
other vendors.
Q Which is to read a provision of the contract?
A That’s an umbrella contract, so I have read the
security confidentiality provisions within that
contract.

373
Q Have you spoken to them or have you
communicated to them specifically around those
confidentiality provisions and how they apply to the
Schedule Bs that we are talking about?
A No, I have not.
MR. SHAFFER: All right. Let me offer up into
evidence, Your Honor, and I believe we have a
stipulation on this, what’s been marked as Exhibit
534 – I’m sorry, I apologize.
It’s not yet admitted, so please don’t put it on the
screen.
But I would ask Mr. Eller if he could turn to his
witness binder.
Q And I think you will see a Tab 534 in there.
THE COURTROOM DEPUTY: Did you find it?
THE WITNESS: Yes.
THE COURTROOM DEPUTY: 534 is identified
and placed before the witness.
(Exhibit 534 for identification.)
BY MR. SHAFFER:
Q Mr. Eller, is this the umbrella contract that
you were just testifying about?
A One moment, if I may look at this.
Q Yeah, please.
A This appears to be part of the contract. I can’t
say word for word whether it’s exact.
Q And am I correct that in the upper right-hand
it says “Pacific Storage Company,” there is a stamp
on there?
A Correct.

374
Q And if you turn to the next page, I think you
will find Exhibit D, Special Terms and Conditions.
A Yes, I see that.
Q Is this consistent with your review of the
confidentiality provision that you were just referring
to?
A Again, yes. Again, I can’t validate that it’s,
you know, the full, complete version word for word
and so forth, but it appears to be consistent with
what I looked at.
Q Can you recall having reviewed anything that
you don’t see reflected in this Exhibit D that speaks
to confidentiality of schedule Bs or other such
documents?
A I really can’t say.
Q You can’t say, as you sit here today, whether
you have seen anything other than this?
A That’s correct, I mean -Q Can you look at the confidentiality data
provision there?
A On Exhibit D?
Q Correct, yes, the second page.
A Which section? The third to the bottom?
Q Third from the bottom where it says in bold
and then underlined “Confidentiality of Data.”
A Okay.
Q Do you see that?
A Yes, I do.

375
MR. SHAFFER: Your Honor, for the sake of the
screen and everyone’s benefit, I would respectfully
move this exhibit into evidence at this time.
MR. ZEPEDA: Objection, Your Honor; hearsay.
THE COURT: 534 in evidence.
(Exhibit 534 received.)
BY MR. SHAFFER:
Q Mr. Eller, do you see in that first sentence
where it refers to financial, statistical, personal,
technical and other data and information relating,
and then continuing on, which were designated
confidential by the Department of Justice?
A Yes, I do.
Q What are you aware of the registry or the
Department of Justice having done to designate the
relevant Schedule Bs as confidential?
A I’m not sure I understand the question.
Q I am asking it the best I can.
Can the court reporter read it back, please?
(Record read.)
THE WITNESS: Again, I am not trying to be
difficult here or anything. Are you talking about how
we designate those, or how we make the vendor
aware of how we make it confidential? Is that your
question?
BY MR. SHAFFER:
Q Yes.
A So documents are, for lack of a better term,
labeled and indexed by type and put into boxes. So
the boxes indicate the content, the nature of the

376
contents, which would include the document type.
So confidential documents are labeled as such.
Q And for a Schedule B that’s not been properly
labeled as such, has the registry or the Department
of Justice done anything to convey to Pacific Storage
or any other vendor that those documents, too, ought
to be treated as confidential?
A I’m not sure I understand your question.
Q Have you done anything, sir, to convey to
Pacific Storage or any other vendor that, in fact,
although certain Schedule Bs were mistakenly not
labeled as confidential, they are, nonetheless,
entitled to confidential treatment and should be
handled as such by the vendor?
A It’s my understanding that -MR. SHAFFER: I am going to ask for a “yes” or
“no,” I’m sorry, Your Honor, but a “yes” or “no.”
THE COURT: That can be answered “yes” or “no.”
THE WITNESS: I haven’t had any specific
discussions with Pacific Storage.
BY MR. SHAFFER:
Q Do you know of anyone having any specific
communications with Pacific Storage or any other
vendor around what we are talking about now?
A No, I do not.
Q Now, do you see later on in the clause, I think
it’s in the second sentence, they are a little bit long,
but it refers to “If the methods and procedures
employed by the contractor for the protection of the
contractor’s data and information are deemed by the
Department of Justice to be adequate for the

377
protection of Department of Justice’s confidential
information, such methods and procedures may be
used with the written consent of the Department of
Justice to carry out the intent of this paragraph.” Do
you see the sentence I just read?
A Yes, I do.
Q Do you know of any such written consent by
the Department of Justice to the procedures that are
being employed?
A I would assume that those, if there were -- I
can’t say one way or the other, but those would be
with the Department of Justice, the contract
administrator for this vendor. I’m not the contract
administrator for this vendor.
Q And as a result, you personally know nothing
about that; is that fair?
A That’s correct.
Q Do you know anything about the methods and
procedures that are being employed by Pacific
Storage in order to maintain confidentiality?
A My answer would be the same. No, I do not.
Q Do you know how many people at Pacific
Storage may have access to Schedule Bs and other
materials that are archived there?
A I have no idea.
Q Do you know anything about the extent to
which members of the public can go to Pacific
Storage and access archives there?
A No, I do not.
Q Do you see in the last sentence of this
provision where it says “The contractor shall not be

378
required under the provisions of this paragraph to
keep confidential any data or information which is or
becomes publicly available”? Do you see that, sir?
A Yes, I do.
Q Have you had any communications with
Pacific Storage or any other vendor about the extent
to which the fact that Schedule Bs were made
publicly available on the Web means that Pacific
Storage or any other vendor no longer needs to treat
them as confidential?
A As I mentioned earlier, I have not talked to
Pacific Storage.
Q So you have no understanding on this point,
do you, sir?
A I haven’t talked to Pacific Storage.
Q Have you communicated with anyone else
around this question, the question of whether the
fact that Schedule Bs have been made public on the
website means that Pacific Storage or some other
vendor no longer needs to treat them as confidential?
A I have not talked to Pacific Storage, nor
anyone else relative to this clause.
Q I want to talk briefly about the vulnerability
that you learned about, I think, around October 26,
2015, the vulnerability being one where all of the
registry’s -Well, let me step back and ask you, Mr. Eller, am
I correct that you learned from Mr. Harryman on
October 26, 2015, that documents that ought to be
maintained as confidential by the registry had been
designated as confidential by the registry were,
nonetheless, accessible by members of the public by

379
manipulating the URL address rather than going
through a link?
A I was made aware of the post-vulnerability by
Mr. Harryman.
Q Well, in fact, it wasn’t a potential
vulnerability. It was an actual vulnerability. What
was potential is that members of the public, by
entering a particular URL address, would, in fact, be
able to access and pull down a confidential
document; is that right?
A Well, I’m probably not the best technical
person as far as explaining or understanding the full
details of the vulnerability, but it was my
understanding that there was a potential for the
public or for anyone to access it via the Verification
site with proper knowledge.
Q Well, in fact, your understanding is that all of
the supposedly confidential information maintained
by the registry was, in fact, as of last October
classified as public and made available to members
of the public who were not intended to receive or
have access to it, correct?
A I’m sorry. Can you repeat that?
Q Sure. Am I correct that the problem, as you
understood it, is that all the supposedly confidential
information maintained by the registry was, in fact,
as of last October classified as public and made
available to members of the public who were not
intended to receive or have access to it?
A No, that’s not my understanding.
Q All right. Do you recall that your deposition
was videotaped?

380
A Yes, I do.
Q Do you recall that I specifically characterized
the problem in one way, and you disagreed with my
characterization and then offered your own account
of exactly what the problem was, using your own
words?
A No, I don’t.
Q Okay. I just would like to play a short video
clip for the benefit of the Mr. Eller and the Court.
Deposition transcript we are going to be playing
from, page 205, line 20, to page 206, line 2.
(Videotaped deposition played in open court.)
BY MR. SHAFFER:
Q Sir, do you stand by that characterization and
the words that you used in your deposition?
A Upon hearing it, I know what I intended to
say, but -Q You misspoke?
A Yes, I did.
Q What would you correct in what Mr. Eller
testified to on January of this year?
A There was the availability of that information
to the public. They weren’t classified as public, but
they were made available to the public. So there was
confidential nonpublic documents and public
documents that were all made available. So I think I
said that they were all classified as public, which is
not – it’s a technical piece, but it’s not technically
true.
Q The problem that we are talking about, the
problem you just returned to, extended across all of

381
the confidential documents maintained by the
registry, didn’t it?
A I don’t know. The vulnerability allowed for
access to more than what was -- should be made
available to the public as far as could someone access
every document? I don’t know the extent to which
they could access all documents, so I can’t really
truthfully answer that question.
Q As far as you know, hundreds of thousands of
documents were exposed to this, right?
A I don’t have a number.
Q You can’t say it’s a number lower than that,
can you?
A I really don’t have a number one way or the
other.
Q You never asked anyone to ascertain exactly
how many there were, did you?
A No, I did not.
Q Now, as soon as you discovered the problem on
October 26, Mr. Harryman treated it as an
emergency, didn’t he?
A He reported it immediately. He went through
the chain of command.
Q He explained having rushed out of the shower
and straight into the office to investigate and report.
Didn’t he explain that to you?
A Yes, he did. He reported through the chain of
command, and that was to me.
Q He was going through the chain of command
in a emergency mode; wouldn’t you agree?

382
A I would say yes, he made it an immediate
priority for him.
Q And it was happening Monday morning. The
Monday morning he was discovering it, he was
reporting it to you, up the chain of command,
correct?
A Correct.
Q Mr. Harryman specifically mentioned the
option of taking the public website down pending a
fix, didn’t he?
A That was discussed, yes.
Q And Mr. Ralls at the Hawkins Data Center, he
specifically recommended taking the website down,
didn’t he?
A Is that his testimony? I’m not familiar with
that.
Q Let me ask you just your recollection. Yes, I
would represent that is his testimony, but I’m
honestly interested in just your recollection, Mr.
Eller.
Do you recall being at a meeting where Mr. Ralls
specifically recommended that the website should be
taken down in light of this vulnerability?
A No, I do not recall that.
Q Do you recall offering to Ms. Ibanez the option
of taking the website down?
A Yes, we discussed options. That was one.
Q Let me ask you to actually turn in your binder,
if you could, to what’s been marked -- I think it has
Tab 546 on it.
This, Your Honor, I believe is already in evidence.

383
Do you have it in front of you, Mr. Eller, Exhibit
546?
A Yes, I do.
Q Am I correct this is an e-mail chain that you
were on with Mr. Harryman, corresponding with
Bassam, and I am not going to even try to pronounce
Bassam’s last name. Am I correct that Bassam is
with the vendor here?
A No, he is not.
Q He is internal?
A Yes, he is.
Q Am I correct that Mr. Harryman was
indicating to Bassam -- this is in the second e-mail
down, time-stamped 12:16 p.m. -“We will want to get an estimated time to fix in the
next few hours so we can make a more informed
decision about disabling Verification.”
A I’m sorry. What is your question?
Q Do you recall seeing that e-mail from Mr.
Harryman?
A I don’t recall its existence. I don’t have a keen
recollection of this specific e-mail.
Q Do you recall having conversations with Mr.
Harryman that Monday?
A Oh, absolutely, yes.
Q And specifically communications about taking
the website down?
A Yes.
Q And, in fact, when Mr. Harryman said he
wanted to get an estimated time to fix in the next

384
few hours, had you indicated to Mr. Harryman that
that was important to you?
A Maybe not in those words, but certainly our
goal was to be very quick about what actions were
necessary.
Q I would ask you now to turn to Exhibit 385,
which I believe has also been admitted.
Am I correct this is an e-mail thread that you, in
fact, were on with Mr. Harryman?
A Yes, I’m on it.
Q Do you see where Mr. Harryman -- am I
correct this is now Wednesday, October 28th, 2015?
A Yes, it is.
Q So this is two days after the vulnerability had
been brought to your attention, isn’t it?
A That is correct.
Q Am I correct that Mr. Harryman asks you in
the second e-mail down, “Are we holding off a
decision until at least a Monday meeting? Just
wondering if shutting down Verification prior to
Friday COB is still on the table.”
Do you remember him sending an e-mail to that
effect to you?
A We had discussions. I mean, I can’t -- if I
recollect these specific words, you know -- I can’t.
Q Do you recall having e-mailed him back as
reflected at the top, “Not necessarily. I will provide
Tanya with Bassam’s last update and let her
decide”?
A We had discussions regarding the status of the
issue, what the vendor’s assessment was and what

385
actions we wanted to take, so this was an ongoing
discussion.
This was obviously one of those
discussions.
Q And at this point in the discussion you were
going to let Ms. Ibanez decide whether the website
should be taken down; is that correct?
A That’s correct.
Q Can you turn please -- this will be the last one
-- Exhibit 384, which I believe has also been
admitted.
A Okay.
Q Now, am I correct that at the top of that
thread is an e-mail that you sent to Ms. Ibanez that
same Wednesday, October 28th?
A It is from me, correct.
Q And am I correct that in the second sentence
you say -- you wrote to Ms. Ibanez, “Please advise if
you want us to move to a more aggressive position as
an interim step while we wait for a fix to be made”?
Am I correct that’s what you wrote?
A That’s – that’s what it reads, yes.
Q And when you refer to a “more aggressive
position,” you were referring to taking the website
down in order to address the vulnerability, weren’t
you?
A Certainly that was one option.
Q What other option were you referring to when
you said “more aggressive position” there?
A Well certainly that would have -- taking the
website down would be the ultimate aggressive
position.

386
Q But you were leaving that position to her,
weren’t you?
A That’s correct.
Q And as a result, what happened on Thursday,
sir? Was the problem fixed or the website taken
down?
A No, it was not.
Q What happened on Friday? Was the website -was the problem fixed, or was the website taken
down?
A I believe the website was never taken down.
The problem was fixed the following Monday or
Tuesday.
Q I think it was Tuesday; is that right? It wasn’t
fixed on Monday, was it, sir?
A Again, it was Monday or Tuesday.
recall.

I can’t

Q Okay. Why don’t we turn, please, to number
388, also in the binder, also already admitted.
Can you just review that e-mail thread and let me
know if that refreshes your recollection as to whether
the problem was, in fact, fixed that Monday,
November 2nd.
A It was – let’s see here. This indicates that
testing validation had been done and that the fix had
been made.
Q On Tuesday, November 3rd, correct, sir?
A It just indicates that MLO production is now
back up.
Q Sir, do you have any distinct recollection of the
problem, in fact, being fixed the day before, and then

387
it took a day for people to tell you “We fixed this
problem”?
A No. I am just answering your question as you
posed it to me.
Q But you actually just can’t recall. This episode
doesn’t stand out in your mind well enough that you
recall the problem was fixed on a Monday or
Tuesday; is that your testimony?
MR. ZEPEDA: Objection; argumentative.
THE COURT: The objection is sustained.
MR. SHAFFER: Very well, Your Honor. Just a
few more questions.
Q You didn’t penalize Systems Automation, the
vendor, in any way for this episode, did you, Mr.
Eller?
A Can you be more specific about penalizing,
your definition, or what you’re trying to ask me?
Q Did you take any adverse action against the
vendor based upon the vulnerability that we are
talking about now?
A No.
Q Did you take any adverse action against
anyone in the registry based on the vulnerability in
the episode that we have been discussing?
A No.
Q Did you do anything to investigate or to ask
anyone to investigate how many times confidential
documents had been downloaded through this URL
vulnerability during the time that it was in effect?
A No.

388
Q Did you report this problem to anyone outside
the attorney general’s office, apart from the tech
people you called in to fix it?
A When you say tech people, are you talking
about Systems Automation?
Q Correct, and IT people?
A No, we did not.
Q So neither you nor any of your colleagues
made any public disclosure about this vulnerability
and the fact that it existed, did you?
A I did not. I can’t speak -- when you say my
colleagues -Q Well, did you ever see them making a public
announcement, or did they ever convey to you that
they were making a public announcement about the
fact that this vulnerability had existed?
A To my knowledge, I am not aware of any.
Q Isn’t it true, Mr. Eller that this episode only
became known to the public because the plaintiff
uncovered it in this case?
A I don’t know. I don’t have any comment.
Q You don’t know any other of way that it came
to public light, do you?
A I just don’t know.
MR. SHAFFER: No further questions on cross,
Your Honor.

389
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Six
Excerpts from the Trial Testimony of
Steven Bauman
March 4, 2016

*

*

*

[Day Six: Page 6]
THE COURT: All right. Call your next witness.
MR. CALIA: With the Court’s permission the
defense calls Steve Bauman.
THE COURTROOM DEPUTY: Please raise your
right hand.

390
STEVEN BENJAMIN BAUMAN, DEFENSE
WITNESS, WAS SWORN
THE WITNESS: Yes, I do.
THE COURTROOM
Please take a seat.

DEPUTY:

Thank

you.

Please state your full and true name for the
record, and spell your last name.
THE WITNESS: Steven Benjamin Bauman, B-au-m-a-n.
DIRECT EXAMINATION
BY MR. CALIA:
Q Good morning,
presently employed?

Mr.

Bauman.

Are you

A Yes, I am.
Q What do you do for work?
A I am a supervising investigative auditor for
the attorney general’s office, charitable trust section.
Q How long have you held that position?
A I have been the supervising investigative
auditor since 2001.
Q What did you do before that time?
A I worked as an auditor for the same section,
charitable trust section since 1988.
*

*

*

[Day Six: Page 9]
[Q] . . . does, how does your team get access to the
information needed to complete audits?
A We have a database that we refer to, and it
will have the 990s and the various schedules on

391
there. It will have previous correspondence. If there
have been other complaints filed -- with the charity,
that will be on our database. We review those. We
will contact the charity, seek documentation,
information from them, conduct interviews, Internet
research.
Q You mentioned a database. How does the
information in that database get there?
A The Registry of Charitable Trusts in
Sacramento scans and uploads the documents to the
database.
Q What types of information are included in that
database?
A The 990s, a form that organizations are
required to file with our office called an RF-1,
previous correspondence with the organization,
complaints filed against the charity.
Q For the investigative work that your team
does, how does work get assigned?
A We get complaints.
The complaints are
reviewed by the supervising deputy attorney general
or the senior assistant attorney general for our
section. They will determine if we are going to open
up an investigation related to this complaint. They
will then assign it to a deputy attorney general and
give it to me for assignment, and I will either keep it
myself or assign it out.
Q As part of your answer you mentioned “our
section.” What section is that?
A The charitable trusts section.
Q Do you keep track of the work that your audit
team is doing?

392
A Yes, I do.
Q And how do you do that?
A I have a log when I make an assignment. It
has who it’s been made to, the name of the case, the
date, a note as to the type of assignment, whether it’s
an index transaction or an audit or investigation,
probate.
Q I think you mentioned that you performed
some of the audits yourself rather than assigning
them to someone else. Am I right so far?
A I do carry my own caseload. A lot of what I do,
though, is also working cases in conjunction with
other auditors.
Q When you are working an audit yourself, what
is the first thing you do after receiving an
assignment?
A Review the complaint, see what the issues are,
the documents that were submitted with it. I will go
to our database, see what’s on there, take a look at
the 990s, schedules, see if there’s other complaints,
some general Internet research.
Q Has the audit team that you supervise used
Schedule B in any investigations?
A Yes, they have.
THE COURT: I’m sorry, I didn’t hear the answer.
THE WITNESS: Yes, yes, they have.
BY MR. CALIA:
Q And what types of investigations has your
audit team used Schedule B in?
A Cases involving restricted assets where people
have used funds for their personal benefit; funneling

393
funds to family, friends related businesses; cases
involving gifts in kind, we have used Schedule B in
order to determine whether to open up an
investigation or not.
Q Let’s take some of those things that you just
said one at a time. You mentioned restricted assets.
What are restricted assets?
A A donor can give funds to a charity with a
specific purpose that can be more narrow than the
general purpose of the charity. An example would be
if a charity’s purpose is to fight disease and a donor
gives funds to fight cancer, those funds have to be
used to fight cancer. They can’t be used to fight a
different disease.
Q Has the audit team that you supervise used
Schedule B in investigating issues related to
restricted assets?
A Yes.
Q Can you give us an example?
A One example would be we received a
complaint from a donor that he had made a donation
for a specific purpose, and the funds weren’t used for
that purpose. We took a look at the 990 and
Schedule B and saw that he, in fact, did give a
donation, and that was a factor in determining
whether to open up the investigation, and we opened
up the investigation.
*

*

*

[Day Six: Page 13]
Q You mentioned personal benefit transactions
as part of your earlier answer. Has your audit team

394
used Schedule B to investigate personal benefit
transactions?
A Yes, we have.
Q Can you give us an example?
MR. FORST: Objection, Your Honor, again.
THE COURT: The objection is sustained.
BY MR. CALIA:
Q You mentioned as part of your earlier answer
that you have investigated funneling funds to family
members, friends or others, correct?
A Correct.
Q Has your audit team used Schedule B to
investigate those types of issues?
A Yes, we have.
Q Can you give us an example?
MR. FORST: Objection, Your Honor.
THE COURT: The objection is sustained.
BY MR. CALIA:
Q You mentioned earlier that you sometimes
need to make a decision about whether to open a
case; is that right?
A Correct.
Q Has your audit team used Schedule B?
THE COURT: No, he is talking about his
testimony. It’s his testimony.
BY MR. CALIA:
Q Have you?

395
THE COURT: Anything from anybody else is
hearsay, Counsel.
BY MR. CALIA:
Q Have you used Schedule B to determine
whether to open an investigation?
A Yes.
Q Can you give us an example?
MR. FORST: Objection only to the extent -THE COURT: The objection is sustained.
BY MR. CALIA:
Q You mentioned -THE COURT: Generalities don’t do it, Counsel.
Generalities don’t do it.
BY MR. CALIA:
Q You mentioned gifts in kind. Have you used
Schedule B to investigate gifts in kind?
A Yes.
Q Can you give us an example?
MR. SHAFFER: Same objection, Your Honor. We
have not been provided -THE COURT: The objection is overruled.
THE WITNESS: We used Schedule B to
determine where the gift in kind is coming from. It’s
usually a chain of events, and we will use gift in kind
to determine where the gifts came from, as well as
where they were, where they went.
*

*

*

[Day Six: Page 17]
[CROSS-EXAMINATION]

396
BY MR. FORST:
Q Mr. Bauman you recall we met previously at
your deposition, correct?
A Yes, I do.
Q You mentioned just now on direct that you
were aware of an instance that you used Schedule B
to open an investigation, right?
A Correct.
Q Now, do you recall giving a deposition in this
case back in October, as I just mentioned?
A I do.
Q And in your binder, sir, the very first
document should be your deposition transcript. And
if you turn in that deposition transcript to page 166.
A Okay.
Q I will read it, see if this refreshes your
recollection. Down at line 25 on page 166 of your
deposition transcript, I asked:
“Question: Okay. Again, but to the extent that
you recall or went back and you looked at, you know,
Pro Law records, Schedule B has never been that
triggering document that kicked off an investigation?
“Answer: Not that I recall.”
Didn’t you say that at your deposition?
A I did.
Q Okay. And are you testifying today that, in
fact, is incorrect?
A That is not incorrect.
Q That is not incorrect.

397
So when I asked you the question whether
Schedule B was ever a triggering document to one of
your personal investigations, you told me at
deposition under oath that you could not remember,
correct?
A That triggered – I’m not aware of Schedule B
being a document that triggered, that we opened up
an investigation because of the existence of Schedule
B. We have used it to help determine whether we
open up an investigation or not.
Q Okay. On direct you said you used Schedule B
to open an investigation, right? But just to be clear,
your testimony, that’s true, Schedule B itself has
never been used as the triggering document to open
up an investigation, correct?
A I’m not aware that Schedule B has ever been
used to – was the triggering document that we
opened up an investigation strictly because of
Schedule B.
*

*

*

[Day Six: Page 20]
Q Sir, again, you’re speaking in terms of “we,”
and I just want to focus on you.
And your testimony is when you went back to
your records as supervising auditor to answer that
interrogatory “Which investigations implicated
Schedule B?” you came back with one, true?
A That is correct.
Q And its also true, sir, and we went over this at
deposition, at the end of reports oftentimes there’s a
report -- or end of investigations there’s a report
that’s usually written, correct?

398
A Correct.
Q And typically, you told me, that the important
documents are listed in that report, right?
A Correct.
Q And you also told me that if Schedule B were
important, it would have been listed in those reports,
true?
A It may be listed by itself as Schedule B, or it
may be referred to as the 990s.
Q Right. But I think you told me if Schedule B
was important to your analysis and conclusion, your
expectation would be that it would be identified in
the report. We can look at your deposition. Do you
recall telling me that?
A I do.
Q Okay. And so you went back to your records,
which includes these reports, and you again came up
with one instance; am I right?
A We went back to Pro Law and took a look at
the assignments. We did not go and take a look and
read every report and memo that had been written
over the last ten years.
Q As you sit here today, can you think of one
report that you -- or for an audit that you worked on
that specifically mentions Schedule B as an
important document, sir?
A As I sit here today, I don’t recall.
Q And you couldn’t at your deposition either in
late October, correct?
A Correct.

399
Q Now, you identified one investigation. You
also asked your team, your team of eight, to go back
and look as well, correct?
A Correct.
Q And when they went back and looked -- that
request from us asked for ten examples, right? We
asked for you guys to provide ten examples to us,
didn’t it?
A Yes.
Q And after your investigators all went back and
searched for ten years going back to 2005, they came
up with around five investigations only; is that right?
A The request was from our section, as I
understand it, and the auditors came up with
approximately five, and I think the attorneys came
up with approximately five.
Q Right. You don’t oversee the attorneys, right?
A Correct.
Q Right. I’m focused on your team. Your team
of auditors. You instructed them to go back for a
period of ten years, think, review records, answer
this interrogatory for this case. It called for ten, and
they came back with five; isn’t that true?
A Yes.
Q Okay.
THE COURT: So I have it right here, how many
investigations during that period used Schedule B?
How many investigations -- there were five, but how
many investigations went on during that period of
time?

400
THE WITNESS: I’m not clear I understand the
question.
THE COURT: How many investigations did your
group have during the period of time that these five
came out?
THE WITNESS: I can’t give you a specific
number. I would approximate probably between 300,
350, maybe a little more.
BY MR. FORST:
Q Sir, so, in fact, we went over that exact
exercise at your deposition. Do you recall that?
A I do.
Q You told me a rough average, at least for your
team of L.A., because that’s all you keep track of,
correct?
A Correct.
Q So that’s the five auditors in L.A., correct?
A Correct.
Q Not the three in San Francisco, correct?
A Correct.
Q So of those five auditors, average two to three
audits per month, new investigations. You told me
that.
A Yes.
Q If we average that out, it’s 36 per year, fair?
A Fair.
Q Over a ten-year period, 360 then, correct?
A 240 to 360.

401
Q 240 to 360 at the high end, but that doesn’t
account for what San Francisco did, right?
A Correct.
Q And they do their own audits, too, correct?
A Correct.
Q There’s a couple three, maybe a little bit less,
but maybe 180 if we cut it in half, fair?
A Fair.
Q Total, we are probably talking 540 or more
potential investigations?
A Potential.
Q Right.
And you, sir, identified one that
implicated Schedule B, right?
A Yes.
Q And your team came up with five in total,
correct?
A That they recall the specific use of Schedule B.
Q Right. And so if we do that math and take 5
and divide it by 560, that’s less than 1 percent of the
time, isn’t it?
A Yes.
Q Okay. Now, I want to focus on your
investigations, sir, because we spent some time with
that at your deposition. And I don’t want to belabor
the point, but it’s true, is it not, that for the one
investigation that you identified for this case, you
could have, quote, probably completed it even
without Schedule B, true?

402
A We could complete our investigations if you
took away many of the tools that we have. We just
wouldn’t be as effective or as efficient.
Q Again, my question was very simple. We went
over this before. You testified that you could have
completed that one investigation that you recalled
using Schedule B even without the Schedule B, true?
A Yes, but not as efficiently.
Q Okay. But the answer is “yes,” correct, to my
question?
A Correct.
*

*

*

[Day Six: Page 26]
Q Okay. So it’s also true as the investigative
branch, you guys don’t review those documents as
they come in, correct?
A You are asking if we review all the documents
the registry gets?
Q Right, the 60,000 that come in.
A We do not.
Q You do not check to see if the form 990s are
filed, correct?
A Correct.
Q You don’t check to see if there’s Schedule B in
there, correct?
A Correct.
Q The registry just collects that universe of
documents from every charity, the good, the bad and
the ugly, and just holds on to those documents,
correct?

403
A Correct.
Q And if ever you look at the documents, it’s only
when a complaint comes in, fair?
A Yes.
Q Mr. Bauman, you testified that you have been
with the charitable trust section from 1988 through
today?
A Correct.
Q So roughly 27, 28 years?
A Yes.
Q And you were supervising investigating
auditor from 2001 to -- or to today, about 15 years?
A Correct.
Q Now, sir, you’ve reviewed some form 990s
along the way; is that true?
A Yes.
Q And you have reviewed form 990s in
connection with audits that did not include Schedule
B; isn’t that true?
A Yes.
Q And you noticed, in fact, many form 990s do
not include Schedule B?
A Correct.
Q You still successfully audited those charities,
correct?
A Yes.
Q Found wrongdoing in some cases?
A Yes.
Q Without the Schedule B, correct?

404
A Correct.
Q And even when a supervising investigative
auditor, you notice Schedule Bs were missing along
the way, many of them, you never told the registry
that they need to make sure they are collecting those
Schedule Bs, right?
A For organizations that we are currently
investigating, if a Schedule B is missing, have I
contacted the registry to say, “Go get it”?
Q Right.
A No.
At that point I would contact the
organization myself.
Q Fair enough. But on top of that, I’m generally
asking, you’ve noticed over your tenureship that
Schedule Bs are missing from form 990s?
A Yes.
Q And many times that’s the case?
A Well -Q I think you already answered that.
A Not all charities are required to file Schedule
B, so I don’t know -- always know if it’s missing or
just not required.
Q But if it’s even for non-PF, regular charities
that file form 990s, you’ve noticed missing Schedule
Bs, fair?
A Yes.
Q You have been there a long time, and you’ve
noticed it, and you’ve been the auditor, but you never
told the registry, the attorney general or even the
deputy attorney general, “I noticed these are
missing. We need to make sure we are getting them

405
so I can successfully audit these charities,” you have
never said that, right?
A The registry’s goal is to collect the 990 and the
schedules that are required to be attached to it. I -Q Mr. Bauman, I think that’s a yes-or-no
question.
A I assume they’re doing their job. I have not
contacted them to say, “You need to go get Schedule
Bs on every organization.”
Q Now, you did mention a moment ago that you
contact charities after you do an investigation to ask
for documents, and you spoke about that on direct,
correct?
A Correct.
Q Okay. It’s true -- well, let me ask this: Has
there ever been an instance where you asked a
charity for their form 990 and they refused to provide
it?
A Not that I recall.
Q Has there ever been an instance where you
asked for a Schedule B and it was refused to be
provided?
A There is one case we are currently working
that I’m involved in where we’ve asked for a
Schedule B. There wasn’t one attached, and we
weren’t provided it. I don’t know if it’s because it
doesn’t exist or they wouldn’t give it to us, but they
said, “We don’t have a Schedule B to give you.”
Q So you don’t even know if there is an actual
Schedule B to be had?
A Correct.

406
Q My question is: Do you know of an instance
where there is a Schedule B out there, you have
asked for it, and it hasn’t come back?
A No.
Q You aren’t aware of that happening.
It is also true in this audit process, Mr. Bauman,
that it is the general practice of your team to send an
audit letter very early on in the process to obtain
documents; isn’t that true?
A Yes.
MR. FORST: Your Honor, no further questions.
THE COURT: Redirect?
MR. CALIA: I don’t have any further questions,
Your Honor.
THE COURT: I beg pardon?
MR. CALIA: I don’t have any further questions,
Your Honor.
THE COURT: All right. Mr. Bauman, what
information did you get in the case where you used -where you used Schedule B?
THE WITNESS: The case that I was involved in
where we used Schedule B, we were able to
determine that the corporation who was connected to
and funding a for-profit had given funds to the
foundation but were not the sole contributor. And
funds that the foundation was using for the benefit of
the for-profit corporation, it was also public funds
that were benefiting the for-profit corporation.
THE COURT: What information did you get -THE WITNESS: The --

407
THE COURT: -- from the Schedule B?
THE WITNESS: How much funds the corporation
was giving to the nonprofit.
THE COURT: And could the
organization give you that information?

nonprofit

THE WITNESS: They could.
THE COURT: Couldn’t they be asked, “How much
did you get from X, Y or Z?”
THE WITNESS: Yes, it’s more effective and
efficient -THE COURT: What happens in the ones where
Schedule B was not worked, was not used?
THE WITNESS: In cases that we have -THE COURT: In the ones that you had where
Schedule B was not used, where did you get the
information that you talked about just now?
THE WITNESS: From the charity.
THE COURT: From the charity itself?
THE WITNESS: Correct.
THE COURT: All right. So you do not need a
Schedule B to get that information, do you?
THE WITNESS: It makes it more efficient -THE COURT: No, I asked you a question. Read
the question to the witness.
(Record read.)
THE WITNESS: To get it up front, I believe we
do.

408
THE COURT: Counsel -- I mean, Mr. Bauman,
don’t play games with me.
Now, answer the
question.
THE WITNESS: Can you reread it, please?
(Record read.)
THE WITNESS: No.
THE COURT: All right. Thank you. You may
step down.

409
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Reporter’s Transcript Of Proceedings
Trial Day Six
Excerpts from the Trial Testimony of Tania Ibanez
March 4, 2016

*

*

*

[Day Six: Page 32]
[THE COURT]: Call your next witness.
MS. GORDON: With the Court’s permission, the
Court calls Tania Ibanez.
THE COURTROOM DEPUTY: Stop right there.
Please raise your right hand.
TANIA MELANIE DOLORES IBANEZ,
DEFENSE WITNESS, WAS SWORN

410
THE WITNESS: I do.
THE COURTROOM
Please take a seat.

DEPUTY:

Thank

you.

And this is your exhibit binder.
THE WITNESS: Thank you.
THE COURT: All right.
MS. GORDON: I’m sorry. Did Ms. Ibanez state
her . . . .
*

*

*

[Day Six: Page 37]
BY MS. GORDON:
Q All right. Ms. Ibanez, can you just tell us how
many lawyers and auditors you have working for
you, please.
A I have ten lawyers, two supervisors, seven
auditors, one supervising auditor, two paralegal and
myself. That’s 23 people. And we do enforcement
over a hundred thousand charities that are
registered in the state of California.
Q So 23 lawyers and auditors. So just for a
sense of scale, do you know how many lawyers there
are in the department -- California Department of
Justice, generally?
A A thousand, give or take.
Q Okay. So you mentioned, and I want to focus
on your investigative and litigation focus
investigating charities, who decides what charities
the charitable trust section is going to investigate or
prosecute?
A I do, and the supervisors do.

411
Q And once you decide, what is the process?
A Before we decide whether even to investigate,
I or one of the supervisors will look at the complaint
that came in. We will read it very carefully. We will
look to see if the charity is registered with us, and we
will look at their 990 and any schedules attached to
the 990. Then if we decide based on the 990 and the
complaint it gets assigned, it gets assigned to an
attorney and an auditor.
Q And what happens after that?
A Then they conduct an investigation. They will
send out an audit letter.
Q Can you sort of take us through the process
quickly what happens after that?
A Well, no one really wants to get an audit
letter, but when you do get an audit letter, it will ask
for anywhere between 15 items of information to 52.
The last audit letter I reviewed contained 52
separate items of information requests, and it
covered four years of information. And we typically
ask for everything from minutes, board resolutions,
bylaws, all of their filings.
We will ask for credit card statements, bank
statements. We will ask them to justify how they
listed numbers in their 990s. We will ask them
information about gift in kind they might have
received, what have you.
It depends on the
complaint and what we see in the form 990 and then
in the schedules and how we are going to draft the
audit letter.
THE COURT: Counsel.
MS. GORDON: Sorry. Yes, Your Honor.

412
THE COURT: Very interesting, it’s very, very
interesting, but it has nothing to do with this case.
Let’s get to this case.
MS. GORDON: I will move along, Your Honor.
Q So you mentioned that you can send an audit
letter, and you mentioned that no one wants to
receive an audit letter. Can you tell me a little bit
about the process of an audit.
A Usually audits will take place -- we will give
the charity typically 30 days to respond. 99.9
percent of the time they want more time. So sending
an audit letter is time-consuming. An audit can take
anywhere from one year to four years depending how
cooperative the charity is being in responding to the
audit letter.
Q Ms. Ibanez, can you get a Schedule B through
an audit letter?
A There would be no reason to do so because we
already have it.
Q What if you don’t have it?
A You could get it through an audit letter, but
like I said, we usually have it. The charities will file
it with us.
Q Okay. But my question is this: Why not just
wait and send an audit letter to a charity when you
need their Schedule B?
A Because it’s time-consuming, and you are
tipping the charity off that they are about to be
audited. . . .
*
[Day Six: Page 52]

*

*

413
Q Ms. Ibanez, if we could just briefly go back to
your use of Schedule B. Have you personally used
Schedule B during the course of your career in
charitable trusts?
A All the time.
Q And how have you used Schedule B during the
course of your career?
A I have used Schedule B to decide whether or
not we should even commence an investigation based
on a complaint that we might have received.
Q How does Schedule B aid you in that
determination?
MR. SHAFFER: Objection, Your Honor. I think –
THE COURT: The objection is sustained.
BY MS. GORDON:
Q Are there other ways that you have used
Schedule B, Ms. Ibanez?
A Yes. I have used Schedule B to evaluate
whether a charity should be investigated for a
certain area.
MR. SHAFFER: Your Honor, we would ask that
this witness be limited to specifics and the specifics
that we had the benefit of during discovery.
THE COURT: The objection is sustained.
*

*

*

[Day Six: Page 53]
Q Ms.
Ibanez,
and
limiting
to
your
understanding of what has been produced to plaintiff
in discovery, could you please identify instances

414
where you personally used Schedule B to do your job
in charitable trusts.
A Okay. I used Schedule B in filing a lawsuit
called People Versus LB Research Fund.
Q Could you tell us about that case, please.
A Yes. We learned that a doctor who had
invented a patch for the heart had donated a
significant amount of money to a charity, a private
foundation, and he then used the charity basically as
a bypass. So he would donate money to his charity,
get the tax deduction, then have the charity donate
money to UCLA.
And he was going to have UCLA basically do a
chairperson position that he was then going to apply
and use the funds for his research. He also used the
charity’s money to pay for companies that he started
with his cousin to support his research. He used
funds to create videotapes, DVDs, medical pictures,
anatomical heart models. And all of this showed to
us that he was using donations that he made to his
private foundation for self-dealing purposes.
Another example that -Q Actually, can I stop you for a minute?
A Okay.
Q Can you explain how was
uncovering what you just described?

B

used

in

A Well, B was used in uncovering, number one,
his donations to the charity, and we compared that to
how was the charity using the money? What were
the programs that the charities were supported?
Who were the recipients of the funds?

415
A perfect example on the LB also was LB
Research in the Schedule B showed a donation from
the Pritikin Foundation. And then within a year or
two, the Pritikin -- the LB Foundation ended up
giving a donation to support the research of Dr.
Bernard, who was associated with the Pritikin
foundation.
Another example is the Schedule B showed a
donation by Dr. Paglia of $25,000. Within the same
990, we showed that $25,000 went to Dr. Paglia’s
girlfriend. So they were using the charity as a
bypass, not only for private inurement, but for selfdealing.
*

*

*

[Day Six: Page 61]
[CROSS-EXAMINATION]
[BY MR. SHAFFER]
Q Isn’t it true that those suspicions -A I said “no.”
Q I am asking you if you had suspicions that
they would persist following the conclusion of this
litigation.
A I’m sorry, what was the question?
Q Any suspicions you may, I understand you are
saying “no,” but they would persist following the
conclusion of this litigation?
A I don’t think I made a determination.
Q Well, let me ask you, Ms. Ibanez, you do recall
giving a deposition in this matter, didn’t you?
A I sure do.

416
Q And you recall me taking that deposition?
A I sure do.
Q You recall there being a transcript?
A I do.
Q And you recall it was videotaped, don’t you?
A I do.
MR. SHAFFER: With the Court’s permission,
Your Honor, I would respectfully play from the
deposition transcript of Ms. Ibanez, page 208, line
24, to page 210, line 21.
(Videotape played in open court.)
BY MR. SCHAFFER:
Q Do you recall giving that testimony, Ms.
Ibanez?
A Yes, I do.
Q Was there anything wrong with the recording?
Was that an accurate reflection of the questions I
asked and the answers you provided?
A I don’t believe my testimony was inconsistent
with what I am telling you here today.
Q I am just asking what we just saw and what
we just heard, I just want to make sure that is an
accurate recording of your testimony.
A Yes, Counsel.
Q Let me make sure I understood your testimony
on direct correctly, because I think the one example
you gave us of how you personally used Schedule B
in reference to a specific charity and a specific
investigation was about LB Research; is that correct?
A That is correct.

417
Q And I think you used the word -- you said the
Schedule B enabled you to uncover the fraud in that
case.
A Yes, it did.
*

*

*

[Day Six: Page 68]
Q But it would have mattered to you, and you
would have noticed if the registry’s lack of
enforcement for requiring the Schedule Bs had
affected the bottom line of your investigations, right?
A Correct.
Q In your experience the things that have
precipitated investigations are media reports and
complaints, correct?
A Sorry. Yes.
Q A Schedule B – I’m sorry.
A You didn’t let me finish. Sorry.
We do get complaints through media. We get
complaints from various different sources, and
sometimes we get complaints from our own staff who
are solicited at home, so yes.
Q A Schedule B has never precipitated an
investigation of a charity in that same sense, has it?
A Yes.
Q Okay.
A You’re correct.
Q Thank you.
And you don’t ever undertake an investigation of
a particular charity because of a Schedule B, do you?

418
A I would not undertake an investigation solely
because of a Schedule B.
Q Well, you can’t recall any instance, can you,
where a Schedule B was used to identify a possible
wrongdoing and refer a suspect charity to other state
or law enforcement agency?
A No, I would not do that necessarily because
that’s what we’re here for.
Q I think you testified that the attorney general,
as part of the routine process, if you have a concern
about a charity, you send an audit letter, right? That
happens first thing?
A Yes.
Q And you could also issue an administrative
subpoena, couldn’t you?
A You could if you wanted to go through the
steps to do that.
Q There would be separate steps. There would
be a separate process in order to undertake the
administrative subpoena, wouldn’t there be?
A Yes. It is a little bit onerous because you have
to get approval from various sources. You have to
get approval not only from the senior assistant, but
also from the chief assistant. And if you are doing a
delegation of authority under Government Code
1187, you have to go all the way to the AG. So there
is more delay factor if you are going to do an
administrative subpoena.
Q Now, I thought I heard you refer on direct of
the possibility that the charity would be tipped off by
early issuance of an audit letter.
A Yes, that’s a strong possibility.

419
Q Well, a strong possibility that it is, Ms. Ibanez.
Isn’t it true that you know of no instance of
requesting a Schedule B from a charity at the outset
or during the courses of an investigation or audit,
frustrated or undermined the ensuing investigation
or audit?
A I’m sorry, that was really long. Can you read
it back to me?
Q Tell me if I am right or wrong about the
following: You know of no instance where requesting
a Schedule B from a charity at the outset or during
the course of an investigation or audit, frustrated or
undermined the ensuing investigation or audit?
A I know of no instance because I have never
had to ask a Schedule B of a charity during any of
my investigations. I already had them -Q You -A -- from the registry.
Q You know of no instance where a request for a
Schedule B tipped anyone off, right?
A I am not aware of any scenarios such as that.
Q You are aware of what other states do with
respect to Schedule Bs, aren’t you?
A I have become aware of that.
Q Well, in becoming aware of that, you have
become aware that most other states do not require
the filing of a Schedule B by registered charities?
A That is correct.
Q And the only states that -- the only other
states that you know of, apart from California, that

420
demand filing Schedule Bs are Hawaii and New
York, those two, correct?
A Yes. I believe we are in good company.
Q Good company with those two.
states, right?

It’s three

A Three states that are very
enforcement, and proud to be part of it.

active

in

You don’t know of any improvements in
California’s performance of its regulatory function as
compared to other states that do not require a
Schedule B, right?
A I don’t track that.
Q And what other states are doing just isn’t part
of your calculus, correct?
A I’m not -- that is true. I don’t care to follow
other states. I think California should be a leader,
and California is a leader.
Q Am I also correct that your office has never
considered any alternative to an across-the-board
demand for Schedule Bs?
A We have not.
MR. SHAFFER: In fact, if I could just pass to the
witness a binder -Q I’m sorry, you do have a binder up there, Ms.
Ibanez.
A Yes.
Q Could I ask you to turn, please, to what’s
marked there as TX15.
(Exhibit TX15 for identification.)
BY MR. SHAFFER:

421
Q Do you have that in front of you, Ms. Ibanez?
A I do.
Q And it’s marked “Responses and Objections of
Defendant Attorney General Kamala Harris to
Plaintiff Americans for Prosperity Foundation First
Set of Interrogatories.”
A I do.
Q If you turn to page 21 of that -A Uh-huh.
Q -- you see Interrogatory No. 9 and then a
response.
A Yes, I see that.
Q Do you see in the last sentence on that page -let me just read it to you where it says, “Defendant is
not aware of any alternative to the Schedule B
submission requirement that may have been
considered during the many years it has been in
place”?
A Yes.
Q You can attest that that’s accurate, correct?
A I do. I see no reason to change what we’ve
been doing.
MR. SHAFFER: And, Your Honor, we haven’t
moved into evidence yet the interrogatory responses.
We would now do that. This is TX15.
MS. GORDON: We have no objection, Your
Honor.
THE COURT: TX15 in evidence.
(Exhibit TX15 received.)
BY MR. SHAFFER:

422
Q So when we talk about your calculus, Ms.
Ibanez, other potential alternatives to enforcing an
across-the-board demand for all charities to provide
their Schedule Bs, that’s just not part of your
calculus, correct?
A No, I don’t think that asking charities that are
required to file Schedule B is an onerous task to do.
Q Well -A They are only required to file it with the IRS,
and we feel entitled to get the documents as well.
Q Now, in your two years supervising the
registrar, you have never received, have you, a report
from the registry as to how often the Schedule Bs
were inadvertently slated for uploading to the
registry’s website because they have not been
processed correctly?
A I don’t recall getting any reports under Kevis
Foley’s tenure. I did get reports during Dave Eller’s
tenure.
Q Did you ever request such reports during
Kevis Foley’s tenure?
A I did not.
Q Did you ever undertake to ascertain what the
number or frequency or percentage was of instances
in which confidential Schedule Bs were being
improperly uploaded to the website?
A I don’t recall doing that.
Q Am I right, Ms. Ibanez, that in your view, an
inadvertent disclosure of a Schedule B would not
constitute a breach of confidentiality surrounding
that Schedule B?

423
A That was my interpretation of the Civil Code.
Q In fact, that’s your interpretation today, isn’t
it?
A Yes, it is.
Q So just to be clear -A I stand by that interpretation.
Q -- if every confidential Schedule B ever
obtained by the registry were inadvertently uploaded
for public access via links and publicly downloaded,
there would have been no breach of the
confidentiality policy as you understand it and
implement that policy, correct?
A No, because we do have a confidentiality
policy.
Q That’s not my question.
A I know it’s not.
THE COURT: Well, then, answer the question,
please.
THE WITNESS: It’s not a breach because we’re
not breaching it.
BY MR. SHAFFER:
Q Understood.
And you are the one who sits atop, the registrar,
don’t you, of the Registry of Charitable Trusts?
A Yes, I’m in charge. I take full responsibility.
We have a confidentiality policy.
Q And ultimately you are the decision-maker
about
day-to-day
implementation
of
that
confidentiality policy?
A That is correct.

424
Q You testified that before this litigation you
were aware of only one instance -A Yes.
Q -- in which a
inadvertently uploaded.

Schedule

B

had

been

A Correct.
Q You are aware that the attorney general in
this case submitted to the Ninth Circuit as of July
2014 that “The fact remains that Schedule B
information is kept confidential, and there is no
evidence to suggest that any inadvertent disclosure
has occurred”? You are aware that the attorney
general made that submission to the Ninth Circuit
Court of appeals?
A Yes.
Q Do you consider that to have been accurate?
A It was at the time.
Q It was at the time.
*

*

*

[Day Six: Page 83]
Q Very well. If it works for you, Ms. Ibanez, it
works for me.
Looking at the screen, do you recognize this email thread as one in which it was being reported to
you or you were having confirmation about the fact
that the lawyer for Asians Americans -- Asian
Americans Advancing Justice had reported a
confidential Schedule B being publicly accessible via
the registry’s website?
A Can you scroll down to the very beginning,
please?

425
Is that it? Okay.
I believe this is the same individual.
Q And if you look at the top, am I correct that
the first e-mail is dated April 11, 2014, the one at the
top, the concluding e-mail in the thread?
A Yes.
Q And that’s Ms. Kim e-mailing the attorney for
Asian Americans Advancing Justice?
A Yes.
Q Bill Hou, correct?
A Yes. And she blind-copied me on that e-mail.
Q Correct.
And you recall receiving that e-mail?
A I know I did because I’m on it. But do I recall
it specifically? No. I’m sure I did.
Q And you’re sure because you did come away
with this with a specific understanding that the
Schedule B -- the confidential Schedule B for Asian
Americans Advancing Justice had been inadvertently
uploaded and made public on the registry’s website,
correct?
A That’s -- that is correct. At some point in time,
Mr. Hou advised us that his client’s Schedule B was
inadvertently made available for public viewing if
somebody wanted to research his charity.
Q Well, in fact, if you look further down, I think
you will see there is an October 9th, 2013 e-mail
from Mr. Hou. I am looking now at -- I think it’s the
third page of that document.

426
A I don’t have an October. I don’t know what
you’re talking about.
Q So there are Bates numbers at the bottom
right, and this one has TX1960003 on there.
A Yes.
Q You see that?
A I do. Thank you.
Q Am I correct that’s an e-mail dated October 9,
2013?
A It looks like, yes, he did send an e-mail to Ms.
Kim on October 9, 2013.
Q Okay. And do you see, if you look further
down, this is now on the Bates number that ends
0004, the ensuing page, do you see how he is
reporting that “Some years ago the registry had
posted the confidential version” -A Yes.
Q -- “of my client’s Schedule B on your public
website and remained available for anyone to access
to see the names and addresses of the client’s
funding sources”?
A That’s what it says, yes.
Q Do you agree with me that no later than April
2013, when Ms. Kim was copying you on her e-mail,
at the top of this e-mail thread, you were aware of
this inadvertent disclosure of a confidential Schedule
B?
A You mean April 9, 2014.
Q Sorry. I appreciate that. I meant to say April
9, 2014.

427
A I would have known that at the time on April
11, 2014 or earlier because I instructed Ms. Kim to
please contact him.
Q So you probably knew about that back in 2013
at some point?
A I don’t know. I don’t know if I found out about
this incident in October of 2013 or if I found out
about it in April of 2014 when Elizabeth told me
about the e-mail.
Q But somewhere between those two dates you
did?
A Yes.
Q Could you please turn now to what’s been
marked as Exhibit 215. 215, I believe that’s in your
binder as well.
(Exhibit 215 for identification.)
THE WITNESS: Yes.
BY MR. SHAFFER:
Q Do you recognize this as the answering brief of
appellee, that is the defendant in this case, Kamala
Harris, in the lawsuit brought by Center for
Competitive Politics -A Yes.
Q -- filed with the Ninth Circuit?
A That’s what it says.
Q Okay. If you turn now to what’s page 45 of
that exhibit.
A Yes.
Q You see that the date on which this was
submitted was July 8, 2014?

428
A Yes.
Q Would you agree with me that July 8 is after
August 2014 – I’m sorry, is after April -- I wouldn’t
have been – is after April of 2014?
A Yes, I would agree.
Q Okay. Now, if you turn to page 32 of the
exhibit, carrying over to -- and this is marked only
for identification purposes right now. You see a
carryover that goes from page 32 to 33? And I will
just read it to you.
Are you there, Ms. Ibanez?
A Yes.
Q You see where the attorney general submitted,
“Although plaintiff states that there is no guarantee
that the registry will always keep Schedule B
information confidential and that there are reasons
to question current procedures, the fact remains that
the information is” -- emphasis on the “is” – “is kept
confidential, and there is no evidence to suggest that
any inadvertent disclosure has occurred or will
occur”? Do you see that?
A I do.
Q Do you believe that that representation was
accurate or inaccurate when submitted to the Ninth
Circuit?
A I think that this is a pleading. Judging by the
date of the pleading, I don’t know that I reviewed it
because I was undergoing chemotherapy for breast
cancer, so I was not intimately involved in drafting
the pleading. But as you have shown, it appears that
on one occasion we were aware that the registry had
inadvertently disclosed a Schedule B for the Asian

429
American -- Asian American -- whatever this
organization is.
Q So if I can please bring you back to my specific
question -A Yes.
Q -- which is whether this sentence that we have
just read into the record was accurate or inaccurate
when submitted to the Ninth Circuit by the attorney
general.
A It appears to be incomplete, so in that respect
you’re right, it’s not accurate.
*

*

*

[Day Six: Page 90]
Q So no one in your office has ever been held
personally accountable for disclosing a confidential
Schedule B; isn’t that true?
A Yes, that’s true because I am not aware of any
deliberate disclosures of Schedule B or any
confidential documents.
*

*

*

[Day Six: Page 95]
MR. SHAFFER: Well, I would ask that we put up
on the screen, it’s just a statute, Your Honor,
1798.24. We don’t need to move it into evidence. It’s
been marked for identification purposes as number
721.
(Exhibit 721 for identification.)
BY MR. SHAFFER:

430
Q Now, Ms. Ibanez, you can also find it in your
binder, so it would be easier to view as opposed to
being on the screen.
A Okay.
Q Do you have that in front of you?
A I do.
Q Is it fair to say that what this provision says is
that an agency shall not disclose the relevant
personal information, which you understand to
encompass Schedule Bs, in a manner that would link
the information disclosed to the individual to whom
it pertains unless, and then it provides certain
exceptions?
A Yes, that’s what the code says.
Q Okay.
Do you see how under “E” such
information could be disclosed to another person or
agency, quote -- this is in “E” in the first sentence,
“For the transferee agency to perform its
constitutional or statutory duty”? Is that what it
says?
A That’s what it says.
Q Do you see under “F,” “To a governmental
entity when required by state or federal law”?
A Yes.
Q You see under “G” where it could be pursuant
to the California Public Records Act?
A Yes.
Q Do you see where under “I,” it could go to the
state archives as a record that has sufficient,
historical or other value?
A That’s what it says.

431
Q Do you see where under “L” it could go to any
person pursuant to a search warrant?
A Yes.
Q Do you see where under “O,” it could go to a
law enforcement or regulatory agency when required
for an investigation of unlawful activity or for
licensing, certification or regulatory purposes?
A Yes.
Q Do you see where under “T” it could go to the
University of California, a nonprofit educational
institution, or in the case of educational data,
another nonprofit entity conducting scientific
research?
A Yes.
Q All of those are operative exceptions today,
aren’t they, Ms. Ibanez?
A Yes.
BY MR. SHAFFER: No further questions, Your
Honor.
THE COURT: Redirect?
MR. SHAFFER: I have nothing further, Your
Honor.
THE COURT: All right. Ms. Ibanez, do you
believe that donors to charitable matters have a
right to privacy of their name and their money?
THE WITNESS: Yes, Your Honor. And I believe
we’re doing everything we can to ensure that.
THE COURT:
question.

Well,

no, that answers the

432
And do you know that that right is the right to
privacy is then being violated if the information that
is private to the individual is disclosed?
THE WITNESS: I don’t have any evidence, Your
Honor, that it’s being disclosed.
*

*

*

[Day Six: Page 99]
[THE COURT]: For what purpose did you or do
you use Schedule B? What’s the purpose of the use
of Schedule B?
THE WITNESS: We use Schedule B for our
investigation. We use it to decide whether or not we
are going to open an investigation, and we use it also
to evaluate how we are going to approach an audit.
We use it to investigate fraud.
THE COURT: The purpose of -- what is the
purpose of the use of Schedule B?
THE WITNESS: Well, I can only tell you -THE COURT: You don’t get Schedule B before
you start the investigation, do you?
THE WITNESS: Yes, we do. The charities -- not
all charities are required to file a Schedule B, Your
Honor. Only charities that bring in a substantial
amount of money, if they have donors that donate
over $5,000 or 2 percent of gross. So there’s not that
many charities that actually have to file a Schedule
B. But the charities that are fortunate enough to
have very wealthy donors, if they are required to file
Schedule B with the IRS, we want them to file the
Schedule B with us. So we have the Schedule Bs
before we even start an investigation. Once they file
their 990 form with us with all of the schedules, we

433
have those schedules, and they’re stored at the
registry.
THE COURT: What in Schedule B tells you that
you should start an investigation?
THE WITNESS: Okay.
example.

Well, here’s a perfect

THE COURT: What information in Schedule B
tells you that you should start an investigation?
THE WITNESS: Okay. And I will explain it to
you, Your Honor. Here’s a perfect example. One of
the ways we use a Schedule B is to investigate gift in
kind -THE COURT: I am not asking about the
investigation. I am asking you what in the Schedule
B tells you to make an investigation?
THE WITNESS: What we find out from the
Schedule B, Your Honor, is the name of the donor.
How much did they donate? What did they donate?
Did they donate cash, or did they make gift-in-kind
donations?
THE COURT: Isn’t it a question of whether or not
there’s a violation of the use of a charitable
foundation that starts you to think about an
investigation?
THE WITNESS: I’m not sure I understood your
question. I’m sorry.
THE COURT: Well, it’s not a Schedule B that
tells you that somebody has come forward to you and
said, “We’re being cheated.”
THE WITNESS: No, you’re right. The Schedule
B is not something that starts the investigation. It is
only --

434
THE COURT: That’s what you have been telling
me.
THE WITNESS: No. The Schedule B is only one
of the many documents that we look at. And what it
does, it allows us to gain efficiencies, and it may
highlight fraud, and it may highlight that there is
nothing wrong with a charity at all.
We might get a complaint, for example, Your
Honor, that the charity is being run by a donor, and
that the donor is controlling how the charity’s going
to operate, and that the donor is funding the
charity’s research, travel, conferences. We will look
at the Schedule B. And if we see that the donor’s not
even listed on the Schedule B, that will tell us that
the complaint lacks merit.
THE COURT: What in the Schedule B tells you
that somebody has said, “I’m being cheated by this
charitable organization”?
THE WITNESS: When we see on the Schedule B
that there are millions and millions and millions of
dollars donated in gift in kind, that is always a very
serious red flag that donors are being cheated.
THE COURT: That’s not answering. Give her the
question again.
*

*

*

[Day Six: Page 104]
THE COURT: How much work is there to get
donors’ names and amounts of their donation from
the charitable trust foundation itself?
THE WITNESS: Well, because they’re filing it
with us, there is no work.

435
THE COURT: No. How much work is there to get
donors’ names and amounts of their donation from
the charitable trust itself?
THE WITNESS: We could send an audit letter,
Your Honor.
THE COURT: Don’t you get that information at
the creation of the charitable trust?
THE WITNESS: Yes, but we have had some
challenges in the past in getting donor information
from charities as well.
They’re not always as
forthcoming as we would like.
THE COURT:
happened?

How

many

times

has

that

THE WITNESS: It happened recently, actually.
It happened -THE COURT: No.
happened?

How many times has it

THE WITNESS: At least once that I remember,
not too . . . .

436
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R
AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 7
Registration Renewal Form Instructions

439
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Case No. CV 14-9448-R

AMERICANS FOR PROSPERITY FOUNDATION,
Plaintiff,
v.
KAMALA HARRIS, in her Official Capacity as the
Attorney General of California,
Defendant.
Trial Exhibit No. 140
Plaintiff’s Chart Regarding Aggregate Data

440
[Page intentionally left blank]

